<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 2019 AND THE FUTURE YEARS DEFENSE PROGRAM.</title>
<body><pre>[Senate Hearing 115-674, Part 2]
[From the U.S. Government Publishing Office]


                                                S. Hrg. 115-674, Pt. 2

 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2987

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2019 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 2

                                SEAPOWER

                                __________

                      MARCH 6, 20; APRIL 17, 2018
                      
                                __________


         Printed for the use of the Committee on Armed Services
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                  Available via: http://www.govinfo.gov         
         
                                  __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-589 PDF                  WASHINGTON : 2020                    
          
--------------------------------------------------------------------------------------        
         
 
                      COMMITTEE ON ARMED SERVICES
                      
                      
                      COMMITTEE ON ARMED SERVICES
                      
 JOHN McCAIN, Arizona, Chairman                            
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
TIM SCOTT, South Carolina              	GARY C. PETERS, Michigan
                                                          
             
                 Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff Director                     
                      
________________________________________________________________

                        Subcommittee on Seapower

  ROGER F. WICKER, Mississippi, 	MAZIE K. HIRONO, Hawaii	
             Chairman			JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas			RICHARD BLUMENTHAL, Connecticut		
MIKE ROUNDS, South Dakota		TIM KAINE, Virginia
THOM TILLIS, North Carolina		ANGUS S. KING, JR., Maine			
DAN SULLIVAN, Alaska
TIM SCOTT, South Carolina            
                                     
                                    
                                     
                                  (ii)


                           C O N T E N T S

_________________________________________________________________

                             March 6, 2018

                                                                   Page

Navy and Marine Corps Aviation Programs..........................     1

Grosklags, Vice Admiral Paul A., USN, Commander, Naval Air            4
  Systems Command.

Addendum A.......................................................    15

Questions for the Record.........................................    46

                             March 20, 2018

Marine Corps Ground Modernization................................    73

Walsh, Lieutenant General Robert S., USMC, Deputy Commandant for     77
  Combat Development and Integration; Commanding General, Marine 
  Corps Combat Development Command; and Commander, United States 
  Marine Forces Strategic Command.
Smith, Jimmy D., Deputy Assistant Secretary of the Navy for          78
  Expeditionary Programs and Logistics Management.

Questions for the Record.........................................   102

                             April 17, 2018

Navy Shipbuilding Programs.......................................   105

Geurts, The Honorable James F., Assistant Secretary of the Navy     109
  for Research, Development, and Acquisition; Accompanied by Vice 
  Admiral William R. Merz, USN, Deputy Chief of Naval Operations 
  for Warfare Systems (OPNAV N9); Lieutenant General Robert S. 
  Walsh, USMC, Deputy Commandant for Combat Development and 
  Integration, Commanding General, Marine Corps Combat 
  Development Command, and Commander, United States Marine Forces 
  Strategic Command.

                                 (iii)


 
 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM.

                              ----------                              


                         TUESDAY, MARCH 6, 2018

                      United States Senate,
                          Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                NAVY AND MARINE CORPS AVIATION PROGRAMS

    The Subcommittee met, pursuant to notice, at 2:31 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Roger F. 
Wicker (chairman of the Subcommittee) presiding.
    Subcommittee Members present: Senators Wicker, Cotton, 
Rounds, Tillis, Sullivan, Hirono, Blumenthal, Kaine, and King.

          OPENING STATEMENT OF SENATOR ROGER F. WICKER

    Senator Wicker. This hearing will come to order.
    The Senate Armed Services Subcommittee on Seapower meets 
this afternoon to examine Navy and Marine Corps aviation 
programs.
    Our Subcommittee welcomes three distinguished witnesses: 
Vice Admiral Paul A. Grosklags, Commander of Naval Air Systems 
Command; Lieutenant General Steven Rudder, Deputy Commandant 
for Marine Corps Aviation; and Rear Admiral Scott Conn, 
Director of Air Warfare at the Department of the Navy.
    Our Subcommittee is grateful to each of you gentlemen for 
your service to our nation.
    I would like to offer a special welcome to Admiral Conn and 
General Rudder who are testifying to this Subcommittee for the 
first time. And there is speculation, Vice Admiral Grosklags, 
that you are testifying before the Subcommittee for the last 
time. Is that correct?
    Vice Admiral Grosklags. There is a rumor, sir.
    Senator Wicker. There is a rumor to that effect. Well, we 
will see about that.
    Last year Subcommittee hearings on naval aviation programs 
were productive. Since then, the Department of Defense has 
articulated a bold, new National Defense Strategy. In 
particular, the NDS focuses on preparing for long-term security 
challenges, notably the ability to wage high-end fights against 
near-peer competitors such as China and Russia. I look forward 
to hearing how Navy and Marine Corps aviation will meet the 
direction of this new strategy.
    Years of continuous combat operations and inadequate 
funding have put the Navy and Marine Corps aviation into a hole 
from which they are only now beginning to recover. Congress 
shares the blame, but we are beginning to turn things around. 
The 2-year budget agreement signed by President Trump in 
February will help provide much needed stability and relief. In 
a matter of weeks, Congress should take the next by ending the 
cycle of continuing resolutions with an fiscal year 2018 
appropriation bill that funds the Department of Defense at much 
higher levels. DOD's [Department of Defense] fiscal year 2019 
budget request also matches the fiscal year 2019 level set by 
the budget agreement.
    Our witnesses should address how the budget helps restore 
full spectrum readiness and supports modernization. Secretary 
Mattis, Secretary Spencer, and General Neller have stated that 
improving readiness should occur simultaneously with efforts to 
modernize forces for future challenges.
    This afternoon, our Subcommittee will examine five key 
areas relating to Navy and Marine Corps aviation programs.
    First, physiological episodes. The Subcommittee remains 
deeply concerned by the continued occurrence of physiological 
episodes within the military aviation community. We recognize 
naval aviation's mitigation efforts particularly in the T-45 
trainer aircraft, but we remain frustrated by the overall pace 
of progress. The Subcommittee is eager to understand how the 
Navy and Marine Corps are handling the continuing problem and 
how the President's Budget request advances efforts to discover 
root causes while implementing mitigations and solutions. The 
safety of our Navy and Marine Corps aviators is of course 
paramount.
    Next, aircraft readiness. The Navy and Marine Corps 
continue to fall short in the required number of ready basic 
aircraft. Witnesses should outline the steps the Navy and 
Marine Corps are taking to arrest and reverse the decline in 
aircraft readiness.
    Next, strike fighter shortfall. Our Subcommittee would also 
like to learn more about gaps in the Navy fighter fleet and the 
Navy's plans to close them, including through legacy Hornet 
retirement, new Super Hornet procurement, and preparations for 
the service life extension program for existing Super Hornets.
    Next, joint strike fighter operations. The Subcommittee 
also wants to understand the development and operations of the 
F-35B and F-35C joint strike fighter. Last year, the Green 
Knights of VMFA [Marine Fighter Atlantic Squadron] 121 
permanently changed their home station to Iwakuni, Japan and 
just completed the first F-35 shipboard deployment. The Joint 
Program Office is currently revamping its plan for F-35 
modernization and is examining how to make the sustainment of 
the aircraft affordable. The Subcommittee looks forward to 
hearing an update on the F-35 operations and the challenges 
associated with modernization and sustainment.
    And then finally, munitions shortfall. Our Subcommittee 
would like an update on the status of the Navy and Marine 
Corps? air-launched munitions inventories. We remain concerned 
that inventories of many of our weapons are critically low. At 
the same time, technological advances by our potential 
adversaries require us to modernize our munitions to remain 
relevant. The Subcommittee needs to understand if we have 
enough munitions and, more importantly, if we have enough of 
the munitions required to fulfill the National Defense Strategy 
to be prepared for the high-end fight.
    So a lot to talk about, and once again, I want to thank our 
witnesses for their service and for appearing before us today.
    I am delighted to recognize at this point our ranking 
Member and my teammate in this regard, Senator Hirono.

              STATEMENT OF SENATOR MAZIE K. HIRONO

    Senator Hirono. Thank you, Mr. Chairman.
    Welcome to our witnesses. Thank you all for your service.
    In today's discussion, we will examine how the Department 
of the Navy's fiscal year 2019 budget request for Navy and 
Marine Corps aviation programs would help increase readiness, 
address shortfalls in munitions, pilots and maintenance 
personnel, and modernize our maritime strike and expeditionary 
power projection capability, all of which have already been 
mentioned by the chairman.
    Navy and Marine Corps aviation programs play a critical 
role in supporting and advancing our country's strategic 
interests in the Indo-Asia-Pacific region, including from bases 
in Hawaii. We face a number of complex threats around the 
world, and we need to consider the best way to get the Navy and 
Marine Corps the resources they need to confront these threats. 
At the same time, it is critical that any increase in these 
resources does not come at the expense of important domestic 
programs that families, including our military families, rely 
on every day.
    In this request, the administration has submitted a budget 
that is consistent with the top line agreement for fiscal year 
2019. As we meet today, we still do not have a final 
appropriation for fiscal year 2018. This is unacceptable, and 
we need to return to a more normal appropriations schedule and 
process.
    As we consider the 2019 budget, we also need to consider 
the significant challenges we face in naval aviation. In 
particular, we need to hear more about how the new National 
Defense Strategy will impact the Department of the Navy's 
aviation programs.
    Navy and Marine Corps pilots have been experiencing 
problems with the environmental control system in certain 
aircraft, mainly F-18's and T-45's, that have resulted in what 
is referred to as physiological episodes, also referred to by 
the chairman.
    In recent years, naval aviation has been challenged to meet 
current demands by a high operational tempo and uncertainty in 
the fiscal environment. We need to hear from the services what 
progress is being made to address these problems.
    I would also like to discuss what the Department of the 
Navy is doing to address corrosion, a significant issue that 
costs the Department $20 billion a year. I was happy to see in 
the fiscal year 2019 budget a request including a military 
construction for a $66 million corrosion control hangar at 
Marine Corps Air Station Kaneohe Bay. I will continue to 
support efforts to help prevent and treat corrosion to mitigate 
its impact on the readiness of our forces.
    This hearing will also provide a chance to discuss some of 
the ongoing issues in the F-35 program, particularly how 
testing is proceeding and the timing of the Navy's initial 
operating capability declaration. I am also interested in 
learning more about how the Navy and Marine Corps view the F-35 
Joint Program Office's plans to modernize the F-35 fleets.
    At a time when we face a major shortfall in the Navy's 
strike fighter inventory, I would like an update on any 
progress the Navy is making to address this situation. A few 
years ago the Navy responded to forecasts of a shortage of 
almost 200 aircraft by trying to better manage the remaining 
life of the existing aircraft. They have done this by 
redistributing aircraft within the force, designing a series of 
maintenance and rehabilitation measures, including a service 
life extension program, or SLEP [Service Life Extension 
Program], for older aircraft and buying new F-18 aircraft. The 
Navy has predicted that SLEP would lead to significant 
improvements in its ability to support operating forces, such 
as aircraft carrier squadrons and Marine Corps squadrons, for 
several years.
    This year, however, the Navy is still having difficulty 
moving F-18 aircraft through the SLEP lines, which means that 
fleet squadrons are having to make do with fewer aircraft. This 
puts a strain on the whole system. We need some clarity about 
what actions the Navy is taking to improve the situation.
    I would also like to hear about the investments the Navy 
and Marine Corps are making in training and maintenance 
operations.
    Thank you again, Mr. Chairman, and I look forward to 
hearing from our witnesses.
    Senator Wicker. Thank you very much, Senator Hirono.
    We will begin with testimony from Vice Admiral Grosklags.

 STATEMENT OF VICE ADMIRAL PAUL A. GROSKLAGS, USN, COMMANDER, 
                   NAVAL AIR SYSTEMS COMMAND

    Vice Admiral Grosklags. Thank you, Mr. Chairman. The intent 
is to make a single opening statement for the entire panel.
    Senator Wicker. Well, I am glad I called on you first.
    [Laughter.]
    Vice Admiral Grosklags. Well, I could have passed it on to 
somebody else.
    [Laughter.]
    Mr. Chairman, thank you, and Ranking Member Hirono and 
distinguished Subcommittee Members. Along with myself, General 
Rudder, and Rear Admiral Conn, we appreciate the opportunity to 
be here today to talk about naval aviation and our President's 
Budget 2019 budget request.
    We believe that President's Budget 2019 budget request is 
very well aligned with and supportive of the National Defense 
Strategy. Our ability to achieve this alignment is greatly 
facilitated by the additional budget flexibility provided by 
the recent bipartisan budget agreement. The lethality which 
naval aviation brings to bear in support of our nation's 
interests will be greatly enhanced by the increased procurement 
numbers for aircraft, weapons, increased investment and 
development of new and advanced capabilities, and increased 
funding for our critical readiness and sustainment accounts. 
Our alliances and partnerships will continue to be strengthened 
through an ever-increasing number of international cooperative 
and FMS [Foreign Military Sales] programs such as P-8, Triton, 
V-22, and H-1, F-35 certainly.
    And the need to transform our business and acquisition 
processes is being directly addressed with investments in 
agile, accelerated capabilities-based acquisition, leveraging 
authorities provided by the Congress in the fiscal year 2016 
through 2018 NDAAs and investment in naval aviation sustainment 
Vision 2020, which will leverage commercial tool sets and best 
practices in making fundamental changes to the processes by 
which we plan and execute aviation sustainment activities.
    And while this is a fiscal year 2019 budget hearing, it is 
important to note that the additional funding which appears 
will be provided in the fiscal year 2018 budget is just as 
critical to our ability to align with the National Defense 
Strategy, and while this is broadly true for the entire 
Department, it is especially critical for naval aviation, 
specifically the support for additional aircraft, such as F-
18's, F-35s, V-22's, H-1's, 53 helos, P-8's, KC-130J's, 
additional weapons such as LRASM [Long-Range Anti-Ship 
Missile], Sidewinder, Harpoon block 2-plus, and additional 
funding for our critical readiness accounts, such as spares, 
depot maintenance, program-related logistics, will put us on 
the proper glide slope to National Defense Strategy alignment.
    However, it is important to note that we must get this 
funding soon for it to be most effectively utilized during this 
fiscal year, although I also note with appreciation that there 
are many Members of this Subcommittee who have requested some 
additional flexibility be provided by the appropriators in our 
execution of those dollars in fiscal year 2018.
    I would also be remiss if I did not mention the continuing 
challenge we face with physiological episodes that both of you 
mentioned in your opening statements. This remains naval 
aviation's top safety issue and has our full attention. While 
we have made clear progress in some areas, solutions to the 
broader problem still remain frustratingly illusive.
    In parallel with pursuit of root causes, we are continuing 
implementation of hardware, software, and procedural 
mitigations. We are conducting additional flight testing and 
system characterization, and following NASA's [North American 
Aerospace Agency] independent review of last year, we have a 
greatly increased focus on aircrew physiology and the 
operational environment.
    Full funding of the President's Budget 2019 PE request is 
critical to continuation of these efforts, and we will continue 
to keep the Subcommittee informed on our progress until this 
issue is resolved.
    In closing, thank you again for your efforts in reaching 
the current budget agreement and for your continuing support of 
our sailors and marines. And we look forward to answering your 
questions.
    [The joint prepared statement of Vice Admiral Grosklags, 
Lieutenant General Rudder, and Rear Admiral Conn follows:]
  Joint Prepared Statement by Vice Admiral Paul Grosklags, Lieutenant 
           General Steven Rudder and Rear Admiral Scott Conn
                              introduction
    Mr. Chairman, Ranking Member Hirono and distinguished Members of 
the Subcommittee, we thank you for the opportunity to appear before you 
today to discuss the Department of the Navy's (DON) fiscal year (FY) 
2019 aviation programs. Our budget request aligns to the current 
National Defense Strategy which identifies a more complex global 
security environment characterized by overt challenges to the current 
international order and the resurgence of long-term, strategic 
competition between nations. This request recognizes that we are 
emerging from a period of strategic atrophy that has resulted in the 
erosion of some of our competitive military advantage.
    DON aviation remains highly capable today and we are prepared to 
respond as the nation requires. The Navy-Marine Corps team provides a 
maritime strike and expeditionary power projection force that is 
continuously forward-deployed. We provide the persistent presence and 
multi-mission capabilities that represent a majority of U.S. influence 
across the global commons. To protect our Nation and support our allies 
and partners, Naval Aviation programs require your continued support. 
As we prioritize our preparedness, we request your assistance to 
improve the resilience of our current force posture, modernize key 
capabilities, and accelerate technological advancements to address new 
adversary challenges in every domain.
    Our fiscal year 2019 investments are focused, balanced and 
prioritized to deliver a ready, capable, global sea-based and 
expeditionary force. We request your support for the continued 
transition of the major components of the Carrier Air Wing (CVW), 
Expeditionary Strike Group, Amphibious Ready Group, and land-based 
Expeditionary Wings. We ask you to help us expand on the assimilation 
and teaming of manned and unmanned systems and the further integration 
of advanced platforms, sensors, networks, the electromagnetic spectrum 
and long-range strike weapons that provide the necessary military 
advantage over those challenging the global posture.
    As part of our enduring commitment to fiscal responsibility and 
accelerating delivery of advanced capabilities to the warfighter, the 
Department continues its pursuits of accelerated acquisition and 
business process reforms.
    We are maturing accelerated acquisition authorities Congress 
provided under the fiscal year 2017 National Defense Authorization Act 
(Sections 803, 804 and 806). These new measures include implementation 
of accelerated acquisition policies for Rapid Prototyping, 
Experimentation and Demonstration, establishment of Maritime 
Accelerated Capability Office programs, and the use of Rapid Deployment 
Capability processes. As part of these efforts, we are actively 
promoting innovation, government/academia partnerships, and the 
transition of key manufacturing technologies and processes with 
investments focused on affordability and those most beneficial to the 
warfighter.
    Our business reform measures include new focus on achieving full 
auditability of operations, improving financial control systems, and 
providing advanced tools to our workforce to better understand, manage 
and reduce cost. We intend to reform our business operations and 
leverage savings to improve readiness and increase the lethality and 
capacity of Naval Aviation.
    The strategic environment continues to be complex, uncertain, and 
technologically advanced; the proliferation of modern conventional and 
cyber weapons from state and non-state actors is anticipated to 
propagate as rival states and organizations attempt to contest our 
influence. With the sustained support of Congress we can begin to 
restore our competitive naval advantage, enhance global deterrence, and 
ensure Naval Aviation remains uncontested in an increasingly complex 
global security environment.
                           tactical aviation
Strike Fighter Inventory Management Overview
    The Naval Aviation Enterprise continues to actively manage strike 
fighter inventory challenges. The President's fiscal year 2019 budget 
request puts us on track to reach our desired force structure no later 
than fiscal year 2022 (est.). The key enabler will be stable, on-time 
funding over multiple years to achieve the desired results.
    The fiscal year 2019 request addresses the strike fighter shortfall 
with procurement of 20 F-35Bs, 9 F-35Cs, 24 FA-18E/F Block III Super 
Hornets and additional aircraft across the FYDP. In tandem with these 
procurements, Service Life Modification (SLM) initiatives and 
capability upgrades enhance our inventory by maintaining the tactical 
relevance of the F/A-18 E/F and legacy F/A-18 A-D aircraft.
    Based on current requirements and inventory modeling, we will 
maintain a portion of the Navy and Marine Corps F/A-18 A-D aircraft to 
meet operational requirements through the fiscal year 2030 timeframe. 
Navy will expedite its divestiture from the legacy Hornet--7 years 
ahead of schedule--with the last Navy active component squadron 
transitioning to the F/A-18E/F in 2018. As the Navy divests legacy F/A-
18 A-D, the ``best of breed'' aircraft will be transferred to the 
Marine Corps, Naval Warfare Development Center, Blue Angels, and the 
Naval Reserves. The fiscal year 2019 request will allow the DON to 
completely divest from the legacy A-D Hornets no later than the fiscal 
year 2030 timeframe.
F-35 Joint Strike Fighter
    The F-35 Lightning II will form the backbone of U.S. air combat 
superiority for decades to come. Whether the mission requires the 
execution of strike, close air support (CAS), counter air, escort, or 
electronic warfare (EW), both the F-35B and F-35C are vital to our 
future as they become the lethal cornerstone of our naval air forces. 
The Navy and Marine Corps will transition 25 squadrons over the next 10 
years as we replace our aging legacy fleet. Delivering this 
transformational capability to front-line forces as soon as possible 
remains a top priority.
    The DON is committed to reducing F-35 costs. The Department's goal 
is to reduce the flyaway cost of the Marine Corps F-35B to be no 
greater than $104 million dollars and the Navy F-35C cost to be no 
greater than $98 million dollars no later than Low Rate Initial 
Production (LRIP) Lot 14. We are also working to decrease operation and 
sustainment costs by 30 percent over current projections.
    The baseline program has delivered over 250 aircraft to test, 
operational, and training sites. The F-35 program continues to mature 
with base stand-up, sustainment of fielded aircraft and maturation of a 
global sustainment enterprise.
    The fiscal year 2019 President's Budget requests $4.2 billion in 
Aircraft Procurement funds (APN) for 20 F-35B and 9 F-35C aircraft, 
modifications and spares.
F-35 Continuous Capabilities Development and Delivery (C2D2)
    As the F-35 program looks to close Block 3F System Development and 
Demonstration, we must continue to modernize the aircraft with advanced 
capabilities to maintain the advantage over advancing adversary 
fighters and ground-based radar threats.
    Towards that end, the Department is restructuring the original 
Block 4 Follow-on Modernization acquisition strategy into a more agile 
Continuous Capabilities Development and Delivery (C2D2) model. The C2D2 
approach leverages commercial practices, develops capability in 
smaller, more easily managed increments, and accelerates delivery of 
warfighting capability. The approach also advances Departmental goals 
of reducing C2D2 risk and lowering cost. In support of fiscal year 2019 
C2D2 ramp-up we request $644.0 million in Research, Development, Test, 
and Evaluation funds (RDT&E).
F/A-18 A/B/C/D Hornet
    Service Life Extension Plan (SLEP) efforts extended the F/A-18 A-D 
beyond its original service life of 6,000 hours to 8,000 hours, and in 
select aircraft, up to 10,000 flight hours. Along with flight hour 
extensions, these aircraft require capability upgrades to maintain 
tactical relevance as the Marine Corps plans to fly a portion of the 
legacy F/A-18 A-D fleet through the fiscal year 2030 timeframe to 
bridge the transition gap to an F-35B/F-35C fleet.
    The fiscal year 2019 budget requests $273.2 million in APN to 
implement aircraft commonality programs, enhance capability, improve 
reliability, and ensure structural safety of the F/A-18 A-D inventory, 
and $67.0 million for the continuation of the Hornet SLEP.
F/A-18E/F Super Hornet
    The F/A-18E/F Super Hornet will be the numerically predominant 
aircraft in CVWs into the mid-late 2030s. Continued investment in new 
aircraft and capability upgrades and flight hour extensions 
significantly improves CVW lethality.
    The fiscal year 2019 President's Budget requests $1.99 billion in 
APN for procurement of 24 F/A-18E/F Super Hornet aircraft and $301.4 
million of RDT&E for Block III, Infrared Search & Track (IRST) 
development/test, F/A-18E/F SLM initiatives and RADAR upgrades.
AV-8B Harrier
    The fiscal year 2019 budget requests $46.4 million in RDT&E funds 
to continue design, development, integration and test of platform 
improvements. These improvements include continuation of an Engine Life 
Management Program, Escape System upgrades, Joint Mission Planning 
System updates, Link-16 Digital Interoperability (DI) integration, 
Operational Flight Program block upgrades (mission and communication 
systems), navigation improvements, weapons carriage updates, 
countermeasure improvements, and updates to an Obsolescence 
Replacement/Readiness Management Plan.
    The fiscal year 2019 budget also includes $58.6 million in APN to 
continue the incorporation of Obsolescence Replacement/Readiness 
Management Plan systems, electrical and structural enhancements, 
LITENING Pod upgrades, F402-RR-408 engine safety and operational 
changes, DI upgrades that include Link 16, and inventory sustainment 
and upgrade efforts to offset obsolescence and attrition.
Next Generation Air Dominance (NGAD) Family of Systems
    The Department is continuing a Next Generation Air Dominance (NGAD) 
Analysis of Alternatives (AOA) to address the anticipated retirement of 
the F/A-18E/F and EA-18G aircraft beginning in the mid-2030s.
    The Joint Chiefs of Staff approved the Initial Capabilities 
Document that frames NGAD study requirements to support the full range 
of military operations from carrier-based platforms. The AOA is 
considering the widest possible range of materiel concepts while 
balancing capability, cost/affordability, schedule, and supportability. 
It will assess manned, unmanned, and optionally manned approaches to 
fulfill predicted 2030+ mission requirements. Analyses will consider 
baseline programs of record (current platforms), evolutionary or 
incremental upgrades to baseline programs (including derivative 
platforms), and new development systems or aircraft to meet identified 
gaps in required capability. We anticipate the NGAD AOA to report out 
in fiscal year 2019.
                    airborne electonic attack (aea)
EA-18G Growler
    The EA-18G Growler is a critical enabler for the Joint force as it 
brings fully netted electronic warfare capabilities to the fight, 
providing essential capabilities in the Electromagnetic Maneuver 
Warfare environment.
    The EA-18G program will complete deliveries in fiscal year 2018, 
with a total procurement quantity of 160 aircraft. This fulfills 
current Navy requirements for Airborne Electronic Attack (AEA) for nine 
CVWs and five expeditionary squadrons plus one reserve squadron.
    The fiscal year 2019 President's Budget requests $147.4 million of 
RDT&E for additional modernization to ensure the EA-18G maintains its 
edge in the electromagnetic spectrum domain.
EA-6B Prowler
    The Marine Corps currently has one remaining operational EA-6B 
squadron to support joint AEA operational requirements through fiscal 
year 2018. These organic AEA capabilities include the Intrepid Tiger II 
EW pod, which provides communications electronic attack and support for 
the Marine Air-Ground Task Force (MAGTF). The fiscal year 2019 
President's Budget request includes $18.5 million in RDT&E and $11.5 
million in APN for Intrepid Tiger II updates and procurement.
Next Generation Jammer (NGJ)
    The NGJ is the follow-on to the legacy AN/ALQ-99 initially fielded 
in 1971. The ALQ-99 has reached capability limits both technologically 
and materially and is challenged against modern state-of-the-art 
digital surface-to-air missiles systems. NGJ will provide improved 
capability in support of Joint and coalition air, land and sea tactical 
strike missions and is critical to Navy's vision for the future of 
strike warfare. It will become the Defense Department's only 
comprehensive tactical airborne electronic attack platform and is 
essential to counter current and emerging threats.
    NGJ will be implemented in three increments: Mid-Band (formerly 
known as Increment 1), Low-Band (formerly known as Increment 2), and 
High-Band (formerly known as Increment 3). The April 2017 NGJ-Mid-Band 
Critical Design Review revealed deficiencies in the design of the pod 
structure that necessitated a redesign effort to meet air worthiness 
requirements. The information available to date about this redesign 
indicates a potential for a schedule impact of more than six months. A 
collaborative government/industry analysis effort to redesign the 
structure is expected to complete in April/May 2018. Once the redesign 
of the pod structure is complete, we will realize the full impact to 
the NGJ-Mid-Band program. Independent of the structural issue, the 
design, integration, manufacture, and testing of all other pod 
components, sub-assemblies (such as the arrays, power generation, 
cooling, common electronics unit), and software continue. Platform 
integration efforts remain aligned to the EA-18G H16 System Software 
schedule; the next Generation Jammer Low Band program is investigating 
possible accelerated acquisition strategies to accelerate Initial 
Operating Capability (IOC).
    Our fiscal year 2019 budget requests $459.5 million in RDT&E to 
maintain Mid-Band schedule, continue procurement and assembly of the 
Engineering and Development Models, and commence developmental flight 
testing. In addition, we also request $115.3 million RDT&E to complete 
Low-Band technology feasibility studies and initiate technology 
demonstration efforts.
                    airborne early warning aircraft
E-2D Advanced Hawkeye (AHE)
    The E-2D AHE is the Navy's carrier-based Airborne Early Warning and 
Battle Management Command and Control system. The E-2D AHE provides 
Theater Air and Missile Defense and is a cornerstone of the Naval 
Integrated Fire Control--Counter Air system of systems capability.
    The fiscal year 2019 President's Budget requests $223.6 million in 
RDT&E for continuation of added capabilities, to include Aerial 
Refueling, Secret Internet Protocol Router chat, Advanced Mid-Term 
Interoperability Improvement Program, Counter Electronic Attack, 
Multifunctional Information Distribution System /Joint Tactical Radio 
System Tactical Targeting Network Technology, Sensor Netting, and Data 
Fusion, Navigation Warfare, Fighter to Fighter Backlink, ALQ-217 
Electronic Support Measures, and Crypto Modernization/Frequency 
Remapping.
    In the first year of what will be a 24 aircraft Multi-Year 
Procurement contract covering fiscal years 2019-2023, the budget also 
requests $983.4 million in APN for four Full Rate Production (FRP) Lot 
7 aircraft and Advance Procurement for fiscal year 2020 FRP Lot 8 
aircraft.
             assault support and logistics support aircraft
MV-22B/CMV-22B
    The fiscal year 2019 President's Budget requests $143.1 million in 
RDT&E for continued product improvements and development of the Navy 
variant, the CMV-22B; $843.2 million in APN for seven Lot 23 CMV-22Bs, 
procurement of long lead items for fiscal year 2020 (Lot 24) aircraft; 
and $214.8 million to support `Operations and Safety Improvement 
Programs' (OSIPs). Planned OSIP efforts include the correction of 
deficiencies, readiness improvements, common configuration 
modernization, aerial refueling, and avionics improvements.
C-2 Greyhound
    As the DON recapitalizes the long-range aerial logistics support 
and Carrier Onboard Delivery (COD) capabilities with CMV-22B, the C-2A 
fleet will continue to provide critical COD support for operations 
worldwide until the fiscal year 2024 timeframe. The fiscal year 2019 
budget request provides for $11.32 million in APN and $0.8 million in 
RDT&E to manage remaining C-2A aircraft mission systems obsolescence, 
including critical Center Wing Section repair kits to maintain 
sufficient capacity and readiness to safely complete the transition to 
CMV-22B.
CH-53K Heavy Lift Replacement Program
    The fiscal year 2019 President's Budget requests $326.9 million in 
RDT&E to continue the CH-53K Engineering Manufacturing Development 
phase and $1.3 billion in APN for procurement of eight Lot 3 LRIP 
aircraft, including Advance Procurement and initial spares.
    During fiscal year 2019, the program will continue to execute 
developmental test flights including propulsion testing, initial 
shipboard testing, avionics qualification testing, service ceiling 
testing, and hot/high altitude testing.
CH/MH-53E
    To keep the CH-53E and MH-53E viable through their remaining 
services lives, the fiscal year 2019 President's Budget requests $52.0 
million in APN and $17.0 million in RDT&E. The funding will provide for 
Condition Based Maintenance software upgrades, cockpit upgrades, 
Embedded Global Positioning System/Inertial Navigation System, T-64 
engine reliability improvements, survivability upgrades, satellite 
communications kits, and Phase I of CH-53E's Degraded Visual 
Environment capability. These critical safety and avionics upgrades are 
essential to address obsolescence issues within the cockpit, increase 
overall situational awareness, and maintain mission effectiveness.
    Maintenance on both variants of the H-53E becomes more challenging 
as they approach 30 years of service. The unprecedented operational 
demand of the CH-53E degraded the material condition of the heavy lift 
assault support aircraft sooner than expected; therefore, modernization 
to the CH-53K King Stallion is vital. The MH-53E will continue to 
perform its primary mission of airborne Mine Countermeasures as well as 
transport of cargo and personnel until it is replaced by the Littoral 
Combat Ship (LCS).
                      attack and utility aircraft
AH-1Z/UH-1Y
    The fiscal year 2019 President's Budget requests $907.9 million in 
APN for 25 AH-1Z aircraft and system improvements and $58.1 million in 
RDT&E for continued product improvements/upgrades.
    The H-1 upgrades program integrates a DI environment established 
throughout the MAGTF. H-1 DI and Full Motion Video efforts have 
expanded this capability for both the Venom and the Viper. With the 
integration of Intrepid Tiger II, the Marine Corps' Light Attack 
Helicopter Squadron community provides MAGTF Commanders multi-domain 
maneuverability.
MH-60R/S
    The fiscal year 2019 President's Budget requests $130.7 million in 
APN and $23.4 million in RDT&E. APN funds support safety related 
systems improvements, correction of deficiencies, warfighter upgrades, 
and obsolescence issues such as Mission Computer modernization and 
procurement of kits for the Helmet Display Targeting System and 
Advanced Data Transfer System. RDT&E,N is requested to support 
development efforts that include MH-60S Service Life Assessment 
Program, software integration of the Advanced Off-board Electronic 
Warfare pod, and implementation of Link-16 J11 and J12.6 series 
messages that will enabling the helicopter to provide in-flight target 
updates to Net Enabled Weapons.
                       executive support aircraft
VH-3D/VH-60N Executive Helicopter Series
    The fiscal year 2019 President's Budget requests $23.6 million of 
APN to continue programs that ensure the in-service Presidential fleet 
remains safe and reliable. Ongoing efforts include a Communications 
Suite Upgrade (Wide Band Line of Sight) that provides persistent access 
to the strategic communications network, the continuing Structural 
Enhancement Program necessary to extend platform service life, and 
Obsolescence Management needed to sustain and improve system readiness 
for both VH-60N and VH-3D platforms. The Cabin Interior and 
Environmental Control System upgrade is a critical obsolescence 
management effort for the VH-3D, reducing aircraft operational weight 
and improving maintainability. Where appropriate, technology updates 
for legacy platforms will be directly leveraged for the benefit of the 
VH-92A program.
VH-92A Presidential Helicopter Replacement Aircraft
    The fiscal year 2019 President's Budget requests $245.1 million in 
RDT&E to continue Engineering Development Model (EDM) activities, to 
include, contractor test for airworthiness certification and 
modifications of EDM and System Demonstration Test Article aircraft. 
Additionally, $649.0 million of APN is requested to procure six LRIP 
Lot 1 aircraft and associated support.
                          fixed-wing aircraft
KC-130J (USMC)
    The fiscal year 2019 President's Budget requests $270.4 million to 
procure two KC-130Js and spares as part of a proposed multi-year 
procurement (MYP III) and $78.1 million in APN for targeted 
improvements. Key improvements include increased survivability through 
advanced electronic countermeasure modernization and obsolescence 
upgrades to the Harvest HAWK Intelligence, Surveillance and 
Reconnaissance/Weapon Mission Kit. The obsolescence upgrade includes 
compatibility with additional Hellfire variants and an improved full 
motion video data-link. Today, the KC-130J remains in high demand, 
providing tactical air-to-air refueling, assault support, CAS and 
Multi-sensor Imagery Reconnaissance capabilities in support of Special 
Purpose MAGTFs and deployed Marine Expeditionary Units.
KC-130J (Navy)
    New in the fiscal year 2019 President's Budget, Navy has started a 
recapitalization effort for its legacy C/KC-130T aircraft. This 
initiative creates a uniform DON procurement of KC-130J model aircraft. 
To support the plan, we request $12.0 million in fiscal year 2019 APN 
(Advance Procurement) to pay for up-front costs needed to support the 
multi-service KC-130J MYP III. This effort begins the recapitalization 
of a 25 aircraft program of record.
                       maritime support aircraft
P-8A Poseidon
    The P-8A Poseidon recapitalizes the wide area Anti-Submarine 
Warfare (ASW), Anti-Surface Warfare (ASuW) and armed ISR capabilities 
of the aging P-3C Orion. The P-8A combines the proven reliability of 
the commercial 737 airframe with modern avionics that enables the 
integration of modern sensors and robust military communications.
    In fiscal year 2019, we request $1.98 billion in APN for ten 
aircraft and $197.7 million in RDT&E for aircraft updates to include 
the addition of Networked Enabled Weapons capabilities, satellite 
communications, track management and sensor fusion capability.
P-3C Orion
    The aging P-3C fleet will continue to provide critical ASW, ASuW 
and ISR support for operations worldwide until the fleet completes 
transition to P-8A. The fiscal year 2019 budget request includes $0.8 
million to manage P-3C aircraft mission systems obsolescence and $2.13 
million to fund the P-3 Fatigue Life Management Program to maintain 
sufficient airframe safety margins and capacity to complete transition 
to P-8A.
EP-3 Aries
    The EP-3E Aries is currently Navy's only Maritime ISR and Signals 
Intelligence (SIGINT) platform. The Joint Airborne SIGINT Common 
Configuration includes Multi-INT sensors, robust communication, and 
data links employed by the P-3 air vehicle to ensure effective fleet 
support across the full spectrum of military operations.
    The fiscal year 2011 National Defense Authorization Act directed 
the Navy to sustain EP-3E airframe and associated mission systems to 
minimize SIGINT capability gaps until the systems are fully 
recapitalized with a system or family of systems that in aggregate 
provide equal or better capability and capacity. The Navy's family of 
systems approach to ISR shifts the focus from platforms to payloads to 
deliver increased capacity and persistence by the end of this decade. 
To support these efforts, we request $9.0 million for the EP-3 program 
as we transition Navy's maritime ISR.
C-40A
    The C-40A is a military variant of the Boeing 737-700C, a 
combination passenger/cargo aircraft, with military avionics and 
aircraft survivability equipment. In fiscal year 2019, we request $206 
million in APN to procure two C-40As for the Marine Corps.
                    unmanned aircraft systems (uas)
    The DON has placed a priority on the development of unmanned 
systems leading to a fully integrated manned and unmanned fleet. 
Unmanned technology will not replace our Sailors and Marines; instead 
it will unlock their full potential as we integrate this technology 
within our total force.
MQ-4C Triton UAS
    The fiscal year 2019 President's Budget requests $14.4 million in 
RDT&E to continue Triton baseline development activities; $219.9 
million in RDT&E for Multi-INT modernization; and $719.4 million of APN 
for procurement of the fourth lot of LRIP aircraft and spares, retrofit 
of the LRIP Lot 1 aircraft to the Multi-INT configuration, and 
procurement of long-lead materials for the fifth lot of LRIP aircraft.
MQ-25 Stingray
    MQ-25 will deliver the Navy's first carrier-based UAS to function 
primarily as a mission tanker to extend the range, reach, and lethality 
of the CVW, with secondary recovery tanking and ISR capabilities. MQ-25 
will reduce current use of F/A-18E/Fs as CVW tankers, freeing F/A-18E/
Fs to execute strike fighter missions, effectively increasing strike 
fighter capacity within the CVW. The fiscal year 2019 President's 
Budget requests $718.9 million in RDT&E for MQ-25 development 
activities.
MQ-8 Fire Scout
    The MQ-8 Fire Scout is a rotary-wing system that includes two 
airframe types, the MQ-8B and MQ-8C. The MQ-8C is a larger, more 
capable and more cost-effective airframe that uses the same mission 
control system, avionics and payloads as the MQ-8B. Both systems are 
designed to operate from any suitably-equipped air-capable ship, carry 
modular mission payloads, and operate using the Tactical Control System 
(TCS) and Line-Of-Sight Tactical Common Data Link.
    In fiscal year 2019, we request $9.8 million of RDT&E to continue 
hardware and software modifications, payload integration, cyber 
vulnerability closure and safety capability improvements and $92.7 
million in APN to procure four MQ-8 mission control systems and three 
MQ-8C Active Electronically Scanned Array radar kits. Included in the 
procurement request is support for ancillary shipboard equipment, 
trainers/aircraft support equipment, technical support, and the 
logistics to outfit suitably-equipped air-capable ships and train the 
associated Aviation Detachments.
Tactical Control System (TCS)
    The fiscal year 2019 President's Budget requests $8.5 million in 
RDT&E for the MQ-8 System's TCS. TCS provides a standards-compliant 
open architecture with scalable command and control capabilities for 
the MQ-8 Fire Scout system. In fiscal year 2019, we will continue the 
transition of the Linux operating system to a technology refreshed 
mission control system, enhance the MQ-8 System's Automatic 
Identification System and sensor track generation integration with ship 
systems, overcome hardware obsolescence issues with the Solaris based 
control stations, provide lower cost software updates using DOD common 
application software, and enhance collaboration with the Navy's future 
UAS Common Control System.
RQ-21A Blackjack
    The fiscal year 2019 President's Budget requests $16.3 million in 
RDT&E ($5.4 million USN, $10.9 million USMC) and $21.8 million in APN 
for support of Marine Corps and Naval Special Warfare forces to address 
ISR capability requirements.
MAGTF Expeditionary UAS (MUX)
    As the Marine Corps recapitalizes toward a more diverse, lethal, 
amphibious and middleweight expeditionary force, Marines require a UAS 
that is network-enabled, digitally interoperable, and built to execute 
responsive, persistent, lethal, and adaptive full-spectrum operations. 
MUX is planned to be the system that will provide the MEF/MEB-sized 
MAGTF with an advanced multi-mission platform.
    The fiscal year 2019 budget requests $20.4 million in RDT&E for the 
MUX program to conduct an AOA and begin development of an acquisition 
strategy; $4.9 million in RDT&E for KMAX operations (i.e. CQ-24A Cargo 
UAS Experimentation and Support Services) in support of MUX technology 
demonstrations and Concept of Operation development (included under the 
MUX line).
Common Control System (CCS)
    The fiscal year 2019 President's Budget requests $49 million in 
RDT&E and Other Procurement Navy (OPN) for continuation of Common 
Control System (CCS) activities. The primary mission of CCS is to 
provide common control across the Navy's unmanned systems (UxS) 
portfolio to add scalable and adaptable warfighting capability, 
implement robust cybersecurity attributes, leverage existing government 
owned products, eliminate redundant software development efforts, 
consolidate product support, encourage innovation, improve cost 
control, and enable rapid integration of UxS capabilities across all 
domains (air, surface, sub-surface, and ground). CCS leverages existing 
government owned software to provide UxS Vehicle Management (VM), 
Mission Management (MM) and Mission Planning (MP) capabilities. CCS 
uses an open and modular architecture and will integrate with MQ-8B/C 
in fiscal year 2019 with future integration of MQ-4 and Large
    Displacement Unmanned Undersea Vehicle. CCS VM (Increment 1) was 
delivered to the MQ-25 program office in fiscal year 2017 and planned 
updates are being accelerated to maintain alignment with the MQ-25 
schedule. In fiscal year 2019, CCS/Increment 1 will conduct VM 
integration and test in both MQ-25 and MQ-8. Concurrently, CCS, 
Increment II will continue to develop MM/MP capabilities to meet 
platform operational requirements with the first release planned for 
mid-2020.
                        strike weapons programs
Cruise Missile Strategy
    The Department's Cruise Missile Strategy (CMS) provides for the 
development of stand-off attack capabilities from air, surface, and 
undersea platforms against both Surface and Land Domain targets. The 
key CMS tenets are:
    1.  Maintain and upgrade legacy cruise missiles.
    2.  Pursue advanced near/mid-term capabilities.
    3.  Plan and develop next generation integrated solutions.
Tactical Tomahawk (TACTOM) Block IV Cruise Missile
    The fiscal year 2019 President's Budget requests $282.4 million in 
RDT&E, $98.6 million in Weapons Procurement Navy (WPN) and $92.9 
million in OPN.
    RDT&E will be used for development/test of navigation and 
communications upgrades to improve TACTOMs performance in Anti-Access/
Area Denial environments (A2/AD), development/test of Maritime Strike 
Tomahawk (MST), development/test of a Global Positioning System M-Code 
capability, development/test of the Joint Multiple Effects Warhead 
System and Fuse, and associated Tactical Tomahawk Weapon Control System 
(TTWCS) and Tomahawk Mission Planning Center (TMPC) updates that 
support all upgrades and address usability, interoperability and 
information assurance mandates.
    WPN is required for the transition from a missile production to a 
missile recertification phase, production line shutdown, procurement of 
112 A2/AD kits and completion of 87 missile recertifications.
    OPN is required for procurement and installation of TMPC and TTWCS 
hardware/software modifications to address evolving security 
requirements, critical program information protection, obsolescence 
updates, and modern computing architecture improvements.
Offensive Anti-Surface Warfare (OASuW) Increment 1 (Long Range Anti-
        Ship Missile (LRASM))
    OASuW Increment 1 (LRASM) will provide Combatant Commander's the 
ability to conduct ASuW operations against high-value surface 
combatants protected by Integrated Air Defense Systems with long-range 
Surface-to-Air-Missiles and deny adversaries sanctuary of maneuver 
against 2018 to 2020 threats. The program is scheduled to achieve Early 
Operational Capability on the Air Force B-1B by the end of fiscal year 
2018 and Navy F/A-18E/F by the end of fiscal year 2019.
    The fiscal year 2019 President's Budget request $143.1 million in 
RDT&E for LRASM development and testing and $81.2 million in WPN to 
purchase 25 LRASM All-Up-Round weapons.
Offensive Anti-Surface Warfare (OASuW) Increment 2
    OASuW Increment 2 is required to deliver the long-term, air-
launched ASuW capabilities to counter 2028 threats (and beyond). The 
Department continues to plan for OASuW Increment 2 to be developed via 
full and open competition. To inform the long-term path forward, the 
DON will leverage Next Generation Land Attack Weapon (NGLAW) AOA 
results to inform the required ASuW capabilities. Due to Increment 2 
budget marks, Navy requests support for an incremental upgrade to LRASM 
to bridge the gap until an OASuW Increment 2 program of record can be 
established. Increment 2 IOC is now planned for the fiscal year 2028 to 
2030 timeframe.
Next Generation Land Attack Weapon (NGLAW)
    NGLAW will provide the next generation of long-range, kinetic 
strike capability to destroy high-priority fixed, stationary and moving 
targets--as well as those targets hardened, defended or positioned at 
ranges such that engagement by aviation assets would incur unacceptable 
risk. NGLAW will be capable of kinetic land and maritime attack from 
both surface and sub-surface platforms. NGLAW initially complements, 
and then eventually replaces the Tomahawk Weapon System. IOC is planned 
for the 2028 to 2030 timeframe (est.). The fiscal year 2019 budget 
requests $16.9 million to begin the transition of NGLAW to a program of 
record.
Sidewinder Air-Intercept Missile (AIM-9X)
    The fiscal year 2019 President's Budget requests $40.1 million in 
RDT&E and $78.3 million in WPN. RDT&E will be applied toward the 
Engineering Manufacturing Development of critical hardware redesign 
driven by obsolescence; developmental test of System Improvement 
Program missile software (Version 9.4); and design and development of 
Insensitive Munitions (IM) improvements (Joint Chiefs of Staff IM 
mandate).
    WPN funding is requested to procure a combined 192 All-Up-Rounds 
and Captive Air Training Missiles and associated missile/trainer 
related hardware.
Advanced Medium-Range Air-to-Air Missile (AMRAAM/AIM-120D)
    The fiscal year 2019 President's Budget requests $32.5 million in 
RDT&E for continued software capability enhancements and $212.2 million 
in WPN for 141 All-Up-Rounds and associated missile/missile-related 
hardware.
    RDT&E resources support the development and test of an Electronic 
Protection Improvement Program and a System Improvement Program to 
counter emerging electronic attack threats.
Small Diameter Bomb II (SDB II)
    The fiscal year 2019 President's Budget requests $104.4 million in 
RDT&E for continued development/test of the SDB II weapon, the BRU-55 
bomb rack modification (required for IOC onboard F/A-18E/F aircraft), 
and the BRU-61 bomb rack modification (required for the F-35B/C 
platform launch). The DON also requests $91.3 million in WPN to procure 
750 All-Up-Round weapons.
Advanced Anti-Radiation Guided Missile (AARGM) & AARGM Extended Range
    The fiscal year 2019 President's Budget requests $6.3 million of 
RDT&E for AARGM Foreign Material Assessment; $15.3 million for AARGM 
Global Positioning System M-Code development, AARGM Derivative Program 
transition, and Block 1 follow-on development; $99.2 million of RDT&E 
for AARGM Extended Range development; and $188.0 million of WPN for 
production of 257 AARGM Block 1 modification kits for integration into 
All-Up-Rounds and Captive Training Missiles.
Joint Air-to-Ground Missile (JAGM)
    The fiscal year 2019 President's Budget requests $6.8 million in 
RDT&E to complete JAGM integration onto the Marine Corps AH-1Z 
platforms and $24.1 million in WPN to procure 71 tactical missiles and 
four captive air training missiles.
Advanced Precision Kill Weapon System II (APKWS II)
    APKWS II has become a weapon of choice in current operations as it 
provides an unprecedented precision guidance capability to the DON 
rocket inventories, thereby significantly improving accuracy and 
minimizing collateral damage.
    The fiscal year 2019 President's Budget requests $108.8 million in 
PANMC for procurement of 3,686 APKWS II guidance section kits for use 
on both rotary-wing and fixed-wing platforms.
Direct Attack Weapons and General Purpose Bombs
    Fully funding General Purpose Bombs and the Joint Direct Attack 
Munition (JDAM) line items are critical to building the DON's direct 
attack weapons inventory. In the last forty-two months of ongoing 
contingency operations DON aircraft have expended nearly two times the 
number of 500 pound JDAM kits than we have taken delivery of during the 
same period.
    The fiscal year 2019 President's Budget requests $142.4 million in 
PANMC for Direct Attack Weapons and General Purpose Bombs and an 
additional $180.9 million to procure 7,594 JDAM kits to enhance 
readiness and prepare for future contingencies.
                               conclusion
    Naval Aviation continues to operate forward--fully prepared for 
conflict in the full range of military operations while managing near-
term service-life, mid-term capability improvements and long-term 
investments in research and development for delivery of future 
capabilities. We are building and sustaining a lethal, resilient force 
through balanced investments across readiness, capability and capacity. 
Naval Aviation is actively pursuing and seizing innovation and 
advantage wherever it can as we implement our vision to provide the 
right capability in the hands of the warfighter, on schedule, and in 
the most affordable manner possible.

                           Addendum A

                          safety (part 1 of 2)
Physiological Episodes (PE)
    All Navy senior leadership views the occurrence of Physiological 
Episodes (PE) in our tactical aircraft and trainers as our number one 
aviation safety priority until we fully understand all causal factors 
and mitigate PEs as a risk to flight operations. To date, we have 
identified multiple interrelated causal factors but the entirety of the 
root cause(s) of physiological episodes remains unidentified. 
Mitigation efforts currently in place, to include software 
modifications, personnel education, and equipment changes are 
positively affecting the PE rate for all Type/Model/Series aircraft but 
most notably in T-45s. With these mitigations, Naval Aviation is 
currently meeting operational requirements and personnel are working in 
an operational environment with an acceptable level of risk.
    For our T-45 aircraft we have reduced the overall PE rate 
substantially with over 30,000 flight hours flown and only seven minor 
events since the return to flight. Five of the seven cases post return-
to-flight were attributed to human factors; in all T-45 cases, 
negligible contaminants were found in the monitoring devices, all well 
below Occupational Safety and Health Administration standards. Beyond 
mitigating the identified flow problem from the engine, we are 
integrating an Automatic Backup Oxygen System (ABOS) to improve oxygen 
generating system performance overall.
    In our F/A-18 aircraft, we continue to implement changes that are 
improving the Environmental Control System, increasing system stability 
of failure modes and improving the cockpit environment for our 
aviators. More work remains to be done, but mitigation and redesign 
efforts are producing positive results in all FA-18 variants. We are 
collaborating across the DOD to leverage research efforts to help 
characterize the cockpit environment to ensure we reach a long-range, 
holistic solution rather than interlaced mitigations in both current 
and future aircraft. We have investigated every line of inquiry 
recommended by the NASA report to include measuring breathing gas 
quality at the mask. We are drafting a request for proposal for a new 
MIL-STD-3050 compliant On Board Oxygen Generating System (OBOGS) 
concentrator designed to replace the existing well performing but less 
capable concentrator currently in the F/A-18 and EA-18 aircraft. This 
effort will provide digital data logging of performance, increased 
reliability and oxygen scheduling in compliance with the MIL-STD. The 
replacement OBOGS concentrator will be the first in the DOD inventory 
to comply with the MIL-STD that was created in 2015.
    We have also assigned a Flag Officer to oversee a Physiological 
Episodes Action Team (PEAT). Together, our engineers, industry 
partners, physiologists and outside support from groups as diverse as 
the National Aeronautics and Space Administration and Naval Medical 
Research Units are working diligently to find a solution to the 
physiological episodes issue.
    RDML Joyner, the Department's PEAT lead, recently testified to the 
House Armed Services Committee on February 6, 2018. Her formal 
statement provides a comprehensive update on all PE efforts to-date and 
the hearing transcript provides additional relevant data. Both can be 
found at: https://armedservices.house.gov/legislation/hearings/
addressing-physiological-episodes-fighter-attack-and-training-aircraft-
0
                          safety (part 2 of 2)
Class A, B, and C Aviation-Related Safety Issues Summary
    A summary of all Naval Aviation Class A, B and C aviation-related 
safety issues, including recent mishaps, trends, and analysis from 
October 2015 through December 2017 follows. The rates presented in the 
table are based on total mishaps per 100,000 flight hours and include 
Flight, Flight-Related and Ground mishaps.

                                     Table 1. Plan Choices for Military Beneficiaries Compared to Federal Civilians
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                  Flight                   Class A                   Class B                   Class C
                             Year                                 Hours       Class A        Rate       Class B        Rate       Class C        Rate
--------------------------------------------------------------------------------------------------------------------------------------------------------
Fiscal year 2016.............................................   1,098,519           18         1.64           26         2.37          216        19.66
Fiscal year 2017.............................................   1,072,156           25         2.33           33         3.08          242        22.57
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The most recent (fiscal year 2017-14 February 2018) DON flight 
Class A mishaps include:
    <bullet>  11 December 2017 (Tinker AFB, OK): E-6A struck birds 
during descent, leading to number 4 engine flameout.
    <bullet>  04 December 2017 (NAS Fallon): FA-18A right leading edge 
flap departed aircraft in flight and hit the vertical stabilizer.
    <bullet>  22 November 2017: (Philippine Sea) C-2A ditched while 
inbound to CVN with 11 onboard. Three fatalities.
    <bullet>  11 October 2017: (Futenma MCAS, Japan) CH-53E engine fire 
in flight, emergency landing. No injuries.
    <bullet>  01 October 2017: (Monroe County, TN) T-45C crashed on 
low-level training route. Two fatalities.
    <bullet>  28 September 2017: (Syria) MV-22B crashed on landing 
during support mission.
    <bullet>  12 August 2017: (Bahrain) F/A-18E departed runway during 
landing after a ship to shore divert due to an engine malfunction. 
Pilot ejected. No injuries.
    <bullet>  09 August 2017: (25 Miles South of Key West, FL) F-5N 
went down over water. Pilot ejected safely.
    <bullet>  05 August 2017: (15 nm off NE Australia IVO Shoal Water 
Bay) MV-22B struck LPD flight deck on final approach and then crashed 
into water. Three personnel are missing and presumed deceased. 23 
recovered.
    <bullet>  05 August 2017: (North Island NAS, CA) F/A-18F struck 
round down with right horizontal stabilator upon landing. Diverted 
successfully.
    <bullet>  16 July 2017: (Bay of Bengal) F/A-18F engine borescope 
plug backed out in flight causing hot air to burn to engine bay and 
aircraft skin.
    <bullet>  10 July 2017: (Indianola, MS) KC-130T crashed on 
logistics flight from Cherry Point to El Centro. 16 fatalities.
    <bullet>  27 April 2017: (Off the Coast of Guam) MH-60R collided 
with water on initial takeoff from ship. No injuries.
    <bullet>  21 April 2017: (Philippine Sea) F-18E lost on approach to 
landing on carrier. Pilot ejected without injury prior to water impact.
    <bullet>  05 April 2017: (Yuma, AZ) CH-53E landed hard and rolled 
on day training flight. Crew of five uninjured.
    <bullet>  28 March 2017: (El Centro NAF) HH-60H main rotor blades 
contacted tail rotor driveshaft on landing.
    <bullet>  17 January 2017: (NAS Meridian, MS) T-45 crashed 
following a BASH incident on takeoff. Both crewmembers ejected. No 
fatalities.
    <bullet>  12 December 2016: (Off the Coast of Okinawa, Japan) MV-
22B attempted a precautionary emergency landing (PEL) to dry land but 
crash landed in shallow water. Crew of five evacuated with injuries.
    <bullet>  07 December 2016: (Off the Coast of Iwakuni MCAS, Japan) 
F/A-18C crashed into the water while conducting a night mission. One 
fatality.
    <bullet>  21 November 2016: (Upper Mojave Desert Region) F/A-18F 
struck a tree while instructor pilot was conducting a currency flight 
event. Returned to base safely. No injuries.
    <bullet>  09 November 2016: (Off the Coast of San Diego) Two F/A-
18As were conducting basic flight maneuvers and had a mid-air 
collision. One aircraft crashed in the water. Pilot ejected 
successfully. One aircraft landed with significant damage.
    <bullet>  27 October 2016: (MCAS Beaufort, SC) F/A-35B had an 
inflight weapons bay fire followed by an uneventful landing. No 
injuries.
    <bullet>  25 October 2016: (Twentynine Palms, CA) F/A-18C crashed 
on final approach. Pilot ejected successfully. No injuries.
    <bullet>  20 October 2016: (Yuma, AZ) CH-53E main rotor contacted 
building causing damage to the aircraft.
    DON Class A aviation ground and Flight Related mishaps (AGM and 
FRM):
    <bullet>  17 August 2017: (NW of San Clemente Island) MH-60R lost 
SONAR transducer at sea. (FRM)
    <bullet>  11 July 2017: (New River MCAS, NC) Maintenance personnel 
struck by lightning on the flight line while working on MV-22B. One 
fatality. Two others were treated and released. (AGM)
    <bullet>  25 June 2017: (MCAS Miramar, CA) Two Marines injured and 
F/A-18A damaged after flammable material in drip pan caught fire. (AGM)
    <bullet>  19 January 2017: (NAS Norfolk, VA) Three E-2C aircraft 
damaged in an engine oil related event. (AGM)
    <bullet>  18 December 2016: (Kadena AFB, Japan) Tow bar separation 
resulted in aircraft/tow collision with damage to nose gear and lower 
fuselage of P-8A. (AGM)
    <bullet>  15 December 2016: (NAS Whidbey Island, WA) Canopy on EA-
18G exploded/jettisoned resulting in severe injuries to two personnel. 
(AGM)
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                       End of Addendum A

    Senator Wicker. Thank you very much, Admiral.
    Let us talk then about the budget. Tell us what this added 
flexibility would do for you, and how is the additional funding 
going to assist the Navy and Marine Corps in modernization and 
readiness restoration? What will you be able to do extra that 
you have not been able to do? And please give us some specific 
examples.
    Vice Admiral Grosklags. Mr. Chairman, I will give it a 
start and let my colleagues join in as well.
    So a couple of things. On the modernization front, you 
could use MQ-25 as an example, our carrier-based refueling 
platform. We added an additional $250 million approximately 
over what we had planned in 2018 to our fiscal year 2019 
request. That allows us to accelerate the initial operational 
capability of that platform by 2 years. That is a specific 
example on modernization.
    On the readiness front, our readiness accounts are funded 
in the President's Budget 2019 request to between 92 and 100 
percent, which is across the board a level at which they have 
not been funded for over a decade. There is significant 
progress we are going to be able to make in terms of improving 
our facilities at our depots, in terms of making sure that the 
publications and the support equipment that our sailors and 
marines need to maintain the aircraft on the flight line are up 
to date and of the highest quality. And we have also been able 
initiate the funding for Vision 2020, our sustainment plan for 
the future, which I mentioned in my opening statement. Those 
are additional things that we are doing in fiscal year 2019 
that we did not have in previous years.
    Senator Wicker. Lieutenant General Rudder, what can you 
add?
    Lieutenant General Rudder. Senator, thank you.
    Simply put, I think what it allows us to do is the things 
that Admiral Grosklags talked about. But what it does, if you 
look at, as you appropriately stated, the Commandant's 
priorities as far as modernization and readiness and doing them 
at the same time, is just that. Before we were underfunding our 
readiness accounts to buy new airplanes, and we were not buying 
enough new airplanes.
    With the budget that this committee and Congress is 
providing now, it allows us to do both. And it allows us to do 
both, modernizing our depot, hiring the right people, getting 
the right people in the right place at the right time in our 
depots. It allows us to train. It allows to buy the spares, 
fully fund our spares accounts, our parts, which they have 
never been funded to the levels before. But it also allows us 
to buy F-35's and CH-53K. For us, as we begin to ramp out of 
MV-22 and H-1's, we begin to ramp up into these new airframes 
to fulfill the new National Defense Strategy, it increases our 
lethality certainly with those particular airframes.
    While this is being done, it allows us to do this in 
stride. And in stride means that we have sailors and marines 
currently right now in combat operations and forward in Asia 
that are conducting high tempo operations. We have, for 
example, MAG-31 right now out of South Carolina. They have two 
squadrons. One squadron is in Asia. One squadron is in CENTCOM 
[Central Command] theater, and one squadron is on the ship. And 
I have two squadrons that are getting ready to go. That flight 
line for a period of time will be empty. The readiness accounts 
to make sure those jets and pilots have the right flight time 
to get out the door. And that is exactly what this budget this 
past couple years, starting with the RA in 2017, has allowed us 
to do.
    Senator Wicker. Rear Admiral Conn?
    Rear Admiral Conn. Thank you, sir.
    I would say the overall funding level has taken us away 
from simply managing risk to now to have the funds available to 
manage the opportunities that are presented to us.
    For some specifics in terms of what the funding level has 
provided, additional funding, our MQ-25 in 2019, has allowed us 
to pull that IOC [Initial Operational Capability] to no later 
than 2026 and potentially as early as 2024. We have been able 
to get our CMV-22 replacement aircraft in line, getting out of 
the C-2 aircraft earlier, up to be divested of that aircraft by 
2024 which has divested 28 PMIs that we need for that airplane, 
$8 million in engines, totaling $60 million that outside the 
FYDP [Future Year Defense Program] what we are able to roll 
into the CMV-22 program.
    It has also afforded us an opportunity to put $240 million 
into our next training system, live virtual constructive, which 
will offer us a new way to train to fight and win that high-end 
fight that you described earlier.
    Senator Wicker. Thank you very much.
    Senator Hirono?
    Senator Hirono. Thank you.
    General Rudder, Admiral Grosklags, and Admiral Conn, we all 
have been concerned, as both of us have mentioned, about 
aircrews experiencing physiological events apparently caused by 
aircraft environmental control systems. I understand that you 
are still trying to isolate or to identify the causes of these 
problems. Can you describe what progress you are making in 
solving these physiological problems? And what can you tell us 
about the fact that the Air Force grounded the T-6 trainer 
aircraft, but the Navy chose not to ground its T-6 trainer 
aircraft? Why did the Air Force ground that aircraft and you 
did not?
    Vice Admiral Grosklags. Senator, I will start and again let 
my colleagues jump in here.
    I go into T-6 first where you ended. During the month of 
January and early into February, the Air Force had 19 
physiological events--I believe that is the correct number--in 
their T-6's, which is why they grounded the aircraft. During 
that same time period, the Department of the Navy had a total 
of two. So we are staying in very close contact with the Air 
Force.
    We are taking steps with our T-6's to make sure we 
understand the environment, both the cockpit, the quality of 
the air in the cockpit both on the ground and in flight. So we 
are doing testing with that both at our fleet sites, as well as 
Patuxent River. And we are also working with the Air Force to 
replace a component in the oxygen generating system that will 
give the system greater reliability and also allow us to do 
some actual in-flight monitoring.
    We did not have the same problems of incidence that the Air 
Force had. So we are watching it closely and working very 
closely with them to make sure we stay in sync.
    Senator Hirono. Do I understand you to say that because the 
Air Force experienced many more physiological events, that you 
are also looking at what was going on with their aircraft an 
the environment in their aircraft as different from the 
environment of the aircraft in the Navy?
    Vice Admiral Grosklags. No, ma'am. We are looking at our 
aircraft specifically. The Air Force is doing the same type of 
testing, evaluation of the air quality in their T-6's.
    Senator Hirono. But is it not the same aircraft, though?
    Vice Admiral Grosklags. It is. They fly primarily the A 
model. We fly primarily the B model. But the oxygen generating 
system and the environmental system is essentially the same.
    Senator Hirono. My point is that you are learning from 
whatever the experience was with regard to the Air Force.
    Vice Admiral Grosklags. Yes, ma'am. Both ways.
    Senator Hirono. The safety of our crew is very important.
    Vice Admiral Grosklags. On the T-45 front, we are back at 
full flight operations since September of last year on T-45's. 
Since September, we have had a total of seven incidents, seven 
physiological episodes since we resumed flying, basically one 
per month since then. That is the same rate we were 
experiencing back in 2012, 2013, and 2014 when we started 
monitoring this issue closely. Of those seven, it is important 
to note two of them were mechanical failures of the aircraft. 
One was flight in a regime that was a known issue where we get 
low flow through the aircraft. One was a pilot error, and three 
were human physiological issues where the pilot was either 
sick, had a sinus condition or some other condition. The 
important point there is that we know what is occurring in that 
aircraft for each one of those, and within 24 to 48 hours, we 
are able to provide that feedback to the entire population of 
T-45 pilots so that they understand exactly what occurred and 
what we are doing about it.
    Senator Hirono. Thank you.
    Senator Wicker. Senator Hirono, I am going to give you 
plenty of time.
    You are not saying, Admiral Grosklags, that we have gotten 
to root cause of what is going on with the T-45's.
    Vice Admiral Grosklags. Senator, one of the things that we 
found out, the primary thing we found out before we resumed 
flying last fall, was that there are certain environments, 
conditions during flight where if the power is reduced to too 
low of a setting in flight, that it reduces the flow of 
breathing gas from the oxygen generating system to the aircrew. 
We did not know that until we had put an additional sensor in 
the aircraft last summer while we were in the operational 
pause. Now that we know that, we can actually see when this is 
occurring in the aircraft. So that was one of the root causes, 
was that the pilots were not getting sufficient flow not 
specifically of oxygen but entire breathing gas was not getting 
sufficient pressure to flow to the masks.
    Senator Wicker. Okay. It sounds like you believe that you 
all have put your finger on the root problem in the T-45's.
    Vice Admiral Grosklags. Yes, sir, in the T-45. But we have 
not stopped trying to further mitigate the risk of operating in 
that environment. We are doing things today such as turning up 
the wick on the engine so it operates at a little higher 
percentage so that the opportunity for the pilots to get into a 
flight condition where they get this low flow scenario is 
further reduced and further mitigated.
    Senator Wicker. Okay, Mazie, go ahead and take another 2 
minutes because I cut in on you here.
    Senator Hirono. Earlier this year, Secretary of Defense 
Mattis announced a new defense strategy that would shift the 
focus for planning defense capabilities from one focusing on 
smaller regional contingencies to one focusing on being able to 
deal with near-peer competitors like Russia and China. 
Secretary Mattis also told the Armed Services Committee that 
the fiscal year 2019 budget had been adjusted to reflect this 
change in strategy.
    Could each of you describe how the Department of the Navy 
aviation programs have been changed to reflect the new 
strategy?
    Lieutenant General Rudder. I think when the new defense 
strategy came out, we looked at that being developed as 
something that we had to place all of our forward-deployed 
assets, sailors and marines, that technically if you look at 
the principles behind that, the contact, blunt, and surge kind 
of principles and foundation of it, as the Marine Corps inside 
force, we are technically for the most part in a contact phase 
on a regular basis.
    We had to think about that in a way that we had been 
thinking about for quite some time. The F-35's that just flew 
on the USS Wasp a few days ago that are now out there deployed 
for the first time--this is a concept of having a forward force 
that has the capability to maintain contact and actually be 
able to use its new capabilities against a higher-peer 
competitor. The same with blunt and surge as far as looking at 
how we do the larger scale operations, how we rethink our 
exercises to begin to conform to a higher-end threat.
    We have been doing that over the past couple of years. The 
F-35 is one aspect of that. If we look at being able to do 
distributed operations in a contact or blunt force where we 
have to be able to maneuver the battle space, the MV-22 does 
that, but also the heavy lift CH-53K will do that for us as 
well to begin ramp-up production on that.
    This year, you will see $20 million in for our group 5 
unmanned system, the MUX, and that is designed to provide--to 
come off our amphibious ship to provide that forward ISR, 
forward early warning to be able to connect the network of the 
amphibious force.
    Senator Hirono. Do either of you have anything to add, 
Admiral Grosklags or Admiral Conn?
    Rear Admiral Conn. Yes, ma'am. I think the National Defense 
Strategy in terms of impacting the Navy's budgeting, by 
recognizing a return to a great-power competition, as well as 
articulating the maritime responsibilities within that strategy 
and then the development of the Navy the nation needs, which is 
the maritime expression of that strategy for the CNO [Chief of 
Naval Operations], within naval aviation, just as a caveat, 
within a carrier air wing allows us to build a bigger air wing. 
It allows us to build a better air wing with F-35C, block 3 
Super Hornets, MQ-25 in the future, CMV-22's, E-18G's with next 
generation jammer. It is those family of systems that network 
together that is going to give us greater combat power and 
lethality operating from the sea.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you.
    Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    I want to just focus on the F-35 to begin with for just a 
little bit. And I am just curious. I have seen the review that 
we did that the F-35C--you are going to be purchasing 9 in 2019 
and 16 in fiscal year 2020. And then the F-35B, which is the 
short takeoff and landing version--you are looking at 20 in 
2019 and 20 in fiscal year 2020. And I am just curious. I am 
presuming the Marines are using the short takeoff and landing, 
the B's. Is that correct that those will all be yours, sir?
    Lieutenant General Rudder. That is correct. And out of the 
F-35C's, we have two Marine Corps because we are buying both 
variants.
    Senator Rounds. Of the 35C's, how many are you buying of 
the carrier version, the F-35C's? How many are the Marine Corps 
purchasing in 2019 and 2020?
    Lieutenant General Rudder. In fiscal year 2019, we have two 
out of that nine, and I believe we will have four or five or 
more, depending upon what the 2020 budget looks like, in 2020, 
with a total of 67, which will allow us to have four carrier 
squadrons to fulfill our tactical air integration 
responsibilities with the Navy. Those aircraft will be in a 
cycle of carrier deployments as well.
    Senator Rounds. My assumption is the Navy will be primarily 
purchasing the F-35C's. Is that correct, sir?
    Rear Admiral Conn. That is correct, Senator.
    Senator Rounds. Of the 35C's, how many are you intending 
then to purchase in 2019 and in 2020?
    Rear Admiral Conn. 2019 is seven, and 2020, depending on 
the 2020 top line, will be approximately 10 to 12 airplanes.
    Senator Rounds. Does that fall in line with trying to get 
to the--I am just thinking a lot about the production rate. Is 
that how many you want, or is that how many you can afford? Or 
what is the process for determining the number that you are 
going to put into effect?
    Rear Admiral Conn. Sir, the F-35C is a new platform. You 
have to transition a squadron. It takes up to a year, 9 months 
for a pilot, almost a year to train those sailors. As you are 
growing a new type model series, you have to do it on a very 
deliberate pace where you first build your infrastructure, if 
you will, and your fleet replacement squadron is the squadron 
that trains those aviators and in some sense trains some of 
those maintenance so that when they are complete with that 
transition, they are ready to start the optimized fleet 
response plan in terms of being able to prepare for a 
deployment.
    Senator Rounds. Are you on board--is the Navy on board the 
F-35C as the right aircraft long term for the Navy's needs?
    Rear Admiral Conn. Yes, sir, we are.
    Senator Rounds. So your goal is to acquire in such a 
fashion as to keep the price down. The more we buy and keep up 
to an appropriate production rate, the better off we are going 
to be in terms of the actual price we are paying. I think we 
are in agreement on that?
    Rear Admiral Conn. Yes, sir, we are.
    Senator Rounds. And is the F-35 being produced in the block 
numbers and with the appropriate anticipated software installed 
that you would have wanted, or is the manufacturer ahead of or 
behind in that regard?
    Rear Admiral Conn. For us to declare our initial operating 
capability, the aircraft has to be configured in block 3F and 
it has to be going through its IOT&E with the weapons and 
various sensors that have to perform in a threat-representative 
environment to the standards identified in the operational 
requirements document. When those conditions are met, we will 
declare IOC which will be well before the first deployment of 
the FA-47 in fiscal year 2021.
    Senator Rounds. Do you feel like you are on target with 
regard to the deployment of the F-35C?
    Rear Admiral Conn. Yes, sir, we do.
    Senator Rounds. Okay, good.
    Lieutenant General Rudder. Just one comment, Senator. We 
just accepted the first three 3F configured production model, 
VF-62 out in Yuma. So those are coming off the flight line 
right now, and I think this spring/early summer we will be able 
to insert 3F into most of our jets that are technical refresh 
to capable.
    Senator Rounds. Thank you.
    I am just curious, and this is just as much so that you 
have a chance to tell the story. The MQ-25--can you share with 
the Subcommittee the need and the value of that MQ-25 and how 
valuable it is to the long-term operations?
    Rear Admiral Conn. Thank you for the question, Senator.
    The value of the MQ-25--and I will be brief. It is going to 
expand the operational reach of the air wing in light of the 
potential scenarios that we may be engaged with as an in-flight 
refueling tanker, being able to give a certain amount of gas up 
to 500 miles away from the ship so those strike fighters can go 
forward, coupled with its ISR capabilities in terms of 
persistent stare, if you will, being able to collect 
information, process, and disseminate it back to the commanders 
to have a better operational picture that is operating around 
the carrier.
    Senator Rounds. Fair to say it is just a very large Pacific 
Ocean.
    Rear Admiral Conn. That is correct, sir.
    Senator Rounds. Thank you, Mr. Chairman.
    Senator Hirono. On behalf of the chairman, I call on 
Senator King.
    Senator King. Senator Hirono, did you say that we spend $20 
billion a year on corrosion?
    Senator Hirono. Yes.
    Senator King. That gives new meaning to the old rock song, 
``Rust Never Sleeps.'' It is unbelievable.
    Under Secretary of Defense for Acquisition and Sustainment 
Ellen Lord has said that the sustainment costs for the F-35 
will become unaffordable. I had a meeting recently with the 
Deputy Secretary of Defense. He said the same thing. Why is the 
F-35 so expensive to keep flying? Does anybody want to tackle 
that? Admiral?
    Rear Admiral Conn. I will start. From a warfighting 
perspective, we need the airplane.
    Senator King. No doubt about that. I am just asking why 
does it cost so much to keep it going.
    Rear Admiral Conn. From an affordability aspect, we have to 
drive down the operating and sustainment costs. There is a 30 
percent reduction goal within 10 years----
    Senator King. I understand that too. My question is, why is 
it so expensive? What is it about the airplane that is costing 
so much?
    Rear Admiral Conn. I think the fifth generation airplane in 
and of itself is an expensive airplane to procure.
    Senator King. I know that. So I am going to ask again. This 
is your fourth time. Why is the F-35 so expensive to maintain?
    Vice Admiral Grosklags. Sir, I think I can help a little 
bit here.
    The aircraft is very expensive. Period. A lot of the parts 
on that aircraft are very expensive. If a component fails, the 
repair costs at this time are quite high. We are still having 
to go back to the original equipment manufacturers for the 
repair of most of those components because the program 
collectively--the collective was laid to stand up things like 
organic depot level repair capability. We are just now starting 
to stand up intermediate level capability. We are actually just 
starting to fund it in President's Budget 2019. That is one of 
the new things in 2019.
    The reliability of some of the components is not as high as 
we expected it to be at this point in time. So we have more 
failures.
    Senator King. Is the manufacturer responsible for those 
failures? What do we get for a warranty?
    Vice Admiral Grosklags. There is no warranty, sir.
    Senator King. There is no warranty?
    Vice Admiral Grosklags. No, sir.
    Senator King. You mean a product can be delivered to us 
that costs 100 million bucks, and if it fails, it is on us?
    Vice Admiral Grosklags. There are some criteria in the 
contract, sir. There is actually congressional language that 
dates back many, many years about the government paying 
industry for warranties. We actually have to get special 
permission to pay industry for warranties on things we buy.
    Senator King. Well, we will talk about that I guess. I am 
astounded.
    Senator Wicker. The aircraft would have cost even more had 
we insisted on a warranty.
    Vice Admiral Grosklags. Yes, sir. There are very few 
exceptions. I will give you an example of an exception. H-60's 
we were able to buy with a warranty because that was a standard 
Sikorsky used at the time for their commercial practices, and 
they just rolled it over to the government. But in the vast 
majority of cases, that is not true.
    Senator King. Well, perhaps we could have some discussion 
of this. I can argue it both ways, but the idea of buying 
something like this and having parts fail and having the 
manufacturer, the OEM [Original Equipment Manufacturer], not 
responsible strikes me as an odd way to procure most anything.
    Let me ask a different question.
    Senator Wicker. Admiral, that goes back to what year?
    Vice Admiral Grosklags. It is a long time, sir. I would 
have to go back and look.
    Senator Wicker. Even before Senator King. Well, if you 
would supply that to us because there is some interest in the 
room obviously there.
    Vice Admiral Grosklags. Yes, sir.
    [The information follows:]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
          
       
    Senator King. But I would be interested in the overall 
question of the sustainment costs and why they are so high 
because, as I say, Ellen Lord said they are unaffordable. That 
is a fine--unaffordable means we ain't going to be able to do 
it, and we have got to figure that out.
    Quickly, in the Air Force we have had a lot of work on the 
pilot shortage. Is there a pilot shortage in the Navy and the 
Marines as well? We are talking about acquiring aircraft here. 
Do we have the pilots to fly them? General Rudder?
    Lieutenant General Rudder. We are a couple of percentages 
below where we should be. So we are not in as dire of a pilot 
shortage as what I think we were seeing on the Air Force front.
    But it is no secret that the airlines are hiring, and we 
are working our pilots hard. So we are working on a few 
different fronts. I will give you some examples.
    The Marine Corps and the Navy, along with our Air Force--we 
started up pilot bonuses again. We had not done this since 
2011, and we were probably at the low end of that. We were with 
a 2 years' bonus, $20,000 per year for TACAIR, 88-B, F-18, F-
35, and V-22 too because we were worried about our tow brother 
because they are a high value item out in the market as well. 
So far we had a 68 percent take on that. So 33 out of our 35 F-
35 pilots took the bonus, 123 out of 169 V-22's took the bonus.
    With that we are still watching it closely, and I tell you 
we watch it every day. In a normal 10-year program, pilot 
retention, attrition rates, probably around 8.9 percent. We are 
probably at about 10.5 percent TACAIR-wide. What it means is we 
are putting as many folks as we can in our squadrons and maybe 
some of the B billets for fighter pilots maybe are not filled 
in some cases and we keep people in the squadrons longer. But 
we are looking at throughput to make sure we keep up the pilot 
rate because for us and as the Navy, we both are in this thing 
together transitioning to the F-35. We have to be able to stand 
down F-18 squadrons to stand up the F-35 squadrons. So we got 
to make sure we are transitioning those people to those 
squadrons while we are still maintaining our legacy fleet as 
well.
    Senator King. Admiral Conn, I am over my time, but how is 
the Navy doing on pilot retention?
    Rear Admiral Conn. For our department heads and post-
command commanders, we are not meeting our goals. The bonuses 
may provide some opportunities to address some of those. My 
focus in my position is on readiness, to get the aircraft up 
and get those pilots flying, to make sure that lack of flight 
time is not a distracter.
    Senator King. I would commend to both of you--Senator 
Cotton and I on the Airland Subcommittee had an informal 
roundtable with a group of Air Force pilots to talk about this 
issue without a lot of officers and press or anybody. And it 
was very interesting because what we heard was that it was not 
necessarily about money. It was more about OPTEMPO [Operational 
Tempo], time with family, and interestingly, time to fly, that 
the pilots did not want to be at desks and on different tracks. 
The Air Force is doing some serious work on this. I would urge 
you to talk to them about it because they are sort of--I was 
about to say they are at the front edge of this. That is not a 
good place to be, but they are working on it.
    Thank you, Mr. Chair.
    Senator Wicker. What do you think about that, Admiral Conn? 
Does that make sense to you? Those Air Force conclusions.
    Rear Admiral Conn. Yes, sir. We are in a competition for 
talent, and it is not just with the airlines. I had the 
privilege of working out of Fallon, Nevada, and I had a lot of 
enterprising junior officers, top gun JOs, Havoc, which is the 
Growler equipment, just marvelous people to have to command. 
But it is not just the airlines. They are going to med school. 
They are going to law school. They are trying to get their MBA 
[Masters of Business Administration]. There are a lot of 
choices for them out there.
    Senator Wicker. Well, Senator King says they are having to 
sit at a desk a lot, but the OPTEMPO is killing them too. What 
do you say to that?
    Rear Admiral Conn. The OPTEMPO for our aviators for a 
department head that is deployed on a carrier--all he knows is 
combat operation during his entire career.
    Senator Wicker. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    To Senator King's point, is the big issue not they are just 
not flying enough? I mean, they come to the Marine Corps and 
the Navy to fly. They get their wings. I think there was some 
anecdote that the Chinese pilots and the Russians are flying 
more hours monthly, way more, than our men and women. I mean, 
is that not it? Do they not want to fly? Is that not why they 
became naval aviators? And how do we fix that? We all want to 
fix that.
    Rear Admiral Conn. Senator, that is a valid point. These 
young aviators wear the wings proudly. They want to get in the 
air.
    Senator Sullivan. I mean, is there a way we can help you 
with that, General?
    Lieutenant General Rudder. You are, Senator Sullivan. And I 
will tell you about 3 years ago when I was out of 1st Marine 
Air Wing in Okinawa, we had F-18 squadrons come out to Iwakuni. 
There was a time where those squadrons had maybe six or seven 
airplanes on the flight line maybe a couple months before they 
were getting ready to deploy, maybe not all their pilots. And 
that Marine air group cobbled together that squadron to get 
them out the door to forward deploy them at a 1 to 2 dwell 
rate. That means you were deployed for 6 months and home for a 
year.
    Today, through a lot of the strike fighter management, we 
have been able to fill those squadrons up. So everybody is 
going out the door with 12 airplanes now. We have more trained 
crew. We are seeing from 3 years ago when we first started 
getting into the 2017, we are seeing some spikes and positive 
movement in both readiness levels in those particular 
organizations through funding of the depot. The good news is 
last year we got 70 airplanes, 70 F-18's, out of the depot. The 
bad news is we still had to work on them to fix them in the 
squadron. We are correcting that inside the depot, the depot 
ready initiative.
    As the Navy begins to divest out of this legacy Hornet for 
us, we are able to take advantage of the high lot number, lot 
15 and above F-18's. And we are going to manage those within 
the squadrons so they have the best fighters they have 
available.
    Senator Sullivan. You say the trends on training, you know, 
stick time, is getting better?
    Lieutenant General Rudder. For the F-18 community in 
particular. Maybe 8 hours a month was the average per pilot. 
Now it is up to 13.5. Marine Corps-wide, it is up to 17 hours.
    Senator Sullivan. Is that the same in the Navy, Admiral?
    Rear Admiral Conn. We are looking at about 14 to 16, but 
averages can be deceiving. The folks that are operating forward 
are getting over 30 hours a month. It is the folks that are on 
the bench that we need to get in the air.
    Senator Sullivan. But we all agree that we need to keep 
that trend line going in the right direction.
    Rear Admiral Conn. Absolutely.
    Senator Sullivan. Let me ask real quick a couple other 
questions.
    General, on the Osprey, I noted last year there were three 
hard landings. One of those crashes killed three marines in 
Australia. I know that that aircraft has a pretty solid track 
record. It started out wobbly, as we all know. But should we be 
concerned about its overall reliability? Are you concerned 
about its overall reliability? And is there anything we can do 
on that?
    Lieutenant General Rudder. No. I think the readiness 
funding that we are getting is going to allow us to initiate 
some readiness initiatives, for example. The aircraft itself is 
safe, and it has been safe for years. I think although a lot of 
those investigations are still being worked through, in the 
past, the ones that I will talk about, for the most part the 
aircraft was operating as designed.
    But back to your point, we have run these aircraft hard. 
They are, I will not say, the Marine Corps' centerpiece but 
they are DOD's centerpiece. They are on standby around the 
world as we speak, whether you are off the ship supporting 
special operators or supporting folks in both the CENTCOM, 
EUCOM [European Command], and AFRICOM [African Command] AOR 
[Area of Responsibility]. So we have run them hard.
    We have just put our two first aircraft--it will be three 
total this year--up into a common configuration, refit up in 
the Boeing plant up in Philadelphia, and we are going to refit 
most of our airplanes. We had 75 different configurations of 
that aircraft overall, the lot numbers. We are going to get 
that down to five. We are also going to redesign the cell 
because that is where most of our readiness issues are. 
Although the third multiyear will allow us to buy out, the Navy 
to buy in, the Japanese to buy in because they are going to get 
their first MV-22 this November, but now we are focusing a lot 
of our funds on readiness for that particular airplane.
    Senator Sullivan. Thanks.
    Let me ask one final question on training, a little 
parochial for me. I had the Commandant of the Marine Corps up 
in Alaska about a year and a half ago. We got a brief on 
finishing up a Red Flag exercise at Eielson. When we got there 
early on Sunday morning, there was I think 10 or 11 Marine 
Corps Hornets there. The squadron commander was with the 
aggressor squadron commander of the F-16 squadron out at 
Eielson. The Marine Corps squadron commander called it the best 
training he had ever done in his entire Marine Corps career. As 
you know, JPARK out there has airspace bigger than Florida.
    And yet, the Red Flag and even Northern Edge is kind of, in 
some ways, dominated by the Army and Air Force. We would 
welcome the naval aviation component represented here to come 
out to Red Flag exercises at JPARK, to Northern Edge exercises. 
That is great training to get a carrier battle group out there. 
I just want to put that in your ear. The Commandant heard that 
his squadron commanders view that as the best training they 
have ever done, and if you gentlemen can take a look, that 
would be good for the nation.
    Lieutenant General Rudder. We have sent many a squadron up 
there. And they do. I would agree with you. It is great 
training. We also sent a radar up there, a TPS-59, to a place 
called Bear Mountain, which actually lives up to its name my 
marines found out.
    Senator Sullivan. Thank you, Mr. Chairman.
    Senator Wicker. Senator Sullivan, can you see all the way 
to Russia from there?
    Senator Sullivan. Those marine and naval aviators probably 
fly closer to Russia than anybody. As you know, our F-22's up 
there intercepted I think at least Bear bomber incursions into 
U.S. airspace last year. So we are quite familiar with the 
Russians in Alaska.
    Senator Wicker. Thank you.
    Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Welcome to all of you and thank you for your long and 
distinguished service.
    Lieutenant General Rudder, I want to begin with your most 
important qualification. I seem to recall that you are a native 
of Canton, Connecticut.
    Lieutenant General Rudder. That is right, Senator.
    Senator Blumenthal. I hope you, if you still have family, 
give them my best there.
    The CH-53K King Stallion has been funded in this fiscal 
year. I was pleased to see that the Marine Corps requested to 
accelerate funding to increase the production ramp rate in 
fiscal year 2019 by one helicopter. I do not need to tell you, 
but maybe you should say for the record why you think the King 
Stallion is so important to the Marine Corps as a heavy lift 
capability.
    Lieutenant General Rudder. Yes. Thank you, Senator.
    This aircraft is mechanically and technologically amazing. 
It fits directly into the National Defense Strategy as far as 
heavy lift for distributed operations in whatever theater you 
are talking about.
    We have got about 800 hours on the airplane right now in 
the test sequence, and we are working through all reliability 
issues early on. We have front-loaded reliability and spares of 
this airplane. Quite honestly, it gets the marine and naval 
force off our amphibious ships or wherever you are in a manner 
which cannot be accomplished by any other aircraft in DOD. We 
have a KPP for 110 nautical miles lifting at 27,000 pounds. We 
have met that. As a matter of fact, we just lifted 36,000 
pounds with this airplane the other day. That is the highest--
now, I do not want to argue with our Russian counterparts 
because they have got a helicopter that might have lifted more 
than that. But in the free world, that is the largest life of 
any helicopter that we have done. It is performing to that 
level that allows us, as we look at the things that we are 
buying like the JLTV [Joint Light Tactical Vehicle]--and we 
just lifted one the other day that was 19,000 pounds. We are 
able to lift that with ease. We are able to dual lift HUMVEES, 
full-up armored HUMVEES. That capability allows maneuver on the 
battlefield.
    I think another thing I will say just for the logistic 
experts in here is we built that thing to be able to slide in 
four 63-L pallets. Those are the standard DOD pallets. You can 
park a C-17, C-130 tail to tail with this thing and just roll 
pallets off right into the back of this helicopter, and you 
cannot do that with any other system.
    Thanks for asking the question, Senator.
    Senator Blumenthal. I hate to put you on the spot, but 
ideally how many more of the CH-53K's would you like to see 
funded in fiscal year 2019?
    Lieutenant General Rudder. I think there is capacity. You 
know, as we always look at this thing, sometimes we are 
thinking about what is going to happen in 2018 and how that 
brings forward and whether we are going to overrun our 
interested partners. But I think there is capacity for two 
more.
    Senator Blumenthal. And I read about that test that you 
recently cited that involved lifting 36,000 pounds hovering 
for, I think, a 100 feet for about 10 minutes. And one of the 
comments made afterwards was that it was extraordinarily 
stable, indicating its safety. Is that consistent with your 
view?
    Lieutenant General Rudder. It is. It is a composite. It is 
fly-by wire. It is one of those helicopters you can fly hands 
off. And it is really going to help us in another area that we 
have challenges with over the years, and that is a degraded 
visual environment and conditions in the desert. That stability 
of that helicopter will help us greatly in that environment.
    Senator Blumenthal. I want to ask a more general question 
of all the witnesses talking about unmanned helicopters. What 
do you see as the future for this program? As you know, in 
Connecticut, Command is one of the companies doing research and 
development in this area. Could you give me your assessment of 
how you think that program is going?
    Vice Admiral Grosklags. Senator, I think that there is 
going to be an increased demand for unmanned vehicles of all 
types, not just for aircraft, but rotorcraft will be in that 
family. You are well aware we already have MQ-8's throughout 
the Navy, and we are spreading them through LCS. As we get into 
the future vertical lift discussion with our contemporaries in 
the Air Force and the Army, as well as the Marine Corps, I 
think we will see some of those future vertical lift platforms 
will also be unmanned or perhaps alternately manned depending 
on the mission that they need to execute.
    Senator Blumenthal. The reason we are not moving more 
quickly on that program.
    Vice Admiral Grosklags. On future vertical lift?
    Senator Blumenthal. Yes.
    Vice Admiral Grosklags. I think it is really a question of 
setting the requirements. As you know, we are still in the 
process across Navy and Marine Corps acquisition of 
recapitalizing. We are still buying new V-22's and new H-1's, 
and we just finished production of H-60's, as you are well 
aware. I think we need to now nail down the requirements for 
the next set of aircraft that we want to go after now that we 
have recapitalized our current inventory.
    Lieutenant General Rudder. I think there were two parts to 
that, but just to build upon the Command and KMACS, we bought 
two of those. The operational test squadron that I own, VMX-1 
in Yuma, Arizona--we own some. Once the 2018 budget gets 
signed, we are going to pull those out and begin doing more 
unmanned logistics resupply experimentation. We already had 
those two in Afghanistan for a time. We are going to pull those 
back out again with 2018 funds and build upon 2019 funds to fly 
those some more.
    Rear Admiral Conn. Sir, I think the funding levels in 2019, 
if they continue and it provides an opportunity to look at the 
right time to go to either an MHXX or a future vertical lift 
with respect to the Navy's rotor wing. And part of that may be 
unmanned teaming that is mapped to the 355-ship Navy that we 
are trying to build to.
    Senator Blumenthal. Thanks.
    Senator Wicker. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service.
    General Rudder, I will start with you. I want to get an 
update on the 94 airframes that are scheduled for Cherry Point, 
the 35B in, I believe, October followed by 22. Are they still 
on track?
    Lieutenant General Rudder. I think we have got to work 
through some depot modifications, but right now it has got to 
stay on track for that. FRC [Fleet Readiness Center] East is 
going to be a key point for the F-35B or F-35 in general for 
rework and depot level maintenance.
    Senator Tillis. Well, actually I wanted to get a quick 
update. We made progress in the prior NDAAs on the lift-fan 
facility, the security fence, all the prerequisites for 
standing up the lift-fan capability, which I guess today is 
gated by the Rolls Royce plant in Indiana, if I am not 
mistaken. Are we still tracking to have that capability down 
there along with building out our depot capabilities?
    Lieutenant General Rudder. We do. So lift-fan--MILCON was 
in the fiscal year 2018 budget, so we are waiting for that 
budget. That is one of those restrictions. But it is. I mean, 
that is in the budget. We funded it. We are going to build it.
    Typically once you get the plan and design done, which I 
believe is pretty close--typically with any MILCON [Military 
Construction] project, it is a 2-year build. Then you have got 
to get your tooling in there, which is 12 months and then 
qualification of your depot level artisans or your maintainers 
to be able to do that. But for lift-fan maintenance, 2021 is 
when we start to incur kind of a demand signal for lift-fan 
rework that will have to go back----
    Senator Tillis. Back?
    Lieutenant General Rudder. Just because we will not have 
the FRC East production. But that is not to say that we are not 
pressing forward to having that capability. This is back to, 
broadly speaking, F-35 and taking organic intermediate depot 
maintenance and getting it closer to the flight line. We must 
do that and we will do that.
    Senator Tillis. That also speaks to the question I think 
Senator King asked about the expense of operating these 
machines over time. Until we have that organic capability, you 
are going to pay a part of a premium. And I think that FRC East 
is going to be an important part of achieving that downward 
curve on maintenance over time. Do you agree with that?
    Vice Admiral Grosklags. Yes, sir, it absolutely will be. 
What we are doing working with the Joint Program Office right 
now, both ourselves and the Air Force are trying to accelerate 
the standup of the depot capability. Typically we would work 
that through the OEM, in this case Lockheed Martin, but we are 
actually trying a new way of doing it where we are going back 
to the actual vendor of the part, the component. In this case, 
you are talking about Rolls Royce. In other cases it may be 
whoever makes the wing or the EOTS or whatever component that 
happens to be on the aircraft to accelerate that standup 
capability.
    Senator Tillis. The reason I asked the question about the 
94 airframes is we had heard some of the deliveries to some of 
our partners shifting to the right. I wonder if you could infer 
from that some of our own domestic deliveries were delayed for 
supply chain or other reasons.
    Vice Admiral Grosklags. I do not know that we have had any 
aircraft delivery delays of that magnitude. The last three lots 
of aircraft across the board----
    Senator Tillis. So you do not see a general trend of 
deliveries shifting to the right.
    Lieutenant General Rudder. I think that if you look at the 
past couple years, we did not buy at the rate that we wanted 
to. Again, back to the budget scenario that is presented to us 
today, we are ramping back up again----
    Senator Tillis. Got it because you have the certainty.
    Lieutenant General Rudder. Our international partners--we 
believe there is all in. There are probably going to be a few 
more that jump in. There are a lot of countries involved for 
buying this----
    Senator Tillis. Well, anything we can do with the help and 
support of the efforts for FRC East, count me in. We even had 
the legislature weigh in. They appropriated money at the State 
level to kind of lay the groundwork for some of the outfit I 
think outside of the complex. And we will continue to work with 
you.
    My last question in the time remaining really relates to 
tactical aircraft. One of the last times that I was down at 
Cherry Point, we had a lot of aircraft on the flight line, and 
they were due for certain maintenance that I had described to 
me the challenge had less to do with the ability to repair the 
aircraft and more to do of having funding in the underlying 
accounts that were necessary for them to actually complete the 
repairs. Does any of this make sense to you all? Because we 
were trying to figure out if we have had the funding depleted 
over time, with the new spending are we replenishing those 
accounts and is that in any way going to improve getting the 
shortfall based on the requirement. I think we currently have a 
shortfall in the requirement for tactical aircraft. Is that 
right? For the Hornet in particular.
    Vice Admiral Grosklags. We would have to get specifics. The 
funding request in President's Budget 2019 basically gets the 
depots to the point where they can execute all the aircraft, 
specifically production requirements, with the exception of a 
handful of aircraft, and those are spread across a number of 
different type model series.
    For F-18 A through D specifically, today we have the 
requisite number of in-reporting aircraft. So the Navy and 
Marine Corps has a requirement for X number of airplanes on the 
flight line available to them. They have those, in other words, 
out-of-reporting versus in-reporting. The number of in-
reporting aircraft are what is required to support the fleet. 
We still have issues with those in-reporting aircraft in 
getting them mission capable, whether it be repairs, spares, 
whatever it happens to be.
    The same is largely true on the E/F side of the house. 
There is not a backlog of E's and F's Super Hornets in the 
depots either at this point in time. We had that challenge 2 
years ago, but we are past that point. And actually the 
requirement for F-18 A through D's drops dramatically over the 
next couple of years.
    Senator Tillis. Thank you.
    Senator Wicker. Thank you, Senator Tillis.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair, and thanks to the 
witnesses.
    Just a foundational question I have been sort of thinking 
about a little bit. All of our service branches, Marine, Navy, 
Army, Air Force, have aerial platforms, and we are in this 
development of a lot of unmanned aerial assets. As you see the 
development going forward, do you see kind of philosophical 
differences between the four service branches and the mixture 
of manned versus unmanned? Is the Air Force more wedded to 
human pilots and other branches less so? Or do you think the 
sort of mixture of manned and unmanned is something that is 
really more at the OSD level and there will be some consistency 
among the service branches?
    Lieutenant General Rudder. I think you are seeing the 
unmanned technology grow at a rate that is creating such 
opportunities that you are seeing, whether it is rotary wing 
unmanned like the MQ-8, obviously the Reapers, MQ-4--you are 
seeing this wave of unmanned technology kind of present the 
services with a lot of opportunities. And they are growing so 
fast that we are trying to keep up with it.
    As a matter of fact, we talked about this logistics 
capability for unmanned systems. That is something that we are 
pursuing. My counterpart in I&L is pursuing unmanned logistics 
resupply. We did it in Afghanistan. We are going to do it in 
the future.
    Very shortly, we will be pursuing with industry what you 
see in our budget this year with the MUX, the MAGTF [Marine Air 
Ground Task Force] unmanned systems. You are going to see us 
put out a group 5 requirement to industry to be able to fly off 
the amphibious ships. Right now, what we have is RQ-21, which 
is a group 3, smaller item that we use on a regular basis on 
every deployment now. So you are seeing that.
    And what is really exciting about the unmanned is--a lot of 
it is physics. If you have a runway, it is good. If you have it 
come off expeditionary, you got to have some sort of vertical 
lift. But the exciting part of this is, one, they are 
presenting ourselves with a way to network ourselves better, 
persistent networks. They are also presenting with the optics, 
the EO optics, the synthetic aperture radars a way to have this 
sensor out there in many different waveforms.
    In that sense, there are so many ideas out there that I 
think we are connected. Network-wise we are beginning to 
connect each other. But how you get to that and the ability to 
get up in the air is still technology, and every time we turn 
around, an industry partner comes up with a new idea. It is 
very exciting.
    Senator Kaine. Can I ask, Admiral Grosklags, as you are 
seeing the different service branches tackle it--and all the 
branches use aviation assets in slightly different ways--do you 
think there will be different philosophies about manned and 
unmanned?
    Vice Admiral Grosklags. The biggest philosophy difference I 
have seen today between us and the Department of the Navy and 
the Air Force is in how we operate them. I think as you are 
aware, the Air Force basically has a pilot in the loop for most 
of their unmanned systems. We have a pilot but we are not 
flying it. We are pushing buttons, so it is more of a touch 
screen. We are not even sure in the future we need aviators to 
do that. We need somebody with the right training to do that. 
It does not necessarily need to be somebody wearing pilot 
wings. That is a different philosophy from the Air Force right 
now.
    In terms of what we use the aircraft for, I am not sure 
there is a huge gap. If you look at the ISR assets that both 
services are fielding today, there is a lot of commonality 
between them not only in the airframe types, if you will, but 
also in the sensors that we are using.
    Senator Kaine. Let me ask this. It is kind of an extension 
on the question. Sometimes we can go for complexity and stumble 
over simplicity. The more we rely on unmanned and the more we 
rely on data link dependent weapon systems--there are fight 
environments that require restricted electronic emissions for 
safety or to be covert. How do we grapple with that security 
challenge with all these interlinked systems?
    Vice Admiral Grosklags. I will make two comments and then 
ask my colleagues here.
    One is that we are very intent on dealing with 
cybersecurity issues for our data links particularly for 
unmanned aircraft for the reasons you just stated.
    We also have a number of efforts underway for what I will 
generically call low probability of intercept data links, more 
secure data links that will help us prevent intrusion by, say, 
unwanted actors. I probably cannot go into a whole lot more 
detail in here. But those are things we are working across 
services.
    Senator Kaine. Admiral Conn, would you want to add in to 
that? I think my time is about up. But, yes, please.
    Rear Admiral Conn. I think the comment about low 
probability of intercept, low probability of detection is an 
important point to make. It is not only for the cyber 
protection but it is also not necessarily revealing your 
location. Even with the expanse of the Pacific on a maneuvering 
ship, there are some things you need to consider in terms of 
how you are going to operate.
    Senator Kaine. Thank you, Mr. Chair.
    Senator Wicker. Thank you, Senator Kaine.
    Senator Cotton?
    Senator Cotton. Thank you, and thank you, gentlemen.
    Admiral Conn, I would like to talk about antisubmarine 
warfare. Very stealthy diesel submarines continue to 
proliferate around the world. It is increasingly a platform of 
choice of a lot of friendly nations but some not so friendly as 
well. And then obviously China and Russia have very high-end 
capabilities. While our airborne platforms seem to be where we 
want them to be, the sonobuoy technology and the Mark T-4 
torpedo are pretty old school. Can you talk to us about those 
systems and the state of antisubmarine warfare if we were to be 
in a fight especially against high-end adversaries like Russia 
and China?
    Rear Admiral Conn. I think with the P-8, the existing P-3, 
our MH-60 Romeos and the capabilities they bring to bear in 
terms of finding, fixing, tracking, targeting, and engaging 
submarines, they have significant value in that mission set. As 
with all weapons, this is against a pacing threat. We will 
continue to look at what we need to modernize based on that 
pacing threat and make the investments that we need to make to 
ensure that we have the lethality we need in that specific 
mission set.
    Senator Cotton. Do you think we need to modernize the buoy 
and the torpedo technology?
    Rear Admiral Conn. I think for now we are good, but 
sometimes there are threats out there that move faster than we 
do. We just need to keep tune with the intelligence community 
and make the decisions at the right time.
    Senator Cotton. Admiral, you look like you would like to 
add something on that point.
    Vice Admiral Grosklags. Yes, if I might. If you are 
familiar with multi-static active coherent, it is a capability 
that we introduced to the P-8 a couple years ago. That is an 
initial capability for certain water conditions. That is a new 
family of sonobuoys.
    There is a follow-on effort that we have been trying to get 
started for the P-8 as part of their increment three, which is 
enhanced multi-static active coherent. That is particularly 
useful against diesel submarines and submarines difficult to 
detect, very quiet nuclear-powered submarines in deep water. We 
need the support of this Subcommittee and others in order to 
keep that funding in the budget because it is one of the areas 
for P-8 that is continually being marked as our budget comes 
forward.
    Senator Cotton. And by support of this Subcommittee, you 
mean money.
    Vice Admiral Grosklags. Yes, sir.
    Senator Cotton. Is there anything else you mean?
    Vice Admiral Grosklags. No, sir. That is it specifically. 
It is P-8 increment three and the two ECPs associated with it.
    Senator Cotton. We can usually manage money. I think we can 
do that. Thank you.
    General Rudder, when the last Prowler squadron sunsets in 
2019, the Marine Corps, as I understand, will have no more 
dedicated airborne electronic attack aircraft. Is that correct?
    Lieutenant General Rudder. That is correct.
    Senator Cotton. What is the Corps going to do through MAGTF 
EW system of systems to replace electronic surveillance, 
electronic attack capabilities that we currently have through 
the Prowler?
    Lieutenant General Rudder. The E/A-6B for many years, like 
all the electronic airborne platforms that we have, really has 
been a joint asset. The last deployment that it does in fiscal 
year 2018 will fulfill that mission. We have one squadron left 
with six airplanes.
    As far as looking at airborne high-end mission set for DOD, 
we have 160 Growlers currently. That is what the program is. 
When the E/A-6B goes away, much like we are doing at the 
weapons and tactics course that we are going to put on here in 
a few months, the Growlers are going to come down, and we are 
going to work with those particular airplanes.
    Aside from DOD airborne electronic warfare, electronic 
support, we are buying jamming pods called Intrepid Tiger 2 
that we are going to put on our AV-8B's, our F-18's, and 
actually are on our Hueys. And they are actually deploying on 
the MEUs [Marine Expeditionary Unit] jammer system.
    For a larger extent, the F-35B and C for that matter will 
provide not all the bands that it needs to provide as far as 
what the Growler can do and what the joint force can do, but 
that will be a very capable platform and that will fill a 
fairly significant gap really throughout DOD and certainly for 
the Marine Corps.
    For that aspect of electronic attack, I think we are going 
to be okay with the F-35B with our Growler counterparts.
    Senator Cotton. Thank you, gentlemen.
    Senator Wicker. Admiral Grosklags, the F-35 is an amazing 
aircraft. Looking back knowing what you know, was it a good 
idea? How much longer you got in the service?
    [Laughter.]
    Vice Admiral Grosklags. I do not know. It may depend on my 
answer.
    Yes, sir. I mean, we absolutely need that capability.
    Senator Wicker. Why do you not take a deep breath?
    Vice Admiral Grosklags. We needed that capability 10 years 
ago, quite honestly. We still need it today but we needed it 10 
years ago. And that is where my deep breath comes in. It is, I 
think, disappointing to all of us that it has taken us so long 
to get that aircraft into the hands of the fleet, 
notwithstanding the fact the Marines have had it out in their 
first deployment on a ship starting yesterday. But it has taken 
too long to get into the hands of our warfighters. That is the 
biggest issue I have with that program.
    Senator Wicker. When did we know that it was going to take 
so long? When should we have known?
    Vice Admiral Grosklags. Sir, I think it is like many of our 
programs where as they evolved over time, you incur a year 
delay, you incur another year delay, and it adds up over the 
years. In a case like this, it has been--and I do not even know 
anymore what the original initial operational capability was 
intended to be. But it has grown over time. The delays have 
just added on top of each other.
    Now, I will say, if I could, that since they re-baselined 
the program back in the 2012 time frame, they have largely 
maintained that schedule for the last 5 or 6 years. That was, I 
will say, a watershed event. And since then, they have----
    Senator Wicker. Explain that to us.
    Vice Admiral Grosklags. I believe it was 2012 time frame 
when they re-baselined the program. They reestablished all the 
intent for the IOC [Initial Operating Capability] for all three 
services. The totality of the program is probably within 6 to 
12 months of that reestablished baseline from 2012. I believe 
it was 2012.
    Senator Wicker. Admiral Conn, the NDAA for fiscal year 2017 
gave the Navy temporary reprieve from the requirement to 
maintain and fully staff 10 carrier air wings until additional 
deployment aircraft carriers can fully support a 10th carrier 
air wing or October 1st, 2025, whichever comes first.
    How does this budget request begin to lay the groundwork to 
fully equip and man the 10th carrier air wing? And are the 
procurement profiles outlined in the FYDP [Future Years Defense 
Program] for Super Hornets, Joint Strike Fighters, Hawkeyes, 
Growlers, Seahawks, and CMV-22's built with the requirement for 
10 air wings or only 9?
    Rear Admiral Conn. Sir, first and foremost, we will comply 
with the law. The 10 carrier air wing piece or having 10 
carriers to be able to host 10 carrier air wings is not going 
to be really available anytime soon. We are looking at the 1 
October 2025. We are going to march down that path.
    There will be opportunities with the 110 Super Hornets that 
are in the budget, 97 JSF [Joint Strike Fighter] that are in 
the budget. But those lines are still hot based on future 
investments that will probably need to be made, including 
manpower, but that is a little early to need right now with 
respect to that 2025 timeline, sir.
    Senator Wicker. Thank you.
    Senator Hirono?
    Senator Hirono. Thank you.
    Vice Admiral Winter, the head of the F-35 Joint Program 
Office, has laid out a strategy to modernize the F-35 by 
transitioning the F-35 software to an open systems architecture 
with new capabilities being released every 6 months or so.
    What is the Navy's plan for having the F-35 logistics 
software autonomic logistics information system, or ALIS, 
interface with other logistic systems within the Department of 
the Navy? Whichever one of you gentlemen can best answer this 
question.
    Vice Admiral Grosklags. Senator, I am not sure. Were there 
two questions there? Because the C2D2 [Continuous Capability 
Development Delivery] plan that you described, the 6-month 
software release, is both for ALIS [Autonomic Logistics 
Information System], as well as for the core aircraft software.
    Senator Hirono. Let us focus on the ALIS.
    Vice Admiral Grosklags. It is certainly our desire and our 
plan at some point to be able to interface ALIS with the rest 
of our naval aviation sustainment systems, DECKPLATE, AMSRR, 
those types of things that we use for all of our other 
aircraft.
    One of our challenges right now, quite honestly, is us, the 
government, gaining insight into the software and the coding 
within ALIS. Right now, much of that is held as proprietary, 
and we have very limited rights and access to the data coming 
out of ALIS. That is one of the challenges that Admiral Winter 
is tackling in his new role as head of the JPO [Joint Program 
Office].
    Senator Hirono. What kind of time frame are you thinking of 
in order to be able to interface these systems?
    Vice Admiral Grosklags. I would have to get back with you 
with an answer on that.
    Let me refer back to what I thought you were going to go 
with the question originally, which was for the core software 
on the aircraft. A similar scenario where we, the Air Force and 
the Navy, are ready to stand up our software sustainment 
activities, which could include ALIS software, as well as the 
operational software program in the airplane. We have been 
ready to do that for a couple of years. To date, we have not 
been given the access to the software required for our folks to 
get the required insight and understanding of how the software 
is developed and the code itself so that we can take on part of 
that responsibility from industry.
    Senator Hirono. Can someone? Do you have to get this 
access----
    Vice Admiral Grosklags. It is a contractual issue, Senator.
    Senator Hirono. Contractual issue.
    Vice Admiral Grosklags. Yes, ma'am.
    Senator Hirono. Are you working on that part?
    Vice Admiral Grosklags. That is something that Admiral 
Winter is working on in the JPO. And quite honestly, the plan 
for follow-on development in this 6-month period just so you 
have software releases will not be possible without the 
government getting additional insight from Lockheed Martin into 
the software development. It is not just about the sustainment. 
It is about our ability to quickly turn it, test it, and deploy 
it to the fleet. If we do not have that insight, it will not 
work.
    Senator Hirono. Well, keep working on it. We will check in 
with Admiral Winter.
    Admiral Grosklags, one of the fundamental questions that we 
face on a program like the F-35 is when we think we have fixed 
a problem and we are surprised to hear new, unpleasant 
information. And of course, would be completely risk-free, 
otherwise it would not be development. It would be production.
    I am especially concerned about the delays in regard to the 
software development. This is sort of in line with the other 
question too. The Marine Corps has declared initial operating 
capability, or IOC, for F-35 2 years ago with a version of the 
software called block 2B. And the Air Force declared IOC last 
year with a version of the software called block 3I with 
basically the same capability as the block 2F software.
    It is hard to keep track of all of these I have to say.
    [Laughter.]
    Senator Hirono. To achieve full operational capability for 
the Marine Corps and the initial operating capability for the 
Navy, the F-35 program will have to deliver a newer version of 
the software called block 3F. The Navy had been planning to 
declare IOC of the F-35C in 2018, and now it appears that the 
completion of operational testing could extend well into 2019.
    Admiral, will the Navy's IOC declaration be event-based, or 
is this declaration being driven by the calendar?
    Rear Admiral Conn. For the IOC declaration, it has been 
pretty consistent from the Navy that we are event- and 
capability-based not calendar-driven. And we are holding firm 
on that. Although IOT&E has slid to the right, we expect the 
IOT&E to begin in September, to be complete sometime----
    Senator Hirono. September of this year?
    Rear Admiral Conn. Correct, and to be complete early 2019. 
And when we get the results or get informed that the aircraft 
has met all the requirements set forth in the original 
requirements document in terms of how the aircraft tasks 
perform with the sensors and weapon systems that are on it, 
then we will declare IOC, which is plenty of time before fiscal 
year 2021 first deployment.
    Senator Hirono. Thank you. And you do not expect any 
further delays. You will meet the fiscal year 2021----
    Rear Admiral Conn. That is correct, Senator.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Hirono.
    Senator Kaine?
    Senator Kaine. Just briefly. I want to follow up, Admiral 
Grosklags, on your long pause when you answered the question 
about the F-35 worth it and your answer that we needed it a 
long time ago. It is demonstrating great capacity now.
    Just in terms of kind of lessons learned for us, I paid a 
lot more attention to the carrier programs than the F-35. I am 
from Virginia. You know, we build carriers. It seems like the 
delays there, as you look backward at them--one of the main 
reasons for the delay was, you know, it was not just a 
completely redesigned ship and a lot of the systems on the 
ship, arresting gear and the propulsion and communication 
systems, were also being all redone sort of at the same time. 
When you are building in class, you are trying to do it all at 
once, so we kind of learned some lessons from that.
    I am a little curious with the F-35. You were building an 
advance platform for the different service branches to spread 
costs and to improve interoperability, including a lot of 
allied nations and trying to get them to commit in advance to 
purchase this.
    As you look at the overall delay in the F-35, if you want 
to simplify it, was it more on the technical changes along the 
way or was it more trying to design a platform for all the 
different branches and also other nations? How would you 
characterize kind of the lesson learned from the delay that we 
might try to improve on going forward?
    Vice Admiral Grosklags. This is probably a personal 
opinion, but it was both. There were certainly technological 
hurdles with that aircraft largely driven by software. That has 
been the, I will say, Achilles' heel for the most part on a 
timeline.
    But there are also tremendous challenges brought to bare by 
the joint nature of the program and the influence of the 
partner nations, which is a good thing. It is a great 
partnership, but it creates a decision-making morass in some 
cases where it is very hard to get decisions made in a timely 
manner to move forward with the things that need to be changed 
or need to happen.
    Senator Kaine. Right. So you gained in interoperability. 
You probably gained in some cost sharing by dealing with other 
nations. But it makes the decision process, which sometimes we 
are not good at anyway, much more cumbersome.
    Vice Admiral Grosklags. Yes, sir. I will be honest. That is 
not just an issue with our international partners. Quite often 
that is just an issue internal to the United States Government 
between our services when we have different priorities and 
different requirements, and getting through the process of 
coming to a consensus that, okay, we are going to move forward 
collectively along this line is a very time-consuming process 
and made more so, as you noted, by bringing the partners into 
the discussion and making sure that we are also addressing 
their equities.
    Senator Kaine. It gives me a lot of thoughts about the ways 
we could look at programs like this in the future. But I really 
appreciate that answer.
    Thanks, Mr. Chair.
    Senator Wicker. General Rudder, let us talk about light 
attack. The Air Force appears to be on the cusp of procuring a 
fleet of light attack aircraft to conduct operations against 
violent extremist organizations in a more fiscally sustainable 
way to free up their fighter aircraft to focus on training for 
the high-end fight.
    Has the Marine Corps considered pursuing a light attack 
aircraft of its own? And why or why not?
    Lieutenant General Rudder. Thank you, Senator.
    We have been watching, tracking, and participating with the 
Air Force on this same program. As a matter of fact----
    Senator Wicker. Participating?
    Lieutenant General Rudder. We have a pilot ready to go in 
case they were to deploy that airplane, and he is actually 
anxious to go. But that is another story.
    We are looking at this right along with the Air Force. And 
I think if you look at what that particular turbo prop platform 
is doing around the world as far as foreign military sales, it 
is doing well in some of those environments. I think in that 
aspect, it is very good. We are going to evaluate. We are going 
to continue to look at it. What we have for our light attack is 
our H-1 Zulu that can carry 16 Hellfire. We are kind of happy 
with the physics and the dynamics of what that airplane can do.
    But back to your point, we are going to continue to track 
this particular program. The one thing that we have to always 
consider when it connects to the National Defense Strategy is 
can I self-deploy this airplane and will it go on a ship. And 
some of those things and as far as that environment, all the 
airplanes--and we went through with the OB--10 years ago with 
survivability and ability to go on ships and how it operates 
with the marine air-ground task force. We have to take that in 
kind of a holistic account. That is some of the things we look 
at when we talk about that particular airplane.
    Senator Wicker. Could the Air Force light attack go on a 
ship?
    Lieutenant General Rudder. They have prototype aircraft 
today that they are actually flying and testing, and we are 
tracking to see what they do on that. We are actually tracking 
some variants that they have actually put into the field with 
some of our partner countries.
    Senator Wicker. Would it not save money for the Marine 
Corps?
    Lieutenant General Rudder. It depends what variant you are 
talking about.
    Senator Wicker. Well, because if it would not save money, 
there is no point in discussing it. Is there?
    Lieutenant General Rudder. I think in the mission sets, if 
I were to review what we do in the world today--for example, we 
have an F-18 squadron in CENTCOM theater right now. When it 
takes off, it has a defensive counter-air mission, a counter-
UAS mission, and it is going to drop some fairly significant 
weapons in support of ground forces on the ground. And it has 
got to get there fairly quick out of an airfield that is not 
necessarily close to the battlefield.
    In Asia, in that type of fight, I am not sure it is 
survivable. If you are talking about Africa special operations 
and some of the countries that is in right now, I think you 
have a cost effective means to do that. For our TACAIR 
[Tactical Air] right now and where we are, we are not 
necessarily in an environment where that particular, as it 
stands today, fits in there. Yet, for our partner nations that 
are using it, it is doing quite well.
    Senator Wicker. Well, further comparing what you all are 
doing to the Air Force, Admiral Conn, the Air Force has opted 
to cancel its JSTARS [Joint Surveillance Target Attack Radar 
System] recapitalization plan, arguing that the proposed 
replacement was not able to survive a high-end fight. The Navy, 
on the other hand, has invested heavily in the E-2D advanced 
Hawkeye and P-8 Poseidon, which both have similar vulnerability 
concerns as the proposed JSTARS recap program.
    So what about this? What is the Navy's approach and why 
have you seemingly come to a different conclusion from the Air 
Force?
    Rear Admiral Conn. Sir, I cannot answer on behalf of the 
Air Force.
    I will say for the E-2D and the airborne early warning 
mission that it does as an elevated sensor up and away from the 
carrier, there is nothing I am aware of right now that can 
replace that capability with a persistent capability providing 
airborne command and control, as well as some of the higher 
fidelity aspects of the E-2D and how it contributes to kill 
chains. I am not aware of anything else that can provide it.
    Senator Wicker. Okay, but does this have any affect on the 
Navy and Air Force jointly executing airborne battle management 
in a high-end fight?
    Rear Admiral Conn. No, sir, I do not believe it does.
    Senator Wicker. Thank you.
    Two more questions.
    Admiral Conn, give us an update on efforts to replace the 
Navy's TH-57 training helicopters.
    Rear Admiral Conn. To replace the 115 TH-57 helicopters, we 
are taking a new approach. We are going for commercial off-the-
shelf aircraft that is going to be competed, and we are going 
to, then after the competition, buy those aircraft. And we are 
still working through the actual maintenance plan, 
certification plan. But that is the approach that we are 
taking. We are not building a new military aircraft. We are 
going to take a commercial aircraft and put it into that 
mission of training the next generation of rotary wing pilots.
    Senator Wicker. What is your schedule on that, sir?
    Rear Admiral Conn. You will see that next year, sir.
    Senator Wicker. Finally, Admiral Conn and General Rudder, 
as the Department focuses increasingly on the high-end fight, 
how important are adequate training ranges and supporting 
equipment in ensuring our aviation forces are adequately 
prepared? Are there areas where our training infrastructure 
needs to be improved in terms of airspace, equipment, and other 
elements?
    Please describe efforts by the Navy and Marine Corps to 
increase and improve the use of live, virtual and constructive 
LVC training and how these efforts are interoperable within and 
among all the services.
    Who wants to go first? Admiral Conn?
    Rear Admiral Conn. In terms of investments in the training 
environment of the future, there are four key attributes to any 
successful training program. The first one is you have to have 
an environment itself that is reliable, realistic, relevant, 
and recordable. That could be a live environment or it can be a 
virtual constructive environment in which to train it.
    Then you need a syllabus that has defined standards of 
performance that you measure against.
    Then you need an instructor to teach that syllabus to those 
standards in that environment.
    And then you need truth data to be able to record the event 
just like NFL [National Football League] plays or NFL game 
tapes where they look not only at the offense and defense but 
down to specific players on the field. That is the capability 
that we are developing.
    In terms of the live side, we do need to upgrade our 
ranges, specifically the Fallon range training complex, getting 
it out of the Cold War era and into the 21st century, and those 
investments are starting to be made.
    In terms of building a virtual constructive environment 
where we do our high-end training, that is being done at Fallon 
as well in an integrated training facility. We are doing that 
for a number of reasons. One, our live ranges themselves. We 
are running out of real estate measured in terms of the 
physical size and space of those ranges and our ability to 
access and control spectrum the way we are going to do it in 
combat.
    The other part of that is from OPSEC. There are things we 
want to do and things we must train to, but we do not want to 
do it in the open air. That is why we are making those 
investments in integrated simulator facilities with F-18's, 
with F-35's, with E-2D, with Aegis, with MQ-25 to be able to 
train to the high-end fight at an integrated level.
    Senator Wicker. General, what do you say?
    Lieutenant General Rudder. To build upon that, just for 
airspace in general, we have to protect it as much as we can. 
We have encroachment issues around the world quite honestly and 
certainly in the United States. We need to protect the ranges.
    The F-35 brings a different dimension in the ranges where 
you would take off in an F-35 or a legacy aircraft, you would 
fly within a certain distance from each other. You would fly 
with a wingman that you could either see or he is not that far 
away, you might be 10 or 15 miles apart between airplanes and 
maybe 50 or 60, 70 miles apart between a flight of four. That 
type of airspace needs to be protected.
    The ranges, our weapon systems for the range of our weapon 
systems that require the safety zones required for drop zones--
we need to be able to protect the air-to-ground piece as well 
because we still have a requirement for the high-end fight. 
Although we talk a lot about air-to-air, we talk a lot about 
this maritime environment, we have to be able to train with our 
maneuver elements on the ground.
    Finally, for new systems, we rely on places like Fallon or 
places like Northern Edge, that exercise in Alaska, or Red Flag 
or Nellis or China Lake for them to have the most updated 
systems. We have to maintain updated systems. So when our 
airplanes fly against a high-end threat, they are actually 
flying against those high-end systems.
    The simulation. I think all the services are in the same 
drive to make sure that we have our simulators that are 
networked together. Even on MEU, marine expeditionary unit, 
missions today, we can actually fly in Cobras, Hueys, V-22's, 
AV-8B's, and we can link those systems together to be able to 
fly those missions. We endeavor to do that with the F-35 and 
all our strike assets. But that high-end fight is something 
that, as a matter of fact, we are going to do it in Fallon and 
we are going to do it at Red Flag, and we are practicing that 
at our next weapons and tactics course.
    Senator Wicker. All right. We are going to try to give you 
a Seapower title that gives you what you need.
    Admiral Grosklags, do you have anything you need to add in 
this, your final testimony before this Subcommittee? You have 
the last word, sir.
    Vice Admiral Grosklags. Sir, I will only say--I will 
reiterate what I said at the start, that the additional funding 
that is likely to be made available in fiscal year 2018 and 
fiscal year 2019 is absolutely critical to increasing our 
lethality, but just as critical to making sure that we can get 
our readiness back up on step because we can only be lethal if 
we have ready, available airplanes. That is absolutely 
critical.
    We appreciate the Congress's in general but this 
Subcommittee's, in particular, support for getting there. I 
would just again reiterate that we are almost halfway through 
fiscal year 2018, and we need to get those dollars available to 
us as soon as possible so we can execute them as efficiently 
and effectively as possible.
    Thank you.
    Senator Wicker. Well, I hope we can have a signing ceremony 
the evening of March 23rd.
    Thank you, gentlemen. Appreciate it.
    This hearing is closed.
    [Whereupon, at 4:09 p.m., the Subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Roger F. Wicker
                       national defense strategy
    1. Senator Wicker. Vice Admiral Grosklags, Rear Admiral Conn and 
Lieutenant General Rudder, how does the President's Budget request for 
Naval and Marine Corps aviation align with, and support, the National 
Defense Strategy and its emphasis on preparing for the high end fight? 
Please provide specific examples.
    Vice Admiral Grosklags and Rear Admiral Conn. The DON President's 
Budget 2019 budget request aligns to the current National Defense 
Strategy which identifies a more complex global security environment 
characterized by overt challenges to the current international order 
and the resurgence of long-term, strategic competition between nations. 
Our budget request reflects this national security environment and 
prioritizes the high-end fight. This is demonstrated by our request for 
appropriations that procure advanced fighter aircraft, expands the 
assimilation and teaming of manned and unmanned systems, integrates 
advanced platforms, sensors, networks, and the electromagnetic 
spectrum, and advances the development & procurement of long-range 
strike weapons that provide the necessary military advantage over those 
challenging the global posture.
    Specific examples include procurement of additional 5th generation 
F-35 aircraft, development of the first carrier-based Unmanned Aerial 
System; improvements to the E-2D and kill-chains, initiation of a new 
start for a next generation long-range strike weapon (NGLAW), 
procurement of a new advanced ASuW weapon (LRASM), and development of 
A2/AD improvements for as Tactical Tomahawk.
    Our modern expeditionary force requires fixed-wing aircraft capable 
of flexible basing ashore or at sea in support of our Marine units. A 
top priority is the F-35B and F-35C. Other priorities for aviation 
include investing in lethal, persistent, multi-role intelligence, 
surveillance, and reconnaissance (ISR) Vertical Take-Off and Landing 
(VTOL) UAS like our MAGTF Unmanned Expeditionary (MUX) program; 
modernizing key lift capabilities with the CH-53K; supporting 
capabilities such as electronic attack; implementing robust strike 
weapons programs; creating manned-unmanned teaming capabilities; and 
pursuing other sustainable modern aviation platforms ultimately 
increasing our competitive advantage against current rivals.
    Lieutenant General Rudder. The DON President's Budget 2019 budget 
request aligns to the current National Defense Strategy which 
identifies a more complex global security environment characterized by 
overt challenges to the current international order and the resurgence 
of long-term, strategic competition between nations. Our budget request 
reflects this national security environment and prioritizes the high-
end fight. This is demonstrated by our request for appropriations that 
procure advanced fighter aircraft, expands the assimilation and teaming 
of manned and unmanned systems, integrates advanced platforms, sensors, 
networks, and the electromagnetic spectrum, and advances the 
development & procurement of long-range strike weapons that provide the 
necessary military advantage over those challenging the global posture.
    Specific examples include procurement of additional 5th generation 
F-35 aircraft, development of the first carrier-based Unmanned Aerial 
System; improvements to the E-2D and kill-chains, initiation of a new 
start for a next generation long-range strike weapon (NGLAW), 
procurement of a new advanced ASuW weapon (LRASM), and development of 
A2/AD improvements for legacy weapons as Tactical Tomahawk.
    Our modern expeditionary force requires fixed-wing aircraft capable 
of flexible basing ashore or at sea in support of our Marine units. A 
top priority is the F-35B and F-35C. Other priorities for aviation 
include investing in lethal, persistent, multi-role intelligence, 
surveillance, and reconnaissance (ISR) Vertical Take-Off and Landing 
(VTOL) UAS like our MAGTF Unmanned Expeditionary (MUX) program; 
modernizing key lift capabilities with the CH-53K; supporting 
capabilities such as electronic attack; implementing robust strike 
weapons programs; creating manned-unmanned teaming capabilities; and 
pursuing other sustainable modern aviation platforms ultimately 
increasing our competitive advantage against current rivals.
                               dod budget
    2. Senator Wicker. Vice Admiral Grosklags, Rear Admiral Conn and 
Lieutenant General Rudder, congress recently passed a 2-year budget 
agreement providing additional funds to the Department of Defense in 
fiscal years 2018 and 2019. How will the additional funding aid Navy 
and Marine Corps aviation's modernization and readiness restoration and 
ability to meet the National Defense Strategy? Please provide specific 
examples.
    Vice Admiral Grosklags and Rear Admiral Conn. All of Congress's 
efforts to provide the Navy and Marine Corps stable and predictable 
funding allow us to maximize every taxpayer dollar and increase our 
purchasing power. With a two-year budget, it will enable the DON to 
improve our current force posture, modernize key capabilities and 
accelerate technology advancements. Each of these key areas contributes 
to and supports the National Defense Strategy. With regard to our force 
posture, stable resources help us recover readiness by funding flight 
hours, depot maintenance and procurement of spare/repair parts. With 
regard to modernization and technology advancements, predictable 
resources enable the maturation of multiple weapon system modernization 
programs, to include F/A-18E/F BLK III upgrades; F-35 Continuous 
Capabilities Development and Delivery upgrades; incremental updates to 
Next Generation Jammer; updates to the MQ-4 Triton to a Multi-Int 
configuration and modernization of various strike weapons such as 
LRASM, Tomahawk and Harpoon BLK II+.
    Lieutenant General Rudder. Congress's efforts to provide the Navy 
and Marine Corps stable and predictable funding allows the Department 
to maximize every taxpayer dollar and increase our purchasing power. 
The 2-year BBA and associated budget increase enables the DON to 
simultaneously improve our current force posture, modernize key 
capabilities and accelerate technology advancements. Each of these key 
areas contributes and supports the National Defense Strategy. With 
regard to our force posture, stable resources help us recover readiness 
by funding flight hours, depot maintenance and procurement of spare/
repair parts. With regard to modernization, predictable resources 
enable modernization of key capabilities by procuring platforms like F-
35 and CH-53K. Advancements in technology include maturation of 
multiple weapon system modernization programs, such as lethality and 
survivability upgrades for legacy F/A-18A-D and BLK III upgrades for F/
A-18E/F; F-35 Continuous Capabilities Development and Delivery 
upgrades; incremental updates to Next Generation Jammer; updates to the 
MQ-4 Triton to a Multi-Int configuration, investments into MAGTF 
Unmanned eXpeditionary (MUX), and modernization of various strike 
weapons such as LRASM, Tomahawk and Harpoon BLK II+.

    3. Senator Wicker. Vice Admiral Grosklags, Rear Admiral Conn and 
Lieutenant General Rudder, is the President's Budget sufficient to meet 
the needs of Navy and Marine Corps aviation in terms of readiness and 
modernization? What are the primary budgetary challenges you are facing 
in the wake of the recently agreed to 2 year budget deal?
    Vice Admiral Grosklags and Rear Admiral Conn. The current 
President's Budget 2019 budget is sufficient to meet Naval Aviation 
readiness and modernization goals. The challenge is that multiple years 
of insufficient resources cannot be corrected in one or two budgets. 
The DON requires stable, predictable funding over multiple years to 
achieve sustained positive results.
    Lieutenant General Rudder. The current President's Budget 2019 
budget is sufficient to meet Naval Aviation readiness and modernization 
goals. The challenge is that multiple years of insufficient resources 
cannot be corrected in one or two budget cycles. The DON requires 
stable, predictable funding over multiple years to achieve sustained 
positive results.

    4. Senator Wicker. Vice Admiral Grosklags, Rear Admiral Conn and 
Lieutenant General Rudder, the Defense budget request includes zero 
real growth in spending from President's Budget 2020 to 2023.
    Given the state of readiness and military capabilities today, how 
will Navy and Marine Corps aviation sufficiently rebuild to meet the 
requirements of the National Defense Strategy after fiscal year 2019, 
without additional funding?
    If the Department is responsible for funding internal savings to 
help pay for additional capability and capacity, please provide 
specific examples of what those savings will be in the aviation 
accounts.
    Vice Admiral Grosklags and Rear Admiral Conn. The National Defense 
Strategy calls for sustained and predictable funding over multiple 
years to improve readiness, restore program balance and build capacity/
lethality. Future budget requests will be informed by ongoing or 
pending DON and DOD weapon system investment assessments that will 
identify out-year real growth requirements.
    To achieve the desired savings, the Department will create new 
initiatives and/or emulate ongoing self-funding initiatives, to 
include: divestiture of less capable legacy capabilities (e.g. early 
Navy divestiture of legacy F/A-18 A-D Hornet aircraft), block-buys and 
multi-year procurement contracts (e.g. F-35 block-buy and KC-130J 
multi-year procurement contract), repurposing of existing capabilities 
(e.g. V-22 for the Carrier On-Board mission vs. development of a new 
aircraft), and application of accelerated acquisition processes to 
reduce weapon system development cycle-times (e.g. the Long-Range Anti-
Ship Missile (LRASM) accelerated acquisition program). The projected 
estimated cost savings and/or cost avoidance amounts will be determined 
via financial analysis as each initiative is matured.
    Lieutenant General Rudder. The National Defense Strategy calls for 
sustained and predictable funding over multiple years to improve 
readiness, restore program balance and build capacity/lethality. Future 
budget requests will be informed by ongoing or pending DON and DOD 
weapon system investment assessments that will identify out-year real 
growth requirements.
                            industrial base
    5. Senator Wicker. Vice Admiral Grosklags, how would you describe 
the state of the industrial base that supports Navy and Marine Corps 
aviation programs? What must this Subcommittee be particularly mindful 
of related to the industrial base?
    Vice Admiral Grosklags. As delineated in DOD's 2017 industrial 
capabilities report to Congress, overall, the general defense industry 
remains viable and relatively competitive. The aircraft sector is 
financially strong and defined by robust teaming and supplier 
relationships. The long-term outlook for the defense aircraft market is 
stable, although world-wide budget issues continue to drive short-term 
uncertainty. The large U.S. commercial aircraft and engine industries 
are healthy and have stable backlogs over the next decade. Military 
sales are more difficult to project as numerous governments have 
announced plans to reduce defense spending. Overall, the Aerospace and 
Defense (A&D) sector supporting Navy and Marine Corps aviation programs 
continues to outperform the broader markets. Major A&D prime system 
integrators (and significant subsystem suppliers) are profitable, 
showing positive Earnings Before Interest Taxes Depreciation and 
Amortization (EBITDA) margins.
    A key risk to the A&D sector is attracting and retaining a 
qualified workforce. The need for talent across the defense industrial 
base is recognized by both industry and government as a major concern. 
Personnel shortages in hardware and software design/test continue due 
to increasing retirements, limited platform knowledge transfer, and a 
high demand for software engineers that is outstripping supply. A 
highly skilled workforce is essential to basic research, future weapon 
system development, advanced manufacturing/robotics, the progress of 
affordable sustainment strategies for complex Naval Aviation weapon 
systems and overall innovation in the A&D sector.
    The Subcommittee must be particularly mindful to the fact that a 
healthy defense industrial base is essential to U.S. economic strength 
and U.S. national security--and losing our innovation and technological 
edge would have far-reaching negative national security implications.
             multiyear procurement or block buy authorities
    6. Senator Wicker. Vice Admiral Grosklags and Lieutenant General 
Rudder, are there programs that would benefit from cost reduction 
initiatives, such as Multiyear Procurement or block buys, that do not 
currently have these authorities?
    Vice Admiral Grosklags. The E-2D and F/A-18/EA-18G programs have 
both submitted legislative proposals requesting multiyear procurement 
authority from Congress. The AIM-9X program is studying the viability 
of a future multiyear. The Department of Navy is also participating in 
a proposed multiyear procurement legislative proposal submitted by the 
Air Force for the C-130 program.
    Lieutenant General Rudder. If conditions permit, an MV-22 7-Year 
Multi-Year contract would save the DON 8$152 million across the FYDP, 
allow us to concentrate on improving readiness in the near years (which 
is critical), and make the program more attractive to our foreign 
partners that are considering the aircraft. If we were forced to buy to 
the POR inside the 5 year multi-year, we would have to balance the 
spending increase with our planned CCRAM and nacelle improvement 
readiness initiatives.
                         physiological episodes
    7. Senator Wicker. Vice Admiral Grosklags, please describe the 
Navy's most recent efforts to mitigate physiological episodes.
    Is a limited number of vendors hindering equipment modification 
efforts? Can industry produce enough specialized components?
    Vice Admiral Grosklags. The Navy's most recent efforts to mitigate 
physiological episodes (PEs) consist of a multi-faceted approach (warn 
the aircrew, fix the machine, protect and prevent) involving close 
coordination and cooperation between a broad swath of internal and 
external partners, including subject matter experts from United States 
Air Force (USAF), National Aeronautics and Space Administration (NASA), 
Federal Aviation Administration, industry, academia, medical, and dive 
communities. The Navy and Marine Corps are directly targeting the 
effects of PEs in our F/A-18/EA-18G and T-45 aircraft. Formed by the 
result of a Comprehensive Review ordered by the Chief of Naval 
Operations (CNO), the Physiological Episode Action Team (PEAT) serves 
as the singular source of coordination between the CNO, Commander, 
Naval Air Forces, Naval Air Systems Command (NAVAIR), Bureau of 
Medicine and Surgery, Naval Safety Center, private industry, and 
academia. Most of the PEs have occurred in two basic aircraft, the T-45 
Goshawk and the F/A-18 (to include F/A-18 A-D Hornet, F/A-18 E/F Super 
Hornet, and EA-18G Growler). While there is cross-talk between all 
tactical air and training platforms on common problems and solutions, 
the strategies for T-45 and F/A-18 are slightly different and described 
separately below.
    In the T-45, a variety of actions have been undertaken to address 
the occurrence of predominately hypoxia-type PEs. Training and 
procedures were updated to optimize crew posture for PE recognition, 
response, and avoidance. Air sampling using sorbent tubes and 
hydrocarbon detectors were installed on aircrew to monitor breathing 
gasses, and contaminant levels have shown values less than that of 
ambient air, and are well below Occupational Safety and Health 
Administration standards. CRU-123 solid state oxygen monitoring units 
were fielded, which provide aircrew alerting if delivery pressure 
falls, and its data recording capability have provided invaluable 
insight into the performance of the T-45 oxygen system while increasing 
system confidence with the aircrew. A draft request for proposal for a 
new oxygen concentrator was released, the GGU-25, and it will include 
increased reliability and data logging, delivering an increase in 
capability over the 1980s era concentrator that is currently in the T-
45. Additional redundancy will be provided by the implementation of an 
Automatic Backup Oxygen System.
    In the F/A-18, the PEAT believes that hypoxia and decompression 
events are the two most likely causes of recent physiological episodes. 
Because symptoms related to pressure fluctuations, hypoxia and 
contamination overlap, discerning a root cause is a complex process. A 
variety of actions have been undertaken to address the occurrence of 
PEs in the F/A-18 to include: new maintenance rules for handling the 
occurrence of specific Environmental Control System (ECS) built-in test 
faults; forward deployment of transportable recompression systems to 
immediately treat aircrew in the event they experience pressure-related 
symptoms; mandatory cabin pressurization testing on all F/A-18 aircraft 
every 400 flight hours; mandatory ECS pressure port testing is 
performed on all F/A-18A-D aircraft every 400 flight hours; improved 
overhaul and aircraft servicing procedures for ECS components; revised 
and expanded emergency procedures; annual hypoxia awareness and 
biennial dynamic training using a Reduced Oxygen Breathing Device to 
experience and recognize hypoxia symptoms while operating an aircraft 
simulator. In addition, aircrew are provided portable barometric 
recording watches to alert them when cabin altitude reaches preset 
thresholds or exceeds fluctuation thresholds. Internal components of 
the F/A-18 On-Board Oxygen Generation System (OBOGS) have been 
redesigned to incorporate a catalyst to prevent carbon monoxide from 
reaching the pilot and provide an improved capability molecular sieve 
material (oxygen filter). These new OBOGS components have been 
installed in 92 percent of the in-service F/A-18 fleet so far. F/A-18 
A-Ds are undergoing a two-phased ECS overhaul; Phase 1 is the 
incorporation of Air Frame Bulletin (AFB)-821 to replace seven of the 
most critical ECS components; Phase 2 is currently under development 
and is intended to replace valves, duct lines, couplings and brackets 
to restore ECS system integrity and provide aircrew with a stable 
cockpit environment.
    Common (F/A-18 and T-45) actions include: an increased capacity for 
the emergency oxygen bottle is under contract for both F/A-18 and T-45; 
leveraging sorbent tube assembly data to identify breathing gas 
contaminants; and construction of an ECS laboratory. To date, the 
levels of contaminants measured in OBOGS breathing gas are well below 
published limits known to cause human impairment. SlamStick data is 
downloaded post-flight and synchronized with aircraft maintenance data 
for rigorous analysis, increased aircrew awareness, and post PE 
investigation. Future projects include systematic evaluations of 
technologies to monitor and detect physiological symptoms for both F/A-
18 and T-45.
    Across the Naval Aviation Enterprise, every effort has been made to 
share information and rapidly develop a shared solution. Data 
management and collection has been enhanced through initiation of a new 
data management plan. New test procedures have been developed with 
OBOGS and ECS bleed air contaminant testing conducted on fleet aircraft 
to establish measurement thresholds and foment a predictive system 
performance methodology. Also, new test sets have been developed to 
assess oxygen system degraded performance. As stated in the report 
commissioned by NASA, PEs happen to people, not machines. The most 
capable experts in aeromedical research have been consulted. PMA-202, 
who specializes in aviation life support and human systems at NAVAIR, 
is working with Naval Aviation Medical Research Unit--Dayton (NAMRU-D) 
to actively research multiple topics where medical understanding is 
immature. NAMRU-D is a key member of the Aviation Environmental Safety 
Advisory Board (AESAB), tasked with providing recommendations on 
multiple physiological issues. NAMRU-D enjoys a strong partnership with 
the USAF 711th Human Performance Wing (HPW) providing complementary 
capabilities for aeromedical research while supporting cross service 
collaboration in both research and experimentation. Oxygen cross talks 
bring specialists from NAVAIR, the 711th HPW and academia altogether to 
share research and expertise to optimize life support systems for all 
of our platforms.
    Based upon the Navy's mitigation strategy, no supplier constraint 
has been identified to date that would impede equipment modification 
efforts, and industry can produce enough specialized components.

    8. Senator Wicker. Vice Admiral Grosklags, how much funding does 
the budget request include for addressing physiological episodes in 
Navy and Marine Corps aircraft? Please describe specific examples of 
items or efforts that are funded in the budget.
    Vice Admiral Grosklags.

APN, P-1 #30, PE/BLI 0204136N/0525 (APN5)
APN, P-1 #45, PE/BLI 0804745N/0569 (APN5)
APN, P-1 #48, PE/BLI 0204161N/0575 (APN5)
APN, P-1 #64, PE/BLI 0204161N/0605 (APN6)
OPN, P-1 #92, PE/BLI 0204161N/4268
RDTEN, R-1 #103 PE/PU 0603208N/3367
RDTEN, R-1 #106 PE/PU 0604264N/0606
RDTEN, R-1 #219 PE/PU 0204136N/1662
OMN, 1804, PE/LI 0708012N/1A4N (PRL)
OMN, 1804, PE/LI 0702207N/1A4A

 
----------------------------------------------------------------------------------------------------------------
                                             Fiscal year   Fiscal year   Fiscal year   Fiscal year   Fiscal year
 President's Budget 2019        APPN          2019 ($M)     2020 ($M)     2021 ($M)     2022 ($M)     2023 ($M)
----------------------------------------------------------------------------------------------------------------
Aircrew Systems
  1A4A                    OMN                      11.4           5.5           0.0           0.0           0.0
  PE 0604264N             RDTEN                     2.7           2.8           2.5           1.5           1.4
  BLI 4268                OPN                       2.2           2.0           2.0           3.9           0.7
  BLI 0575                APN-5                    15.9          38.3         38.05          41.7           2.8
----------------------------------------------------------------------------------------------------------------
F/A-18
  1A4N                    OMN                      13.3          13.7          14.0          14.4          14.7
  PE 0204136N             RDTEN                    28.0           2.5           1.5           1.5           1.5
  BLI 0525                APN-5                    30.1          25.8          15.8          24.9          16.8
----------------------------------------------------------------------------------------------------------------
T-45
  A4N                     OMN                      13.3          13.5          13.7          14.0          14.0
  PE 0603208N             RDTEN                     6.1           5.1           0.8           0.8           0.8
  BLI 0569                APN-5                    40.4          48.3           5.4           1.6           1.6
  BLI 0605                APN-6                     8.7           5.1           0.0           0.0           0.0
----------------------------------------------------------------------------------------------------------------

      
    Specific examples of items or efforts that are funded in the budget 
include Enhanced Emergency Oxygen System (EEOS), Automatic Backup 
Oxygen Systems (ABOS), flight tests, pilot physiological testing, and 
data analytics.

    9. Senator Wicker. Vice Admiral Grosklags, are T-45s back flying at 
their full envelope?
    Vice Admiral Grosklags. Yes, the T-45 is flying at full envelope. 
The fleet returned to full envelope On-Board Oxygen Generation System 
(OBOGS) on 18 July 2017 with fully reconfigured OBOGS aircraft.

    10. Senator Wicker. Vice Admiral Grosklags and Lieutenant General 
Rudder, have the Navy or Marine Corps experienced any physiological 
episodes in their F-35s recently? What is being DONe to combat 
physiological episodes in Navy and Marine Corps F-35s?
    Vice Admiral Grosklags. Since 2012, there have been a total of 15 
physiological episodes that have occurred on F-35Bs and F-35Cs, with 
seven events transpiring on the F-35B and eight events on the F-35C (as 
tracked by the Naval Safety Center). The most recent PE event happened 
on August 24, 2017 at MCAS Beaufort, SC and was the result of a pre-
existing condition with the pilot.
    To combat PEs on Navy and Marine Corps F-35s, a thorough 
understanding of their root cause(s) must be obtained prior to 
developing potential changes to the aircraft and/or life support 
system. It must be noted that the life support system on the F-35 is 
the same on all F-35 models. Extensive laboratory testing of Onboard 
Oxygen Generation System (OBOGS) units involved in May 2017 Luke AFB 
PEs on F-35A models recently completed in February 2018 at Wright-
Patterson AFB. The tests confirmed that the OBOGS was not a contributor 
to PEs on the F-35. The testing demonstrated a high level of 
repeatability and statistical robustness, providing a high level of 
confidence in the following conclusions: in-flight oxygen 
concentrations recorded by F-35 aircraft provide reasonable estimates 
of the oxygen concentrations delivered to the pilot, there is no 
evidence of undetected oxygen concentration disruptions, the life 
support system appropriately detects and reacts to failures, and the 
OBOGS delivers oxygen levels well above minimums required to prevent 
hypoxia. There is some evidence to suggest that operator breathing 
technique influenced the results from these OBOGS tests and will be 
explored during subsequent testing. This next round of testing will 
include the OBOGS and all other components of the F-35 Life Support 
System (LSS), shifting the emphasis toward understanding the behavior 
of the breathing regulator, backup oxygen system, pilot interface 
connector, and oxygen mask/hoses to fully characterize all components 
of the F-35 LSS and its performance across representative F-35 flight 
envelopes. Once this latest round of testing is complete and the data 
analyzed, sufficient information should be in-hand to support any 
additional mitigation activities.
    Lieutenant General Rudder. Since 2011, there have been a total of 
nine (9) physiological episodes (PEs) that have occurred on F-35Bs and 
F-35Cs, with four events transpiring on the F-35B and five events on 
the F-35C. The most recent PE event happened on August 24, 2017 at MCAS 
Beaufort, SC and was the result of a pre-existing condition with the 
pilot.
    To combat PEs on Navy and Marine Corps F-35s, it must be noted that 
the life support system on the F-35 is the same on all F-35 models. 
Extensive laboratory testing of Onboard Oxygen Generation System 
(OBOGS) units involved in May 2017 Luke AFB PEs on F-35A models 
recently completed in February 2018 at Wright-Patterson AFB to confirm 
that the OBOGS was not a contributor to PEs on the F-35. The testing 
demonstrated a high level of repeatability and statistical robustness, 
providing a high level of confidence in the following conclusions: in-
flight oxygen concentrations recorded by F-35 aircraft provide 
reasonable estimates of the oxygen concentrations delivered to the 
pilot, no evidence of undetected oxygen concentration disruptions, the 
life support system appropriately detects and reacts to failures, and 
the OBOGS delivers oxygen levels well above minimums required to 
prevent hypoxia. There is some evidence of other issues suggesting the 
influence of operator breathing that were seen during OBOGS testing 
that will be explored during additional testing. This next round of 
testing will include the OBOGS and all other components of the F-35 
Life Support System (LSS), shifting the emphasis toward understanding 
the behavior of the breathing regulator, backup oxygen system, pilot 
interface connector, and oxygen mask/hoses to fully characterize all 
components of the F-35 LSS and its performance across representative F-
35 flight envelopes.
                        future carrier air wing
    11. Senator Wicker. Rear Admiral Conn, what is your vision for the 
future carrier air wing?
    Rear Admiral Conn. As carrier aviation looks to the future, it is 
evident we are facing a rapidly evolving threat capability baseline 
requiring a substantial force modernization to pace the threat in both 
the near term as well as the 2024-2030 timeframe. This will require 
investments in the industrial capacity and advancements in capabilities 
to outpace the threat. The future Carrier Air Wing is one that needs 
complementing 4th and 5th generation aircraft; manned and unmanned 
capabilities; and netted sensors, systems, and weapons to ensure the 
Air Wing is able to decisively defeat increasingly advanced near peer 
threats.
    The Air Wing will be composed of 4th and 5th generation strike 
fighters to provide the required complementary capacity and capability 
to counter threats through the 2030s. The strategy of sustaining and 
recapitalizing strike fighter inventory is reliant on fully funding 
readiness sustainment accounts, managing strike fighter utilization, 
and procuring of additional F/A-18E/Fs and F-35Cs. Our current 
assessments balance requirements and fiscal constraints in an effort to 
pace the threat. With that, the future Air Wing will be composed of two 
F-35C Lightning II squadrons and two F/A-18E/F Super Hornet squadrons 
totaling a minimum of 44 Strike Fighters with continued modernization 
efforts. This makeup provides the best balance between capability, 
capacity and affordability.
    This 4th and 5th generation mix is complemented by the only 
dedicated tactical electronic attack airframe in the Department of 
Defense inventory, the EA-18G Growler. The Growler has the capability 
to detect and identify emitters as well as provide passive precision 
targeting and connectivity. Future integration of the Next Generation 
Jammer will improve electronic attack capabilities to pace future 
threats. As the threat becomes more technologically advanced there is a 
requirement to have multiple Growlers airborne and therefore we 
anticipate a requirement for seven EA-18G aircraft in the Air Wing.
    We are currently conducting the Next Generation Air Dominance 
Analysis of Alternatives (AOA). The AOA will provide recommendations 
across a family of systems to replace the capabilities of the F/A-18E/F 
and the EA-18G as those platforms reach the end of their service lives. 
We are considering the widest range of trades to balance capability, 
capacity, affordability, and survivability across platforms, sensors, 
weapons, and networks. The AOA team has been working closely with 
government and industry to ensure we properly assess those future 
technologies which will have the greatest impact on Strike Group 
lethality.
    As a result of initial AOA findings, we are investing in propulsion 
technologies to benefit both legacy and future platforms. Not only do 
we require increased range and speed, but also improvements to the 
power and thermal management systems to support future technologies. 
Those technologies include advanced missions systems, on-board and off-
board sensors, weapons, and the potential benefits of increased 
autonomy and manned/unmanned teaming.
    We will continue to align with the demands and availability of 
future technologies. As unmanned and autonomous systems become more 
available and affordable, we will leverage unmanned capabilities now 
and in the future. This includes providing communications relay nodes; 
intelligence, surveillance, reconnaissance, targeting (ISR&T); 
refueling; and logistics. Integration of such systems with manned 
systems will reduce risk to the force, provide access to areas 
otherwise denied to manned platforms, increase force capability and 
capacity while lowering costs and providing distributed intelligent 
battlespace awareness. Future unmanned assets will augment manned 
tactical aircraft beginning with the MQ-25 Stingray. This, along with 
other capabilities, will provide the Carrier Air Wing the ability to 
blend legacy air platforms with 5th generation fighters and other 
autonomous capabilities to achieve the desired warfighting effect.
    The Air Wing of the future must not rely on a single targeting 
sensor, system, or weapon in order to be successful. Instead, they must 
be able to rapidly share multi-spectrum sensor and target information 
across the battlespace while countering the threat's sensor and weapon 
capabilities. In order to do this, the Air Wing of the future will rely 
on robust, secure, and survivable tactical data link networks. These 
systems will fuse information from multiple input sources into a clear 
and accurate common operational picture. In order to counter the 
advanced threat and process the tremendous amounts of information being 
collected and transmitted across the battlespace, the requirement for 
multiple E-2Ds to be airborne simultaneously is increasing and thus we 
will require five to six E-2D Advanced Hawkeyes to meet this mission 
demand. Follow on efforts from the 2016 Force Structure Assessment 
continue to review the optimal force structure to include options for 
six aircraft per squadron.
    These systems and platforms will be complemented by a variety of 
support aircraft. The oldest aircraft currently operating from the 
flight decks is the C-2 Greyhound. In fiscal year 2018, the Navy begins 
procurement of the new CVW logistics aircraft; the CMV-22 Osprey. The 
Osprey will provide increased flexibility and range to our fleet 
logistics capability and is the only aircraft capable of transporting 
the F-35 engine to the carrier.
    Additionally, the Navy has multi-mission combat helicopters, the 
MH-60R and the MH-60S. The MH-60R is a multi-mission combat helicopter 
that conducts Anti-Submarine Warfare, Anti-Surface Warfare, Naval 
Surface Fire Support, Search and Rescue, and Logistics Support. Future 
Air Wings will continue to deploy with 11 aircraft HSM squadron--five 
of which embark the CVN, and six of which embark the Strike Group's 
Cruisers and Destroyers. By 2025, the MH-60R will be approaching its 
Service Life Extension Program (SLEP) and Mid-Life Upgrade (MLU)--
processes that will update the airframe, its sensors, and its mission 
systems to extend the service life and improve its tactical utility.
    The MH-60S is a multi-mission combat helicopter that conducts Anti-
Surface Warfare, Personnel Recovery, Naval Special Warfare Support, 
Search and Rescue, and Logistics Support. Future Air Wings will 
continue to deploy with an eight-aircraft HSC squadron--six of which 
embark the CVN, and two of which embark a supporting auxiliary ship. By 
2025, the MH-60S will be well into its Service Life Extension Program 
(SLEP) and Mid-Life Upgrade (MLU)--processes that will update the 
airframe and its mission systems to extend the service life and improve 
its tactical utility.

    12. Senator Wicker. Rear Admiral Conn, the Air Force Research 
Laboratory's Loyal Wingman program seeks to pair unmanned aircraft with 
a fifth generation fighter. How do you envision such manned-unmanned 
teaming manifesting in naval aviation and with strike-fighters in 
particular?
    Rear Admiral Conn. The Department of the Navy is committed to the 
use of unmanned capabilities providing communications relay nodes; 
Intelligence, Surveillance, Reconnaissance, Targeting (ISR&T); 
refueling; logistics; Airborne Electronic Attack; and strike. 
Integration of these systems with manned systems will reduce risk to 
the force, provide access to areas previously denied to manned 
platforms, increase force capability and capacity at lower costs, and 
provide distributed intelligent battlespace awareness.
    Continued research is required to determine how to most efficiently 
use inexpensive, unmanned systems. This enables our 5th generation 
manned aircraft to maintain the tactical advantage. How the Navy 
envisions employing these systems would need to be addressed at a 
higher classification.
                         10th carrier air wing
    13. Senator Wicker. Rear Admiral Conn, the NDAA for fiscal year 
2017 gave the Navy temporary reprieve from the requirement to maintain 
and fully staff 10 carrier air wings until additional deployable 
aircraft carriers can fully support a 10th carrier air wing, or October 
1, 2025, whichever comes first.
    How does this budget request begin to lay the groundwork to fully 
equip and man the 10th carrier air wing?
    Are the procurement profiles outlined in the FYDP for Super 
Hornets, Joint Strike Fighters, Hawkeyes, Growlers, Seahawks and CMV-
22s, built with the requirement for 10 air wings or 9?
    Rear Admiral Conn. The President's Budget 2019 DON Aviation plan 
investment funding includes procurement of aircraft, initial spares, 
and research and development. This plan is consistent with the 
Secretary of Defense's President's Budget 2019 focus on recovering 
warfighting readiness while increasing capability and lethality. This 
procurement plan puts the Navy on a path to meet the 1 Oct 2025 
requirement
                        strike-fighter shortfall
    14. Senator Wicker. Rear Admiral Conn, please update us on the 
Navy's strike-fighter shortfall, efforts to alleviate it, and the 
biggest challenges to overcome.
    Rear Admiral Conn. The Naval Aviation Enterprise is actively 
managing strike fighter management challenges in the near term that 
will require several years to correct. The fiscal year 2019 request 
effectively helps us address the strike fighter shortfall with 
procurement of 9 F-35Cs, 24 FA-18E/F Block III Super Hornets and 
additional aircraft across the FYDP. In tandem with these procurements, 
Service Life Modification (SLM) initiatives, capability upgrades, 
concurrent engineering, and innovative manufacturing techniques enhance 
our inventory by maintaining the tactical relevancy of the F/A-18 E/F 
and legacy F/A-18 A-D aircraft as we transition to new, more modern 
tactical aircraft.
    The President's Fiscal Year 2019 Budget request puts us on track to 
reach our desired force structure and readiness. The key enabler and 
biggest challenge to managing the strike fighter inventory will be 
stable, on-time funding over multiple years to achieve the desired 
results.
                       legacy hornet divestiture
    15. Senator Wicker. Rear Admiral Conn, the Navy intends to divest 
all Legacy Hornets from its active component squadrons by 2019, with 
full department divestiture complete by 2030.
    Please explain the rationale for the Department's Legacy Hornet 
divestiture plan.
    The divestiture plan includes the Blue Angels transitioning to 
Super Hornets in 2020, while the Reserve squadrons do not transition 
until 2028. Please explain why the Blue Angels would be a higher 
priority to transition than the Reserve squadrons, Naval Aviation 
Warfare Development Center, the test squadrons or the general fleet 
inventory, which has been severely challenged for a number of years.
    Rear Admiral Conn. In October 2017, a decision was made by NAE to 
put the transition timeline for the Navy Fleet Demo Team (Blue Angels) 
from Legacy Hornets to Super Hornets on hold. This decision was based 
on a Navy plan to divest of Legacy F/A-18 Hornets from the four 
remaining active Navy Fleet squadrons between 2017-2019. These four 
operational squadrons will transition to Super Hornets in an effort to 
bring the best capability to the operational Navy fleet as early as 
possible. The decision required the Navy to delay the transition of the 
Blue Angels into Super Hornets until a later date. The NAE is looking 
at procurement/delivery, current inventory and the Service Life 
Management plan to identify the aircraft to be modified to support the 
Blue Angel team. Current timeline for the Blue Angel transition is TBD 
with a modified plan expected in late fiscal year 2018.

    16. Senator Wicker. Lieutenant General Rudder, please explain how 
the Department's Legacy Divestiture plan affects USMC aviation 
readiness and combat capability.
    Lieutenant General Rudder. The Navy's decision to transition its 
Schedule A F/A-18C squadrons earlier than originally planned has 
allowed for the transfer of Lot 15 and above legacy hornets, 
essentially the latest and most capable models, to the Marine Corps. 
This will allow the Marine Corps to operate all Lot 15 and above 
hornets in their Schedule A squadrons in 2019. It will provide the 
Marine Corps more commonality and better combat capability within its 
F/A-18 fleet. ``Best of Breed'' aircraft recapitalized from divestment 
will be reallocated based on priority: 1. operational USMC squadrons, 
2. NAWDC, 3. Reserves. More F/A-18A-D aircraft will be added to strike 
lists until USMC is complete with the F/A-18 to F-35 transition in 
2030.
                     f/a-18 service life extension
    17. Senator Wicker. Vice Admiral Grosklags, please describe what 
the Navy is doing to improve depot throughput for Legacy Hornets and to 
apply lessons learned to the looming service life extension program for 
the Super Hornet.
    Vice Admiral Grosklags. The Navy's initiative to restore capacity 
and throughput at the Navy's aviation depots has yielded improvements 
in capacity which now meets the F/A-18A-D PMI requirements. The Navy 
increased artisan and engineering manpower on the F-18 lines and has 
ongoing efforts to address throughput constraints associated with 
material and analysis delays. The Navy continues to maximize the F/A-
18A/B/C/D/E/F workload at the depots through the use of Critical Chain 
Project Management (CCPM); improved Bill of Materials and Workload 
Standards; and Planned Maintenance Interval-X (``PMI-X'') which reduces 
requirements by combining depot events which results in significantly 
lower forecasted depot inductions. Naval Air Systems Command (NAVAIR) 
Engineering has implemented improvements in the speed of engineering 
dispositions, the priorities assigned to disposition requests, and the 
amount of engineering resources available.
    Lessons learned from legacy Hornet have resulted in a significantly 
different approach for Super Hornet service life extension program. 
Material supply challenges and non-standardized repair requirements 
driven by material condition challenges have hampered legacy Hornet 
life extension efforts. The Super Hornet Service Life Modification 
(SLM) program will be accomplished at a Boeing commercial depot rather 
than using organic depot facilities. This approach will leverage the 
supply chain and technology of the currently active F/A-18E/F Super 
Hornet production line while incorporating the latest industry best 
practices to standardize production flow and speed delivery of extended 
life aircraft. In addition, protocols have been established to ensure 
knowledge gained from material condition findings during SLM are 
incorporated into fleet preventative maintenance practices resulting in 
better aircraft material condition at induction. Taken in the 
aggregate, these efforts are expected to minimize material issues, 
enhance service life extension predictability and reduce SLM cycle 
time, thus returning aircraft to fleet customers in less time than 
under previous efforts.
                     f/a-18 super hornet block iii
    18. Senator Wicker. Rear Admiral Conn, can you please describe the 
Navy's plan and timeline for upgrading its Super Hornet fleet? What 
capabilities are being added to maintain the Super Hornet's relevancy 
in the high end fight?
    Rear Admiral Conn. The F/A-18E/F will be the Navy's predominant 
strike fighter platform into mid-2030s. President's Budget 2019 
requests procurement of 24 F/A-18E/F aircraft in fiscal year 2019 
(FY19) and an additional 86 aircraft across the Future Years Defense 
Plan, with upgrades to Block III configuration starting in fiscal year 
2019. Block III is designed to be complementary to the capability 
delivered in F-35 and E-2D.
    F/A-18E/F Block III capability upgrades consist of five Engineering 
Change Proposals (ECPs):
    <bullet>  Advance Cockpit System (ACS) for improved situational 
awareness and obsolescence fixes
    <bullet>  Digital Networking Infrastructure for advanced targeting 
and growth
    <bullet>  Low Observable (LO) signature enhancement for improved 
survivability
    <bullet>  Conformal Fuel Tanks for increased range and on station 
time
    <bullet>  9,000+ flight hour service life to sustain capacity and 
lower lifecycle costs.
    Block III capability will be incorporated into production aircraft 
starting in fiscal year 2019 (for fiscal year 2021 delivery). Starting 
in fiscal year 2023, F/A-18E/F Block II aircraft will be inducted into 
Boeing facilities for Service Life Modification (SLM) to increase 
service life to 9,000+ flight hours and incorporate the Block III 
capabilities. Block II aircraft inducted for the structural portions of 
SLM prior to fiscal year 2023 will receive the remainder of the Block 
III upgrade at a later time.
                         e-2d advanced hawkeye
    19. Senator Wicker. Rear Admiral Conn, given the new capabilities 
the E-2D is, and will be, fielding and the new tactics and concepts of 
operations they are enabling, what, in your view, is the appropriate 
number of E-2Ds that should be allocated to each carrier air wing?
    Rear Admiral Conn. Current program of record is 5 E-2Ds per 
squadron. The Navy periodically analyzes the right mix of aircraft to 
maximize Strike Group weapons system capabilities. This analysis along 
with deck space and budgetary implications will need to be studied 
further.

    20. Senator Wicker. Rear Admiral Conn, given the new capabilities 
the E-2D is, and will be, fielding and the new tactics and concepts of 
operations they are enabling, is there a need for expeditionary 
squadrons of E-2Ds? Why or why not? What would be some of the benefits 
and/or drawbacks of establishing expeditionary E-2D squadrons, such as 
we have for EA-18G Growlers?
    Rear Admiral Conn. If required, E-2Ds could potentially support 
expeditionary operations, as well as augment a Marine Expeditionary 
Unit's composite air wing. The extent of additional capability they 
would bring would depend upon the specific mission requirements and 
would also be impacted by availability of suitable airfields. The 
current program of record does not support expeditionary operations 
(only enough aircraft to support CVW operations) and would require 
additional costs to stand-up the capability.
                       airborne battle management
    21. Senator Wicker. Rear Admiral Conn, the Air Force has opted to 
cancel its JSTARS recapitalization plan, arguing that the proposed 
replacement was not survivable in the high-end fight. The Navy, on the 
other hand, is investing heavily in the E-2D Advanced Hawkeye and P-8 
PoseiDON, which both have similar vulnerability concerns as the 
proposed JSTARS recap program. Please explain the Navy's approach to 
airborne battle management and how the Navy and Air Force intend to 
jointly execute airborne battle management in a high-end fight.
    Rear Admiral Conn. The Navy intends to use its most survivable 
manned and unmanned platforms in the high end airborne fight and will 
perform battlespace management of airborne platforms, netted sensors, 
net-enabled weapons using and advanced Concept of Operations (CONOPS) 
that will extend the reach and survivability of these netted airborne 
platforms. The E-2D was built for this reason.
    The E-2D APY-9 radar is a two-generation leap in detection and 
tracking capability over the E-2C. Improved detection and tracking 
allows E-2D to operate forward in any environment providing enhanced 
situational awareness, expanded reach and improved effectiveness across 
the kill chain. The E-2D is a critical enabler of the Carrier Strike 
Group (CSG) air and surface warfare missions, including power 
projection, theater air and missile defense (TAMD) and cruise missile 
defense (CMD) in an anti-access/area denial (A2AD) environment. As a 
core pillar of the Naval Integrated Fire Control-Counter Air (NIFC-CA) 
construct, the E-2D extends organic AEGIS and fighter missile kill 
chains by providing long-range weapons quality surveillance data via 
Cooperative Engagement Capability (CEC) and Link-16. Increased capacity 
of E-2D significantly increases effectiveness of the entire CSG.
    The P-8A performs an entirely different mission set than the E-2D 
or JSTARS or AWACS platforms. The P-8A is primarily an ASW and ASuW 
system dedicated to preserving the safe haven and Strategic Lines of 
Communication in the high end fight. It is not designated to perform 
airborne battle management missions or participate in the high end air 
to air battle. Through incorporation of its Increment 3 sensors and 
systems, it will be a full participant/node in the Navy's future 
battlespace awareness CONOPS. Incorporating advanced sensors with 
greater reach such as the Advanced Airborne Sensor (AAS), coupled with 
its advanced track management system (Minotaur), the P-8 Inc-3 brings a 
generational leap in battle space awareness over the P-3C. P-8 will 
conduct the majority of its strategic and operational ASW, ASuW and ISR 
warfighting objectives outside the major threat ranges of our 
adversaries. Through the use of advanced sensors and netted C4I systems 
and prudent Battle Group CONOPS, the P-8 will remain away from the high 
end airborne fight.
                    joint strike fighter operations
    22. Senator Wicker. Lieutenant General Rudder, please provide an 
update on F-35B operations since VMFA-121 moved to Japan?
    Lieutenant General Rudder. The Marine Corps permanently stationed 
an F-35B squadron in Japan in 2017, and the first two F-35B MEU 
deployments will occur in 2018. F-35Bs on the 31st MEU just landed on 
the amphib today (Planned 121 fly-on date is, 5 March 2018). This 
summer, we will have two MEUs simultaneously deployed with F-35Bs.
    In August last year, to demonstrate solidarity with our allies in 
northeast Asia, four F-35Bs from Marine Corps Air Station Iwakuni in 
Japan, two B 1Bs from Andersen Air Force Base in Guam, two Japan Air 
Self-Defense Force F-15Js, and four Republic of Korea Air Force (ROKAF) 
F-15Ks flew together over the waters near Kyushu, Japan, and the United 
States and ROKAF aircraft continued on and few across the Korean 
Peninsula.
    Last October, the U.S. Marine Corps participated in Exercise Dawn 
Blitz where U.S. Marine Corps F-35B Lightning II, assigned to Marine 
Fighter Attack Squadron 211 conducted operations aboard the USS Essex 
(LHD-2) to test the ability to conduct amphibious operations and 
completing thirteen (13) carrier qualifications.
    The Marine Corps' transition plan is on track. VMFA-314, the UCMS's 
first F-35C squadron, transitions to the F-35C in 2019--ready for 
expeditionary operations in 2021 and deployment on a carrier in 2022.

    23. Senator Wicker. Lieutenant General Rudder, the F-35B brings new 
capabilities and operational possibilities to the Marine Expeditionary 
Unit and you have discussed the vision of linking Marine Expeditionary 
Units (MEUs) more closely into the joint force. However, those new 
capabilities and operating concepts require investment in shipboard 
infrastructure to include upgraded data links. Please discuss your 
vision for L-class ship connectivity and current plans to achieve that 
vision.
    Lieutenant General Rudder. Our L-Class ships are behind where we 
would like to be, but the Navy is in full support and we are improving 
those ships as fast as possible. Three of our L-Class big decks now 
have the new Capstone Ship Self Defense System (SSDS) which brings the 
Cooperative Engagement Capability and Link 16 to the platform. There 
are 5 LHD's which are scheduled to be upgraded over the next 5 years. 
This system provides a critical combat capability which will integrated 
with F-35 over Link 16.
    The Navy just installed a system called Radiant Mercury on the USS 
Wasp, which enables post flight data from the F-35 to be sanitized and 
convert data to a generic secret level. This will lead to a much 
smoother dissemination of information to battle field commanders and 
leadership for expeditious debrief, validation, or follow on 
operations.
    We also plan on operating the Marine Corps Common Aviation Command 
and Control System (CAC2S) on the Essex. This is a new capability being 
used by USMC tactical air defense controllers and air control 
electronics operators. It integrates information from various aerial 
and ground-based radar systems and sensors to enable a common, real-
time tactical picture. This system will bring a Marine Corps Command 
and Control capability to the ship that can seamlessly integrate with 
the F-35, allowing the F-35 to transfer real time data from onboard 
systems and data links back to the ship. Effectively the aircraft now 
becomes a forward sensor for the command elements embarked on MEU/ARGs 
bringing greater situational awareness and faster decision making.
    With the embarkation of F-35s on L-Class ships, one major change to 
the ships were the designation of special access program facilities 
(SAP-Fs). These rooms of elevated classification allow for F-35 
operational planning on classified F-35 systems. The SAP-F spaces 
modernize facilities on the ship, elevate the classification and 
capability of rooms for F-35 planning or other Special Access Program 
enablers, and introduce new connectivity in spaces where that ATO did 
not exist before, overall enabling warfighter operations overall.

    24. Senator Wicker. Rear Admiral Conn, what do you view as the 
biggest challenges to successful integration of the F-35 into the 
carrier air wing?
    Rear Admiral Conn. One of the largest challenges to F-35C Carrier 
Strike Group (CSG) integration is aligning F-35C capability procurement 
with investments in other current and future CSG platforms. Fully 
integrated F-35C ensures critical battlespace awareness and dominance 
across all spectrums of naval operations. Not only do we want to 
integrate the F-35C with 4th generation aircraft in the carrier air 
wing (CVW), but the other platforms in the CSG as well. The biggest 
challenge is effectively and efficiently sharing the information 
gathered by the F-35C across various secure warfighting networks. The 
Navy needs these capabilities to fight and win against a near peer 
threat.

    25. Senator Wicker. Rear Admiral Conn and Lieutenant General 
Rudder, Navy leaders have testified regarding their concerns about the 
sustainment model and costs for F-35. What recommendations do you have 
to increase the affordability and transparency of F-35 sustainment?
    Rear Admiral Conn. Increasing the affordability and transparency of 
F-35 sustainment remains a top priority for the Department of Defense. 
The Joint Program Office (JPO), the Services and Industry partners have 
committed to reduce overall F-35 operating and sustainment cost over 
the life of the system.
    The joint program is funding the stand up of organic depot 
capabilities to provide cost-effective aircraft support by augmenting 
the Original Equipment Manufacturer (OEM) repair capacity. While OEM 
production requirements remain high, acceleration of depot capabilities 
will ensure efficient production and maintenance of aircraft. In 
addition, funding has been allocated for Intermediate Level maintenance 
facilities aboard our aircraft carriers first and then at shore fleet 
concentration areas to more rapidly analyze and repair 29 key air 
vehicle components at a reduced cost.
    Efforts within the Joint Strike Fighter Program Office, Hybrid 
Product Support Integrator (HPSI) and the Marine Corps Pathfinders 
Campaign, evaluate operational/sustainment costs and aggressively 
pursues cost reduction initiatives. Additionally, with a shared vision, 
mission and objectives, the Services, industry and international 
partners plan to deliver Global Sustainment Support framework, coupled 
with maturing HPSI in order to increase F-35 sustainment affordability 
and transparency.
    Lieutenant General Rudder. In President's Budget 2019, the Navy and 
Marine Corps programmed money to begin standing up our own Intermediate 
Level maintenance capability. The Marine Corps is currently working 
with the Program Office to develop a right-sized I-Level capability for 
F-35 which will enable us to test parts on station and fix complex 
components--improving readiness and driving down the cost of the supply 
chain.
    We are leaning forward on procuring the right level of spares, but 
it will take time to get up to speed--there is a delay between our 
investment and the return. In the meantime, we continue to work through 
a prioritized list of parts reliability in order to identify and 
improve parts which have the greatest impact on readiness. We have 
found that the mission systems are creating the biggest hit to 
readiness, so we have scrubbed everything in that area to include 
improving the fiber optics backbone and the system that tests and 
repairs it.
    The new sustainment contract that the Program Office is helping us 
negotiate with the prime contractor target specific performance metrics 
such as Supply Chain Response Time in order to incentivize improvements 
to specific readiness drivers.

    26. Senator Wicker. Lieutenant General Rudder, is the current 
projected mix of Marine F-35B and F-35C aircraft optimal to support 
achieving the goals of the National Defense Strategy?
    Lieutenant General Rudder. The current F-35C procurement plan 
allows the USMC to sustain four F-35C squadrons that meet the Tactical 
Air Integration (TAI) commitment the USMC has with the USN to include 
the Navy Master Aviation Plan (MAP) deployment requirements on CVN 
Carrier Strike Groups. Due to the extensive pre-deployment training 
regimen or USN Fleet Readiness Training Plan (FRTP) for carrier strike 
groups, and multiple enduring deployment commitments from the same 
squadrons to the same Command Air Groups (CAGs), an overall commitment 
from a USMC TACAIR squadron to TAI or a CVN deployment can span nearly 
three years when accounting for the work-up/training period and back to 
back deployments. The USMC has planned for the requisite amount of F-
35Cs and F-35C squadrons that continue the USMC requirement to the USN 
and TAI as well as mitigate and help manage the overall force (USMC and 
USN) deployment to dwell goal. Should the TAI
    The F-35C also brings other unique warfighting capabilities to the 
USMC and the MAGTF. Simple fact being the F-35C is larger than the F-
35B allowing for more fuel, longer legs or flight time, and the 
capability to carrier a larger class of weapon (500-1,000 pounds larger 
than weapons on the F-35B), along with other organic unique 
capabilities in this series of aircraft. Even without an enduring TAI 
commitment the F-35C can integrate and deploy for all USMC global force 
commitments except Marine Expeditionary Unit deployments which require 
vertical landing capability aboard L-Class ships.
    The current POR for F-35 overall allows for the appropriate number 
of aircraft in the case there is attrition of aircraft within the fleet 
inventory, ensures there is iron on the flightline to fly and fight 
during periods of planned modifications and aircraft system upgrades, 
and cover all USMC enduring global force commitments.
                      f-35 follow-on modernization
    27. Senator Wicker. Rear Admiral Conn and Lieutenant General 
Rudder, the follow-on modernization for the F-35 is scheduled to bring 
key warfighting capabilities to the fleet, but the schedule and budget 
remain in flux. Are you concerned about the affordability and 
executability of the Department's plan for Block 4 Continuous 
Capability Development and Delivery (C2D2)?
    Rear Admiral Conn. The Navy is constantly concerned with the costs 
associated with modernizing any of our warfighting platforms. As we 
modernize the F-35C through the C2D2 process we will continuously work 
through the JPO and with industry to deliver the required capabilities 
to maximize the combat effectiveness of the Carrier Air Wing at the 
most affordable cost possible. The C2D2 plan is aggressive and will 
require constant oversight and communication to be successful. It needs 
to be in order to meet the aggressive capability developments of our 
adversaries. Budget delays and multiple marks against the F-35 
Modernization Program Element have delayed necessary pre-engineering 
contract work which continues to delay capability delivery to the 
warfighter. This adversely impacts our ability to adequately pace the 
threat resulting in increased warfighting risk.
    Lieutenant General Rudder. The F-35 partnership, through the 
leadership at the Joint Program Office, recently re-structured the 
original Block 4 Follow-on Modernization (FOM) strategy into a more 
agile Continuous Capability Development and Delivery (C2D2) program. 
This approach leverages existing commercial practices and develops 
capabilities in smaller, more managed increments which will accelerate 
the delivery of warfighting capability.
    While this strategy delivers the capabilities required to fight and 
win against emerging threats, it necessarily includes emergent 
expenses. A series of requirements decomposition efforts have validated 
the current C2D2 plan and identified areas in which costs can be 
reduced. This work indicates that C2D2 has accurately captured the 
requirements needed to keep the F-35 on the tactical and operational 
edge; however, accurate capability requirements must be balanced with 
budget realities. There are ongoing efforts that are attempting to find 
efficiencies across the C2D2 enterprise to reduce overall costs.
                        f-35 program management
    28. Senator Wicker. Rear Admiral Conn and Lieutenant General 
Rudder, does the Joint Program Office management structure properly 
align responsibility and accountability? What are your views on 
alternative management structures for the F-35 program, such as 
establishing separate service or variant program offices rather than 
maintaining a joint program office?
    Rear Admiral Conn. The Office of the Under Secretary of Defense 
Acquisition and Sustainment is in the process of coordinating with the 
Services to staff, research and institute a more efficient and 
responsive alternate management structure to coordinate activities 
through the Joint Program Office. The United States Navy will fully 
support those efforts.
    Lieutenant General Rudder. The Marine Corps needs to see a 
reduction in the cost-to-own and operate the F-35 and we are working 
with the Joint Program Office and industry to drive down those costs. 
The Department is currently reviewing a re-structuring of the Program 
Office. This initiative is in response to an OSD AT&L review of 
established management structure. The review specifically focuses on 
how we can make efficiencies within the existing structure of the 
organization through a re-design of the current management structure. 
We are still a long way from implementation, but all of the Services 
are actively reviewing this with the intent to drive down the cost of 
the program.
                       ea-18g growler requirement
    29. Senator Wicker. Rear Admiral Conn, the Navy has completed its 
planned procurement of 160 EA-18G Growlers. Navy leadership has 
testified to Congress that 160 fulfills the Navy requirement for 
Growlers, but the number needed to fulfill the joint requirement is 
still being evaluated.
    Given the new Growler tactics and concept of operations being 
developed, what is the optimal number of Growlers assigned to an air 
wing? Why?
    Do you believe the Navy requires more Growlers to fulfill the needs 
of the joint force?
    Rear Admiral Conn. The Navy has a sufficient number of EA-18G 
Growlers to support current joint force requirements. The current 
planned inventory supports seven aircraft per carrier air wing for nine 
air wings. Additionally, it supports six aircraft for each of the five 
expeditionary squadrons and five aircraft for the reserve squadron. The 
above distribution represents the best balance of capability for air 
wing and expeditionary operations and provides flexibility to augment 
with additional aircraft from within current inventory if needed. At 
this time, the Joint Staff has not identified a need for additional 
aircraft.
               electronic warfare--next generation jammer
    30. Senator Wicker. , Rear Admiral Conn, the Navy is currently 
developing an advanced electronic warfare system, the Next Generation 
Jammer (NGJ), currently planned to only be carried by the EA-18G 
Growler. How does the Navy envision operating these Jammers? Given the 
rapid rise in the number and capability of threat radars, is the 
currently planned number of Growlers sufficient to effectively employ 
the NGJ?
    Rear Admiral Conn. The Next Generation Jammer (NGJ) will be an 
advanced modern state-of-the-art computerized electronic warfare 
technology designed to provide full-spectrum dominance with the ability 
to jam multiple frequencies with higher radiated power and precision, 
at greater stand-off ranges against surface-to-air missile systems. NGJ 
will provide significantly increased protection to our fighter, strike 
and stealth forces and weapons enabling closer penetration to the 
intended targets while increasing the probability of mission success.
    The Navy has a sufficient number of EA-18G Growlers to support 
current joint force requirements. At this time, the Joint Staff has not 
identified a need for additional aircraft.
       marine air ground task force electronic warfare (magtf ew)
    31. Senator Wicker. Lieutenant General Rudder, when the last EA-6B 
Prowler squadron sundowns in 2019, the Marine Corps will no longer have 
a dedicated airborne electronic attack aircraft.
    How will the Marine Corps through the MAGTF (MAG-TAFF) EW systems 
of systems replace the electronic surveillance and electronic attack 
capabilities of the Prowler?
    Will the lack of a dedicated airborne electronic attack aircraft 
community create a capability and planning gap for the Marines, 
particularly in light of the renewed focus on the high end fight?
    Lieutenant General Rudder. The MAGTF never possessed a 
``dedicated'' Airborne Electronic Attack (AEA) capability. While the 
Marine Corps owned and operated EA-6B Prowlers, these assets were not 
organic to the MAGTF--they provided a capability to the joint force. 
The Marine Corps currently has one operational EA-6B squadron of six 
aircraft which will support joint AEA operational requirements through 
fiscal year 2018. Navy EA-18G expeditionary squadron capacity, which 
has replaced Marine Corps EA-6B squadron capacity for the joint force, 
will continue to serve as the Department of Defense's sole joint 
tactical AEA platform.
    Marine Corps aviation EW capabilities include the Intrepid Tiger II 
EW pod, the EW capabilities inherent to F-35B, the AGM-88 High-Speed 
Anti-Radiation Missile/Advanced Anti-Radiation Guided Missile (HARM/
AARGM) for the F/A-18, and the AARGM in future F-35B blocks. The F-35B 
brings a powerful combination of EW, weapons, sensors, and reduced 
signature to the MAGTF. F-35B electronic warfare support (ES) 
capabilities include emitter geolocation, identification, and 
parametric data sharing via Link16. F-35 electronic attack (EA) is 
provided by the Multi-function Array. Intrepid Tiger II is an EW pod 
providing organic communications EA and ES for the MAGTF. Intrepid 
Tiger II deploys with each AV-8B MEU detachment and has also completed 
three MEU deployments with UH-1Y detachments. Future aviation platforms 
prioritized for Intrepid Tiger II integration include the MV-22B and 
KC-130J. Development of an Intrepid Tiger II counter-radar capability 
began in fiscal year 2016 and is planned for fielding on the MV-22B 
beginning in fiscal year 2021. The lack of dedicated AEA aircraft 
community will not create a capability or planning gap for the Marine 
Corps.
                        airborne data link plan
    32. Senator Wicker. Rear Admiral Conn and Lieutenant General 
Rudder, you both have talked about the importance of networks to your 
visions of Naval and Marine aviation. The committee is concerned that 
the Department of Defense's ideas for airborne data links have lacked 
vision and been disjointed. Please discuss your efforts in this area 
and how you are ensuring that the Navy and Marine Corps are 
interoperable not only with each other, but with the Air Force and Army 
as well.
    Rear Admiral Conn. The Navy is the lead service for the Link 16 
network and coordinates with other services, Department of Defense 
(DOD) agencies and foreign partners to ensure interoperability of this 
network. The Link 16 network remains the foundation for Joint Tactical 
Data Links (TDL) for the foreseeable future.
    Ten thousand Link 16 terminals are integrated in the Navy, the 
Marine Corps, the Army, the Air Force, and 47 partner nation's combat 
systems. Seamless network integration in a combat environment is 
achieved through a common configuration for all Link 16 end users. All 
Navy and Air Force tactical aircraft either have Link 16 or are in the 
process of being upgraded to this capability. For combat systems that 
do not operate Link 16, the Navy ensures backward compatibility between 
current systems, embedded systems and non-program of record terminals 
that utilize the Link 16 waveform. Link 16 can be data forwarded to any 
classified Internet Protocol (IP) network by adding an IP ``wrapper'' 
around the Link 16 message. This capability is called Link 16 Joint 
Range Extension Application Protocol-C (JREAP-C).
    The Navy uses a number of TDLs that fulfill requirements different 
from Link 16 attributes and capabilities. Radio Frequency (RF) spectrum 
diversity, higher throughput, lower latency, and different mission 
requirements from the Link 16 specification are some of the reasons 
other TDLs are required. Some alternative TDLs that the Navy uses for 
tactical communications are Cooperative Engagement Capability (CEC), 
Multifunction Advanced Data Link (MADL) and Tactical Targeting Network 
Technology (TTNT).
    CEC uses a common architecture and uses the exact same hardware, 
software, messages and algorithms amongst the participants to achieve 
interoperability.
    MADL exists only on the Joint Strike Fighter and similarly achieves 
network interoperability by using a common architecture including 
hardware, software, messages and algorithms amongst the participants to 
achieve interoperability. MADL is common among all variants of F-35 to 
include the F-35 sold to partner nations.
    TTNT is on DON platforms only, but could be integrated on other 
services' platforms. TTNT is a low latency, high bandwidth tactical 
data link that integrates commercial industry standards such as 
Internet Protocol (IPv4) for its transport mechanism and uses 
commercial industry message formats such as JPEG, HTML and XML. Common 
applications and common messages among TTNT platforms ensure 
interoperability.
    Lieutenant General Rudder. The United States Marine Corps is 
leveraging the capabilities of industry and DOD agencies to integrate 
our networks and connectivity. Everything from programmable radios to 
hosting multiple waveforms capable of translation between networks.
    We are also maturing a ``gateway'' technology that enables our 
service to exchange data between dissimilar networks, analogous to how 
we can all access the internet via different equipment--For example, 
Windows computers, Apple Computers, Android devices, all types of 
cellular communications devices but only on a tactical network 
framework.
    Finally, Marine Aviation is working closely with NSA to overcome 
the challenges of handling the multi-level security challenges that 
this approach levies. Our efforts to date have been promising and we've 
taken significant steps forward toward that goal.
                        usmc aviation readiness
    33. Senator Wicker. Lieutenant General Rudder, Marine Corps 
aviation readiness appears to still be in a crisis. How did we get 
here, what are you doing to improve readiness, and what are the biggest 
challenges to overcome?
    Lieutenant General Rudder. Aviation's readiness crisis is on the 
mend. Sequestration, under-resourced readiness enabler accounts, and an 
uncertain fiscal environment combined with an aging legacy fleet forced 
the Marine Corps to balance current readiness with procurement (future 
readiness). These under-resourced accounts degraded legacy fleet 
readiness and resulted in lower aircrew flight hours. The enacted 
fiscal year 2017 budget, President's Budget 2018 and President's Budget 
2019 submissions fully fund these enabler accounts to their maximum 
executable requirement. As there was a delay from sequester to a 
decline readiness, there is a delay from increased funding to a return 
on investment. Right now, our flight lines are healthier in the 
aggregate. Some specific aircraft are still challenged. We are 
increasing flight hours for our aircrew compared to previous years. Our 
recovery plan is working and we still anticipate a recovery to T2.0 
training standards in fiscal year 2020 and a Ready Bench in fiscal year 
2022 provided the service receives stable, predictable and timely 
funding.
                          ch-53k king stallion
    34. Senator Wicker. Lieutenant General Rudder, please provide an 
update on the progress of CH-53K testing.
    Lieutenant General Rudder. We are making good progress on CH-53K 
testing. To date we have 8800 flight test hours on our (4) 
Developmental Test aircraft and another 800 on our ground test vehicle. 
We are continuing envelope expansion and system qualification testing. 
We have performed our KPP mission of 27,000 pounds for 110nm and lifted 
a 36,000 pound load (heaviest load this aircraft will lift). We have 
also lifted a 819,000 pound JLTV. This is the most powerful helicopter 
this country has ever built.

    35. Senator Wicker. Lieutenant General Rudder, what is the Marine 
Corps doing to ensure the CH-53K is affordable?
    Lieutenant General Rudder. The Cost of the CH-53K is within the 
Marine Corps TOA and well within our affordability caps. With that 
being said we have a multi-pronged approach to target cost reduction.
    1)  Targeting production cost through continuous senior leader 
engagement with OEM on labor rates while leveraging a proven Program 
Cost Affordability Team (PCAT).
    2)  Seventy percent of the lifecycle cost of the CH-53K is in O&S. 
We are targeting O&S cost by attacking reliability issues early, 
driving repair capability to the lowest possible level of maintenance, 
establishing phased organic depot capability, and proactively ensuring 
data accessibility for organic capability.

    36. Senator Wicker. Lieutenant General Rudder, could you describe 
Marine Corps input to the Future Vertical Lift program? Is it possible 
that heavy lift solutions developed in the FVL program might solve 
capability gaps the CH-53K is meant to address? If so what might be the 
impacts to the CH-53K program?
    Lieutenant General Rudder. The Marine Corps has a heavy lift 
requirement that only the CH-53K can provide. FVL Capability Set 3 
can't even begin to address the lift requirement for the CH-53K. There 
are simply no similarities of requirements between the Ch-53K and FVL 
Capability Set 3 other than both can transport troops.
    Regarding FVL, the Marine Corps teamed with the U.S. Army on Future 
Vertical Lift Capability Set 3 (CS3) in fiscal year 2016. The Army 
kicked off the CS3 Analysis of Alternatives (AOA) in fiscal year 2017 
(New Start) after the MDD. Currently, we are working with the Army on 
collaboration model building for scenarios population. U.S. Army 
Training and Doctrine Command (TRADOC) Analysis Center (TRAC) and HQMC 
CD&I are the source of analysis for this effort. HQMC Aviation has 
completed the CONOPS and has begun working vignettes for CD&I modeling 
efforts. Fiscal year 2018 was the earliest HQMC could influence the POM 
funding process towards CS3. This program is considered a ``New Start'' 
for the USMC, therefore certain elements of the AOA are on hold due to 
the current Continuing Resolution. Our efforts are currently on track; 
NAVAIR Engineering efforts will begin as soon as the budget has been 
approved and funding received.

    37. Senator Wicker. Lieutenant General Rudder, using organic, over-
the-horizon C2 and ISR platforms, how does an Expeditionary Strike 
Group (ESG) conduct early warning? Does the Marine Corps currently, or 
have plans to, incorporate any airborne early warning (AEW) platforms 
into the ESG construct (i.e., E-2D Advanced Hawkeye, MH-60R employing 
the British model of AEW)?
    Lieutenant General Rudder. The ESG is capable of conducting early 
warning via TACAIR. Other aircraft with a limited ability include H-
60S, the MQ-8C Firescout, and RQ-21 Blackjack. Future systems include 
MAGTF Unmanned Aircraft System Expeditionary (MUX), which has early 
warning as its top capability requirement. A sea-based platform, MUX 
will be networked and support over-the-horizon early-warning, 
identification, cueing, and defense against enemy air (fixed-wing, 
rotary-wing and UAS), cruise missile, low radar cross section threats 
and indirect fires systems at maximum range in support of the MAGTF.
    Use of CAC2S in the MAGTF and on amphibious shipping to share a 
common data picture. Using the TPS-80 G/ATOR as a contributor to the 
shared operational picture.

    38. Senator Wicker. Lieutenant General Rudder, do you believe that 
Marine Expeditionary Units would benefit from organic airborne 
electronic warfare and elevated sensor capabilities? If so, what 
efforts are being made to accomplish their introduction? If not, why 
not?
    Lieutenant General Rudder. Yes, MEUs would benefit from organic 
airborne EW capabilities. The primary organic EW capability for MEUs 
will be the F-35B. Initial MEU F-35B support will be sourced from VMFA-
121 for the 31st MEU and in the summer of 2018 VMFA-211 will support a 
West Coast MEU. The F-35B brings a powerful combination of EW, weapons, 
sensors, and reduced signature to the MAGTF. F-35B electronic warfare 
support (ES) capabilities include emitter geolocation, identification, 
and parametric data sharing via Link16. F-35 electronic attack (EA) is 
provided by the Multi-function Array and by the AGM-88 Advanced Anti-
Radiation Guided Missile (AARGM) in future F-35B blocks. Additional 
organic EW capability for MEUs includes the Intrepid Tiger II EW pod. 
Intrepid Tiger II is an EW pod providing organic communications EA and 
ES for the MAGTF. Intrepid Tiger II employs with each AV-8B MEU 
detachment and to date has completed three MEU deployments with UH-1Y 
detachments.

    39. Senator Wicker. Lieutenant General Rudder, the Marine Corps has 
made an effort to integrate command and control (C2) and intelligence, 
surveillance, and reconnaissance (ISR) capabilities to the squad level, 
while enhancing C2 and ISR at the battalion/squadron level and above. 
With the National Defense Strategy (NDS) shift in focus towards near-
peer competition how must Marine Corps' aviation C2 and ISR 
capabilities, currently predicated on uncontested environments, adapt 
to facilitate power projection and theater asset-integration against 
Anti-Access/Area Denial (A2/AD) threats?
    Lieutenant General Rudder. The Marine Corps is focused on denied, 
degraded, and contested environments where use of any domain (land, 
sea, air, space, and cyber) is not assumed in accordance with the NDS. 
For the past several years, the Marine Corps has been conducting 
experimentation in these environments both in training and 
operationally. MEU deployments, LSEs, and Tactical Demonstrations have 
focused on innovative and iterative approaches to improving the 
capability of existing systems and leveraging the latest in commercial 
technology. The Marine Corps recognizes the key and critical 
differences between tactical-type networks that are characterized by 
dynamic access points, low bandwidth, and unassured connectivity and 
enterprise-type networks that are characterized by static access 
points, high bandwidth, and assured connectivity. In addition, the 
Marine Corps' ongoing MAGTF digital interoperability effort identified 
a requirement for either standardizing or translating the way digital 
data is handled to ensure that our connections are truly interoperable 
not only within the MAGTF, but also within the Naval Service and the 
Joint Force.
    With these critical understandings, the Marine Corps continues to 
build resiliency through mesh networking and new capabilities that are 
focused on the latest cyber security risk mitigations developed in 
conjunction with industry and NSA. Concepts in development include 
Minotaur and Maven to meld big data from operational and strategic 
platforms; integrated ASE to provide data from existing self-protect 
sensors on board our aircraft; MAGTF Agile Network Gateway Link (MANGL) 
that provides network management, aircraft sensor integration, data 
services, gateway services, and network and spectrum agility.

    40. Senator Wicker. Lieutenant General Rudder, what organic 
aviation capabilities are necessary for an ESG to successfully operate 
in contested environments?
    Lieutenant General Rudder. The ESG requires 5th generation 
platforms like the F-35B/C as well as relevant legacy aircraft such as 
F/A-18 A-D and AV-8B until the transition to the F-35 is complete. The 
ESG also requires H-1s, MV-22s, CH-53K, H-60S, our UAS and CUAS 
systems, and expeditionary enablers such as aviation electronic 
warfare, Expeditionary Air Basing Operations, Low Altitude Air Defense, 
and Tactical Air Control Elements. By fiscal year 2023 every Marine 
Corps platform will have multiple standardized links available that can 
be used to flexibly meet IERs across all MAGTF mission threads. Every 
platform will be a sensor, shooter, EW node, and sharer through digital 
interoperability. Digital interoperability is the seamless integration 
of systems and exchange of data, across all domains and networks 
throughout the MAGTF, naval, joint, and coalition forces, to include 
communication in degraded or denied environments, to rapidly share 
accurate information, provide greater situational awareness, accelerate 
the kill chain, and enhance survivability in order to outmaneuver and 
defeat the threat across the ROMO.

    41. Senator Wicker. Lieutenant General Rudder, the Air Force 
appears to be on the cusp of procuring a fleet of light attack aircraft 
to conduct operations against violent extremist organizations in a more 
fiscally sustainable way and to free up their fighter aircraft to focus 
on training for the high end fight. Such a capability seems ideally 
suited to the Marine Corps. Has the Marine Corps considered pursuing a 
light attack aircraft of its own? Please explain why or why not.
    Lieutenant General Rudder. USMC has a ship-based, expeditionary, 
level-of-effort light attack capability with the HMLA. Investments in 
FW LA assets would require additional funding or offsets from current 
acquisition programs and any offsets would negatively impact AVPLAN 
initiatives to include: legacy to F-35 transition, H-1 upgrade and 
transition to Future Vertical Lift, and the MAGTF Unmanned 
Expeditionary program.
                         usmc unmanned roadmap
    42. Senator Wicker. Lieutenant General Rudder, discuss the roadmap 
for Marine Corps unmanned systems, and in particular L-class ship-based 
unmanned systems, including the Marine Unmanned eXpeditionary (MUX) 
program.
    Lieutenant General Rudder. The RQ-21A Blackjack has deployed in 
support of Marine Expeditionary Units aboard L-Class ships since 2016. 
Both east and west coast MEUs are supported by an RQ-21 systems 
consisting of 5 air vehicles, a GCS integrated with the ships systems 
and a launch and recovery system. The Blackjack provides over 10hrs of 
day / night FMV, with a laser pointer and comm-relay capabilities for 
the MEU & ARG out to 50 nm.
    The MUX requirement will address capability gaps particular to 
Marine aviation's inability to provide organic persistent multi-role 
mission coverage out to 350 nautical miles and beyond from sea-based 
and expeditionary airfields.

    43. Senator Wicker. Lieutenant General Rudder, the discussions 
about requirements for MUX seem to indicate a desire for it to conduct 
a wide variety of missions, endangering the executability of the 
program and its ultimate combat effectiveness. In your view, what are 
the key capabilities that MUX needs to provide?
    Lieutenant General Rudder. The following capability requirements 
point to solutions needed to fill capability gaps particularly USMC 
aviation's inability to provide organic, persistent multi-role mission 
coverage to 350 nautical miles and beyond. These are listed in 
priority:
Tier 1
    1. Early Warning. Support over-the-horizon, networked, early 
warning, identification, cueing and defense against enemy air (fixed 
wing, rotary wing, and UAS), cruise missile, low radar cross section 
threats and indirect fires systems at maximum range in support of the 
MAGTF.
    2. Intelligence, Surveillance, Reconnaissance. Conduct long range, 
wide-area, persistent air reconnaissance and surveillance, capable of 
providing overlapping and cross-cued data from multiple sensors 
directly to operations and intelligence functions and networks.
    3. Electronic Warfare. Conduct long range, persistent, penetrating, 
responsive, airborne electro-magnetic spectrum operations against 
threats in the air, land, maritime and cyberspace domains.
    4. Communications Relay. Provide a long range, survivable, airborne 
digitally-interoperable secure communications Network Bridge between 
MAGTF elements, joint forces and coalition partners. This capability 
seamlessly connects multiple air, sea, and ground networks for command 
and control, communications, target detection, cueing, tracking, and 
engagement.
Tier 3
    5. Offensive Air Support. Conduct long range, day, night and all-
weather, persistent, time sensitive targeting and strike, high value 
target attack, fires coordination, battle damage assessment, and 
kinetic lethal offensive air support.

    The following capabilities are important but may be allocated to 
other systems:
    6. Aerial Escort. Provide long range armed aerial escort to assault 
support missions during infiltration, execution, and exfiltration of 
ground forces, tactical recovery of aircraft and personnel (TRAP), 
maritime interdiction operations, visit board search and seizure, 
emergency extract, airfield seizure, landing zone / route inspection, 
amphibious landings and raids, and ground convoy operations. (This may 
be performed by the Future Vertical Lift program)
    7. Cargo. Reduce tactical transportation risk for small unit 
sustainment. Risk reducing, responsive, logistics transportation system 
for delivery to (and retrograde from) distributed tactical level units 
(battalion, squadron and below sized elements) into small, disbursed 
delivery zones. This includes distribution of ammunition, water, 
rations, repair parts, fuel, medical supplies, mail, and other 
commodities. (Manned aviation, Joint Precision Air Drop, or cargo 
specific UAS).
                mq-25 carrier based unmanned air system
    44. Senator Wicker. Vice Admiral Grosklags, the Navy has designated 
the MQ-25 one of the first Maritime Accelerated Capabilities Office 
(MACO) programs. Please describe the specific steps NAVAIR is taking to 
ensure this is in fact a rapid program.
    Vice Admiral Grosklags.

    <bullet>  NAVAIR has taken the following steps to ensure MQ-25 is 
in fact a rapid program:

      o  In August 2017, the MACO Business Rules for the MQ-25 Unmanned 
Carrier-Based Capability were approved and signed by PEO(U&W), PMA-268, 
and NAVAIR Leadership. The MACO Business Rules define the framework, 
procedures, and set a common understanding between PEO(U&W), the 
Program Manager, (PMA-268) and NAVAIR to ensure accelerated acquisition 
of MQ-25, through the following:

        <bullet>  A short, empowered, chain of command with approval 
authorities delegated to the lowest possible level: MQ-25 government 
staff is lean, empowered, and adheres to an agile staffing concept. 
Members of our program are empowered by their competency and program 
leadership to make decisions at the lowest levels. The program's 
industry and external government partners are expected to take a 
similar approach.

        <bullet>  The empowered program team will seek waivers and 
deviations from any encumbering practices, procedures, policies, 
directives, regulations or requirements in order to execute rapidly and 
affordably.

        <bullet>  NAVAIR leadership acknowledges and accepts that MQ-25 
is high priority within NAVAIR for resource allocation, to include 
reach back personnel, which will result in quicker surge capability 
when warranted.

        <bullet>  Reliance upon industry processes and procedures to 
the maximum extent possible to achieve and meet the intent of the 
Government's goals without adding schedule or undue costs.

        <bullet>  Leverage maximum existing Department of Navy programs 
of record for existing capability to expedite schedule and reduce 
technical risk.

        <bullet>  A small, empowered, government team in place at the 
Contractor facility: The intent of the Government Embedded MACO 
Acceleration Team (GEMAT) is to provide overall insight, not oversight, 
and involvement/participation in daily Contractor engineering, test, 
logistics, and programmatic decisions and activities to achieve 
accelerated capability delivery. The GEMAT will be staffed by personnel 
empowered by leadership with decision authority.

        <bullet>  Real-time collaboration through a Common Digital 
Environment (CDE): The CDE enables both Government and Contractor to 
see information in real-time and allows for a single authoritative 
source of data. The CDE allows for transfer of data between the 
Government and Contractor and ensures accurate configuration management 
is maintained while eliminating the need for duplicative licensing 
between the Government and Contractor.

        <bullet>  A test strategy leveraging Capabilities Based Test & 
Evaluation (CBT&E), Modeling and Simulation, and integrated contractor, 
developmental and operational test operations from day one. The MQ-25 
Integrated Test Team will use derived requirements from the MQ-25 
System Design Specification (SDS) and apply CBT&E methodologies to 
evaluate testable capabilities and requirements. Additionally, 
operational test requirements will be interwoven into campaign/mission 
test requirements to provide a comprehensive CBT&E test plan. 
Developmental and Operational testers will be part of the GEMAT at the 
contractor's facility.

        <bullet>  Reduced requirements: In support of accelerated 
acquisition, the MQ-25 SDS requirements have been derived at a 
performance level to focus on a minimum set of ``shall'' statements and 
verification requirements to support airworthiness, CVN suitability, 
interfaces with Government Systems and mission execution.
              navy and marine corps air-launched munitions
    45. Senator Wicker. Rear Admiral Conn and Lieutenant General 
Rudder, in your judgment, are your air-launched munitions inventories 
sufficient to support current operations and the Defense Strategic 
Guidance writ large? Are there individual air-launched munitions whose 
inventories, either present or projected, are insufficient to meet 
requirements? If so, what are they and what is being DONe to address 
the shortfalls?
    Rear Admiral Conn. The Navy's President's Budget 2019 budget 
represents the best balance of investments in capacity (quantity) and 
capability (modernization and future upgrades). This also applies to 
the Navy's approach to procurement of munitions. In President's Budget 
2019, all major weapons acquisition programs remain consistent or 
increase from fiscal year 2018 to fiscal year 2019 and support the 
Department's goal of increased capacity and capability. The procurement 
of some munitions are limited by industrial capacity and capability, 
multi-year procurement contracts and parts obsolescence. For example, 
AIM-120 AMRAAM production is at capacity due to parts obsolescence. 
Where there are capacity shortfalls, the DON relies on legacy weapon 
variants and conducts yearly inventory analysis and establishes risk 
mitigation strategies to support Combatant Commander operational 
requirements. While carefully managing current inventories to support 
warfighting requirements, President's Budget 2019 invests heavily in 
new capabilities. Fiscal year 2019 provides $32.5 million in RDT&E 
funding for continued AIM-120D software capability enhancements and 
$212 million to procure 141 missiles to support warfighter 
requirements. Similarly, President's Budget 2019 provides funding to 
procure the Joint Air-to-Ground Missile (JAGM) Low Rate Initial 
Production of 75 missiles. JAGM, the replacement for Hellfire, utilizes 
multi-mode seeker technology providing advanced line-of sight and 
beyond-line-of-sight capabilities. The Long Range Anti-Ship Missile 
(LRASM), the next generation anti-surface warfare missile, will provide 
precise, discriminating, and lethal long-range air-launched 
capabilities. Fiscal year 2019 invests $143 million in RDT&E for LRASM 
improvements and $81 million to procure 25 LRASM All-Up-Round weapons.
    Lieutenant General Rudder. Current air-launched munitions 
inventories are sufficient to support Defense Strategic Guidance, 
however, the munitions expended in support of Operation Inherent 
Resolve (OIR) significantly strained global inventory levels.
    The Marine Corps and the other services with similar inventory 
issues, are increasing procurement of PGMs through baseline and OCO 
funding. In addition, CENTCOM has been directed to use their best 
judgment in an effort to manage expenditure rates without losing focus 
on providing the maximum support to the warfighter.
    Both training (readiness) and contingency operations require live 
expenditures that cannot be replaced using baseline funding alone. USMC 
Aviation is relying on OCO funding to replace the high rate of 
expenditures in the current fight while simultaneously investing 
baseline funding in critical precision strike capabilities to win the 
future fight.
                      long range anti-ship missile
    46. Senator Wicker. Rear Admiral Conn, now that the Offensive Anti-
Surface Warfare Increment 2 has been terminated, what is the long-term 
plan for the Long Range Anti-Ship Missile? Does the current program of 
record provide sufficient capability and capacity to support the NDS 
priority of China and Russia?
    Rear Admiral Conn. The DON accepts the intent of Congress to delay 
development of an OASuW Increment 2 material solution as demonstrated 
by lack of Congressional support in multiple prior year budget 
submissions (via formal budget marks). As a result, we are adjusting 
our mid- and long-term OASuW strategy.
    The Long-Range Anti-Ship Missile (LRASM) is the OASuW Increment 1 
material solution to address near-term capability gaps as delineated in 
a PACOM Urgent Operational Need Statement. To address the mid-term 
OASuW capability gaps brought about with OASuW Increment 2's delay, our 
fiscal year 2019 budget request includes an increase in LRASM program 
procurement for an additional 25 missiles across the FYDP; and an 
increase in RDT&E funding to support LRASM capability improvements. 
This RDT&E funding provides for the development, integration and test 
of classified LRASM improvements, beyond line-of-sight communications, 
integration of baseline JASSM-ER capabilities, obsolescence correction 
and implementation of cost reduction initiatives. All LRASM capability 
improvements directly support the SECDEF approved National Defense 
Strategy (NDS) prioritizing efforts that address a resurgence of long-
term strategic competition between nations (China and Russia).
    Even with the planned LRASM capability improvements and increased 
missile procurement quantities, the DON needs to reassess the need for 
a long-term air-launched OASuW Increment 2 program of record. Our plan 
is to leverage the ongoing Next Generation Land Attack Weapon (NGLAW) 
Analysis of Alternatives (AOA). The NGLAW AOA is investigating a long-
range surface and submarine-launched strike weapon that addresses both 
the land attack and ASuW mission areas. Our plan is to leverage NGLAW 
AOA analysis (gaps, technology readiness, etc.) to determine what, if 
anything, should be pursued for long-term Naval Aviation ASuW. The 
NGLAW AOA is scheduled to out-brief no later than the 4th quarter of 
fiscal year 2018.
                 advanced anti-radiation guided missile
    47. Senator Wicker. Rear Admiral Conn, the recent DOT&E report for 
the Advanced Anti-Radiation Guided Missile (AARGM) Program stated that 
the missile was ``not operationally suitable,'' and that ``AARGM will 
likely be ineffective against advanced surface-to-air missile threat 
systems, particularly in an Anti-Access and Area Denial (A2AD) 
environment.'' Given that the NDS emphasizes the Services prioritize 
capabilities suitable against China and Russia, why is the Navy 
deciding to increase funding to the program when DOT&E has found it not 
operationally effective for those scenarios?
    Rear Admiral Conn. The Department of the Navy (DON) is procuring 
AARGM because the weapon system meets all Joint Chiefs of Staff (JCS) 
approved/validated Key Performance Parameters (KPPs). The DOT&E 
concerns were with AARGM software stability and Non-Key Performance 
Parameters (Non-KPP) attributes. The DON and DOT&E agree that follow-on 
testing completed under an AARGM/BLK 1 test program meets all JCS 
validated KPPs and makes improvements to the baseline AARGM (BLK 0) 
performance.
    The DON's request for increased RDT&E funding supports development 
of AARGM/BLK 1 software updates to address evolving Red Force time-
critical strike threats and high-value targets as delineated in the 
SECDEF approved National Defense Strategy.
                            advanced weapons
    48. Senator Wicker. Rear Admiral Conn and Lieutenant General 
Rudder, what steps are the Navy and Marine Corps taking to ensure they 
have munitions that are relevant and effective against the increasingly 
difficult defenses our potential adversaries are developing and 
fielding? Please provide specific examples, including research and 
development efforts.
    Rear Admiral Conn. To ensure that we have relevant and effective 
munitions, the DON has increased our weapons RDT&E funding compared to 
President's Budget 2018. The Department is working aggressively to 
field next-generation weapons technologies; using Accelerated DOD and 
Navy Acquisition policies to rapidly migrate DARPA and Navy S&T efforts 
to programs of record. Examples include improvements to the DARPA 
developed Long Range Anti-Ship Missile (LRASM) program, and transition 
of the Strategic Capabilities Office (SCO) Miniature Air Launched Decoy 
demonstration (MALD-X). The DON has also accelerated other Navy weapons 
programs like: improvements to AIM-120D missiles that increase their 
combat effectiveness and counter advanced threats and Electronic Attack 
(EA) techniques through 2027 and expanding the Advanced Anti-Radiation 
Guided Missile (AARGM) and AARGM-Extended Range (AARGM-ER) capability 
against time sensitive high value targets in fiscal year 2019.
    Lieutenant General Rudder. The Department of the Navy (DON) is 
committed to maintaining a force with the capability and capacity to 
fight and win. Investments in advanced weapon systems increase 
lethality for both the current and future force. Providing needed 
warfighter capabilities, when needed, and in an affordable manner, is 
often challenged by fiscal limitations and budget instability.
    The Department's strategy focuses on transition and modernization 
of needed capabilities for the Carrier Air Wing, Expeditionary Strike 
Group and land-based aviation squadrons of the future. This effort 
includes advancements in manned and unmanned aviation system teams; 
maximization of sensor, payload and platform capability integration; 
and advanced computing. Commercially driven technology should provide a 
technological advantage over adversaries.
    In the near-term, DON has invested in modernization programs to 
legacy weapon systems that includes technological upgrades to Tactical 
Tomahawk, Harpoon Block II and AIM-9X Sidewinder Block II.
    In the mid-term, DON plans investments in new development programs 
such as the Joint Air-to-Ground Missile and Small Diameter Bomb II.
    In the long-term, DON's Cruise Missile Strategy focuses on the next 
generation of long-range strike weapons that will enable the Carrier 
Strike Groups, Amphibious Strike Groups, Surface Action Groups and 
individual firing units of the future to project power across the 
global commons against near-peer threat nations and non-state actors.
                           th-57 replacement
    49. Senator Wicker. Rear Admiral Conn, please provide the committee 
an update on efforts to replace the Navy's TH-57 training helicopters.
    Rear Admiral Conn. The Navy has initiated an effort to replace its 
legacy TH-57 training helicopters. The plans consist of a procuring a 
commercial-off-the-shelf (COTS) helicopter through an open competition 
starting in fiscal year 2020. The COTS acquisition will allow the Navy 
to obtain a suitable replacement trainer, free of development costs, at 
the best value to the Navy. We have conducted extensive market 
research, and we are now in the process of understanding what industry 
has to offer. This information will be used to help us draft a Request 
for Proposal (RFP) which we expect to release early next year. The goal 
of this program is to rapidly and efficiently replace the TH-57 with a 
better, more modern helicopter by leveraging the capabilities and 
capacity of industry.
                        training infrastructure
    50. Senator Wicker. Rear Admiral Conn and Lieutenant General 
Rudder, as the Department focuses increasingly on the high end fight, 
how important are adequate training ranges and supporting equipment to 
ensuring our aviation forces are adequately prepared?
    Are there areas where our training infrastructure needs to be 
improved, in terms of airspace, equipment or other elements? Please 
provide specific examples.
    Please describe efforts the Navy and Marine Corps are making to 
increase and improve the use of Live, Virtual and Constructive (LVC) 
training, and how those efforts are interoperable, within and among all 
the services.
    Rear Admiral Conn. Replicating a realistic and stressful combat 
environment at the advanced level requires investment in training range 
systems and infrastructure to ensure blue force, opposition force 
(OPFOR), and instrumentation systems deliver a relevant, modern, and 
recordable training environment. For example, a robust electronic 
warfare atmosphere saturated with offensive and defensive weapon 
systems poses unique de-confliction challenges similar to what is 
experienced in modern conflicts. For naval aviation, the Fallon Range 
Training Complex (FRTC) in Nevada must be preserved to allow for such 
combat systems to assess unit training shortfalls and assign mitigation 
measures before deployment. Naval aviation strike tactics and 
capabilities have outpaced the constraints of the FRTC as it has 
remained relatively static since the 1970's. Despite these challenges, 
naval aviation is working to achieve a mitigated solution that 
preserves security of operations and training competencies, but will 
not compromise the ability to survive and prevail in combat. Live, 
Virtual, Constructive (LVC) training offers a robust environment to 
integrate live aircraft, simulators, and constructive threats for 
modern, realistic training. For LVC design to be effective, high 
fidelity simulators and models are required in addition to an 
architecture that can integrate and distribute live and synthetic 
systems. Nevertheless, live training on contemporary, accessible ranges 
for validation remains critical to confirm our ability to defeat a 
modern adversary in the high end fight. LVC training is not a separate, 
standalone program, but the compilation of capabilities and investment 
across the training enterprise to create a ``training environment.'' 
The Navy Continuous Training Environment (NCTE), or tactical training 
network, forms the ``backbone'' to connect LVC entities among disparate 
ranges, simulators, and platforms. While initial Navy LVC efforts focus 
on providing improved USN training capabilities and system 
interoperability, the NCTE allows access to the Joint Training 
Environment, the Joint National Training Capability (JNTC) as well as 
to USA, USAF, and combatant commander training infrastructures. The 
Navy understands to execute effectively and swiftly with the other 
services is one of the U.S. military's strategic advantages. In support 
of a LVC event during exercise Northern Edge 2017, the USN and USAF 
directly integrated our two tactical training networks, the NCTE and 
the Distributed Missions Operations Network (DMON), allowing USN F/A-18 
training devices to interact with USAF simulators in real time with 
live aircraft and ships operating in Alaska Commands area of 
responsibility.
    Lieutenant General Rudder. Of course, they are critically 
important. We have to train like we fight. The only place and manner in 
which we can prepare to face a near-peer competitor at the high end 
fight, fully integrated as a MAGTF, is in a properly instrumented range 
with the space to operate at the edge of our envelope and go full speed 
in the air and on the ground. It must be properly instrumented so we 
can gain the most learning from our training and fully explore the 
effectiveness of our systems and our tactics. In fact, adequate and 
properly instrumented ranges are absolutely required, or we aren't 
preparing for the high end fight.
    The areas of improvement should focus on newer threats and emitters 
representative of current nation/ non-nation state weapons capabilities 
and accurate aircraft tracking weapons solutions along with battle 
damage assessment. The end state desire would also include score-able 
targets to assist in weaponeering, integrated calls for fire, and 
weapons performance analytics to support RDT&E.
    Marine aviation is moving forward to expand Aviation Distributed 
Virtual Environment (ADVTE) to 1st and 4th MAW and enhance 2nd and 3rd 
MAW ADVTE capabilities to have a full ACE virtual training environment. 
Marine Aviation is also working with NAVAIR/PMA-205 on aircraft LVC 
integration of live training combined with virtual (i.e. simulator 
training). In addition, Aviation is working with TECOM for LVC 
integration training with GCE and LCE as part of USMC LVC-TE (Live, 
Virtual, Constructive Training Environment). Once ADVTE is fully 
operational it will provide connectivity to the other services 
simulation training.
                               __________
               Questions Submitted by Senator Mike Rounds
                                 f-35c
    51. Senator Rounds. Vice Admiral Grosklags, during the 6 March 
hearing, Rear Admiral Conn described how the transition of a squadron 
to the F-35C would take up to a year, due to Fleet Replacement Squadron 
training and maintenance constraints. Has the Navy examined courses of 
action to increase transition throughput in order to accelerate F-35C 
fielding? If so, are any of the courses of action viable, given current 
resource allocations? If not, what can the Congress do to help the Navy 
accelerate F-35C fielding?
    Vice Admiral Grosklags. From start to finish, a year is not an 
unusual amount of time for a squadron to transition to a new aircraft. 
The limiting factor is generally the time it takes for maintenance 
personnel to develop enough experience with the new aircraft to 
independently conduct maintenance operations. This timeline fits well 
within the normal Navy training cycle between deployments.
                       airborne battle management
    52. Senator Rounds. Rear Admiral Conn, the Air Force is walking 
away from recapping the JSTARS and AWACS because they are not 
survivable in the mid or long term--are there similar survivability 
issues for P-8 and E-2D--if not why not?
    Rear Admiral Conn. The Navy used the most relevant and in-depth 
threat analysis provided by our national Intel communities when they 
instituted the P-8A and E-2D programs. These deliberations were fully 
informed and encompassed all known and anticipated threats for each 
platform within their Concept of Operations (CONOPS).
    The Navy intends to use its most survivable manned and unmanned 
platforms in the high end airborne fight and will control the 
battlespace management of these airborne platforms via national and 
battle group netted sensors, net enabled weapons and advance CONOPS 
that extends the reach and survivability of these platforms.
    As a core pillar of the Naval Integrated Fire Control-Counter Air 
(NIFC-CA) construct, the E-2D extends organic AEGIS and fighter missile 
kill chains by providing long-range weapons quality surveillance data 
via Cooperative Engagement Capability (CEC) and Link-16. The E-2D will 
leverage the capability of other pillar platforms/programs through 
concept of employment options and also employ additional onboard/
offboard capabilities to ensure mid and long-term survivability. The 
Navy is also continuing to evaluate future E-2D capabilities to stay 
ahead of advanced threats.
    The P-8A performs an entirely different mission set than the E-2D 
or JSTARS or AWACS platforms. The P-8's primary missions are ASW and 
ASuW, dedicated to preserving the safe haven and Strategic Lines of 
Communication in the high end fight. It is not designated to perform 
airborne battle management missions or participate in the high end air 
to air battle. The P-8A will leverage both concept of employment 
options and onboard/offboard capabilities to ensure its mid and long-
term survivability. Through incorporation of its Increment 3 advanced 
sensors and systems it will be a full participant/ node in the Navy's 
future battlespace awareness Concept of Operations (CONOPS). 
Incorporating advanced Sensors with greater reach such as the Advanced 
Airborne Sensor (AAS), coupled with its advanced track management 
system (Minotaur), the P-8 brings a generational leap in battle space 
awareness over the P-3C. P-8 will conduct the majority of its strategic 
and operational ASW, ASuW and ISR warfighting objectives outside the 
major threat ranges of our adversaries. Through use of advanced sensors 
and netted C4I systems and prudent Battle Group CONOPS, the P-8 will 
remain away from the high end airborne fight.
                    infrared search and track (irst)
    53. Senator Rounds. Rear Admiral Conn, is your IRST program linked 
to USAF IRST program? When will IRST be available for Super Hornets? 
How can we move the IOC/FOC date to the left?
    Rear Admiral Conn. Although not a joint effort, the Navy and Air 
Force IRST programs have synergies and inform one another to enhance 
the design and development of each service's independent sensor 
program.
    President's Budget 2019 supports a 4th quarter fiscal year 2021 IOC 
for IRST Block II.
    Pulling IRST Block II IOC further left is difficult as the schedule 
for release is aligned with the release of F/A-18 Software 
Configuration Set (SCS) H16. Critical Block II risk reduction efforts 
are underway using IRST Block I systems with F/A-18 SCS H14.
    Accelerating IRST FOC is possible through changes to the currently 
approved Block II LRIP ramp up and by increasing FRP rates. This would 
require additional APN-5 investments in fiscal year 2019 through fiscal 
year 2024.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                      u.s. navy helicopter report
    54. Senator Blumenthal. Vice Admiral Grosklags and Rear Admiral 
Conn, in last year's NDAA, this Committee endorsed the Navy's Force 
Structure Assessment seeking a 355-ship Navy. With this increase in 
shipbuilding, we also need to consider what demands this places on the 
size of our rotary wing aircraft to support new ships. That is why this 
Committee included a reporting requirement in last year's NDAA that 
required the Secretary of the Navy to submit a report by March 30, 2018 
that describes and assesses the capacity of the Navy to increase 
production of anti-submarine warfare and search and rescue helicopters. 
Do I have your commitment that this helicopter force structure 
assessment report will be delivered to Congress on time at the end of 
the month?
    Vice Admiral Grosklags and Rear Admiral Conn. The rotary-wing 
Report to Congress was signed by the Secretary of the Navy on March 28, 
2018, and delivered to the congressional defense committees.
                                 ch-53k
    55. Senator Blumenthal. Lieutenant General Rudder, replacing the 
legacy CH-53E remains crucial as low numbers of flyable aircraft is 
impacting the current state of Marine Corps aviation readiness. In 
addition to bringing the cost down quicker, what are the other benefits 
of increasing the current production ramp rate for Marine Aviation?
    Lieutenant General Rudder. Increasing the CH-53K ramp rate will 
allow the Marine Corps to transition its HMH squadrons to the CH-53K 
faster, but only up to a certain rate. The Marine Corps--and Sikorsky--
could support two additional CH-53Ks (10 total) if they were included 
in the fiscal year 2019 budget. In 19, 20 and 21 industry can support 
production of 10, 18 and 24 aircraft, respectively.
    There could be additional cost savings through increased 
procurement beginning in fiscal year 2021 when industry can support 
full rate production. Currently, the Marine Corps' POR is 200 CH-53K 
aircraft, and the average recurring flyaway cost of the aircraft is 
$87.6 million over the life of the program. The Cost of the CH-53K is 
within the Marine Corps TOA and well within our affordability caps. 
With that being said we have a multi-pronged approach to target cost 
reduction.
    1) Targeting production cost through continuous senior leader 
engagement with OEM on labor rates while leveraging a proven Program 
Cost Affordability Team (PCAT).
    2) Seventy percent of the lifecycle cost of the CH-53K is in O&S. 
We are targeting O&S cost by attacking reliability issues early, 
driving repair capability to the lowest possible level of maintenance, 
establishing phased organic depot capability, and proactively ensuring 
data accessibility for organic capability.
                                  f-35
    56. Senator Blumenthal. Vice Admiral Grosklags, what is your plan 
for increasing F-35C procurement to close the Navy's gap with its 
tactical aircraft shortfalls, and get fifth generation capabilities to 
carrier air wings as quickly as possible?
    Vice Admiral Grosklags. The Navy's F-35 procurement ramp as 
submitted in President's Budget 2019 is adequate to meet the planned 
transition schedule for the first 4 Navy F-35C squadrons. The Navy is 
investigating the costs associated with accelerating the ramp and the 
transition of additional squadrons. Consideration to the global demand 
for forward deployed Naval Aviation combat capability and the 
availability of fleet squadrons to execute a nearly 12 month transition 
process weigh heavily in any procurement ramp discussion. The Navy will 
continuously evaluate these and other relevant factors to refine the 
procurement ramp to optimize efficiency, maximize cost savings, and 
accelerate 5th generation capability to the fleet when possible.

    57. Senator Blumenthal. Vice Admiral Grosklags, on 12 January, 
Secretary Lord provided this committee with the F-35 Modernization 
Continuous Capability Development and Delivery (C2D2) report to meet 
fiscal year 2017 Congressional Reporting Requirements. The report 
stated, ``The services have not made a decision on what Lot 2 and 
beyond aircraft will be brought up to a block 4 configuration.'' Can 
you provide an estimate on when the Department of the Navy will come to 
a decision with retrofitting its LRIP lot 2-10 F-35B and F-35C aircraft 
to a Block 4 configuration?
    Vice Admiral Grosklags. The United States Navy will continue to 
assess mission assignments, sustainment costs, training requirements 
and return on investment based on remaining airframe life when 
evaluating the decision to retrofit LRIP lot 2-10 aircraft to a Block 4 
configuration. Currently RDT&E funding is focused on bringing the Block 
4 capabilities required to meet a near peer threat to the production 
line. Once the Navy has begun to field Block 4 aircraft in our fleet 
squadrons the determination will be made concerning retrofits of the 
older airframes.
                   navy's cyber unfunded requirements
    58. Senator Blumenthal. Vice Admiral Grosklags, according to the 
Navy's fiscal year 2019 unfunded requirements list, several cyber 
initiatives totaling nearly $100 million are listed? Why are so many 
cyber defense programs listed on the Navy's Unfunded Requirements 
list--some of which affect naval aviation--instead of being on the 
Navy's fiscal year 2019 budget request?
    Vice Admiral Grosklags. The Navy's fiscal year 2019 budget 
submission represents the best balance for Navy requirements. 
Cybersecurity is a top priority. Our President's Budget 2019 request 
includes $352 million in fiscal year 2019 and $2.1 billion across the 
FYDP for cybersecurity to improve our operational defense-in-depth 
capabilities across the Navy enterprise and invests substantially in 
the resiliency of our networks. President's Budget 2019 added $30 
million in fiscal year 2019 and $448 million across the FYDP for cyber 
resiliency efforts and there is an additional $49 million in fiscal 
year 2019 for cyber vulnerability assessments.
    President's Budget 2019 funds the Navy's highest cybersecurity 
priorities in fiscal year 2019 and has programmed funds in the Future 
Years Defense Plan for cybersecurity programs. Should additional 
funding become available in fiscal year 2019, the Navy would accelerate 
these activities to enhance our ability to counter network threats and 
increase cyber resiliency.

    59. Senator Blumenthal. Vice Admiral Grosklags, should additional 
funding become available, what additional capabilities will naval 
aviation gain from an increase in dollars for these cyber defense 
programs?
    Vice Admiral Grosklags. Naval aviation will be able reduce the 
adversary's attack surfaces by accelerating cyber-resiliency 
investments into fiscal year 2019 and through the FYDP. These include 
the segmentation of the Aviation Land and Launch Enclave (ALLE), 
remediation of assessed issues on the E-2D Advanced Hawkeye and 
Portable Electronic Maintenance Aides (PEMA), and cyber resiliency and 
integration of Common Control Station (CCS).
    The Aviation Land and Launch Enclave incorporates several ALRE and 
ATC CVN systems into a centrally managed enclave environment to enhance 
network segmentation, device hardening, increased cyber situational 
awareness and cyber incident response within the enclave.
    ALLE implements boundary defense and cyber resiliency as well as 
re-architecting some network foundations to allow effective follow-on 
patches for changing threats.
    E-2D cyber remediations and protections include fixes to 
Vulnerability Assessment Report (VAR) outcomes; supply chain risk 
mitigations, including efforts related to the 1553 bus; Avionics Flight 
Management Computer (AFMC) and Network File System (NFS) cyber 
resiliency efforts; and patch management improvements to enable a more 
responsive identification and deployment process.
    The Portable Electronic Maintenance Aides (PEMA) remediations 
address enterprise-wide solutions for standardized software and address 
cyber deficiencies identified during cyber risk analysis. These are 
also tied to a broader investment plan to increase the number of PEMAs 
across the Naval Aviation enterprise, as part of Sustainment Vision 
2020.
    Common Control Station (CCS) efforts include cybersecurity 
certification requirements.


 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, MARCH 20, 2018

                      United States Senate,
                          Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                   MARINE CORPS GROUND MODERNIZATION

    The Subcommittee met, pursuant to notice, at 2:33 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Roger F. 
Wicker (chairman of the Subcommittee) presiding.
    Subcommittee Members present: Senators Wicker, Rounds, 
Sullivan, Hirono, Kaine, and King.

          OPENING STATEMENT OF SENATOR ROGER F. WICKER

    Senator Wicker. Good afternoon. The Senate Armed Services 
Subcommittee on Seapower convenes this afternoon to examine 
Marine Corps ground modernization initiatives.
    This afternoon, our Subcommittee welcomes two distinguished 
witnesses: Mr. Jimmy Smith, Deputy Assistant Secretary of the 
Navy for Expeditionary Programs and Logistics Management, and 
Lieutenant General Robert Walsh, Deputy Commandant for Combat 
Development and Integration.
    Gentlemen, thank you very much for your attendance today, 
and for your decades of service.
    Mr. Smith, I understand you are testifying before this 
Subcommittee for the first time. Is that correct?
    Mr. Smith. That is absolutely correct, Senator.
    Senator Wicker. Well, we welcome you all the more, and we 
are eager to hear what you have to say.
    As the military's force in readiness, the Marine Corps has 
unique crisis response roles and missions. According to the new 
National Defense Strategy, globally deployed marine units will 
continue to serve as front-line forces postured against 
potential adversaries. Although the NDS [National Defense 
Strategy] sets new priorities, it does not change the Marine 
Corps' role as the military's tip of the spear. Today, this 
Subcommittee will learn about the state of marine ground forces 
and the efforts underway to restore readiness and modernize 
these forces. I look forward to hearing how the National 
Defense Strategy is shaping the Marine Corps' perspective on 
readiness, operations, and modernization for ground forces.
    Since the NDS release, Marine Corps leadership has 
discussed the current and future challenges faced by amphibious 
forces. Sophisticated sensor arrays, space and cyber weapons, 
drones, electronic warfare, mines, and highly capable air and 
missile threats all greatly complicate amphibious operations 
and power projection from the sea. The Marine Operating Concept 
2025 offers warfighting concepts such as sea control, littoral 
operations on a contested--in a contested environment, and 
expeditionary advanced base operations to help the marines meet 
many of these challenges.
    I hope our witnesses will explain how the fiscal year 2019 
budget request translates strategic direction and operational 
concepts into the rapid development and acquisition of 
capabilities.
    Many Marine Corps modernization programs have suffered from 
a drawn-out--from drawn-out development timelines, shifting and 
unrealistic requirements, and cost overruns. These factors have 
frequently conspired to prevent the fielding of replacements 
for aging systems, leaving our marines short of critical 
capabilities. Years of budget instability have increased the 
damage, and that's on us, sitting around this table. However, 
the recently passed 2-year budget agreement provides a window 
of stability and operation for the Marine Corps. This 
Subcommittee is confident that the Marine Corps can develop and 
field more lethal and agile ground forces to prevail in the 
high-end fight.
    This afternoon, our Subcommittee will examine five key 
areas relating to Marine Corps ground programs:
    First, long-range precision fires. The Subcommittee is 
eager to hear about efforts to field longer-range rocket 
artillery and missile systems and--that can do a better job of 
targeting adversary combat formations and supporting naval 
maneuvers. In support of this effort, the Marine Corps will 
activate a second High Mobility Artillery Rocket System, 
HIMARS, Battalion at Camp Lejeune, North Carolina, this year. 
The Army faces similar lethality and range gaps. We've got some 
Army people in the room today, and we appreciate their service 
also. We expect both services to work collaboratively to 
address shortfalls in their tube and rocket artillery and 
surface-to-surface missile systems.
    Secondly, mobile short-range air defense. United States 
ground forces have not experienced enemy attacks since the 
Korean War. However, I am concerned that manned and unmanned 
aircraft, rockets, artillery, and missiles pose an increasing 
danger to marine units and installations worldwide. The Marine 
Corps has not updated its air defense capability since the 
early 1990s. Our witnesses should explain ongoing efforts to 
rectify this shortfall. I understand that the Army also faces 
many of the same challenges.
    As with long-range precision fires, this Subcommittee 
believes that the two services should work together to meet 
similar requirements. Although the Army and Marines seem to be 
collaborating on short-range systems, fielding a medium-range 
system is a more challenging issue. So, we might want to ask 
why that is. The Subcommittee would like a better understanding 
of the Marine Corps' requirements and plans to deploy longer-
range air defense capabilities.
    Next, close combat lethality. Secretary Mattis recently 
established a Pentagonwide task force to improve the lethality, 
survivability, and resiliency of close combat formations. I've 
heard concerns that the Marine Corps may have prioritized 
readiness recovery efforts on aviation units, to the relative 
detriment of close-combat units. So, we'll ask about that.
    The Subcommittee believes that the Marine Corps must make a 
balanced readiness and modernization effort across aviation and 
ground programs. We look forward to hearing from today's 
witnesses about Marine investments in its core infantry 
formations.
    Next, very shallow water mine countermeasures. 
Historically, mines have created serious difficulties for 
maritime forces, particularly amphibious units. Potential 
adversaries, such as North Korea and Iran, may employ large 
numbers of mines to deny access to strategic waterways and 
approaches. The Navy's littoral combat ship and several 
airborne platforms have countermine capabilities, but they are 
focused on operations in deeper water, away from shore. The 
Marine Corps needs to counter--needs countermine capability 
from ship to shore, including in very shallow water and on the 
shore. Given that the Navy and Marine Corps recently agreed to 
produce joint countermine doctrine, our witnesses should 
address how the Marines will deal with mine threats on shore 
and in regions with very shallow water.
    Finally, combat vehicle obsolescence. Our Subcommittee 
would like to discuss the state of major Marine Corps ground 
combat vehicles. The light armored vehicle first entered 
service in the mid-1980s; the amphibious assault vehicle, in 
the late 1970s; and the Abrams tank entered service in the 
early 1990s. The Marines clearly need more modern combat 
vehicles.
    The Subcommittee is interested in the Marine Corps' plan to 
modernize, replace, and upgrade its legacy ground platforms. 
The recently released National Defense Strategy requires all of 
the services to adjust to revised security priorities. The 
Marine Corps is no exception. The new guidance will require the 
Marines to make difficult decision, especially concerning 
ground programs.
    The emerging security environment presents significant 
challenges to the ways in which the Marine Corps has 
traditionally operated. It is imperative that the Subcommittee 
and the Marine Corps continue to work closely together to 
ensure the success of its ground program modernization 
initiatives.
    I, once again, thank you for your service to the country 
and for appearing today.
    I'm delighted to recognize my teammate and Ranking Member, 
Senator Hirono.

              STATEMENT OF SENATOR MAZIE K. HIRONO

    Senator Hirono. Thank you, Mr. Chairman.
    I join you in welcoming General Walsh and Mr. Smith to 
testify today on the fiscal year 2019 budget request for Marine 
Corps ground modernization programs. We thank you for your 
testimony and for your service to our country.
    The 2018 National Defense Strategy, NDS, states that the 
primary challenge facing our Nation is the reemergence of long-
term strategic competition with Russia and China, near-peer 
competitors. The men and women who serve in Marine Corps Base 
Hawaii and marines serving throughout the PACOM area of 
responsibility are vital to protecting our strategic interests 
in the Asia-Pacific regions and--region--and our national 
defense. Our marines support military operations around the 
globe, and we must ensure that they remain ready and capable to 
address contingencies at a moment's notice.
    A vital part of supporting readiness capability is ensuring 
that our marines have access to combat equipment that will 
support them in this mission. To achieve this goal, the fiscal 
year 2019 budget request makes targeted investments in the 
ground combat and tactical vehicle portfolio of the Marine 
Corps. It includes a total of 2.9 billion for Marine Corps 
procurement and 850 million for research, development, test, 
and evaluation.
    One of the most important Marine Corps ground modernization 
programs is the amphibious combat vehicle, ACV [Amphibious 
Combat Vehicle]. The ACV program will replace the assault 
amphibious vehicle, AAV [Amphibious Assault Vehicle], which has 
been in operation for over 40 years. As the Chairman has noted, 
we need to modernize your combat vehicles.
    As part of the ACV acquisition strategy, the Marine Corps 
has awarded contracts to two vendors, each tasked with building 
prototypes for testing and evaluation. This summer, the Marine 
Corps will select one of these vendors to be the prime 
contractor for the program. The fiscal year 2019 budget request 
includes 167 million for the prime contractor to build 30 
vehicles for the ACV 1.1 program. In addition, the Marine Corps 
will begin designing and developing the ACV 1.2 variant. Unlike 
the ACV 1.1 program, which has limited amphibious capability, 
the ACV 1.2 will be a fully amphibious vehicle. The fiscal year 
2019 budget request includes 55.8 million in research, 
development, test, and evaluation funding for the new ACV 1.2 
program. I welcome an update from our witnesses on the status 
of the ACV program.
    As the ACV program moves forward, the Marine Corps 
continues to upgrade assault amphibious vehicles, AAV. The 
Marine Corps first fielded the AAV more than four decades ago, 
and marines will continue to rely on these vehicles until they 
are replaced by new ACV vehicles. In order to protect our men 
and women who rely on the AAV, the Marine Corps is modernizing 
a portion of AAVs with survivability upgrades.
    The final Marine Corps vehicle program I want to highlight 
is the joint light tactical vehicle, JLTV [Joint Light Tactical 
Vehicle]. JLTV is a joint Army and Marine Corps program that 
will replace the high mobility multi-wheeled vehicle, better 
known as the Humvee. The fiscal year 2019 budget includes 607 
million to procure 1,642 JLTV vehicles. Over the course of the 
program, the Marines intend to replace roughly one-third of 
their legacy Humvee fleet.
    In addition to the major vehicle modernization programs, 
the Marine Corps has prioritized two other programs in the 
fiscal year 2019 budget to support our marine forces:
    The first is the ground-air task-oriented radar, or GATOR 
[Ground/Air Task Oriented Radar]. The GATOR is an expeditionary 
radar system that will replace legacy radar systems currently 
fielded by the Marine Air-Ground Task Force. The Marine Corps 
plans to procure six systems in fiscal year 2019.
    The second program is the high-mobility artillery rocket 
system. Like the Army, the Marine Corps has capability gaps in 
long-range artillery and rocket systems. To address these 
shortfalls, the budget request includes 134 million to acquire 
new high-mobility artillery rocket systems for the 5th 
battalion 10th marines, which is being reactivated.
    Again, thank you, Mr. Chairman, for holding this hearing. I 
look forward to hearing from our witnesses.
    Senator Wicker. Thank you very much, Senator Hirono.
    Gentlemen, you submitted a joint written statement. Who 
would like to summarize that, in about 5 minutes?
    Lieutenant General Walsh. I think I can do it in less than 
that, Senator Wicker.
    Senator Wicker. We're delighted to have you----
    Lieutenant General Walsh. I'll take that.
    Senator Wicker.--General Walsh.

 STATEMENT OF LIEUTENANT GENERAL ROBERT S. WALSH, USMC, DEPUTY 
 COMMANDANT FOR COMBAT DEVELOPMENT AND INTEGRATION; COMMANDING 
     GENERAL, MARINE CORPS COMBAT DEVELOPMENT COMMAND; AND 
    COMMANDER, UNITED STATES MARINE FORCES STRATEGIC COMMAND

    Lieutenant General Walsh. Thank you, Chairman Wicker, 
Ranking Member Hirono, and Senator King and Kaine. Thank you 
for the opportunity to testify.
    The Marine Corps ability to serve as our Nation's crisis 
response force is largely due to this committee's support, and 
we thank you for that strong support, on behalf of all our 
marines. A fully resourced defense budget, in conjunction with 
the long-term budget stability that we're getting through the 
Bipartisan Budget Act, will send a strong signal to our allies, 
partners, and all potential adversaries, that the U.S. is fully 
committed to preserving a free and open world.
    As the Commanding General of the Marine Corps Combat 
Development Command, I have the tremendous honor of leading 
over 18,000 marines, sailors, and civilians spread over 
commands across the country. We are the Marine Air-Ground Task 
Force's capability developers and integrators, which means our 
job comes down to one sentence, getting the right capabilities 
at the right time to the warfighter as the best that the Nation 
can provide.
    I'm honored to serve daily with these men and women. Over 
the last year, the Marine Corps has been focused around the 
globe, providing combined armed teams to crisises or places 
where crisises may occur to meet the Congress's mandate to be 
ready to suppress or contain international disturbances, short 
of war. You mentioned the National Defense Strategy. We believe 
that we're key players in the contact, blunt, and surge forces. 
So, out of the four layers that are in that, we see ourselves 
as players in that.
    But, as you said earlier, as we look at today's situation, 
the threats that are out there, looking to compete 
strategically, as we look at our marines that are out there, 
and sailors operating every day as--in part of those contact-
and-blunt forces, those forces must be a lethal combat-credible 
force oriented on warfighting to be able to provide that 
credible deterrence.
    During the last several budget cycles, we've been focused 
heavily on improving readiness of the force. The increase in 
defense spending and improved budget stability provided by 
Congress today allows us to place greater emphasis on 
modernization. Specifically, within our total obligated 
authority, we've increased, in 2019, by 7 percent. To show you 
that--the step that we're making towards modernization with 
that 7-percent increase, we're increasing our modernization 
accounts by 32 percent. This increased signal in modernization 
shows our sense of urgency and the threats that we face via the 
National Defense Strategy.
    The Marine Corps fiscal year 2019 budget aligns five budget 
priorities of information warfare, long-range precision fires, 
air defense, command and control in a degraded environment, 
protected mobility, and enhanced maneuver with the Secretary of 
Defense's direction to increase lethality, resilience, agility, 
and build a flexible and dynamic force.
    Additionally, I want to emphasize our close coordination 
with the Army. You mentioned that earlier. I think we've got 
close coordination in full alignment, in many case. In fact, 
the Commandant's direction to me is to align them in every 
single case that we can. I think you'll see, over today's 
hearing, that we're trying our best to do that.
    My prepared statement contains greater detail on each of 
these five priorities, but I thank you for the opportunity, and 
with--along with my partner, Mr. Smith, to testify before you 
today.
    Thank you.
    Senator Wicker. Thank you, General.
    Mr. Smith, do you wish to make an opening statement?
    Mr. Smith. Yes, Senator. I'll make a brief opening 
statement.
    Senator Wicker. Wonderful. You're recognized.

  JIMMY D. SMITH, DEPUTY ASSISTANT SECRETARY OF THE NAVY FOR 
        EXPEDITIONARY PROGRAMS AND LOGISTICS MANAGEMENT

    Mr. Smith. Senators, I appreciate the opportunity to be 
here before the Senate Armed Services Committee on Seapower and 
U.S. Marine Corps ground programs.
    I've been in the role as the Deputy Assistant Secretary of 
the Navy for Expeditionary Programs and Logistics Management 
for just about a year now, and I can tell you, I am very 
impressed with the capability that I see coming forward through 
the Marine Corps with our industry partners until--and research 
and development efforts paying off in the future. I look 
forward to your questions and hopefully returning next year to 
promote more transparency and show what we're doing in support 
of this Nation's National Defense Strategy.
    Thank you, Senator.
    [The joint prepared statement of Lieutenant General Walsh 
and Mr. Smith follows:]

Joint Prepared Statement by Lieutenant General Robert S. Walsh and Mr. 
                             Jimmy D. Smith
               marines--contribution to national defense
Introduction
    As set forth by the 82nd Congress and reaffirmed by the 114th, the 
purpose of our Corps is to provide maritime expeditionary combined arms 
air-ground task forces that are ``most ready, when the Nation is least 
ready.'' We are a naval force whose mission requires us to be ready--a 
fight-tonight, forward deployed, Next Generation force--able to respond 
immediately to emergent crises around the globe either from the sea, 
forward bases, or home station. The new National Defense Strategy (NDS) 
has further prioritized major power competition, in particular 
reversing the erosion of the United States military advantage in 
relation to China and Russia. Amphibious forces, in competition against 
the full range of potential adversaries, have significant roles in 
three of the four layers of the global operating model (contact, blunt 
and surge layers). While our organization, training, and equipment must 
continually adapt to meet changes in the operational environment, our 
fundamental purpose remains unchanged.
Globally Engaged, Force in Readiness
    Combatant commander (CCDR) demand for marines and tailored Marine 
Air-Ground Task Forces (MAGTFs) continues to drive an aggressive 
operational tempo. We consistently maintain about 35,000 marines, or 
one-third, of our operating forces forward deployed across the globe. 
Our current posture encompasses several global tasks: Marines 
supporting multiple CCDRs with offensive air support and strikes from 
our Amphibious Ready Groups / Marine Expeditionary Units (ARG/MEU) 
afloat; building partner capacity in both Iraqi and Afghan Armies 
confronting Islamic State and Taliban fighters; providing critical 
fixed-wing and artillery fire support to coalition-enabled Syrian 
Democratic Forces as they fought to clear the Islamic State from Raqqa, 
Syria; providing tailored military combat-skills training and advisor 
support to foreign forces as part of Marine Corps Forces Special 
Operation Command (MARSOC); deterring provocations in the East and 
South China Seas through the forward posturing of 5th Generation 
aircraft within the Pacific; providing immediate disaster response from 
our ARG/MEU and Special Purpose Marine Air-Ground Task Force (SPMAGTF) 
to Americans in the wake of four hurricanes; supporting continued 
efforts to ensure freedom of navigation through the Bab al-Mandab 
strait; and enabling full spectrum cyberspace operations while 
supporting Joint and Coalition Forces as part of Marine Forces Cyber 
Command (MARFORCYBER). Marines are continuing to evolve as an inside 
force by fostering and strengthening relationships with our allies and 
partners, demonstrated by executing 62 joint, bilateral, and 
multinational exercises last year.
A Strategy Driven Budget
    The National Defense Strategy (NDS) prioritizes major power 
competition, and in particular, reversing the erosion of the United 
States military advantage in relation to China and Russia. The Marine 
Corps' fiscal year 2019 budget aligns budget priorities with strategy 
and guidance enabling the Corps to compete, deter, and win in the 
future operating environment. The request fulfills DoD and DON 
objectives by addressing Secretary of Defense direction to increase 
lethality; resilience; agility; and the building of a flexible and 
dynamic force. Guided by the NSS and NDS, the Marine Corps made 
specific decisions about the fiscal year 2019 budget that support a 
more capable, ready, and efficient force.
    The surest way to prevent war is to be prepared to win one under 
the most difficult of circumstances. Doing so requires new operational 
concepts, an aggressive approach to force development and a consistent, 
multiyear investment to restore warfighting readiness. The goal is to 
field a more lethal, resilient, and agile force. We have focused on 
preventing and deterring conflict by providing combined-arms task 
forces to theaters either already in crisis or at the risk of crisis to 
meet the Congress' mandate to be `` . . . ready to suppress or contain 
international disturbances short of large-scale war.''
    As stated, your Marine Corps already provides key elements within 
three of the four layers of the global operating model described in the 
NDS--contact, blunt, and surge. Our forward deployed forces are part of 
the Nation's contact and blunt Layers--that competitive space where the 
military element of national power preserves the alignment of shared 
interests with our partners and allies--while the balance of Marine 
Corps forces are prepared to rapidly deploy as part of the Surge Layer, 
as one would expect given our role as an expeditionary-force-in-
readiness. Our competitors, however, are continuously seeking to 
challenge us in new ways within the littorals, advancing their ability 
to locate, track, and attack the naval fleet and associated amphibious 
forces. Thus, future amphibious contact, blunt and surge layer 
operations will require many capabilities to allow us to be effective 
within the most likely future operating environment. Our wargames and 
experiments indicate that the current gap in requirements between 
today's forceenvironment. Our wargames and experiments indicate that 
the current gap in requirements between today's forceenvironment. Our 
wargames and experiments indicate that the current gap in requirements 
between today's force
    This statement aims to do two things: 1) Broadly describe how your 
Marine Corps is adapting to increase its competitive advantage and 
reduce the vulnerability against pacing threats ; 2) Explain how our 
ground programs budget priorities for the President's Budget Fiscal 
Year 2019 submission will result in a more lethal force that is better 
postured to deter conflict, while remaining ready to prevail if one 
ensues.
             adapting to increase our competitive advantage
    Unlike experiences following past major U.S. military campaigns, 
where the world was generally stable enough that our Corps' overseas 
commitments decreased in quantity, today's Marines are employed more 
frequently, more widely, in more complex missions, and in smaller units 
than ever before. In recent years ARG/MEUs have been forced to operate 
in an increasingly disaggregated fashion, often times spread out over 
thousands of nautical miles in order to prosecute varied missions in 
littoral regions. This disaggregation strains the traditional 
capabilities of these units as currently organized and forces us to 
consider a wide variety of future ship mix and type options. 
Additionally, the proliferation of advanced weapons technologies, mass 
urbanization and migration, regional conflict and the challenges of the 
information age all combine to further drive the need for a properly 
manned, trained and equipped next generation Marine Corps.
    Your Marines continue to innovate and build this next generation 
Marine Corps--a lethal, adaptive, and resilient Corps that implements 
combined arms and conducts maneuver warfare across all domains,. This 
transformation began in 2016 with the implementation of the Marine 
Corps Operating Concept (MOC). The MOC represents our institutional 
vision for how the Marine Corps will operate, fight, and win despite 
the challenges described above. While the Corps' fundamental purpose 
does not change, our concepts--and the organization, training, and 
equipment changes they drive--must adapt to effectively accomplish it. 
The MOC provides the foundation and context for subordinate operating 
and functional concepts--like Littoral Operations in a Contested 
Environment (LOCE) and Expeditionary Advanced Base Operations (EABO)--
and it guides our analysis, wargaming, and experimentation. Further, 
the MOC drives the evolution of our Service doctrine, organization, 
training, materiel, leadership and education, personnel, and facilities 
(DOTMLPF) through a detailed and thorough Concepts Based Requirements 
System.
    The development and acquisition of long-range precision weapons by 
our Nation's chief rivals--China, Russia, North Korea, Iran, and 
Violent Extremist Organizations (VEO)--have placed many of our forward 
deployed forces within the effective range of their weapons systems, or 
``threat rings.'' Forward deployed and stationed Marines are now 
vulnerable to attacks in ways we have not considered for decades. 
Forward positioned forces require a resilient, dispersed basing posture 
with sufficient forward stockpiles of logistics and a reliable command 
and control (C2) networks. Conversely, most of our forward bases and 
stations lack sufficient resilience against long-range kinetic and non-
kinetic attacks; thus, jeopardizing our ability to prepare, project, 
and sustain combat power. Efficiencies in the construction and 
configuration of these bases, made possible by a previously existing 
security environment have now created risks to forward deployed forces. 
The President's Budget 2019 begins to remedy these problems. 
Remediation efforts include increased dispersion of our forward 
elements, additional hardening of our existing facilities, to include 
aircraft hangars and command posts, the capability to rapidly repair 
damage to our air stations, effective counters to precision guided 
munitions and advanced integrated mobile air-defense capabilities. Many 
of these remedies will also prove effective to sea-based forces and to 
forces positions on expeditionary advanced bases.
Increasing the Lethality of Our Corps
    In addition to increasing the survivability and resilience of our 
forward forces, we must also strive to make all forces more lethal. 
Building a more lethal force is not defined solely by hardware; it 
requires change in the ways the Marine Corps readies, postures, 
employs, and develops the force. The rapid changes in the character of 
warfare and the problems presented by current and future pacing 
competitors create fundamental challenges to ground programs, the 
associated concepts of employment, and the personnel that will operate 
the systems. We have discovered that key enablers such as unmanned 
systems, Manned/Unmanned Teaming, networked sensors/weapons and C2, and 
AI-enabled systems will all shape the next generation force's 
lethality. Some or all of these elements will appear in all future 
ground systems. We must prioritize modernization of ground programs to 
support our new operating concepts, regain lost competitive space and 
fully leverage capabilities that other elements of the MAGTF and the 
Joint Force are fielding.
                   ground programs budget priorities
Modernizing--The Foundation of Our Future Readiness
    What we desire to achieve is a Corps capable of exploiting, 
penetrating, and destroying advanced adversary defenses in all domains 
in support of naval or Joint Force operations. To do that, we must be 
afforded the flexibility to experiment with new technologies available 
on the market, determining what will work best in the future operating 
environment, and then delivering those capabilities to the force 
quickly to mitigate the rapid rate of technological change. Our newly 
chartered Marine Corps Rapid Capabilities Office (MCRCO) accomplishes 
that end, seeking emergent and disruptive technologies to increase our 
lethality and resiliency. The MCRCO leverages fiscal year 2016 and 
fiscal year 2017 NDAA provisions and partnerships to accelerate the 
acquisition process--with the consistent and steadfast support of 
Congress--we will continue to fund this office. Accelerated 
modernization is the most effective remedy to our long-term readiness 
problems and we must abstain from burying our modernization efforts 
under cumbersome acquisition processes--we have to get this right.
    The President's Budget 2019 investment approach is synched with the 
implementation of Marine Corps Force 2025, specifically investing in 
ground systems that enhance our capabilities in areas such as: 
Information Warfare (IW), Long Range/Precision Fires, Air Defense, 
Command and Control in a Degraded Environment, and Protected Mobility/
Enhanced Maneuver. These capability areas support building a Next 
Generation Marine Corps across the Active and Reserve components of the 
force. Additionally we have foundational efforts which are critical to 
modernization efforts (such as infrastructure, training sustainment, 
and manpower) that enable that enable our warfighting capabilities. 
This approach includes changes to the structure of our into equipment 
sets that balance affordability with the need for a networked, mobile, 
and expeditionary force.
Information Warfare (IW)
    We continue to prioritize the integration of information 
capabilities throughout the MAGTF. Within the Command Element, 
investments in the Marine Intelligence Program allowed the formation of 
the MEF Information Group (MIG). The MIG establishes IW coordination 
centers for MAGTF commanders, filling the IW gap at the operational 
level. Additionally, we have increased funding to MARFORCYBER to man, 
train, and equip cyber forces and conduct full-spectrum cyberspace 
operations. The coordination, integration, and employment of 
information and cyber capabilities will enable the MAGTF commander to 
facilitate friendly force maneuver and deny the enemy freedom of action 
in the information environment.
    The Marine Corps is making rapid progress in the use Small Unmanned 
Aerial Systems (SUAS). We are currently fielding to every infantry 
battalion in the Marine Corps SUAS platforms for conducting 
Intelligence, Surveillance, Target Acquisition and Reconnaissance 
(ISR), enhancing the reach of current communications equipment, and for 
use in training for countering enemy UAS platforms. The Marine Corps is 
using some commercial off-the-shelf systems as well as systems produced 
through the use of additive manufacturing. Simultaneously, the Marine 
Corps is advancing the digital interoperability between these systems 
and digital communications systems in order to synchronize as well as 
control SUAS platforms.
Long Range/Precision Fires
    The Marine Corps must advance its long range and precision fires 
capabilities. In support of this requirement, we have prioritized the 
reactivating 5th Battalion, 10th Marines as a High Mobility Artillery 
Rocket System (HIMARS) unit. Due to reach IOC in fiscal year 2021, this 
battalion will expand long range fires capability to II Marine 
Expeditionary Force based in Camp Lejeune, North Carolina. In addition, 
we are exploring with the Army the ability to modify Guided MLRS 
rockets from aboard ships and modifications to the rockets to enable 
engagement of moving targets.
    Technological advancements have also made it possible to operate 
precision guided munitions at lower echelon units. In this area, the 
Marine Corps has fielded Loitering Miniature Aerial Munitions (LMAM) as 
part of an urgent requirement to operating forces for use on the 
battlefield. Also, in conjunction with ONR is working on the Advanced 
Capability Extended Range Mortar (ACERM) Future Naval Capabilities 
(FNC) program. This partnership looks to utilize the existing 81mm 
mortar tubes to increase range of the system through the development of 
a precision guided gliding munition. Considering the changes in the 
complexity of the battle space and increased congestion due to the 
increase prevalence of SUAS and LMAMS, the Warfighting Laboratory is 
experimenting with various air space planning tools and procedures to 
assist operators in planning and executing of fire missions. They are 
also exploring the use of SUAS and Radio Frequency geolocation to cue 
and target threats at increased ranges.
Air Defense
    To modernize our air defense systems and capitalize on our current 
investments in the Ground Air Task Oriented Radar (G/ATOR) and Common 
Aviation Command and Control System (CAC2S), the Marine Corps is 
pursuing a Ground Based Air Defense (GBAD) kinetic means to defeat the 
latest threat. The rapid rise in threat air platforms requires the 
Marine Corps to rapidly modernize its GBAD capabilities in both Short 
Range Air Defense (SHORAD) and Beyond Visual Range (BVR). These 
modernization efforts began in 2017, and will protect our forces from 
an array of emerging air threats including: unmanned aerial systems 
(UAS); aircraft; and cruise missiles.
    The first of these initiatives is the Marine Air Defense Integrated 
System (MADIS). MADIS is a maneuverable JLTV mounted short range air 
defense capability that is being designed to detect, track, identify 
and defeat emerging threat UAS, as well as Fixed Wing (FW)/Rotary Wing 
(RW) capabilities. The MADIS program is directly leveraging the Army's 
Program Director Counter Rockets, Artillery, Mortar (PD CRAM) 
developmental efforts. MADIS is designed to protect both ground 
maneuver forces and fixed sites. Future modernization efforts will 
include integration with G/ATOR and CAC2S as well as beyond visual 
range systems.
Command and Control (C2) in a Degraded Environment
    President's Budget 2019 invests in our C2 capabilities needed to 
build the Next Generation Marine Corps that will dominate the 
information domain.
    Critical to the success of the MAGTF ashore is our ability to 
coordinate and synchronize our distributed C2 sensors and systems. Our 
modernization priorities in this area are the Ground/Air Task Oriented 
Radar (G/ATOR) and the Common Aviation Command and Control System 
(CAC2S). These systems will provide modern, interoperable technologies 
to support real-time surveillance, detection and targeting and common 
C2 suite to enable the effective employment of that and other sensors 
and C2 suites across the MAGTF.
    G/ATOR ensures no other service is more capable than the Marine 
Corps for controlling MAGTF airspace. It serves as the foundation for 
Commander, Joint Force Air Component delegation of airspace control to 
the future MAGTF, and provides MAGTF commanders the freedom of action 
to employ organic surface and air fires.
    CAC2S provides the tactical situational display, information 
management, sensor and data link interface, and operational facilities 
for planning and execution of Marine Aviation missions within the 
MAGTF. CAC2S will eliminate the current stove-piped, dissimilar legacy 
systems and will add capability for aviation combat direction and air 
defense functions by providing a single networked system. CAC2S will be 
the primary C2 system that integrates MAGTF aviation operations with 
Joint, combined, and coalition aviation C2 agencies.
    The MAGTF of 2025 must also improve the networking capability of 
ground systems. Networking on the Move (NOTM) is being procured to 
enhance networking among both ground vehicles and aviation platforms. 
NOTM provides the MAGTF with robust beyond-line-of-sight command, 
control and communication capabilities while on the move or stationary. 
Using existing commercial or military broadband SATCOM, this system 
extends the digital network to Marines at the furthest reaches of the 
battlefield. This system will enable the distributed Marine forces of 
2025.
Protected Mobility/Enhanced Maneuver
    Our Ground Combat and Tactical Vehicle Strategy (GCTVS) provides a 
framework for portfolio management and enterprise decision support. The 
Marine Corps is investing approximately 29 percent of its modernization 
resources into GCTV systems within the FYDP [Future Year Defense 
Program]. The overarching combat and tactical vehicle investment 
priority is the modernization of Assault Amphibian capability through 
the Amphibious Combat Vehicle (ACV) program as the means to 
incrementally replace the legacy AAV.
    The first phase and increment of the ACV program (ACV 1.1) is on 
schedule for Milestone C decision and down-select to a single 
contractor in June of 2018. It is successfully performing at or above 
the required performance parameters with both vendors demonstrating the 
capacity to meet objective requirements for ship-to-shore water 
mobility. Both manufacturers have delivered their required number of 
vehicles and are currently undergoing rigorous developmental testing 
including water mobility and under-vehicle blast protection tests as 
well as operational testing with the user community. ACV 1.1 is on 
track to meet an fiscal year 2020 initial operation capability target 
and has set the conditions for a seamless transition in the production 
of second increment (ACV 1.2) personnel carriers and supporting mission 
role variants for command & control and maintenance & recovery. 
Finally, ACV 1.2 is resourced to also deliver an initial active 
protection system capability and a lethality upgrade to improve support 
by fire to the infantry.
    The second highest priority for combat and tactical vehicle 
investment remains the replacement of the legacy high mobility, multi-
purpose, wheeled vehicle (HMMWV) fleet beginning with that portion 
which is most at risk; those trucks that perform a combat function and 
are typically exposed to enemy fires. In partnership with the Army, the 
Marine Corps has sequenced the Joint Light Tactical Vehicle (JLTV) 
program to ensure affordability in conjunction with the execution of 
the ACV program. This approach enables an affordable, incremental, and 
simultaneous modernization of the two most stressing gaps within the 
GCTV portfolio.
    In this budget year, we are also beginning to look at a replacement 
for our legacy Light Armored Vehicles (LAV), the Marine Corps' current 
light armored reconnaissance platform. The Office of Naval Research 
(ONR) is leading the effort develop revolutionary technologies that 
will inform requirements development for what we are calling the 
Armored Reconnaissance Vehicle (ARV). This effort will identify the 
``realm of the possible'' for the LAV replacement and will help 
accelerate movement to the acquisition phase within the next four to 
five years. The research will explore advanced technologies within 
size, weight, time and price point limitations, as well as generation-
after-next-technologies using size and weight constraints only.
    A subset inherent to our Protected Mobility/Enhanced Maneuver 
efforts is the requirement to increase Close Combat Lethality. We have 
made great strides in several areas such as; enhancing small arms and 
ammunition; virtual training tactical decision kits; sensing Unmanned 
Air Systems (UAS) and Unmanned Ground Systems (UGS); small situational 
awareness devices for Distributed Operations and decentralized decision 
making; loitering munitions; lightening the individual Marine's load 
and addressing power needs; Electronic Spectrum and Signature 
Management; and Active Protection Systems.
    The Marine Corps rifle squad currently possesses a tactical 
advantage with its small arms overmatch capabilities for ranges up to 
500 meters. To maintain relevance against recent small arms capability 
advancements made by potential adversaries, significant modernization 
efforts are planned within the next decade.
    The Marine Corps is pursuing capability improvements to small arms 
with the goals of increased lethality and improved mobility. For 
lethality, the Marine Rifle Squad requires the ability to accurately 
engage and neutralize threats out to 600 meters. For mobility, Marines 
require the ability to move efficiently and effectively while carrying 
a standard combat load and weapon in order to accomplish combat related 
tasks.
    The Marine Corps has also been supporting DARPA's Squad X program 
by providing personnel for testing. Squad X is maturing key 
technologies, developing system prototypes, and refining the prototypes 
to maximize the squad's performance against emerging threats. Squad X 
looks to develop a multi-domain combined arms squad through the 
integration of shared situational understanding, optimized resource 
management, synchronized action and increased lethality.
    Further, the Marine Corps is working with the Army in regards to 
ground robotics with the future CRS-I program. It is also expects to 
participate more significantly in the Army's Leader Follower, Robotic 
wingman and Squad Multi-purpose Equipment Transport efforts to develop 
CONOPS, interface standards, open software architectures, and better 
define capability requirements. We are looking at its applicability 
with our EOD and engineer functions.
Modernization Foundational Effort--Training
    As our capabilities continue to expand and the threat continues to 
adapt, our ability to train the MAGTF is challenged. As we implement 
the Marine Corps Operating Concept, we must modernize our synthetic 
training environment, making it more integrated and adaptable. Our 
units must be able to conduct collective training and mission 
rehearsals wherever they are; not only in training areas and simulation 
centers, but in barracks, in headquarters, at service-level training 
centers and while forward deployed on ships or in country. Our Live, 
Virtual and Constructive Training Environment Program will improve our 
ability to exercise multiple elements of the MAGTF from disparate 
locations as if they were collocated on the same battlefield. Neither 
live training nor synthetic training alone is sufficient. The strategy 
that will offset our readiness beyond that of our opponents involves 
multiple synthetic repetitions leading to highly effective live 
training exercises and evaluations, followed by continual live, 
virtual, and constructive sustainment events.
    Weapons proficiency, weapons employment, and the integration of 
combined arms and maneuver through live-fire training remain core 
components of our combat readiness. To meet these demands, our 
operating forces must rely on access to safe, modernized, and well 
maintained training ranges. The Marine Corps' range modernization 
efforts are designed to provide realistic training environments that 
simulate contemporary and future operating environments. Ongoing 
modernization efforts include a new generation of interactive targets 
that move autonomously, expanded military operations in urban terrain 
capabilities, improved instrumentation technologies, realistic threat 
representations, and scoring systems.
    The Marine Corps' current and future immersive training 
environments are designed to enhance our Marines' abilities to make 
sound tactical and ethical decisions in chaotic, stressful and complex 
environments. These venues are equipped with contracted role players, 
the Tactical Video Capture System, battlefield effects simulators, 
special effects, and range instrumentation equipment that facilitates 
detailed after-action reviews. These training capabilities enable unit 
commanders to assess tactics, techniques and procedures in real time 
and to provide learning points for follow-on training. The expanded 
procurement and utilization of advanced force-on-force training will 
further allow Marines to improve their decision making abilities 
through engagement against a thinking, adaptive enemy.
                           summary/conclusion
    The Marine Corps' Ground programs Modernization strategy will 
ensure the individual Marine enjoys a qualitative military edge over 
any adversary. Our goal is not to man the gear, but to adequately equip 
the Marine to ensure we can provide combat formations capable of 
closing with and destroying the enemy. In the near-term, our first 
priority is to increase capability and competency within the 
information environment, while concurrently actualizing structure 
design, leader development and training with corresponding updates to 
doctrine and policy. Equipment enhancement in the near-term will 
consist of balanced investment in existing capabilities while 
exploiting technological advances. In the mid-term, Marine Corps 
modernization targets increasing naval integration, expeditionary power 
projection, lethality, and protection; the results of which will 
address restoration of multi-domain combined arms overmatch against 
peer and near-peer adversaries. In the long-term, the Marine Corps 
seeks new capability development and investment to enhance the next 
generation MAGTF, exploiting Science and Technology and applied 
research to attain significant improvements in capabilities, addressing 
identified warfighting challenges, capability gaps, and requirements to 
achieve asymmetrical advantages.
    In future competition for international stability and security, the 
Marine Corps will provide a globally responsive expeditionary force 
that includes forward deployed, rapid response, and surge force 
elements. This expeditionary force is designed to maintain contact, 
blunt emergent aggression, and surge to prosecute a major campaign, 
thereby providing a wide range of options to command authorities to 
message, deter, combat, or defeat those that would attack the global 
order or threaten the global commons. As Marines have always done, when 
our Nation calls upon us, we will fight and win regardless of the 
dimension or domain.

    Senator Wicker. Thank you very, very much.
    Okay, well, let's start off, then, with a few things that 
you touched on, General Walsh, but I'll let you elaborate.
    With regard to the increasing danger and the need for 
updated air defense capability, I assume you agree with my 
statement that it's been since the early 1990s when--since we 
really took a look at changing this capability. You said, in 
your oral statement, that you're working with the Army. My 
statement said that the two services should work together, and 
that it seemed that short-range systems collaboration was a 
matter where there was a little more progress than medium-range 
systems. So, if you could comment on that, and help us 
understand.
    Lieutenant General Walsh. I think close coordination with 
this--you know, as we moved out of Iraq and Afghanistan, a lot 
of our focus had been on the ground side, but we started to 
look at this counter-UAS [unmanned aerial system] threat. And 
so, I think we've been focused on the counter-UAS threat, and 
now, as we get the new defense strategy, we're starting to 
see--looking at aircraft and going against cruise missiles.
    So, the program that we've really got is our ground-based 
air-defense future weapon system. In that, that's based around 
a JLTV concept. We've got several vehicles with a radar, which 
is the radar that the Army uses, integrating that same radar 
that you're using with Maneuver SHORAD, their short-range air 
defense, using a Stinger missile that we currently have in our 
LAAD battalions, integrating that Stinger missile with the 
radar. We're also putting on a EW capability onto that vehicle, 
along with the kinetic kill capability.
    Senator Wicker. For those people listening in, what does 
that mean?
    Lieutenant General Walsh. Electronic warfare. I'm sorry. 
Electronic warfare. So, it's a capability----
    Senator Wicker. Senator Hirono and I fully understand----
    Lieutenant General Walsh. Right, I'm sorry. I'm sorry.
    So, electronic warfare. We're also trying to integrate--
we've got a developmental program on a laser, to be able to put 
a laser on that. We're currently testing that with the 
opportunity to rapidly deploy that and demonstrate that 
capability.
    So, those are, kind of, the things that we've got in there 
in this program. I see the way that, this all moving very 
quickly, that we would continue to bring on, in an incremental 
fashion, more capabilities into that ground-based air defense, 
which is more in that maneuverable, shorter-range capability.
    In the near term, though, we see that the--the shortness 
we've got, or the area of significant lack of capability in--
more against going to cruise missile capability. So, what we're 
looking at right now is research and development, working with 
the Army in that area to be able to get a capability integrated 
onto our systems much quicker, demonstrate a capability--it 
could be a commercial off-the-shelf capability--try to 
integrate that in while we continue to work the--with the Army 
on the long-range--excuse me--the IFPC2 [Integrated Fire 
Protection Capability] program, which is the Army's long-range 
program that we're integrated with them with research and 
develop into that, into the midterm year.
    So, I think, between the short-range program that we've 
got, the near term to do some demonstration here in the very 
quick term--near-term year to two, on a ground-based air 
defense, along with the IFPC Block 2 program that we're working 
in 2021 and 2022 with the research-and-develop money with the 
Army, I see us coming together long term on that IFPC air 
defense program with the Army.
    Senator Wicker. When do you think you might be making an 
announcement about your decision there?
    Lieutenant General Walsh. On the near-term piece or the 
long-term----
    Senator Wicker. Well, how about both?
    Lieutenant General Walsh. On the long-term, we've got the 
money into the research and development with the Army on the 
IFPC program. So, that part, we're long-term with them. On the 
near-term capability, we're looking at, right now, besides the 
capability that we've got in that GBAD, how we could get a 
program quicker. And so, we're looking at----
    Senator Wicker. And so, you're looking at----
    General Walsh.--that right now.
    Senator Wicker.--at possibly off-the-shelf.
    Lieutenant General Walsh. We're looking at----
    Senator Wicker. And so, when would you let us know that?
    Lieutenant General Walsh. We're looking at it right now, 
and, in the--I would say, in the next year, as we look at 
what's out other, to be able to try to see how we can 
demonstrate something quickly. One of the significant things 
is, is trying to move the community that really has doing--been 
doing security force operations for many years, that have just 
been using shoulder-held surface-to-air missiles. We used to 
have Hawk batteries that had this longer-range missile 
capability that we don't have. So, getting something now, 
early, and demonstrating that, would get the community of air 
defense moving towards that higher-end capability quicker.
    Senator Wicker. Thank you, General.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Over the course of the past several months, our committee 
has heard testimony and received briefings detailing the 
increasing lethality gaps between the U.S. military and our 
near-peer competitors. In fact, the recently released National 
Defense Strategy highlights this disparity and makes addressing 
the lethality of our forces a priority.
    Can you identify or detail the investments that the Marine 
Corps made in the fiscal year 2019 budget request that will 
allow the Corps to address the gaps in lethality and allow us 
to compete with a near-peer competitor?
    Lieutenant General Walsh. I think the--you know, the areas 
for lethality crosses a lot of areas across the Marine Air-
Ground Task Force. I think, you know, probably starting with 
things like the F-35 and bringing that aircraft online that's 
currently deployed in the western Pacific. Our HIMARs are our 
long-range rocket systems that we've got with the Army, putting 
research and development money into that, along with the Army, 
to be able to increase the long--to get the longer ranges that 
we need, along to--along with trying to hit targets--moving 
targets. We've also developed programs and fielded programs 
with airborne loitering munitions, and continuing to put money 
in, working with the Army, on research and development for a 
naval strike missile, which would allow our marines to be able 
to contribute more effectively with the Navy and the sea 
control mission, according to the National Defense Strategy.
    Then continuing to work with the Army on their long-range 
precision fires capability. So, we're partnered with them on 
LR---their LRPF [Long Range Precision Fires] program, which 
would increase their capability beyond what we have with the 
TACMS [Tactile Missile Systems] program that the Army currently 
has. Then also R&D [Research & Development] efforts with the 
Army on the high-velocity projectile program.
    Senator Hirono. So, General, there's no question that 
China, for example, is very much modernizing their military 
assets as well as--just by sheer numbers. So, by the listing 
that you gave, are you doing enough to address the lethality 
gap?
    Lieutenant General Walsh. I think, Senator, as we've talked 
to you be--in the past, you know, 16 years of combat in Iraq 
and Afghanistan, we kind of had our heads down against this 
kind of threat. So, what we're looking at is, as we start to 
look at the new National Security Strategy and the National 
Defense Strategy, is looking at that strategic competition, 
which, really, competing in that strategic area will hopefully 
be the deterrent effect that we need. But, as we look at that--
you know, we're well behind in a lot of areas, as the threat 
has watched us very closely over the last few years, what our 
advantages are and where our weaknesses are. They've invested 
in areas, like long-range precision fires, that we have not. 
So, as we come out of that, the first thing, I think, that 
we're looking to do is, How can we repurpose the current 
capabilities that we have? How can we make them more effective? 
Like the HIMARS [High Mobility Tactile Rocket System] rockets, 
how can we get them longer-range while we work together closely 
with the Army to develop a developmental program, a longer-
range program, like the long-range precision fires program that 
we're working with the Army? So, near-term----
    Senator Wicker. What's their range now?
    Lieutenant General Walsh. What's that?
    Senator Wicker. What's their range?
    Lieutenant General Walsh. The HIMARS capability we've got 
is about 70 kilometers. We'd like to get that well out, way 
past that range, probably triple, four times that range.
    In fact, the goal with the LRPF program is really 499 
kilometers, which is really based on treaty that allows us, on 
land-based, to only stay below 500 kilometers.
    Senator Hirono. General, as you noted that you spent almost 
17 years doing the counterterrorism fight, so do you still see 
a need for us to keep those kinds of warfighting skills up to 
date? So, as you turn toward the--addressing the near-peer 
competition that we now face, how will you ensure that the 
counterinsurgency warfighting skills that you have honed during 
the nearly 17 years do not atrophy as our strategy shifts to a 
high-end fight with near-peer competitors?
    Lieutenant General Walsh. The marines that are out there 
today--I mean, they're combat veterans. Our young marines, 
NCOs, and young officers, they've had a lot of combat time. So, 
as you said, How do we keep those capabilities and those 
skills? So, they're combat vets, they're very good at what they 
do. So, I think that the thought we have is to keep our eye on 
that, but we've developed very great, good capabilities across 
for that skillset. What we believe is, is the higher end, 
though, that we don't have----
    Senator Hirono. Yes.
    General Walsh.--that we've got to develop that. We think a 
lot of those capabilities that we developed for the higher end 
can also be applied to the lower end. But, I think we're out of 
balance right now, because, over the years, we've focused on 
the lower end. Very good at that. Now we've got to shift to the 
higher end. We think, in a lot of those cases, they can be very 
applicable to the lower end. But, the lower end was not 
applicable to the high end.
    Senator Hirono. Okay.
    Lieutenant General Walsh. In most cases.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Hirono.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chair.
    Gentlemen, thank you. Good to see you. Thanks for 
testifying today.
    General, I wanted to just talk a little bit--you know, we--
you talk a lot about the focus, in the last several years, in 
Iraq, in Afghanistan. Also, you know, we did cut defense 
spending, unfortunately, I think, pretty dramatically. As you 
know, in the Army, in the Marine Corps, I think a lot of the 
members of the infantry are still handed the book ``This Kind 
of War'' by T.R. Fehrenbach, and talks about Task Force Smith 
and other units in the United States military that were 
decimated during the Korean War because we did not have a 
military that was ready.
    Are we ready for some kind of, you know, fight like that, 
where it would be high intensity as--we're talking about--it's 
a pretty sobering look at a--an army that--in a, you know, 
military that, in 1945, was the most fearsome one in the 
history of the world, and, 5 years later, couldn't stop a 
Third-World peasant army. What's your sense on that, General?
    Lieutenant General Walsh. Senator, I think that if you look 
across our portfolios--you know, one of the things the 
Commandant wants us to do is to develop a next-generation 
Marine Corps. As we look at what is that next-generation, we've 
come across our portfolios. There are certain areas that we've 
invested very well in that we think, you know, are--would 
operate in that environment very well--F-35, our GATOR radars, 
some of our signals intelligence capabilities. There's areas 
there where, if you look--like a scenario, like, say, if you 
take Ukraine, and how would marines today operate in that 
environment today, I think there's areas where we've got the 
weakness where I've--weakness areas where I've talked about as 
we need to engage more in information warfare. We talked about 
long-range precision fires, air defense, which we've not had, 
really, to deal with in many, many years, communications and 
command and control in a degraded environment. As you take a 
look at what the Russians and what the Chinese have invested on 
when it comes to cyber warfare, electronic warfare, those 
areas. Along with protected mobility. Our ground vehicles are 
something we've not invested in, in a long time, along with 
some of our heavy-lift aircraft, like the CH-53K program. So, I 
think that focus--if you took us right now in that environment, 
there's a lot of areas I would say we're behind in.
    Senator Sullivan. Okay.
    Lieutenant General Walsh. But, the money that the Congress 
has given us, I think we're investing to be able to move very 
quickly in that direction to be able to be a--more of a 
competitive force and deter aggression.
    Senator Sullivan. What about just the issue--you know, 
again, in that book, it was also a lack of training, a lack of 
hard training, a lack of difficult training. Are there concerns 
right now that we're not meeting--you know, I think all of us 
want what's best for our forces, but, to be realistic, we need 
to make sure they have the hardest, most difficult, most 
challenging training in the world. Are you confident that 
that's what our Marines and Army are getting now?
    Lieutenant General Walsh. Senator, I think we're in a big 
shift to move in that direction. As Ranking Member Hirono 
looked at that piece on--as we look at that, as we shift 
towards this higher end--we're a very good combat-proven force 
at the lower end. So, when it comes to the training, not only 
is it part of getting the right equipment as you're hitting on 
the training, when we look at our training and readiness 
syllabuses, what we train a unit to, what we train individuals 
to, a lot of these areas, we haven't focused on in a long time.
    Senator Sullivan. Yeah.
    Lieutenant General Walsh. A key focus area is out at 29 
Palms for MAGTF Training Center, where all our units go through 
to get certified before we deploy. Out there, Major General 
Mullen, who's out there, is upping the game, really, against 
what the Red Force does and what our Blue Forces are 
encountered in. We start looking at electronic warfare, long-
range precision fires, counter-air. We have not done that in 
many years. So, the focus is moving in that area. It's going to 
take a long time, just like it did back in the----
    Senator Sullivan. You mentioned----
    General Walsh.--Korean War.
    Senator Sullivan.--29 Palms. Let me ask another--you know, 
when you talk about the high-end fight and the National Defense 
Strategy and the focus on China and Russia and North Korea, 
near peers, a lot of those places have in common difficult 
terrain, mountainous terrain, cold-weather terrain, large-scale 
ops, not just kind of small, you know, squad-size or company-
size. I notice that there's a good number of marines right now 
up at Arctic Edge, in a State that I happen to care a lot 
about--that's Alaska--that also has probably--well, certainly 
some of the best training--cold weather, mountain. JPARC [Joint 
Pacific Alaska Range Complex] is the biggest training area in 
the country, by far, probably the best training in the world.
    I've talked to the Commandant a lot about this. Forces that 
are in Alaska, already forward-deployed, they're, you know, 
ready to go in--to Korea or any other place. Can you tell me a 
little bit about what the Marines' future is with regard to, 
not just Arctic Edge, but looking at Alaska as a place where 
you can get very realistic training--cold weather, mountain--
forward-deployed to go in the fight tonight if you had to, and 
combined arms capability--you know, the JPARC, the airspace 
there is bigger than Florida. With the fifth-gen aircraft, 
that's going to be needed. Can you talk a little bit about 
that, and future focus there?
    Lieutenant General Walsh. Senator, like you said, we have 
not focused on that area for a long time. We used to train to 
cold weather all the time, in the cold war days. The Commandant 
has set--sent up teams up to Alaska to look at the training 
areas up there. They're phenomenal. They're great size, both 
air and ground integration. As we know, on the air side, we've 
been training up there an awful lot with, you know, our F-35 
and with the Air Force, and certainly our F-18 aircraft. But, 
what we're also seeing is, on the ground side, as we now 
refocus down on the ground, and this cold-weather area that we 
haven't trained. We're buying a lot more equipment, but the 
training piece is key. Like you said, there's a lot of places 
we can go and train at the company level. This is an area we 
can go and train at a much higher level.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Sullivan.
    Senator Sullivan, I wonder, when you were in basic 
training, if there some gray-headed guy sitting around a 
conference table asking if training was hard enough.
    [Laughter.]
    Senator Sullivan. I believe in hard training----
    Senator Wicker. Well, I'm sure you----
    Senator Sullivan.--Mr. Chairman.
    Senator Wicker. I appreciate----
    Senator Sullivan. Go to the Marines----
    Senator Wicker. I appreciate your service.
    Senator Sullivan.--and the Army. I think so. But, if you 
haven't read the book ``This Kind of War,'' I'll make sure you 
get a copy.
    Senator Wicker. Yeah, we've got--well, I would be glad to 
do it.
    Senator King.
    Senator King. What State were those big training areas in 
again? I didn't catch that.
    [Laughter.]
    Senator Sullivan. Those would be in the biggest State in 
the Union.
    [Laughter.]
    Senator King. General, a much more general question. Are 
amphibious assaults feasible in today's combat environment, or 
do we need to think in a whole new way about storming a beach?
    Lieutenant General Walsh. That's a great question. When you 
look at this contested environment, new weapons, new threats, 
new capabilities that we've not had to look at in a long time, 
I think you're right, we have to look at it in a completely 
different way. In fact, really over the last year, I think, 
really, with Mr. Smith's team, we've worked a lot of, What is 
the problem statement? How are we going to operate in a 
different way? One thing I would say is, the Marines are 
focused--first, as the Commandant says, we're going to have to 
fight to get to the fight. How can we support, work with the 
Navy when it comes to that sea control mission to be able to 
get to the point where we get to power----
    Senator King. Particularly if it's a peer adversary. 
They're going to have missiles that can hit you 100 miles at 
sea.
    Lieutenant General Walsh. Right. So, we're working a lot 
of--a lot of concepts, a lot of our exercises, a lot of our war 
games are focused exactly on this problem.
    But, one thing we really did last year, we did an advanced 
naval technology experiment. It was a weeklong experiment out 
of Camp Pendleton that really led up, over a year's time 
period, working with industry, academia, our warfare centers, 
on, How are we going to conduct operations in the future? Just 
as you say, it's not going to be storming the beach, just as 
you see a--pictures of Iwo Jima or Inchon. What we saw when we 
got done of taking all that industry work together, we 
demonstrated over 100 different types of technologies. I think 
the thing that amazed me was, when we looked out at that 
amphibious assault as we were conducting, really, probably the 
first 15 minutes of it or so was completely unmanned. We had 
unmanned surface vehicles--surface vehicles that were unmanned, 
in the air, sensing, trying to figure out where the enemy may 
be, where the enemy is not, deception capability. Through that, 
we took a lot of these capabilities and moved them forward into 
demonstrations into fleet exercises on both the East and West 
Coasts, and put it in the hands of our sailors and marines. We 
learned a lot through that, and we're continuing to work with 
that, with the Navy in littoral operations in the contested 
environment. We're seeing it's not going to look like it does 
in the past, it's going to look completely different. A lot of 
technology in the unmanned systems allow us to do that.
    I don't know if Mr. Smith has anything to add to that.
    Senator King. Your thoughts, sir.
    Mr. Smith. Actually, I was there at the exercise that 
General Walsh spoke about, where we're--have unmanned vehicles 
coming ashore. I'm actually standing on the cliff at Camp 
Pendleton, standing next to the Commandant, and I'm watching 
this assault force come in from the ocean. I looked at the 
Commandant, and I said, ``Are we really going to do this again? 
Is this, like, a flashback to 1940?'' But, to my surprise, 
those were unmanned vehicles coming ashore. An unmanned vehicle 
actually popped out a UAV, established a network so that the 
computers, sensors, and all things can tie into it. I had to 
take a step back, because that wasn't the old fight. This was 
using capability we have today, augmenting it so that we can 
get down and get at the next fight.
    So, making best use of what we have today, the Marines are 
experts at that. Tailoring it with our industry partners and 
warfare centers to get extra capability from what we're 
accustomed to having just brings a different fight to this 
capability.
    Senator King. Well, that's exactly the answer I was hoping 
for, and I appreciate that.
    I know you're talking about replacing the light-armored 
vehicle and are looking at alternatives. Mr. Smith, I hope 
you're starting with off-the-shelf alternatives, like the 
Stryker or other weapon systems around the world, and not 
designing a new system from the ground up.
    Mr. Smith. That's absolutely correct, Senator. We're 
starting with off-the-shelf technology. But, the U.S. Marine 
Corps has its specific needs, and we need to make sure that our 
requirements are going to be met. We have a couple of industry 
partners going through a competition right now to give us 
capability we need. They're meeting their key performance 
parameters. Testing is going well. Schedules are intact. So, I 
think we can provide that----
    Senator King. But, you----
    Mr. Smith.--foot forward.
    Senator King.--know the history, for example, in the Army, 
of the Future Combat System. I mean, I'd rather see an 80-
percent solution that was timely, cost-effective, and 
effective, rather than a 100-percent solution that failed, in 
the end. I hope that's the attitude, because we've gotten in 
trouble designing things from the ground up and imposing more 
and more requirements. For example, I understand, in the new 
ARV [Armored Reconnaissance Vehicle], we're talking about 
unmanned vehicles, sensors, renaissance network. Again, we want 
to get the 80-percent solution. I--you're nodding, General. I 
hope you agree.
    Lieutenant General Walsh. I agree, Senator, but I'll just--
I guess I look at it this perspective is--there are certain 
areas where we look at a problem and go, Is the technology that 
we have there today going to fulfill the need? So, when it 
comes to reconnaissance--and we're studying this real hard--
what is reconnaissance today, and counter-reconnaissance? It's 
hugely different than what it's been over history. I would 
argue, over history, our Army's calvary or our light-armored 
reconnaissance (LAR), battalions have operated many, many ways 
the same way calvary or reconnaissance have operated over, you 
know, not centuries, but over the last 100 years. The 
technologies that we're seeing, though, is--we're trying to 
figure out, What is reconnaissance? What Mr. Smith talked about 
is, What is reconnaissance going from ship to shore? We see 
that, really, a wide-open area. So, when we took a look at, 
What is out there today in industry that can give us a vehicle 
that would give us the 80-percent solution with the technology 
on it? We really aren't seeing that from industry today. I see 
it on the aviation side. When I go to look at Skunk Works and 
Phantom Works and stuff like that on the aviation side, there's 
a lot of industry R&D that's going into those programs, and we 
see what they're doing to be able to move in that direction. 
I'm not seeing the same thing on the ground side.
    So, what we've really done is, we've partnered with the 
Office of Naval Research, we really had a--to work with them 
on, What type of--looking at that problem statement again--What 
is reconnaissance in the future, and what technologies are 
going to be available in the future? So, ONR, working with our 
warfare centers, research labs, and industry. What type of 
capabilities would be able to go onto a vehicle--the truck, the 
platform--that would be able to do this? But, we certainly see 
a vehicle today--we've got squads of marines launching their 
own hand-held UAVs. Why wouldn't we be able to launch that same 
type of thing off of a vehicle, you know, into the future?
    So, I think it's kind of both ways, that we have to go 
slow, but we--we would rather have the 80-percent solution 
that's available today, but, in a lot of--in some cases, it's 
not.
    Senator King. I'm out of time, but one way to deal with 
that issue is modularization so that you can easily upgrade on 
the platform. You don't have to start all over again with new, 
just because your--a new technology is developed.
    Thank you very much, gentlemen, I appreciate it.
    Senator Wicker. Thank you, Senator King.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    First of all, gentlemen, thank you for your service to our 
country.
    I'd like to follow up in a little bit different format, but 
along the same lines as Senator King has started with.
    General Walsh, on February 8th, Secretary Mattis sent a 
memorandum establishing a Close Combat Lethality Task Force to 
senior leaders across DOD, the joint force, and the Military 
Departments. The stated goal of this task force is to improve 
the preparedness, lethality, survivability, and the resiliency 
of our close combat ground forces, which have historically 
received about 90 percent of our casualties. What are your 
thoughts on the changes in personnel policies, training 
methods, and equipping strategies that you believe that this 
task force should be looking at? I think it goes along similar 
lines as what Senator King was talking about. But, I'd like to 
have you expand on that a little bit, please.
    Lieutenant General Walsh. Thank you, Senator Rounds.
    One thing I would say that we've been involved in is our 
Sea Dragon experiments over the last, really, year and a half. 
We took 3rd Battalion 5th Marines, an infantry battalion, and 
we took that organization and reorganized them completely 
different. They're three line companies, organized them 
completely in a different--each one differently, gave them 
completely different equipment, gave them unmanned systems--
unmanned ground, unmanned air--trying to do exactly what the 
task force really is after. How do we up that game?
    We looked at a lot of cases as what our special operators 
do, and we've learned a lot from Marine Corps Special 
Operations Commands, and we've gotten much more developed in 
that area, on, How do we raise the game up to a higher level?
    I think you're exactly right, the casualties that our close 
combat forces take. So, that program took about a year and a 
half. We took that back to the Commandant, and I think, out of 
probably the 40 different recommendations they made, we've 
probably already now programmed probably 20 of those 
recommendations. In fact, we met with the Commandant this 
morning for about 2 hours to go over a lot of them.
    How does that tie in to the task force? All of those 
members that are down at the Marine Corps Warfighting Lab have 
been involved with the Close Combat Strategic Portfolio Review 
done by Secretary of Defense that's now turned into this Close 
Combat Task Force. In fact, our experiment lead who was leading 
our experiment division, we gave up to go work for the 
Secretary of Defense on this, to help continue to move our 
things forward.
    But, a lot of those things that you--you know, you're 
exactly talking about, that we put into that area of, you know, 
improving their fires, improving their communications, 
improving their protection, lots of different systems--UAS--out 
of the experiment, we've now fielded over half of the squads in 
the Marine Corps with unmanned aerial systems. Unheard of 
before that we would give a unmanned aerial system to a squad. 
Now, in a matter of 4 or 5 months, every squad in the Marine 
Corps will have that. So, that's just an example.
    You're exactly right, that's where we need to put the 
focus. The Commandant's an infantryman. That's where he's got 
the focus. I think we're completely aligned with where the 
Secretary of Defense has taken us.
    Senator Rounds. Well, let's take one more step, then, and 
let's talk a little bit about--Major General Reynolds reported 
that, as of January 2018, and ahead of the 30th of September 
mandate, all l3 U.S. Marine Corps Cyber Mission Force Teams 
reached full operational capability. Were there lessons 
learned? If so, how would the Marine Corps Combat Development 
Command learn from this effort? How will the Marine Corps 
incorporate these lessons learned into the training and 
doctrine?
    The reason why I ask is, the Army's been placing offensive 
and defensive cyber capabilities down to the Brigade Combat 
Team level. What's the Marine Corps' view on the proper 
echelons to deploy offensive and defensive cyber capabilities? 
Does the current force structure accommodate this view? It 
sounds like you're moving in that direction. You've done a 
little bit of it. Can you talk a little bit about where you see 
that at and where the cyber component should be incorporated, 
as well?
    Lieutenant General Walsh. If I could, Senator Rounds, in--
look at it just a little bit outside of just cyber, but what we 
call information warfare. So, expand outside of that to signals 
intelligence, our sensor capabilities that we've got in the air 
and on the ground. What we really looked at through--we started 
with our operating concept, and then moved into Marine Corps 
Force 2025, which is our way to experiment and figure out what 
we really need.
    The big thing that we saw was, this whole area was the area 
that we were behind the threat in. So, what we decided to do 
after the experimentation that we did was to move structure 
first. So, we moved structure and manpower into our MEFs 
[Marine Expeditionary Force], which are our large warfighting 
headquarters, and we stood up what we call our MEF Information 
Warfare Groups, or MIGs. One is in each MEF headquarters we've 
got now. The structure, we moved all in there, and now we're 
moving in the capabilities, which are unmanned systems, 
intelligence systems, signals intelligence. Electronic warfare 
is a big area in there, along with the cyber. So, what we're 
doing is bringing that all into the MEF Information Groups, and 
then we're pushing those teams down, structure down, all the 
way down into the company level. So, well down below--you know, 
down division, but all the way down, regiment, battalion, into 
the company level. We kind of view it as the way we've got--
we've done a very good job over the years with our air-ground 
integration, where we've got air officers that are planners and 
executors that are down at the company level, that can plan, 
reach back for support, and bring capabilities down, and help 
that infantry commander plan down at that lower level. We're 
now bringing that entire information warfare area down to the 
lowest level. One of the things the Commandant also did is, he 
stood up a Deputy Commandant for Information just to focus on 
this problem set.
    Senator Rounds. Thank you. Thank you. My time is expired, 
but I most certainly appreciate the comments that you've made 
here today.
    Senator Wicker. Thank you, Senator----
    Senator Rounds. Thank you, Mr. Chairman.
    Senator Wicker.--Rounds.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Thanks, to our witnesses.
    Three questions about, sort of, future--looking ahead. The 
Chair and I and others have really focused on the 355-ship Navy 
requested by the Navy. It became part of the NDA last year, 
but, given that the Marines are an expeditionary force that are 
often shipbound, as we're trying to decide what the 3---with 
the right mix of the 355 is--surface and sub and, you know, 
manned and unmanned--it has effects on marine personnel 
organization, too. So, how close are you having that discussion 
with the Navy as they're doing their planning about 355, 
because it affects the ground side of the Marine operation, as 
well?
    Mr. Smith. Well, as you know, Senator, the auxiliary fleet, 
the amphibious fleet that the Navy has, the Marine Corps 
basically needs a ride to the fight. Thirty-eight ships would 
be optimum, and we have, I believe, 31, 32 in the--32 in the 
budget. We're going to make best use of that capability. 
Getting to the fight, we're working together.
    I'm actually a Navy employee, as the DASN to the Marine 
Corps, so I'm closely tied to big Navy, and I'm working on the 
green side to make sure the capability comes forward to unify 
both forces together. Because we are one Navy, one force--one 
naval force.
    Thank you, sir.
    Senator Kaine. Please, General.
    Lieutenant General Walsh. If I could, your--over the last 
few years, I think we've focused really on readiness, 
maintenance--is really that focus. The Navy fleets have been 
run really hard. OPTEMPO has been high. There hasn't----
    Senator Kaine. Yeah.
    General Walsh.--been a lot of stability and predictability, 
so we've focused on maintenance and readiness.
    The next piece, I think, that we've been focused on is 
capacity. I think right now, with the shipbuilding plan, we're 
moving in the right direction. Obviously, the CNO's got to plan 
if we could increase that. You know, we've got--know what the 
yards can do, the availabilities, how we can increase that. So, 
that's part of that surge force, if we can increase that 
capacity.
    The one thing I will say, though, is, what we really are 
looking at, too, is readiness, capacity, but the capability of 
the ships. When you go back to operate against this high-end 
threat, do the ships have the right capabilities? So, not only 
the--you know, the ships that are out there as part of the 
carrier strike groups, but also our cruisers, destroyers. When 
you start putting F-35s out on amphibious ships, that's a 
tremendous capability to the battle force. How do we use that 
capability? What the sensors and weapons capabilities on the 
amphib ships to be able to contribute to that littoral ops in a 
contested environment?
    Senator Kaine. Another sort of future issue that my staff 
brought to my attention is, there is a Marine Corps Times 
article last month about thinking about the size of the marine 
rifle squads. So, traditionally, it's been 13. Could it be 11? 
Could it be 12? Could it be 14? Then that has downstream 
consequences, too. You know, the size of a helo that you use to 
take a squad from here to there would change if it were 14 over 
13. So, talk a little bit about that thought process and what's 
the status of it right now. Is it factoring in to, sort of, 
acquisitions thought, as well?
    Lieutenant General Walsh. It is. It's--you know, so it's 
one of those things is--we experiment. Things go fast. Things 
change quickly. So, we did a lot of experimentation with the 
ground force and what should be the right size of that squad. 
So, the Commandant right now--in fact, we spent this morning--I 
was kind of smiling because we spent this morning with him for 
about 2 hours on this, in an area that he's an expert on, and 
really drilling in that. I think the part that changes is, when 
you bring in all this technology, in the experiments that we've 
been using, in some ways it puts almost an increased burden on 
the squad, because now they have more capabilities. So, I'm 
trying to get it to where you can integrate these capabilities, 
like you do, say, in an F-35, and you're using the sensors----
    Senator Kaine. Right.
    General Walsh.--it's making it easier for the pilot. How 
are we, you know, able do that on the ground side? So, as we're 
changing looking at the different squad sizes, it does affect 
when you get into longer-term programs, like your amphibious 
combat vehicle. So, I think one of those things that's going to 
be ever changing. I think we have to be flexible with this. We 
can't lock ourselves down that, you know, if you have a larger-
size squad or a smaller-size squad, you're going to have to 
kind of go and adapt with whatever capability you're already 
procuring.
    Senator Kaine. One other future capability issue that's an 
exciting one is--there's been a lot of stories recently about 
expected advances in battery technology, so batteries are 
really pushing ahead, and then that would give, you know, 
opportunities for a forward-deployed, you know, platoon or 
battalion to, maybe, stay out longer, less backing and 
forthing, you know, bringing energy to a forward-deployed unit. 
Talk a little bit about how you guys are using advances in 
battery technology to potentially augment your capability.
    Lieutenant General Walsh. Yeah. Last year, we focused our 
whole experimentation effort in Sea Dragon, which is our 
experimentation effort on the infantry. This entire year, we're 
focused on the logistics combat element. So, a major part of 
that is reducing the load for the infantry, but it's how--what 
are we doing with hybrid electric capability, our ability to 
forage for power and use dirty power in different ways. So, a 
lot of effort is going on into that, and we're seeing the 
benefits of a lot of the capabilities that we're out there 
testing experimental. We think that we're going to be able to 
reduce a lot of the battery requirements in the future by 
significant amounts----
    Senator Kaine. Yeah.
    General Walsh.--by the technology that's out there, which 
is going to allow us to be much more maneuverable.
    Senator Kaine. Great. Thank you.
    Thanks, Mr. Chair.
    Senator Wicker. Thank you, Senator Kaine.
    We're going to take another round. I'll go last. So, 
Senator Hirono, you're next.
    Senator Hirono. Thank you.
    In November 2015, the Marine Corps awarded two contracts 
for the manufacture and test of 32 prototype ACV vehicles. 
Since that time, the vendors have each built 16 vehicles for 
testing, and the Marine Corps is on track to select a single 
vendor in June 2018. Given that the program remains on track 
for a vendor award, what lessons, if any, can the Marine Corps 
apply to future acquisition programs, based on the ACV 
acquisitions strategy?
    Mr. Smith. I'll take that one----
    Senator Hirono. Mr. Smith.
    Mr. Smith.--Senator.
    From an acquisition perspective--I'm the acquisition guy on 
the team--to get a good deal from our industry partners is key 
and foremost. Keeping the taxpayers' dollars down to minimum, 
but provide----
    Senator Hirono. We're all for that.
    Mr. Smith.--capability is what we strive for. Getting the 
good deal is my main objective. Providing the capability folks 
need in order to fight missions and do the things that the 
Marine Corps does, that's what we're here for. So, lessons 
learned, going forward: competition works. Competition drives 
industry partners to compete to--with one another, provide the 
capability we need. We're seeing and reaping great benefits 
from that competition alone.
    Senator Hirono. So----
    Mr. Smith. Things are on track.
    Senator Hirono. I assume that the two vendors that are in 
competition, though, while--as they develop their prototype 
vehicles, I mean, do we pay them for that----
    Mr. Smith. Absolutely.
    Senator Hirono.--development so that--they're not out of 
pocket, are they? So----
    Mr. Smith. Absolutely. The----
    Senator Hirono.--what you want to do is encourage this 
participation, their best efforts, and then they get the 
contract----
    Mr. Smith. Correct.
    Senator Hirono.--if they come up with a good vehicle. So, 
this is a--would you be following this kind of procurement 
method, going forward?
    Mr. Smith. Absolutely. This is how we should do business, 
going forward. Sole-source contracts--and I think we've proven, 
from the EFV [expeditionary fighting vehicle] vehicle that was 
before, they--they're very hard to control an industry partner 
with costs when they're a sole source. But, competition works, 
flying off to meet requirements are achieving the results that 
we're here to receive.
    Senator Hirono. On the other hand, do you think that this 
kind of competition is--it's very expensive. If we were to 
apply it to submarines or--you know, that gets a little 
trickier, doesn't it?
    Mr. Smith. Absolutely. Having grown up in the submarine 
acquisition world, 2 and a half billion, 3 billion a copy to 
pay for that twice, to----
    Senator Hirono. Yes.
    Mr. Smith.--run off 16 vehicles wouldn't be----
    Senator Hirono. Yeah. So, this kind of competition for 
the--is good in certain----
    Mr. Smith. For--from a unit-cost standpoint----
    Senator Hirono. Yeah.
    Mr. Smith.--I think it makes a great deal of sense for how 
we're operating the business. Absolutely.
    Senator Hirono. So, is that--if that works for the Marines, 
I hope that the other services are also learning from you guys 
to use that process.
    General, I was very curious. You used the term 
``information warfare'' just now. How do you define that term?
    Lieutenant General Walsh. It's--we've kind of brought it 
in, in really all the different domains that had--have to do 
with information. So, when it could be psyops, psychological 
operations, getting information out there in that environment, 
electronic warfare, where we're sensing what's out in front of 
us. So, in some of the experiments, we put capabilities in the 
hands of our marines that we haven't used really since the 
1980s, early 1990s, where they could sense who was on a radio 
out in front of them, who is operating on what channel. If we 
located where they were at, we could jam them or attack them. 
Cyber warfare is in that area. So, all the intelligence we've 
grouped into that MEF information group, all those areas that 
have to do with that information, electronic warfare, signals 
intelligence, radio-frequency-type capabilities is what we've 
put into that area.
    Senator Hirono. So, are you saying that--for example, it is 
very clear that Russians engaged in information warfare in 
interfering with our elections. So, are you saying that the 
Marines are developing a capability to counter information 
warfare from near-peer competitors such as Russia and China?
    Lieutenant General Walsh. From the--you know, we've always 
had information capability. If you look at some of the things 
that we've done in Iraq and Afghanistan, some of it's winning 
the hearts and minds, getting information out there, leaflet 
drops, those sort of things, that's all been part of it. But, 
now, taking it to that higher level--I go back to the next-
generation capability. We've got capabilities that we can put 
out that'll push information out--radio, television, 
broadcasting--but it's going to go a lot higher-level 
capabilities that we've got, that we'd have to talk in a 
different forum. But, those exactly are the type of things that 
we'd be talking a lot--which kind of ties in also some of our 
cyber capabilities we're developing.
    Senator Hirono. So, the--so, you're developing, or you 
always had that capability in the kind of situation where--
during World War II, for example. But, what happens in a 
civilian context, in a--in an election-year environment? Who's 
responsible for countering information warfare from Russia?
    Lieutenant General Walsh. I--that's probably an area 
outside of my expertise, Senator. I probably would have to turn 
that over--you know, on--you know, in the combat environment--
in fact, it's one of the areas that we're starting to have to 
deal with. You know, when you talk about long-range precision 
fires, some of those long-range precision fires are coming from 
the cyber area. As you know, we're trying to work into those 
areas. What is considered the battle space? How do we define 
that?
    Senator Hirono. Yes.
    Lieutenant General Walsh. You know, when you've got 
capabilities that are back in the continental United States, 
that we have reachback capability. You know, before, it was 
looking at UAS video feeds that we could look at back in 
continental United States and help offensive capability 
forward. We're seeing the same thing in some of these areas, 
where signals intelligence, information operations, or cyber, 
that we're having to kind of understand, in the future, how 
we're going to be able to use this.
    Senator Hirono. Yeah, I think you--you point out one of the 
reasons that I don't think we have a very cohesive strategy for 
countering the ongoing Russian efforts to interfere with our 
elections and our democracy.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Hirono.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Since you mentioned it, I thought I would go back to this 
issue of training, hard training. General, I was----
    Senator Wicker. You said it.
    Senator Sullivan.--I heard, recently, that the standard--
and I don't know when this was dropped, but, as you know, the 
Marine Corps infantry battalions used to go through an annual 
training exercise, where one of the elements of what they had 
to complete was a 26-mile hump, force march. When you think 
back to, again, some of the high-end conflicts that our 
country's been in, and how we're starting to focus on that 
world again, are we going to start looking at--back at those 
kind of training standards that are, you know, long foot 
maneuvers that we used to do a lot of and now I guess we're not 
doing those at all?
    Lieutenant General Walsh. Senator, I'd probably have to 
take that--let me take that for the record, exactly what are in 
our Marine Corps combat readiness evaluations, which are our 
certification exercises before units deploy forward.
    [The information referred to follows:]

    Infantry battalions are evaluated, to standard, on the conduct of a 
forced march as a part of the Marine Corps Combat Readiness Evaluation.
    The standard is contained in Navy/Marine Corps publication 3500.44B 
Infantry Training and Readiness Manual, and is used to evaluate 
infantry battalion's ability to conduct a foot-mobile displacement 
without external support.
    The conditions under which infantry units must perform include 
marching a distance of 20km in a time limit of 5 hours, with 95 percent 
of the force remaining mission capable while carrying an approach march 
load of 90 pounds (+/- 10 percent) with additional organic weapons and 
mission essential equipment.

    Senator Sullivan. Right.
    Lieutenant General Walsh. As I think about this, a lot of 
the things that we were doing, in Afghanistan especially, was 
marines humping a long distance with heavy gear, carrying that. 
So, a lot of our standards were focused on hikes in what were 
in our training and readiness standards for hikes. So, I'll 
have to take that back and see--now, as we're now trying to 
look at higher-end conflict, how are our training and readiness 
and our certification exercises changing specifically in that 
hike area.
    Senator Sullivan. Okay.
    Lieutenant General Walsh. Back to your earlier piece, what 
I do know, though, we're doing is looking at our units where--
is anybody emitting on frequency? Are they all silent? Are they 
able to operate in a mission control? What are they doing 
against air threats? We've got capabilities now, where we're 
using multiple UASs out there against the force. So, we're 
trying to up the game in that area. When it comes to the hike 
standard, I'll have to get back to you on that, specifically.
    Senator Sullivan. Okay, thank you.
    I also wanted to talk--just kind of broadening the aperture 
much further now. You know, I know the Commandant and the 
leadership of the Marine Corps has been looking at the issue 
with some of the other services, particularly the Air Force, on 
the force posture in the Asia-Pacific. If you look at, you 
know, where the Marine Corps is really postured, a lot of it--
and the Army--a lot of it is actually, kind of, you know, if 
you take a snapshot at the end of World War II, and a snapshot 
at the end of the Korean War--and there hasn't been a lot of, 
kind of, redeployment and thinking of, you know, where our 
forces in the Asia-Pacific should be deployed. I know we've had 
this deployment to Darwin. My understanding is, you know, there 
are elements of that that may have had kind of a--an idea from 
the NSC [National Security Council], not driven by the Marine 
Corps or the DOD, but a, you know, more political idea during 
the Obama administration to do the Darwin deployment.
    I mean, how are we looking at the forces in Okinawa, forces 
in mainland Japan, forces on Guam, in terms of the next 50 
years? I mean, we need to get it right, and it does seem, to a 
number of us--and, you know, Senator McCain's taken a lot of 
interest in this issue, I have--that we haven't, kind of, 
looked at the future and said, ``Hey, where should we be?'' 
Particularly given the new National Defense Strategy that has 
China as the facing threat with regard to the Asia-Pacific, in 
terms of our national security.
    Lieutenant General Walsh. That's probably fair to say, that 
the strategy is new. How does, say, the DPRI [Defense Policy 
Review Institute], the agreed-to Pacific laydown, how does that 
match up against that? I'd have to take that for the record to 
see how senior leadership is matching up the current agreed 
DPRI. I've not heard of any changes to the DPRI----
    Senator Sullivan. Right.
    General Walsh.--to match up against what the strategic new 
National Defense Strategy is. What it--so, I--I'll take that 
part for the record.
    [The information referred to follows:]

    With the publication of the new National Defense Strategy (NDS) the 
Marine Corps continues to refine how it intends to implement the new 
strategy. This will be a deliberative process as the Marine Corps 
strives to ensure it is postured in a manner to best respond to threats 
within the strategic environment. This posture includes forward 
stationed, forward deployed and CONUS based capabilities.
    In the broader Asia Pacific, consistent with the NDS, our forward 
deployed Marines, as part of the Navy-Marine Corps team, operate within 
the contact and blunt layer to compete more effectively below the level 
of armed conflict. Should hostilities ensue, combat credible contact 
forces will set the conditions for the naval forces deploying as part 
of the war-winning surge force.
    Additionally, the Marine Corps continues to further strengthen our 
alliances and attract new partners through our forward presence and 
readily available forces to engage with partners and allies.
    With regard to the Defense Policy Review Initiative, it is the 
largest on-going posture initiative. At the Security Consultative 
Committee (2+2) meeting in August 2017, Secretary Mattis and Secretary 
Tillerson, along with the Japanese Ministers of Defense and Foreign 
Affairs, reaffirmed our governments' mutual commitment to implement the 
realignment plan for United States Forces in Japan, including Okinawa. 
In noting the progress being made in implementing the Guam relocation, 
they confirmed our mutual determination to steadily implement the Guam 
International Agreement.
    It is natural to regularly review the progress of plan 
implementation and consider whether adjustments are necessary. Since 
the plan's inception in 2006, we have consistently worked with our 
Japanese partners to ensure we have the best operational laydown and 
make adjustments. At this time, there has been no determination to seek 
changes to the plan.

    Lieutenant General Walsh. What I would say, though, is, 
looking at the strategic competition with, say, China in the 
Pacific is--much of what we're doing now is focusing on allies, 
partners, working with them closely. A lot of it is in the 
higher-end combat area, building those capabilities as 
partnerships and alliances, differently than we probably would 
have before we had the National Defense Strategy.
    Senator Sullivan. Great. Okay, thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Sullivan.
    Gentlemen, did it offend or surprise either of you to hear 
me say that I'd heard concerns that the Marines may have 
prioritized readiness recovery on aviation, to the detriment of 
combat?
    Lieutenant General Walsh. I think, over the last, probably, 
couple of years, Senator, there's been a lot of metrics 
associated with our aviation readiness. So, the good thing I 
would say about aviation, it's a very technical area, and it's 
very easy--I shouldn't say easy, but it's an area where we have 
a lot of focused attention on readiness. We can grade that work 
very closely. A lot of it has to do with mishaps over the years 
that we've occurred--that have occurred, to not focusing on 
readiness and the right equipment at right place and time. So, 
I think looking at, over the last 2 years, how much we've 
ridden our aircraft so hard that we could see that the 
readiness had gone down, and a lot of our industrial capacity 
wasn't there. So, I think we've improved that over the last 
couple of years, and now, I think, as the focus goes from the 
readiness side, I think our reset on the ground side is going 
very well. It's almost complete. So, I would say our readiness 
on the ground side is not something that's as a high concern as 
much as the modernization capability of the equipment that we 
have not put a lot of money into ground future readiness versus 
current readiness.
    Senator Wicker. Okay. Then, let me ask you--I don't think 
we got around--back around to very shallow mine 
countermeasures. So--I mean, I brought that up in my opening 
statement--so, how are we doing on that? The situation is that 
we've done pretty well with our deep water, but not so good on 
the full ship-to-shore. So, who'd like to take that.
    Mr. Smith?
    Mr. Smith. Yes, I'll take that one, Senator. Thank you.
    The Navy and Marine Corps continue to work together on 
their mine countermeasure doctrine. Very shallow water into the 
surf zone, into the--what's--what we're going to call the 
clearance coordination line, getting to that point, the 
clearance coordination line, that's the Navy's responsibility, 
to get the Marine Corps to that point and clear mines in that 
path. It's the Marine Corps' responsibility from the clearance 
coordination line on to that inward target, to clear mines from 
that standpoint, on--once they're on shore. The Navy and Marine 
Corps, as I said, are working very closely, jointly to make 
sure that that mission still concurs. But, the doctrine hasn't 
changed for decades. But----
    Senator Wicker. Well, do we have a deficiency, when it 
comes to shallow water countermeasures?
    Mr. Smith. We have challenges in that area, Senator. From a 
physics-based standpoint, there are certain things that you 
just can't do, and technology today may not get you there 
solely. Not yet.
    Senator Wicker. What about that, General?
    Lieutenant General Walsh. It's--I think, like Mr. Smith 
said, this is a hard problem. To try to find mines in surf in 
that beach zone, very shallow water, is a difficult, difficult 
problem. What I will say is--you talked about the littoral 
combat ship, and how that is focused on deeper water, but I 
wouldn't say deep water--I'd have to go back into what the Navy 
terminology is--very shallow water--but, where I would say the 
Navy has put a lot of effort on is getting capabilities in the 
hands of the Naval Expeditionary Combat Command, outside of the 
littoral combat ships. I know I--I talked to Admiral Merz about 
this--over the FYDP [Future Year Defense Program]--who's the N9 
over at OPNAV--the Navy's put over a billion dollars into mine 
countermeasures over the Fiscal Year Defense Plan. So, a lot of 
effort's going in there, because I think the technology is 
getting much better with unmanned systems that can cover much 
more of the water area--the water column.
    Still, the surf zone in that beach zone is a real difficult 
problem. One of the things the Commandant had me working with 
JIIEDO, who is focused on mines on land, what capabilities and 
technology do they have that can help us in that beach zone, 
surf zone? So, it's a tough problem, but I think technology's 
getting better, and certainly the Navy investment is increasing 
tremendously.
    Senator Wicker. Thank you, gentlemen. We appreciate your 
testimony, and we appreciate your service.
    This hearing is closed.
    [Whereupon, at 3:43 p.m., the Subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]

           Questions Submitted by Senator Richard Blumenthal
                     laser warning receiver system
    1. Senator Blumenthal. Mr. Smith and Lieutenant General Walsh, 
since 1994, the Marine Corps has had a requirement to incorporate a 
laser warning receiver system to protect Marine Corps combat vehicles 
from threats. The requirement was part of a joint effort between the 
Marine Corps and the Army, and included the M1A1 Main Battle Tank, the 
Marine Corps' Light Armored Vehicle (LAV), and Assault Amphibious 
Vehicle (AAV). The requirement continues to be unfunded in the budget 
year after year--while Russian and Chinese ground vehicles already 
possess laser warning receiver systems. Why has this laser warning 
receiver system requirement not been fielded? Are you working toward 
fielding it in the near term? What are the obstacles?
    Mr. Smith and Lieutenant General Walsh. A Laser Warning Receiver 
System (LWRS) for the M1 Main Battle Tank (MBT) was tested in a 
developmental program in 2012. At that time, the system was found to be 
insufficiently mature for integration onto the M1. Specifically, the 
LWRS was not able to achieve the required accuracy needed to provide 
the crew with effective battlefield situational awareness. Given this 
limitation, other more operationally effective modernization projects 
were prioritized and resourced. The Marine Corps, in coordination with 
the U.S. Army's Vehicle Protection Suite (VPS) Office, will pursue the 
maturation of LWRS capability in the near-term with the intention to 
transition and integrate this capability onto several combat platforms, 
to include the M1 MBT. The Marine Corps, in close coordination with the 
U.S. Army, will continue to make best use of common M1-based subsystems 
to improve our combat vehicle capabilities.

    2. Senator Blumenthal. Mr. Smith and Lieutenant General Walsh, what 
capability can a laser warning receiver system bring to Marine Corps 
ground systems?
    Mr. Smith and Lieutenant General Walsh. An effective LWRS 
integrated onto a combat vehicle system increases the situational 
awareness of the vehicle crew and improves system survivability. An 
LWRS provides the vehicle crew with a warning when they are lased by 
threat weapons that possess laser range finders such as main battle 
tanks, or laser guidance systems such as advanced anti-armor weapon 
systems. An LWRS is best exploited as part of an integrated vehicle 
protection suite that employs this sensor capability in conjunction 
with other system survivability technologies such as active protection 
and rapid obscuration systems.


 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, APRIL 17, 2018

                      United States Senate,
                          Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                       NAVY SHIPBUILDING PROGRAMS

    The Subcommittee met, pursuant to notice, at 2:32 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Roger F. 
Wicker (chairman of the Subcommittee) presiding.
    Subcommittee Members present: Senators Wicker, Cotton, 
Scott, Hirono, Shaheen, Kaine, and King.

          OPENING STATEMENT OF SENATOR ROGER F. WICKER

    Senator Wicker. Good afternoon. The Senate Armed Services 
Subcommittee on Seapower convenes this afternoon to examine 
Navy shipbuilding programs.
    We welcome our three distinguished witnesses: the Honorable 
James F. Geurts, Assistant Secretary of the Navy for Research, 
Development, and Acquisition; Vice Admiral William R. Merz, 
Deputy Chief of Naval Operations for Warfare Systems; and 
Lieutenant General Robert S. Walsh, Deputy Commandant of the 
Marine Corps for Combat Development and Integration.
    Gentlemen, thank you very much for being here. This is the 
first appearance of Secretary Geurts and Admiral Merz before 
this Subcommittee, so let me extend a special welcome and 
thanks for your decades of service to our Nation to all three 
of you.
    The Navy's fiscal year 2019 budget request includes 10 new 
construction ships, which is one more than the number requested 
last year. The 2019 request also details plans to build 11 
additional ships over the next 5 years, as compared to last 
year's request. The Navy battle fleet currently stands at 282 
ships.
    In 2016, the Navy increased its minimum requirement to 355 
ships. This Subcommittee took that requirement seriously. In 
fact, every Member of this Subcommittee cosponsored legislation 
that I introduced last year, the SHIPS [Servicing the Homeland 
by Increasing our Power on the Seas] Act, to make achieving 355 
ships the official policy of the United States. The SHIPS Act 
was included in the fiscal year 2018 National Defense 
Authorization Act.
    I want to give due credit to our colleagues at the other 
end of Capitol Hill. Members of the House Subcommittee and 
committee were also entirely supportive.
    This act was signed into law by President Donald Trump in 
December.
    A 355-ship fleet is not just a requirement. It is the law. 
We take it seriously, and we believe the Navy should take it 
seriously also.
    The Navy's long-awaited 30-year shipbuilding plan 
accompanied the fiscal year 2019 budget request. In its current 
form, the shipbuilding plan does not reach the 355-ship 
requirement in the next 30 years. In 2048, the last year of the 
plan, the fleet would have just 335 ships. This is 
unacceptable.
    My phone is talking to me, so I am trying to turn it off.
    This is unacceptable. In this light, though, we have good 
news. I am pleased that the Navy announced plans last week to 
extend the service lives of the entire class of Arleigh Burke-
class destroyers.
    I understand that this move will accelerate the time to 
reach 355 ships from the 2050s to the mid-2030s. This is good 
news, and we look forward to seeing destroyer life extensions 
included in future budgets and shipbuilding plans.
    The current shipbuilding plan, as I said, increases the 
fleet size to 326. After the first 5 years, however, according 
to the plan, we see a dip in fleet size, where it declines 
before modestly increasing in the 2030s and 2040s. As 
mentioned, the Navy's recently announced plan to extend the 
Burke class destroyers should reduce or hopefully eliminate the 
dip and keep the fleet on an upward trajectory.
    More can be done, and this Subcommittee wants to be a 
partner with you, gentlemen, to move this as quickly as 
possible.
    The shipbuilding plan contains three assumptions that are 
central to the speed at which the Navy can reach 355 ships. 
Let's explore each of these assumptions.
    Assumption A, limited ship service life extensions planned 
after the first 5 years. Beyond the five Los Angeles-class 
submarines and the Burke-class, the Navy should identify future 
candidates for service life extensions. Amphibious ships and 
Nimitz-class aircraft carriers should be reviewed in detail.
    Assumption B, overall shipbuilding funding levels will 
decline significantly after 2035. The plan includes a sharp 
drop in projected shipbuilding funding from roughly $24 billion 
in 2035 to $16 billion in 2036, and it remains below $20 
billion per year until the mid-2040s. The drop in funding is 
related to the end of the Columbia-class procurement. However, 
the plan provides no justification for why the shipbuilding 
account should decline so significantly and never recover. How 
much faster could the Navy achieve the 355-ship requirement for 
our Nation's security if shipbuilding funding remained at 
roughly $24 billion per year?
    Assumption C, unspecified supplemental funding for 
Columbia-class submarines. The shipbuilding plan discusses the 
general need for supplemental funding related to the Columbia-
class but does not provide specific dollar amounts. In 2013, 
the Navy told Congress it needed about $4 billion per year in 
supplemental funding over 15 years, totaling $60 billion for 
Columbia. Absent supplemental funding, Navy officials further 
stated that Columbia's pressure on the shipbuilding account 
would cause the elimination of about 32 other ships from its 
30-year shipbuilding plan. Congress needs clear and specific 
estimates of the supplemental funding needed to avoid drastic 
reductions to the rest of the shipbuilding portfolio.
    In addition to discussing A, B, and C of the shipbuilding 
plan and the above assumptions, the Subcommittee would like to 
hear our witnesses' views on four other key issues.
    First, industrial base vitality. Reaching the Navy's 355-
ship objective is not possible without the unique skills, 
capabilities, and capacities inherent to our new construction 
shipyards, repair facilities, and dedicated suppliers. The 
witnesses should describe the budget request's effects on the 
shipbuilding industrial base.
    In this regard, I was pleased to see the Navy recently 
released a request for proposal that would enable a block buy 
or combined procurement of two aircraft carriers.
    Second, best use of taxpayer resources. This Subcommittee 
will continue to conduct oversight of shipbuilding programs to 
ensure the Navy is making the best use of taxpayer dollars. 
Congress expects Navy shipbuilding programs to deliver promised 
capability on time and on budget. Schedule delays and cost 
growth put additional strain on the legacy platforms that these 
new ships will replace.
    Third, building the future force. This Subcommittee also 
has a duty to shape the future of our Navy. Notably, each of 
our surface combatant ships, cruisers, destroyers, and littoral 
combat ships will begin retiring within the next 20 years. Now 
is the time to determine the requirements for our future 
surface combatants and their associated munitions.
    Fourth, amphibious ships. I am interested in the ways we 
can address the demand from our combatant commanders for 
amphibious ships. The combatant commanders need more than 50 
amphibious ships on a day-to-day operational basis, but the 
current inventory includes only 32 amphibious ships. The 
witnesses should discuss the Navy's ability to efficiently 
procure the next amphibious assault ship now called a Flight II 
LPD. Given the Flight II LPD is a close derivative of the 
Flight I LPD, I would like to know if the Navy believes Flight 
II LPDs are ready for so-called block buys or multiyear 
procurement.
    We are also interested in options to accelerate the next 
big deck amphibious ship, LHA-9.
    So there is a myriad of things to discuss.
    There is no time to waste. As the new National Defense 
Strategy states, we are engaged in a great power competition. 
This is serious business for the security of our Nation and its 
citizens. If we do not take action, the consequences will be 
dire. Our maritime warfighting edge is eroding. If we fail, I 
fear General Dunford's assessment will come to pass that, 
``Within 5 years, we will lose our ability to project power, 
the basis for how we defend the Homeland, advance U.S. 
interests, and meet our alliance commitments.''
    So thank you, gentlemen, for being here. I now turn to my 
good friend and Ranking Member, Senator Hirono.

              STATEMENT OF SENATOR MAZIE K. HIRONO

    Senator Hirono. Thank you, Mr. Chairman. You have certainly 
kept a laser-beam focus on getting to a 355-ship Navy.
    He is very persuasive. That is how he got all of us to sign 
on to the bill, which became law.
    So I certainly join you, Mr. Chairman, in welcoming all of 
our witnesses. We are grateful to each of you for your service 
to our country. We are also grateful for your families, because 
when you serve, your families also serve.
    Our witnesses face significant challenges as you strive to 
balance the need to support ongoing operations and sustained 
readiness with the need to modernize and maintain technological 
advantages that are critical to military successes, especially 
as we know what the Chinese and Russians are doing, 
particularly the Chinese, to modernize their military.
    These threats require us to consider how we can ensure that 
the Navy and Marine Corps have the resources they need. 
However, any increase in resources cannot come at the expense 
of important domestic programs that families, including our 
military families, rely on every day.
    Navy shipbuilding programs play a critical role in 
supporting and advancing our country's strategic interests in 
the Indo-Asia-Pacific region, including, of course, from bases 
in Hawaii. From where I sit, I think that America is basically 
a naval power, and we understand that very well at Pacific 
Command.
    With that in mind, this Subcommittee has focused on 
improving acquisition stewardship and ensuring that we are 
getting good value for every shipbuilding dollar that we spend. 
Last year, we were pleased with the Chief of Naval Operations' 
new force structure assessment, which recommended that we move 
toward a 355-ship Navy.
    While the new 30-year shipbuilding plan that the Navy 
submitted with the fiscal year 2019 budget request would lead 
to increasing the size of the fleet, it would not meet that 
355-ship goal, as noted by the chairman. This 30-year plan 
would meet the attack submarine force goal of 66 boats in 2048. 
However, in the same year, we would have a force of nine 
aircraft carriers compared to the goal of 12 carriers, and 92 
large surface combatants versus the goal of 104. We need to 
understand the steps that the Navy will be taking to address 
these shortfalls.
    A significant factor that bears on our discussions this 
year is that Secretary Mattis has published a new defense 
strategy that is intended to guide force structure development 
and modernization programs to increase capability. It is 
reasonable to speculate that the implications of this new 
defense strategy of the Department of the Navy could yield 
increased demand for naval forces and complicate the Navy's 
plans to achieve its force structure goal.
    Whatever the case, I am very encouraged that the Navy is 
focusing on a vital component of maintaining a ready and 
capable fleet, and that would be the Navy shipyards.
    The Navy is planning to establish a program of record for 
modernizing the shipyards; will name a full-fledged program 
manager to oversee the program; and, later this year, will 
publish a master plan to guide this modernization. For too 
long, the Navy has been ignoring the vital contribution of the 
public shipyards and its highly trained work force in places 
such as, of course, Pearl Harbor Naval Shipyard.
    I look forward to working with the Navy to ensure that the 
shipyard modernization program stays on track and to hearing 
your testimony this afternoon.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you very much, Senator Hirono.
    Now I am told that, Secretary Geurts, you will make a 
verbal statement, and that will stand for all three of our 
witnesses. Is that correct?
    Secretary Geurts. Yes, sir.
    Senator Wicker. You are now recognized.

STATEMENT OF THE HONORABLE JAMES F. GEURTS, ASSISTANT SECRETARY 
    OF THE NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION; 
ACCOMPANIED BY VICE ADMIRAL WILLIAM R. MERZ, USN, DEPUTY CHIEF 
OF NAVAL OPERATIONS FOR WARFARE SYSTEMS (OPNAV N9); LIEUTENANT 
  GENERAL ROBERT S. WALSH, USMC, DEPUTY COMMANDANT FOR COMBAT 
 DEVELOPMENT AND INTEGRATION, COMMANDING GENERAL, MARINE CORPS 
COMBAT DEVELOPMENT COMMAND, AND COMMANDER, UNITED STATES MARINE 
                    FORCES STRATEGIC COMMAND

    Secretary Geurts. Thank you, sir. Chairman Wicker, Ranking 
Member Hirono, distinguished Members of the Subcommittee, 
thanks for the opportunity to appear before you today to 
address the Department of the Navy's shipbuilding plans.
    I am joined today by Vice Admiral Bill Merz, Deputy Chief 
of Naval Operations for Warfare Systems, and Lieutenant General 
Bob Walsh, Deputy Commandant for Combat Development and 
Integration.
    With your permission, I intend to provide brief opening 
remarks for the three of us and submit our formal statement for 
the record.
    Senator Wicker. Without objection.
    Secretary Geurts. As detailed in the 2018 National Security 
Strategy and the 2018 National Defense Strategy, it is 
imperative that we continuously adapt to the emerging security 
environment in order to retain and expand our competitive 
advantage, and to do so with a sense of urgency.
    This requires the right balance of naval readiness, 
capability, and capacity, as well as budget stability and 
predictability. It requires a Navy of at least 355 ships.
    The fiscal year 2018 Bipartisan Budget Act and the fiscal 
year 2019 President's budget chart a course to begin building 
this larger, more capable battle force the Navy and the Nation 
need.
    Strong congressional support in the 2018 Bipartisan Budget 
Act funded 14 ships in fiscal year 2018, an increase of five 
ships, including the lead Flight II LPD-17 class amphibious 
ship. It also includes strong support for the critical 
industrial base, a key element to our national security.
    Thank you for that unwavering support.
    The 2019 budget further builds this larger and more capable 
force and reflects the continued commitment to produce a 355-
ship Navy. When compared with the 2018 President's budget, the 
2019 request adds 11 more battle force ships over the FYDP 
[Future Year Defense Program] for a total of 54 ships, with 
three additional ships in 2019, as well as advanced procurement 
for the Columbia SSBN.
    As stated up front in the shipbuilding plan, the Navy 
continues to aggressively pursue options to accelerate the 
achievement of the 355-ship Navy. Executing ship construction 
profiles in the FYDP coupled with extending the service life of 
the DDG-51 class and targeted service extensions of up to five 
SSNs provides an achievable strategy to reaching our goal of 
355 ships on the 2030s.
    As this service life analysis work continues across all 
classes of ships, you will see adjustments to our timelines in 
subsequent shipbuilding plans. As we accelerate growing our 
Navy to meet the 355-ship requirement, we will also be working 
to ensure we deliver the best mix of our overall naval 
capabilities to meet the National Defense Strategy, including 
additional focus on the logistics fleet and hospital ships.
    We look forward to continuing to work closely with this 
Subcommittee on the options and opportunities to achieve the 
Navy the Nation needs urgently and affordably. We thank you for 
the strong support this Subcommittee has provided to the 
Department of the Navy and the opportunity to appear before you 
today to discuss this important topic. We look forward to 
answering your questions.
    [The prepared statement of Mr. Geurts follows:]

     Joint Prepared Statement by The Honorable James F. Geurts and 
  Lieutenant General Robert S. Walsh and Vice Admiral William R. Merz
    Chairman Wicker, Ranking Member Hirono, and distinguished Members 
of the Subcommittee, thank you for the opportunity to appear before you 
today to address the Department of Navy's seapower programs. First we 
would like to thank Congress for your support of the Bipartisan Budget 
Act of 2018. Enactment of this legislation will help provide the 
predictability and stability in funding that is critical to our success 
and will support building the Navy the Nation Needs, the maritime 
component of the National Defense Strategy.
    The strategic environment continues to become more sophisticated, 
uncertain, and technologically charged. The proliferation of modern 
conventional and cyber weapons to a broader range of state and non-
state entities, along with the erosion of our competitive advantage in 
areas where we have long enjoyed relative superiority, is likely to 
continue as rival states attempt to contest our influence. Competition 
for natural resources, violent extremism, natural disasters, social 
unrest, cyber-attacks, regional conflict, and the increase of advanced 
weaponry create a range of challenges for a globally responsive force.
    As detailed in the 2018 National Security Strategy and the 2018 
National Defense Strategy, in order to retain and expand our 
competitive advantage, it is imperative that we continuously adapt to 
the emerging security environment--and do so with a sense of urgency. 
This requires the right balance of readiness, capability, and capacity, 
as well as budget stability and predictability. Together, we can ensure 
our military's capability, capacity, and readiness can continue to 
deliver superior naval power around the world, both today and tomorrow.
    As part of our enduring commitment to accelerating delivery of 
advanced capabilities to the warfighter, the Department continues its 
pursuits of accelerated acquisition and business process reforms. We 
are utilizing accelerated acquisition authorities Congress provided 
under the Fiscal Year 2017 National Defense Authorization Act including 
implementation of accelerated acquisition policies for Rapid 
Prototyping. We are actively promoting innovation, government/academia 
partnerships, and the transition of key manufacturing technologies and 
processes with investments focused on affordability and capabilities 
most beneficial to the warfighter.
    As part of the Joint Force, the maritime dimension of the National 
Defense Strategy is to increase American naval power by building the 
Navy the Nation Needs (NNN). The Annual Long-Range Plan for 
Construction of Naval Vessels for Fiscal Year 2019 is the roadmap to 
attain a 355-ship fleet, prioritizing three elements that the Navy will 
pursue to grow the force: (1) Steady, sustainable growth and an 
establishment of minimum baseline acquisition profiles that grow the 
force at a stable, affordable rate. This includes the sustainment of 
the industrial base at a level that supports affordable acquisition, 
predictable and efficient maintenance and modernization, and an 
appropriately sized workforce for more aggressive growth if additional 
resources become available. (2) Aggressive growth that more rapidly 
attains the same warfighting requirements as increased resources and 
industrial capacity permit. (3) Service Life Extensions (SLEs) that 
evaluate the potential additional service life that can be gained 
through restoration and modernization based on capability improvement 
costs versus unit replacement criteria. By balancing long-term growth 
profiles with targeted SLEs and aggressive growth options, the Navy 
will be able to stabilize the industrial base and set the foundation 
for growing the force towards its warfighting requirement.
    Similarly, to increase its competitive advantage over pacing 
threats, the Marine Corps will rapidly adapt and modernize in an 
affordable way, which depends greatly on predictable funding. In 
anticipation of the changing threat, the Marine Corps began 
implementation of the Marine Operating Concept (MOC) in 2016, codifying 
the long-term vision for how the service will operate, fight, and win 
in the future. This concept identified the need for a more lethal, 
resilient force able to contribute to all domain access, sea control, 
power projection, maritime security and therefore deterrence in any 
threat environment. The MOC is directly in line with the recently 
published National Defense Strategy which highlights the requirement 
for increased strategic flexibility and freedom of action. The MOC and 
its implementation prepare the Marine Corps to operate as part of the 
Contact, Blunt, and Surge forces identified in the National Defense 
Strategy, specifically as part of the naval force. Marines operate 
regularly within these three layers today, making the modernization 
priorities highlighted in the Fiscal Year 2019 President's Budget all 
the more critical.
    The Fiscal Year 2019 President's Budget Request
    The Fiscal Year 2019 President's Budget was informed by the 2018 
National Security Strategy and the 2018 National Defense Strategy and 
charts a course to building a larger, more capable battle force the 
nation needs.
    The 2018 National Defense Authorization Act supports Navy's 
validated NNN requirement for 355 Battle Force ships, which is based 
upon analysis and acceptable strategic and operational risk, to address 
the evolving and increasingly complex responsibilities. The Fiscal Year 
2019 President's Budget request builds towards this larger and more 
lethal force and reflects the continued commitment to produce a 355 
ship Navy with the correct mix of ships; a commitment that increasingly 
values speed, lethality, stealth, information, and design margin for 
modernization as key attributes for future platforms--providing 
warfighting commanders capabilities in increasingly contested 
environments across all phases of warfare.
    When compared to the Fiscal Year 2018 President's Budget request, 
the Fiscal Year 2019 President's Budget adds 11 more Battle Force ships 
over the Future Year Defense Program for a total of 54, with three 
additional ships in Fiscal Year 2019. The Fiscal Year 2019 request 
includes procurement of ten ships in Fiscal Year 2019: two SSN 774 
Virginia-class attack submarines; three DDG 51 Arleigh Burke-class 
destroyers; one Littoral Combat Ship (LCS); one Expeditionary Sea Base 
(ESB); two John Lewis-class fleet oilers (T-AO); and one Towing, 
Salvage and Rescue ship (T-ATS). The Fiscal Year 2019 President's 
Budget provides for SLEs on 11 Battle Force ships including six 
Cruisers, four Mine Countermeasure ships, and one Improved Los Angeles-
class SSN. The Fiscal Year 2019 President's Budget request also 
includes funding for SLEs on 21 vessels in the Ready Reserve Force 
(RRF) and the Military Sealift Command surge fleet. The Fiscal Year 
2019 President's Budget request includes funding for procurement of two 
used commercial auxiliary vessels in fiscal year 2021 and 2022, as 
authorized in the Fiscal Year 2018 National Defense Authorization Act.
    With sustained funding provided in a timely manner and the 
execution of qualifying SLEs, the Fiscal Year 2019 President's Budget 
as described in the NNN shipbuilding plan puts the Navy on a path to 
326 ships by Fiscal Year 2023 and 355 ships by the early 2050s. The 
plan promotes a stable and efficient industrial base that encourages 
industry investment in capital improvements, capital expansion, and a 
properly sized world-class workforce. It is a realistic plan that 
reflects the imperative to remain balanced across investments in 
readiness and advanced capabilities in an era of unpredictable funding 
levels. By setting conditions for an enduring industrial base as a top 
priority, working together with Congress, the Navy is postured to 
aggressively respond to more investment in any year, which if received 
in all years, combined with SLEs and strong industry response, could 
attain the warfighting NNN target of 355 ships as early as the 2030s--
balanced, credible and sustainable.
                                summary
    The ascendant threats posed by revisionist powers and rogue states 
require change--we must become more lethal, resilient and as a 
consequence, a more capable deterrent. The Navy-Marine Corps team is 
re-evaluating our contributions to all domain access, sea control, 
power projection, maritime security, and deterrence knowing that we 
must consider the tactical and operational details of a contingency--
and how our contributions could shape the strategic environment to 
prevent conflict. Modern sensors and precision weapons with expanding 
ranges and lethality are redefining how we assess our posture and 
relative combat power.
    The Department of the Navy continues to increase capacity, 
lethality, and availability with the shipbuilding, aviation, and 
expeditionary programs. New capabilities are continually being 
delivered to the fleet and retrofitted on existing platforms to provide 
enhanced lethality and survivability to the warfighter. In addition, 
the Department is aggressively pursuing efforts to accelerate 
acquisition timelines and schedules and further drive affordability 
into our programs, in order to deliver capability to our warfighters 
faster and be as effective as possible within our resources. Continued 
congressional support of the Department's plans and budgets will help 
sustain a viable industrial base, as will timely enactment of 
appropriations, avoiding costly Continuing Resolutions. This request 
lays the ground work for growing warfighting capabilities in the Fiscal 
Year 2020 President's Budget, as the Department also makes initial 
investments in a larger Navy and Marine Corps.
    We thank you for your continued support of the Navy and Marine 
Corps and request your support of the Fiscal Year 2019 President's 
Budget.
    Programmatic details regarding Navy and Marine Corps capabilities 
are summarized in the following section.
         u.s. navy and marine corps seapower capabilities ships
Aircraft Carriers
    The aircraft carrier is the centerpiece of the Navy's Carrier 
Strike Groups and central to Navy core missions of sea control, 
maritime security, and humanitarian assistance and disaster relief. 
Nimitz and Ford-class carriers will be the premier forward-deployed 
asset of choice for crisis response and early decisive striking power 
in major combat operations for the next half-century. The Department 
has established a steady state Ford-class procurement plan designed to 
deliver each new ship in close alignment with the Nimitz-class ship it 
replaces.
    We continue to see progress in the testing of new systems aboard 
USS Gerald R. Ford (CVN 78). As of this January, CVN 78 has completed 
six underway events and conducted over 700 catapult launches and 
arrestments with Navy jets, including over a hundred launches and 
recoveries in one day on two separate occasions. These fixed wing 
operations were successfully supported by a number of aviation systems, 
while others will require continued refinement as they continue to 
support ongoing shipboard testing. The John F. Kennedy (CVN 79) is over 
40 percent complete with launch planned in late 2019 and delivery in 
the fall of 2024. The Navy is pursuing contracting actions necessary to 
continue fabrication of Enterprise (CVN 80) in Fiscal Year 2018 and 
preserve the delivery date to achieve significant cost reductions.
    The Nimitz-class Refueling Complex Overhaul (RCOH) is key to both 
the maintenance and modernization of each carrier in support of the 
second half of its service life. USS George Washington (CVN 73) began 
her mid-life recapitalization in August 2017 with re-delivery planned 
in summer 2021 to accomplish refueling of the ship's reactors, 
modernization, and repair of ship systems and infrastructure. The USS 
John C. Stennis (CVN 74) RCOH advance planning contract award is 
scheduled in summer 2018.
Submarines
    Ballistic Missile Submarines, coupled with the Trident II D-5 
Strategic Weapons System, represent the most survivable leg of the 
Nation's strategic arsenal and provide the Nation's most assured 
nuclear response capability. The Columbia-class program is on track to 
start construction in October 2020 and deliver to pace the retirement 
of our current ballistic missile submarines, deploying for its first 
patrol in fiscal year 2031. Topline relief will be required for the 
Navy to fund serial production of the Columbia-class SSBN.
    The Fiscal Year 2019 President's Budget supports the funding 
required to achieve a target of 83 percent design completion at 
construction start in Fiscal Year 2021. In September 2017, the Navy 
awarded General Dynamics Electric Boat a $5.1 billion contract for the 
design completion, technology development, and prototype manufacturing 
for the Columbia-class program. The contract leverages the authorities 
contained within the National Sea-Based Deterrence Fund and 
incentivizes construction readiness, affordability and supplier base 
capability and capacity. The Fiscal Year 2019 President's Budget 
request also funds Continuous Production of Missile Tubes and will 
support Advance Construction of long lead time material. Both efforts 
will improve manufacturing efficiencies and vendor learning, maintain 
critical production skills, and reduce costs by leveraging high-volume 
procurements.
    In addition to the Department of the Navy's budget request, the 
continued support of Congress for Naval Reactors' Department of Energy 
funding is vital to the Navy mission and ensuring the safe, reliable, 
and enduring operations of the nuclear-powered fleet. The President's 
Fiscal Year 2019 budget fully funds Naval Reactors' request for the 
Columbia-class SSBN. Recapitalizing this capability is critical to the 
Navy's readiness, specifically by ensuring adherence to the tight 
refueling and defueling schedule of nuclear-powered aircraft carriers 
and submarines.
    The long-term strategy for our attack submarines and future payload 
submarine is the Tactical Submarine Evolution Plan, or TESP, which 
features the Virginia-class SSN. The Virginia-class program is 
continuing to deliver submarines within budget and with increased 
capability in each block. The Navy will be building on past success by 
awarding a Block V Multiyear Procurement (MYP) contract for 10 ships in 
Fiscal Year 2019. Starting with the second ship in Fiscal Year 2019, 
these submarines will introduce the Virginia Payload Module and 
Acoustic Superiority.
    In 2016, the Navy established the Integrated Enterprise Plan to 
provide a framework for an integrated approach to support Columbia, 
Virginia, and Ford-class construction. This long-term government and 
contractor effort will guide the execution of these nuclear-powered 
platforms affordably, on time, to specifications, in the necessary 
quantities, and with acceptable risk.
Large Surface Combatants
    The Arleigh Burke-class (DDG 51) program remains one of the Navy's 
most successful shipbuilding programs with 65 ships delivered to the 
Fleet. The Fiscal Year 2018 to 2022 MYP maximizes affordability, 
stabilizes the industrial base, and has the flexibility to add 
additional ships. All ships in this MYP will incorporate Integrated Air 
and Missile Defense and provide additional Ballistic Missile Defense 
capacity known as Flight III, which incorporates the Air and Missile 
Defense Radar (AMDR). AMDR meets the growing ballistic missile threat 
by improving radar sensitivity and enabling longer range detection of 
increasingly complex threats. The program demonstrated design maturity 
through its successful completion of several stages of developmental 
testing, its entry into the Production and Deployment phase, and Fiscal 
Year 2017 Flight III awards to both shipbuilders.
    Complementing the DDG 51, the DDG 1000 Zumwalt-class guided missile 
destroyers are an optimally crewed, multi-mission surface combatant 
designed to provide long-range, precise, naval surface fire support. 
The DDG 1000 ship is nearing completion of industrial work in 
preparation to activate its combat systems in its homeport of San 
Diego. DDG 1001 has successfully completed acceptance trials and is 
scheduled for delivery from the building yard in spring 2018 and 
construction on DDG 1002 is over 70 percent complete. After a 
comprehensive review of Zumwalt-class requirements, the Navy decided in 
November 2017 to refocus the primary mission of the Zumwalt-class 
Destroyers to Offensive Surface Strike. This change in mission adds 
lethality and offensive capabilities by providing fires against targets 
afloat and ashore.
Small Surface Combatants
    The 2016 Force Structure Assessment revalidated the warfighting 
requirement for a total of 52 small surface combatants, including the 
LCS and the future, more capable Guided Missile Frigate (FFG(X)). The 
Navy will continue to refine the FFG(X) Conceptual Design with industry 
through fiscal year 2019 to support a full and open competition with a 
single source award in fiscal year 2020. The Fiscal Year 2019 
President's Budget includes one LCS in fiscal year 2019 to sustain the 
viability of the industrial base until the FFG(X) award in fiscal year 
2020. The FFG(X) will expand the competitive field of our shipbuilding 
industrial base.
    The Program of Record (POR) requirements for LCS Mission Packages 
(MP) have been updated. The new MP POR requires 10 Surface Warfare 
(SUW), 24 Mine Countermeasures (MCM), and 10 Antisubmarine Warfare 
(ASW) for a total of 44 deployable MPs. Due to the expeditionary and 
modular nature of the MCM MP this capacity can be fielded by both LCS 
and other Vessels of Opportunity. The Navy plans to leverage the 
modularity and flexibility of elements of the ASW and SUW MPs for the 
FFG(X) design, however these elements will not be complete MPs nor will 
they be included in the LCS MM POR quantity of deployable MPs.
    The LCS MP program continues the development of the SUW, MCM, ASW 
capabilities, delivering individual mission systems incrementally as 
they become available. This past year LCS 4 deployed with the first 
installation of an over-the-horizon missile capability added to the SUW 
MP. The Surface-to-Surface Missile Module with Longbow Hellfire will 
add more lethality to the SUW MP. It is currently in testing with 
Initial Operational Capability (IOC) planned for fiscal year 2019.
    The ASW MP Escort Mission Module (EMM) uses a continuously active 
Variable Depth Sonar, integrated with a Multi-Function Towed Array to 
provide a revolutionary surface ship anti-submarine capability. 
Development and integration of the EMM, Light Weight Tow, and Torpedo 
Defense Module are ongoing. The ASW EMM and is on track to fully 
integrate with the LCS to support IOC with the ASW MP in fiscal year 
2019.
    The Navy has scheduled three MCM systems for developmental tests 
(DT) and two for operational assessments (OA) this year, with Milestone 
C production decisions of the first two expected before the end of 
fiscal year 2018. The MCM Unmanned Surface Vehicle (USV) is the tow 
platform for minehunting operations, and is based on the USV already 
used in the Unmanned Influence Sweep System program. The Navy's plan is 
to conduct MCM MP DT/OA in fiscal year 2020 and achieve IOC in fiscal 
year 2021.
Amphibious Ships
    Amphibious ships operate forward to support allies, rapidly and 
decisively respond to crises, deter potential adversaries, and provide 
the Nation's best means of projecting sustainable power ashore. They 
also provide the preponderance of our naval response in humanitarian 
assistance and disaster relief. The operationally available inventory 
of amphibious warships and connectors remains below the 38 ship force 
structure requirement. The Navy is exploring service life extensions of 
existing ships and the acceleration of the LX(R) program to mitigate 
this shortfall.
    LHA 6 America-class ships are flexible, multi-mission platforms 
with capabilities that span the range of military operations, from 
forward-deployed crisis response to forcible entry operations. These 
ships will provide the modern replacements for the LHA 1 Tarawa-class 
ships and the aging LHD 1 Wasp-class ships. USS America (LHA 6) 
deployed as the centerpiece of America Amphibious Readiness Group/
Marine Expeditionary Unit, while USS Tripoli (LHA 7) is on schedule to 
deliver in December of 2018. The Detail Design and Construction 
contract was awarded in June 2017 for LHA 8 and delivery is planned for 
fiscal year 2024. LHA 8 will include a well deck to increase 
operational flexibility and includes a reduced island structure that 
increases flight deck space to enhance aviation capability.
    The San Antonio-class (LPD 17) provides the ability to embark, 
transport, and land elements of a landing force by helicopters, tilt 
rotor aircraft, landing craft, and amphibious vehicles. USS Portland 
(LPD 27) will commission in April 2018 and the USS Fort Lauderdale (LPD 
28) keel was laid in September 2017, with expected delivery in fiscal 
year 2021. LPD 28's design and construction features will leverage many 
of the ongoing LX(R) design innovations and cost reduction initiatives 
that are necessary for the program to achieve affordability goals while 
maintaining the high-level capabilities of the LPD 17 class. LPD 29 was 
awarded in February and will continue with the LPD 28 design, but add 
the Enterprise Air Surveillance Radar (EASR) among other improvements.
    LX(R) will be a flight upgrade to the LPD 17 class. Contract 
actions are in process for Detail Design and Construction award of the 
fiscal year 2018 ship.
Combat Systems
    The Department continues to field the most capable and lethal 
surface and submarine combat systems in the world. The AEGIS Combat 
System Baseline 9 has been fielded on cruisers and destroyers and 
continues to deliver unprecedented offensive and defensive 
capabilities, including, offensive ASW and simultaneous air and 
ballistic missile defense on destroyers and Air Defense Commander 
capability on cruisers. AEGIS Baseline 10 will add the AN/SPY 6(V) AMDR 
providing significant performance improvements over the AN/SPY 1D(V) 
radar and expanding the sensor coverage and enhancing the Navy's 
ability to perform the Integrated Air and Missile Defense mission. The 
Navy is leveraging the investment in AMDR to produce the EASR that will 
become the primary Air Search Radar for large deck ships and the Guided 
Missile Frigate. By using a common design and support strategy, we are 
enabling significant life cycle cost reduction for the Navy's surface 
radars.
    The Ship Self-Defense System provides ships with greater capability 
to defend against anti-ship cruise missile attack and supports a myriad 
of mission areas on Carrier and large deck Amphibious Class Ships.
    The Department continues to aggressively pursue affordable systems 
that are employable from multiple platforms. Under the Surface 
Electronic Warfare Improvement Program (SEWIP), the Navy is replacing 
aging analog electronic warfare systems first fielded in the early 
1970's with new, digital systems. SEWIP Block 1 and 2 systems are in 
Full Rate Production and continue to be installed across the fleet. The 
SEWIP Block 3 program completed its Critical Design Review in 2017 and 
is on track for Milestone C in fiscal year 2018. The Navy continues to 
deliver enhanced surface Undersea Warfare capability through the AN/
SQQ-89A(V)15 aboard cruisers, destroyers, and LCS Mission Packages.
    The Submarine community continues to successfully deliver 
improvements in Anti-Submarine Warfare utilizing bi-annual hardware 
Technology Insertions on even years and software Advanced Processing 
Builds on odd years. Leveraging commercial off-the-shelf (COTS) 
technologies via the Acoustic Rapid COTS Insertion (A-RCI) program 
mitigates COTS obsolescence while providing more capability improvement 
at lower costs.
Auxiliary Ships, Expeditionary, and Other Vessels
    Support vessels such as the ESB, Expeditionary Transfer Dock (ESD), 
and the Expeditionary Fast Transport (EPF) provide additional 
flexibility to the combatant commanders. ESBs are flexible platforms 
capable of hosting multiple mission sets with airborne, surface, and 
subsurface assets. The USNS Lewis B Puller (ESB 3), the first Afloat 
Forward Staging Base variant of the ESD, joined the U.S. Fifth Fleet in 
the Persian Gulf in the Fall of 2017. ESB 4 delivered in February 2018 
and ESB 5 is scheduled for delivery in May 2019. The Navy accepted 
delivery of the 9th EPF this past December and EPF 12 will start 
fabrication this year.
    The Combat Logistics Force (CLF) consists of T-AOE fast combat 
support ships, T-AKE dry cargo and ammunition ships, and T-AO fleet 
replenishment oilers. CLF ships fulfill the vital role of providing 
underway replenishment of fuel, food, repair parts, ammunition and 
equipment to forward-deployed ships and embarked aircraft, to enable 
them to operate for extended periods of time at sea. The Kaiser-class 
(T-AO 187) fleet replenishment oilers will be replaced with the John 
Lewis-class fleet replenishment oilers, designated T-AO 205 class. The 
start of construction for the first T-AO 205 is scheduled for September 
2018.
    The Department has begun procurement of a combined towing, salvage, 
and rescue (T-ATS) ship to replace the four T-ATF 166 class fleet ocean 
tugs, which reach the end of their expected service lives starting in 
2021, and the four T-ARS 50 class salvage ships, which reach the end of 
their expected service lives starting in 2025. Fabrication is expected 
to begin in early fiscal year 2019.
    In 2016, the Navy and Coast Guard established an Integrated Program 
Office to rebuild the Nation's heavy icebreaking capability. The Navy 
is supporting the Coast Guard's efforts to responsibly and affordably 
recapitalize the heavy polar icebreaker fleet. The Coast Guard intends 
to leverage existing designs and mature technologies to mitigate 
schedule and cost risks using a strategy based on robust industry 
collaboration and competition. The detail Design and Construction 
Request for Proposal has been released with proposals due at the end of 
fiscal year 2018. Based on this effort, the Coast Guard expects 
delivery of the first icebreaker as early as 2023.
Surface Ship Modernization and Service Life Extensions
    The fiscal realities facing the Navy make it imperative that we 
modernize our in-service ships to achieve their expected service lives 
and also to extend the service lives through modernization of our ships 
to achieve a 355 ship Navy. The Navy and industry are collaborating on 
innovative approaches to conducting modernization of Cruisers and Dock 
Landing Ships. The Fiscal Year 2019 President's Budget includes funding 
for the modernization of five destroyers to sustain combat 
effectiveness, ensure mission relevancy, and achieve the full expected 
service lives of the AEGIS Fleet. The request also continues to execute 
over the Future Years Defense Program (FYDP) for modernization of seven 
cruisers to ensure long-term capability and capacity for purpose-built 
Air Defense Commander platforms. The remaining four cruisers, which 
have Ballistic Missile Defense capability, will receive modernization 
to their hull, mechanical and electrical systems to support their 
operation through their engineered service life.
Unmanned Undersea Vehicles
    The Navy is expanding its global reach through the development of 
unmanned capabilities to ensure maritime dominance and power 
projection. This requires persistent global presence in all maritime 
domains, the ability to deny our adversaries safe haven in the world's 
oceans, and the capability to generate kinetic and non-kinetic effects 
at the time and place of our choosing. The Navy executes multiple 
missions in and from the Undersea Domain including Strategic 
Deterrence; Intelligence, Surveillance, and Reconnaissance (ISR); ASW; 
Anti-Surface Warfare (ASuW); Strike; Naval Special Warfare; and Mine 
Warfare. The Navy is using a Family-of-Systems strategy to develop and 
employ unmanned undersea vehicles to conduct a spectrum of undersea 
missions that complement and relieve stress on the manned force. The 
Family leverages small and medium-sized commercial vehicles, and is 
developing large and extra-large vehicles.
    Snakehead is the Large Vehicle which is the most critical member of 
the family for overall family development and tactical operations. Orca 
is the Extra Large Vehicle that is being designed to launch from a pier 
or large surface ship and operate for weeks or months at a time.
Ready Reserve Forces (RRF)
    The Navy has coordinated planning options with the Office of the 
Secretary of Defense, U.S. Transportation Command (USTRANSCOM), and the 
Department of Transportation's Maritime Administration (MARAD) and 
developed a strategic sealift recapitalization strategy that includes a 
three-phased approach. The strategy includes the SLE of select Surge 
Sealift vessels, acquiring used vessels, and a new construction, 
common-hulled shipbuilding program. The Navy's long-term strategy 
advocates that new construction common hull vessels be assigned to the 
Maritime Prepositioning Force (MPF) as delivered, ensuring the Fleet 
has the latest capabilities to support employment across the full range 
of military operations. Existing MPF ships would rotate to surge, 
preserving capability and maintaining the requisite square footage to 
meet USTRANSCOM sealift capacity requirements.
Weapons
    The Department continues to make significant strides in extending 
the fleet's layered defense battle-space while also improving the 
capabilities of the individual ship defense layers in order to pace the 
increasing anti-ship missile threat.
    Standard Missile-6 (SM-6) provides theater and high value target 
area defense for the Fleet, and with Integrated Fire Control, has more 
than doubled its range in the counter-air mission. SM-6 Block I 
declared Full Operational Capability in December 2017 and the Navy 
plans to award a MYP contract for up to 625 SM-6 missiles in fiscal 
year 2019. The MYP will span from fiscal year 2019 to fiscal year 2023, 
is projected to achieve over 10 percent savings vice annual 
procurement, and aligns with the potential SM-3 Block IB MYP in fiscal 
year 2019.
    The Evolved Sea Sparrow Missile (ESSM) provides another layer to 
the Navy's defended battle-space. ESSM Block 2 is on track to achieve 
IOC for AEGIS platforms in fiscal year 2020 and Ship Self-Defense 
System platforms in the 2022 to 2023 timeframe.
    The inner layer of the Fleet's layered defense is the Rolling 
Airframe Missile (RAM) designed to pace the evolving anti-ship cruise 
missile threat and improve performance against complex stream raid 
engagement scenarios. The RAM Block 2 is on track to receive a Full 
Rate Production Decision in fiscal year 2018.
    The Fiscal Year 2019 President's Budget includes funding to 
continue upgrades to the Standard Missile-2 (SM-2) inventory with 
active guidance utilizing accelerated acquisition authorities. This 
investment provides an affordable, integrated fire control capable, 
area defense missile to counter stressing threats.
            united states marine corps expeditionary warfare
Expeditionary Warfare
    The principle of Expeditionary Warfare is to operate forward, to 
exploit the seas as maneuver space as a base for global power 
projection, and to be ready to maneuver to shore when so ordered. Our 
ability to deploy from the sea in austere environments at a time and 
place of our choosing gives us significant tactical, operational and 
strategic advantages over potential adversaries. That ability is 
provided through the combination of connectors that move forces from 
the sea base to the objective sites and sustain the organic capability 
of those forces to maneuver and fight on the objective.
    The Navy/Marine Corps team provides the Combatant Commanders and 
our Nation the options needed to engage with our partners, to deter our 
adversaries and, when needed, to fight and win. That capability is 
underpinned by our disciplined, well-trained and motivated Sailors and 
Marines equipped with the ``right'' amphibious ships, aircraft and 
weapons in our arsenal. Unique to our expeditionary warfare 
capabilities is the ability to exploit the sea as maneuver space and 
conduct operations in international waters and airspace. Tactically, 
the ability to project multiple elements of a landing force ashore via 
multiple entry points using both vertical and surface means gives us 
greater flexibility in maneuvering into positions of advantage over an 
adversary. Our service capstone concept, the Marine Corps Operating 
Concept, envisions a future Marine force fighting at and from the sea 
to gain and maintain sea control and enable freedom of maneuver within 
an Advanced Naval or Joint Task Force as directed through the National 
Defense Strategy and Defense Planning Guidance.
Connectors
    Ship-to-shore connectors move personnel, equipment and supplies, 
maneuvering from a sea base to the objective. These are critical 
enablers for any naval force by closing the last ``tactical mile'' with 
the adversary. Modern aerial connectors, such as the MV-22 Osprey and 
CH-53K King Stallion, extend operational reach and lift capacity, 
revolutionizing our ability to operate from the sea, austere locations, 
and previously damaged airfields within a contested environment. Aerial 
connectors alone do not suffice; the Navy is in the process of 
modernizing the surface connector fleet by replacing the aging Landing 
Craft Air Cushion (LCAC) and the 50-year-old fleet of Landing Craft 
Utility (LCU). This system of surface and aerial connectors will enable 
the Joint Force to establish a web of sensor, strike, decoy, and 
sustainment locations based on land and sea that complicates the 
strategic and operational decision-making of our most advanced rivals, 
thus attacking their Anti-Access/Area Denial (A2AD) strategies. 
Continued funding of the modernization, maintenance, and service life 
extension programs of our existing fleet of connectors is critical to 
enabling our success in future security environments.
    The Fiscal Year 2019 President's Budget includes 37 LCAC 100 class 
air cushioned vehicles. The Ship to Shore Connector program will 
replace aging LCACs, which have undergone a Service Life Extension 
Program (SLEP) and a Post-SLEP Extension program. Additionally, the 
Fiscal Year 2019 President's Budget includes the procurement of 18 LCU 
1700 class craft, which will recapitalize, in part, the aging LCU 1610 
class. Both variants still require additional funding for post-delivery 
and outfitting efforts to provide Fleet craft which are capable of 
supporting operational tasking.
    These platforms are essential in connecting the combat power and 
logistics sustainment the seabase provides to expeditionary forces 
operating in the littorals. The Department will continue to explore 
future connector options that will increase our ability to exploit the 
sea as maneuver space by increasing range, speed, capacity, and force 
interoperability.

    Senator Wicker. Thank you very, very much, Secretary 
Geurts. I will direct this question to you and Admiral Merz.
    Of course, you heard my opening statement expressing 
concern about the shipbuilding plan, but very, very positive 
about the recent announcement on the Burke class destroyers. I 
believe we can go faster.
    Can you address each of the points that I raised in my 
opening statement? I noticed you nodding your head a lot. So I 
will let you do that on the record. And how might changing 
these assumptions get us to a 355-ship Navy faster, 
specifically completing other ship service life extensions for 
years 6 through 30 of the plan, maintaining overall 
shipbuilding funding levels with inflation adjustments through 
the year 2048, and being specific about supplemental 
shipbuilding funding needed in fiscal years 2021 through 2035?
    Secretary Geurts. Yes, sir. I will start out, and then I 
will ask Admiral Merz to jump in with me.
    So again, in the shipbuilding plan upfront, when we built 
the first plan, we had some analysis complete and we had a lot 
of analysis ongoing, in terms of service life extensions and 
class extensions. In most interest to us, we are extending the 
class of the ship, because that not only benefits the ships you 
have but also the ships you build will then be able to extend 
out.
    So the DDG-51 was our first priority, and that is where we 
spent the most effort and just kind of worked through that 
analysis. As you heard last week, that has a profound impact on 
filling that hole we have in the mid-years of the 2030s 
timeframe.
    Senator Wicker. Very positive developments.
    Secretary Geurts. Yes, sir.
    On the submarines, it is not quite as easy. We have five 
reactor cores, so we think we can extend the service life of up 
to five submarines. That will still cause a dip, so we will 
have to continue to work the submarine force specifically.
    And then, as Admiral Merz will address for you, we need to 
look at the mix of ships to make sure not only do we have the 
ship count we need, but do we have the right mix. And for that, 
I look to him to help guide us in terms of what is the highest 
priority there as we go through.
    To your point on Columbia, we are going to be challenged in 
the year when we are producing the Columbia submarine. That 
will be our number one priority, so without supplemental 
funding, that will take a hit to our current shipbuilding plan. 
So we look forward to working closely with you on the specific 
numbers and how we might mitigate some of those impacts.
    But the shipbuilding account, as currently funded, will not 
be able to maintain pace with also producing Columbia 
simultaneously at the current funding level we have in the 
shipbuilding accounts.
    Senator Wicker. On that, let's keep our thinking caps and 
look for innovative approaches.
    Secretary Geurts. Yes, sir. Part of it is, where do we have 
opportunities to drive costs down? You mentioned block buys of 
the LPD-17 Flight II. We are looking at two carrier buys. How 
do we reduce or get more for the dollars we have in the 
shipbuilding account? Because there will be tremendous pressure 
as we go into the future with Columbia being produced along 
with us growing the 355-ship Navy.
    Senator Wicker. Admiral, he has tossed it to you.
    Vice Admiral Merz. Yes, sir.
    So the 355, first, just to set the bar on 355, it is a 
derived number. We start with the old plans. We work it all the 
way down to the specific types of ships, the capabilities on 
those ships, and then, of course, the numbers of ships for each 
class, add those all up, and that is how we got 355. So a very 
deliberate process to get to that number.
    I tee it up with that as I talk a little bit about the DDG-
51. As Secretary Geurts mentioned, extending an entire class 
is, by far, the most beneficial way to approach a life 
extension, because that allows us to plan the maintenance, the 
modernization, really handle it within stride of what we are 
already doing with that class, as opposed to the alternative to 
taking individual ships, reviewing it, figuring out what 
maintenance has to be done, and then going ahead and completing 
that. So a much more efficient, much more affordable option is 
to extend the class.
    This is not without precedent. We did it with the Ohio 
class. There probably are not any other classes right now. They 
are all to new. Virginia may be a candidate, depending on her 
fuel usage over her life. Then, of course, the small surface 
combatants are all relatively new. That may be another 
candidate later on in the shipbuilding plan, as we get more 
data back on how the ship is performing.
    Arleigh Burkes, a very solid ship, we are a big fan of that 
ship. We went after that. We did not think this would be a big 
technological challenge, and we were able to complete it.
    That said, going back to my opening remarks on the correct 
mix, we do hit 355 much sooner, and we laid that out in the 
shipbuilding plan as a candidate option. We just had not 
finished the analysis yet. But it does not give us the correct 
mix.
    Senator Wicker. You had to read the footnotes.
    Vice Admiral Merz. Yes, sir. So it does get us to the mid-
2030s at 355, but not the correct mix, although not a bad mix. 
If you have to have extra ships, DDGs are good ones to have 
more than you need while you fill in the rest of the 
requirement underneath it.
    You mentioned the dip beyond the FYDP. We are scrubbing 
that hard. Where we sit today is we cannot build ships and 
deliver them in time to fill in that dip. However, extending 
the class of the DDG-51 is the only lever we pull so far. We 
are still looking at candidate years for a third SSN. And then 
all the other ship lines that we identified excess capacity, 
working with Congress, we may be able to continue to bolster 
those lines more rapidly. It will help recover from the dip, 
but there will still be a dip outside the FYDP, to a degree.
    Just the DDG-51s have accelerated the nadir of that dip by 
2 years, so that is already a good-news story. Then we will 
continue to look at individual ships that we may be able to 
extend as we go forward.
    SSNs are very difficult. We only have five cores, so that 
is how we capture the life extensions of those. We do not 
really hold a lot of hope for doing a class-wide extensions on 
the 688s. They are already pretty old. But we are going class-
by-class, ship-by-ship, and every ship does get evaluated for a 
life extension.
    Senator Wicker. Thank you. Before I recognize Senator 
Hirono, thanks for pointing out that the requirement is not 
just something that was arrived at by the seat-of-the-pants. 
This came in as requirements from all of the admirals and 
generals who have responsibilities around the globe, what is 
the requirement for getting their mission done. So I appreciate 
you once again helping us to emphasize that.
    Senator Hirono?
    Senator Hirono. Thank you.
    Admiral Merz, the CNO's unfunded priority list for fiscal 
year 2019 includes a request for an additional $176 million to 
accelerate shipyard investment. This could include 
modernization, other elements. This would be in addition to 
$197 million in the Navy's budget request, indicating that 
shipyard investment is a significant priority, since the CNO's 
list does not ask for additional funding for any shipbuilding 
programs.
    How would the Navy use the additional funds to modernize 
our public shipyards?
    Vice Admiral Merz. Yes, ma'am. I will give the OPNAV view, 
and then I will pass it over to Secretary Geurts. That really 
is more in his lane.
    So NAVSEA has put out a pretty detailed plan on the 
recovering of the maintenance capacity within the shipyards. It 
is a $21 billion plan over 20 years. It is very detailed. It 
includes dry docks, recapitalization, and refacilitizing of the 
yards.
    Regarding the unfunded priority list, coming out of the 
last 10 years of our readiness deficit, we have become very 
committed to a balanced budget of readiness capability and 
capacity. So we think we have put us on a trajectory to 355 
ships, particularly with the life extensions of the DDGs. There 
are still readiness challenges that we are trying to recover 
from, and there is also the capability focus where we can turn 
capability much quicker than we can turn the size of the fleet.
    So we are trying to balance investments in advanced 
development, hypersonics, directed energy, the unmanned vehicle 
systems, as we kludge all that together to make sure we have a 
balanced, capable Navy as we grow.
    With that, I will turn it over to Secretary Geurts.
    Senator Hirono. Mr. Secretary?
    Secretary Geurts. Yes, ma'am. That is to help us accelerate 
this $21 billion ship optimization plan. So as we grow the 
fleet, we have to be very cognizant that we are growing the 
maintenance capability of the fleet, because naval power is a 
combination of the number of ships you have, how capable the 
ships are, and how ready those ships are to fight.
    So the shipbuilding plan also helps us look very 
specifically at that public shipyard infrastructure, to make 
sure that we have that ready to work off backlog that we have 
had previously. We are in pretty good shape of working off 
existing backlog. Now we have to be ready for the growing 
fleet.
    Senator Hirono. I completely agree. As we look at 
modernizing our four public shipyards, and I have met with many 
of our workers in our shipyards, they want to have the modern 
tools. They want to have the capability to maintain the ships 
we already have, not to mention the new ones that are coming 
online.
    So they very much care about their own productivity. It is 
not just the training that we provide to these people but the 
equipment that they use.
    So how do you determine which shipyards would get what kind 
of modernization dollars?
    Secretary Geurts. Yes, ma'am. You are absolutely right. I 
mean, when you walk the yard, they are a very proud work force. 
They are proud of what they are doing. They are proud of their 
contribution. We owe it to make sure they are in world-class 
facilities with world-class tools and equipment, and we are not 
at world-class across our public yards right now.
    So what we look at is we look at all four yards, and we 
look at this 20-year plan. So it is not just a year-by-year 
plan, but how do we optimize the flow? How do we look at what 
equipment we need? Are there new machines? How is the status of 
the machine? And then, how do we leverage the digital age to 
really allow us to not only give them modern equipment, give 
them modern tools that will, I think, allow them to do more and 
more?
    So we look at that across all four yards. We have a ship 
optimization plan that balances that for each yard, and then 
works the priority.
    So it is not going to be one yard and then another yard. It 
is going to be all four kind of in parallel.
    Senator Hirono. Right. I was going to ask whether you are 
going to make sure that there is a kind of fair distribution of 
the modernization dollars across all four shipyards, because 
while they support each other, there is a bit of competition 
going on.
    Secretary Geurts. Absolutely. We need them all to be 
productive and ready to roll.
    Senator Hirono. So they are not unfavorably compared to 
each other.
    In my opening statement, I referred to the Navy's new plan 
for modernizing the public shipyards, of course, after years of 
neglect. There have been military construction projects and 
various upgrades over the years, but the Navy has pursued these 
without a comprehensive plan. That is what we are moving toward 
with what we are talking about today, a comprehensive plan.
    Will the Navy be releasing additional details regarding the 
implementation of the shipyard optimization plan? If so, when 
can we expect to see them?
    Secretary Geurts. Yes, ma'am. We will continue to refine 
that plan, so the first plan we give a report to Congress kind 
of lays the overall strategy out. Now we have to get to year-
by-year, facility-by-facility planning, because the challenge 
will be, we cannot stop doing all the work we are doing now, so 
we will have to get very detailed in planning how we build a 
new facility as we are executing the existing work. You will 
see that continue to get refined over the coming year.
    Senator Hirono. So when will we get the next report on your 
shipyard optimization plan?
    Secretary Geurts. Ma'am, I do not know if there is a 
requirement for an annual report, but I am happy to give you 
updates on an annual basis or whenever you need, to show you 
where we have gone.
    So the first one was the plan. Now we should lay out how we 
are executing the plan, and then what the plan is going 
forward. So we are happy to give that to you.
    And we will give you an annual update or more often, as 
required.
    Senator Hirono. Thank you.
    Senator Wicker. Thank you very much, Senator Hirono.
    Senator Scott?
    Senator Scott. Thank you, Mr. Chairman.
    Thank you all for being here. Thank you for your service to 
the country as well.
    When I first got on the Armed Services Committee about a 
month or two ago, I sat down with Secretary Spencer. We had an 
interesting conversation about my time in business, which I 
suggested that certainty and predictability are always 
necessary tools. For any business to do what they do really 
well, they need a long-term plan. He suggested and then 
reinforced it with actual proof that continuing resolutions 
over the many years has cost the Navy at least, quantifiably, 
$9 billion.
    Would you talk about the importance of meeting our 355 goal 
as it relates to having certainty and predictability with a 
long-term view, from your perspective?
    Secretary Geurts. Absolutely, Senator. It goes back 
somewhat to the conversation we just had.
    It is hard to do facility planning when you have a plan and 
then you get to re-plan it five times during the year on the 
acquisition side. It is very challenging. We negotiate 
contracts, but then we cannot award them because we do not have 
all the money, so then we have to negotiate bridge contracts.
    So it just adds delay and nonvalue-added work in here.
    So the Bipartisan Budget Act is very useful, because now we 
can build a shipbuilding plan at least for the next 2 years. 
Getting certainty years out will really help us, then, avoid 
what has kind of been characterized as boom or bust cycles we 
have had in shipbuilding, which is both hard on the business 
side and very hard on the public shipyards side.
    Senator Wicker. And it has everything to do with national 
security.
    Secretary Geurts. Absolutely, sir.
    Senator Scott. Nine billion dollars, depending on the mix 
of ships, and he was talking about since 2011, I believe it 
was, helps us get to that goal a lot faster. Chairman Wicker 
suggested that you should be creative and do some things that 
will help us get there faster.
    I wanted to ask you this question. Based on your previous 
job as acquisition executive for Special Operations Command, I 
understand you oversaw innovative programs that brought unique, 
frequently off-the-shelf material solutions to our special 
operations forces in record time. As I understood it, your team 
had permission to fail in their search for a particular 
material solution, as long as it did it quickly and did not 
fail at the same task twice. The result has been a superbly 
quick force that America depends on every single day.
    I also understand you did this without any special 
exemption from the Federal Acquisition Regulations, the dreaded 
FAR. But it is safe to say that the scale and cost of programs 
like the Ford class aircraft carrier do not lend themselves to 
that fail quickly mentality.
    So my question for you, since you are now overseeing 
acquisition programs with timeliness measured in years, 
sometimes even decades, what lessons from your previous 
position at Special Operations Command are you able to leverage 
with the Navy? And are you finding the Navy receptive to that 
approach?
    Secretary Geurts. Yes, sir. Absolutely. I think a couple 
different things.
    One is, speed of decision-making and unity of command. So 
in that command, we were focused on outcomes and made rapid 
decisions. The 355-ship plan is a great outcome focus. We all 
have a target. We can all move toward that. That is a key.
    I think as I approach the Navy, I am looking to do what I 
call maybe the four Ds. One is decentralize, so empower folks 
to get the job done at the lowest capable level. Differentiate, 
so have lots of different ways--so how we acquire an aircraft 
carrier may not be the same way we acquire a piece of software 
or an algorithm or a quick off-the-shelf piece of equipment. So 
we have to be able to do all of those well. Digitize, so you 
are seeing the power of the digital age across the entire 
fleet, from shipbuilding to how we are doing our daily job. And 
then develop people, so how do we attract, recruit, train, and 
retain?
    All of that is within the authorities that Congress has 
given us. So I am actually very positive the way that the Navy 
and the Marine Corps are responding to that. Each have their 
own strengths and challenges, but with a portfolio approach, we 
can really, I think, get acceleration and innovation at scale.
    Senator Scott. When you think about the goal of getting the 
355 ships, you said by extending the Burke class destroyers, 
you can get there by mid-2030s. When you look at the current 
portfolio, where do you see the greatest risks?
    I know that one of the things I read was the importance of, 
by 2030, in the 2020s, having attack submarines that will be 
available for use in the Pacific theater. If you look at your 
current mix and where you think we are heading, where do you 
see the greatest vulnerability for that mix?
    Secretary Geurts. Sir, I will give you kind of a quick 
perspective, and then Admiral Merz from the OPNAV operational 
perspective.
    Where I see the risk is, if we do not figure out how to 
rapidly modernize this fleet and be able to rapidly put in new 
technology quickly into these 50-year ships, then we are going 
to be challenged, because then you are forced to try to pick 
now what is going to last forever.
    Where I think the Navy is doing an extraordinary job is on 
submarines. We can roll in new technology consistently into the 
submarines even though the design is pretty stable. You are 
starting to see that in our surface fleet now where we decouple 
the combat system from the ship. In that way, we can rapidly 
evolve the combat system on the ship as new needs or threats 
evolve, or technologies, but having a ship that we have 
strengthened.
    So, to me, the key is our ships with a lot of margin, a lot 
of power, a lot of weight. Then we can go from there.
    Bill, I do not know if you want to jump in?
    Vice Admiral Merz. Yes. Thank you, Secretary.
    Senator Wicker. Please, go ahead.
    Vice Admiral Merz. Yes, sir.
    So back to your certainty and predictability, I would tell 
you that probably the greatest risk is funding and continuing 
resolutions and the predictability of that funding. The BBA was 
a huge relief for us. It certainly gives us the opportunity, if 
nothing else, to roll over at a level that we can continue to 
execute the program.
    The 355 is not without risk. All plans have risk. The 
longer we go without the correct mix of the ships at the 
correct number, the longer we carry that risk as we push that 
ahead.
    The $9 billion is a nice round number. That is three 
submarines, and that is the class of ship that we are furthest 
away from our requirement. That is the last one to arrive on 
time, as far as the right mix of ships within that 355.
    So a very deliberate pick up a number that has real math 
behind it. It matters to us.
    Senator Scott. Thank you.
    Senator Wicker. Thank you, Senator Scott.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    Secretary Geurts, in the National Defense Act of last year, 
the committee report talked about the force structure 
assessment of the 355 ships, and it included this language: The 
committee believes that the Navy should maintain the two proven 
shipbuilding sources of large surface combatants. The committee 
emphasizes that the acquisition strategy for the next multiyear 
procurement contract should help sustain the dual-source large 
surface combatant shipbuilding base.
    I think my question is, are you and Secretary Spencer 
committed to the DDG-51 multiyear, which I understand the bids 
have just been submitted, an outcome that will sustain both 
yards and the large surface combatant?
    Secretary Geurts. Yes, absolutely, sir. Our whole strategy 
was built around securing enough base in both shipyards, yet 
enabling competition, so that the taxpayer gets the most for 
the dollar.
    But I am convinced, in any outcome of that strategy, there 
is plenty of work to keep all those shipyards producing for the 
Navy.
    Senator King. And in the long run, it is certainly in the 
taxpayers' interests to have those two shipyards.
    Secretary Geurts. Absolutely. Having two yards for that 
fleet is critical.
    Senator King. Admiral Merz, I was very interested in the 
whole life extension issue. You probably saw the article in 
SEAPOWER.
    My question is, number one, what are we talking about here 
in the way of work? Are we talking about repainting, or are we 
talking about rebuilding? And how substantial? For example, how 
long would a DDG-51 be in the yard for its renovation?
    Vice Admiral Merz. Sir, that is another benefit of doing a 
class-wide extension. So based on their performance and their 
maintenance periods to date is what we base the class life 
extension on. So there are no specific yard periods required to 
extend these ships to their 45 year. Some are extended 5 years. 
Some are extended 10 years, depending on what flight they were 
built.
    All the DDGs are already planning to be modernized. We will 
see if that modernization is sufficient to get them to their 45 
years. We typically just pace the threat with our 
modernizations.
    Senator King. Where would the modernization be done? At the 
two shipyards that we have been talking about or at public 
yards? What is the thinking on that?
    Vice Admiral Merz. All the modernizations are already 
planned. The modernizations for the DDGs are done in private 
yards, not the public yards. Whether they require an additional 
yard period, additional modernization, we will have time to 
forecast that and to plan that.
    Quite frankly, the current modernization schedule may be 
sufficient. It really depends on how we pace the threat, what 
we want these ships to do, and how we foresee them holding up.
    Senator King. And I take it that this life extension 
program does not affect the schedule for new acquisitions?
    Your colleague just shook his head rather vigorously.
    Vice Admiral Merz. That is because achieving and sustaining 
355, it is absolutely fundamental that we sustain those 
shipbuilding profiles underneath the life extensions, or, when 
those ships go away, we will be worse off than when we started.
    Senator King. So, Mr. Geurts, you agree that this is a 
separate issue. We are not talking about replacing the new 
ships coming on?
    Secretary Geurts. No, sir. Again, in my opening statement, 
I want to be very frank, we have to both maintain the 
production profiles we have as well as do this class extension. 
Or as Admiral Merz says, we can delay the problem a little bit, 
and then you are going to have a much worse problem, because 
you will fall off a cliff. So it is really have the production 
growth profile we have in the shipbuilding plan, and then the 
service life extension helps us draw that 355 in as well as 
lessen that dip.
    Senator King. Turning to the frigate program, bearing in 
mind the language that I read from the committee report, do you 
anticipate the frigate program being a two yard acquisition?
    Secretary Geurts. Sir, our current plan for those 20 is to 
be a single downselect.
    Senator King. One yard for the new frigate. Would that be a 
multiyear? How many ships are we talking?
    Secretary Geurts. We are talking 20 ships, sir, right now 
in the current plan. Right now, we have five competitors that 
are in design study contracts. In 2019, we will do a 
competitive downselect, right now planning to one yard, to 
build those 20 ships under the current planning.
    Senator King. Whichever one of those five competitors. And 
they are all working--this is not a clean ship. We are working 
off existing design.
    Secretary Geurts. Yes, sir. They have to have a parent 
ship, a proven parent ship design.
    Senator King. Admiral Merz, could you describe, in a few 
seconds, or maybe we can get back to it--my question is too 
broad for 20 seconds, so I think I will hold it for the next 
round, Mr. Chairman. Thank you.
    It will be about the re-missioning of the Zumwalt, so you 
can think about that.
    Senator Wicker. So you can study ahead.
    [Laughter.]
    Senator Wicker. Thank you, Senator King.
    Senator Cotton?
    Senator Cotton. Thank you, gentlemen, for your testimony 
today. I want to tie a couple bows on issues that came up 
earlier.
    Secretary Geurts, you said that our submarine programs are 
better, are faster at integrating new technology right now than 
our surface ships are. Our surface ships are learning from 
that.
    Can you explain why you see that difference?
    Secretary Geurts. Sir, again, I am about 120 days now into 
the Navy, but in looking back in time, from my analysis, 10, 15 
years ago, there was a realization that the submarine fleet was 
not modernizing its combat systems at the pace of the threat. 
So it was a very deliberate action over a number of years to 
create the acquisition strategy where you can continually roll 
on new capabilities to the submarine while holding the design 
of the ship itself constant and improving.
    So I think that is a good model for these long-lasting 
structures. You want to have a good structure with a lot of 
margin that you have confidence that is reliable, but then have 
a way to roll on combat systems and new technologies and new 
algorithms as quickly as you can to pace with the threat.
    Senator Cotton. Thank you.
    Admiral Merz, you said that funding certainty is your 
biggest risk. You are grateful for the 2-year budget received 
earlier, but if you need funding certainty, I assume that you 
need a DOD appropriations bill passed this year.
    Vice Admiral Merz. Yes, sir, we do.
    Senator Cotton. Not filibustered this summer.
    Vice Admiral Merz. No, sir.
    Senator Cotton. And the Budget Control Act remains in 
effect for fiscal year 2020 and 2021. So if either that law is 
not repealed this year or the Congress does not pass a 2-year 
budget next year, as we have each of the last three 2-year 
cycles, you will once again face your biggest risk, which is 
funding uncertainty.
    Vice Admiral Merz. Yes, sir.
    Senator Cotton. Thank you for that.
    Let's move on to a few other topics.
    Admiral Merz, we have 11 littoral combat ships. A story 
recently in Naval Institute said that zero of those will deploy 
this year in 2018.
    Could you talk about why that is the case?
    Vice Admiral Merz. Yes, sir. So the total number is 32. We 
barely have a third of the class. The typical deployment model 
is 3 to 5 ships to 1, to keep one deployed. So this is really 
just math. There are going to be gaps that will fill in over 
time. We are not concerned about it.
    We are learning a lot about the maintenance of the ship. We 
are going to a dual-crew model over the next several years.
    So we feel like it is on track. We are not concerned about 
not deploying in 2018. That is going to catch up over time as 
we fill in the rest of the class.
    Senator Cotton. Was that anticipated for this year?
    Vice Admiral Merz. Yes, sir, absolutely.
    Senator Cotton. Let's turn to fast attack submarines. 
Admiral Harris of PAYCOM has testified that he gets half of his 
fast attack submarine requirements met. Over the next decade or 
so, we will reach the point where we are retiring fast attack 
submarines faster than we are building them.
    What is the Navy's plan to mitigate this issue? Because if 
it affects him, it likely affects General Scaparrotti in 
European Command as well.
    Vice Admiral Merz. Yes, sir. Every combatant commander is 
at about that batting average for the attack submarines they 
would like to have in theater. The unfortunate reality is that 
there is not much we can do to recover that plan to get to 66, 
other than adding a third maybe SSN in candidate years. We are 
looking at that very hard, and we are working very closely with 
the shipbuilders on their ability to fill that in.
    Even 66 is probably going to leave some gaps. I would not 
be surprised to see that number go up over time as we do 
assessments in the future. But that will just add to the length 
of time it takes to get there.
    So that is the ship today that is furthest away from its 
requirement, and it is the last ship to achieve its requirement 
in the 30-year shipbuilding plan.
    Senator Cotton. Thank you. It is disappointing we have 
reached this position.
    Secretary Geurts. Sir, one thing we are going to add is we 
do have five cores available. So we have funded one this year. 
We have identified the ship. So we think we can extend the life 
of five of those.
    So that will not solve the problem. It will mitigate a 
little bit the worst part of the dip. So that is something we 
are studying closely, in addition to what Admiral Merz had 
mentioned.
    Senator Cotton. Okay. Thank you.
    Senator Wicker. You are studying that, and you intend to 
make a report at what point?
    Secretary Geurts. Sir, we have the first one funded this 
year. I would expect you will see those come in, in the budget. 
I am fairly confident that we will add--again, given the 
criticality of that shortfall, that would be a very attractive 
way to at least add some service life through the worst part 
through that dip.
    Senator Cotton. Thank you, gentlemen.
    Senator Wicker. Thank you very much, Senator Cotton.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thank you to our witnesses today. I want to begin by 
thanking both Mr. Geurts and Vice Admiral Merz for your help. I 
am pulling together a session in Hampton Roads, Virginia, on 
the 8th of June called the 355-Ship Navy. It is a discussion 
about work force, so it is all with the community colleges, the 
apprenticeship program, the local K-12 systems. The Navy has 
indicated that they will have a witness. It might be one of 
you. I am not sure yet that there has been a designee.
    But I appreciate your willingness to help on that, because 
I think we talk about what 355 means for budget, and there is a 
whole series of issues there, but there is a real work force 
need. That need is, folks who are going to be building these 
ships are in pre-K right now. We are going to have to make sure 
that they are getting the skills as they go through their 
educational lives that will equip them to do the work in all 
the centers of shipbuilding around the country.
    So I appreciate the Navy working with me on that.
    I wanted to ask you about a recent announcement. The Navy 
recently expressed interest in block buy of aircraft carriers--
you talked about that briefly--made a request to Huntington 
Ingalls to give information so that they could potentially, I 
guess, decide on--or that would inform the potential decision.
    The authority to do a block buy would need to be included 
in an NDAA. We are working on the markup right now this month 
and next.
    When do you envision that the Navy will be making a 
decision about this? Because I want to make sure that your 
timetable and the committee's timetable, in terms of what we 
are working on with respect to the NDAA this year, match up.
    Secretary Geurts. Yes, sir. So we have issued a formal 
request for proposal to the contractor, Huntington Ingalls. We 
expect that back here in the next couple weeks. So I would 
think by early summertime, we will have a good look at the 
numbers. We will have a good understanding of those numbers. We 
have asked the contractor to sharpen a pencil and really look 
at how we can be aggressive in thinking our way through this.
    So I think that would position us well early this summer to 
have that conversation, to look at the savings. It will take 
congressional authority to support it. I am happy to support 
that dialogue with you.
    So early summer, I think, we will be ready for that, and 
then we can make a decision on whether that is included in the 
2019 way ahead.
    Senator Kaine. I would love to maintain the dialogue, 
because it is likely, based on the timing, that you would not 
be ready to make an ask until the committee work is already 
done. The NDAA may not be done on the floor of the Senate. The 
conference may not be done. There may be an opportunity to 
reflect whatever your decision is in a later document, but the 
timing may be a little bit off with respect to at least the 
committee work on the NDAA.
    Secretary Geurts. Yes, sir. And I think we will get an 
early look by the early part of May. We will at least have the 
initial look at it. We will have some follow-on analysis.
    So we will work closely with your staff on everything we 
have and support your process.
    Senator Wicker. Would the savings be in the nature of $1.7 
billion?
    Secretary Geurts. Sir, until I see the actual number back, 
I would hesitate to put a specific number. But in previous 
times when we have done this, we have seen large savings on the 
order of 10 percent.
    The other thing I would tell you is, we are in parallel 
looking--about a third of a carrier is government-furnished 
equipment, or not through the shipyard. There is also savings 
potential on that side. So we are completing that analysis in 
parallel.
    But there is large potential. We are a little late in the 
process, because CVN-80 is already under construction. But I 
think there is certainly a large potential of savings that 
warrant this very close look.
    Senator Wicker. It certainly has people's attention.
    Senator Kaine. Yes. I think Secretary Spencer once told us 
before the entire committee that: I will only do it if I think 
it will save me a whole lot of money. I will not do it if it 
just saves me a little bit of money.
    So I think that we have certainly seen that magnitude of 
savings in the past.
    Secretary Geurts. I would expect it will be a lot of money.
    Senator Kaine. Yes.
    Secretary Geurts. I just do not want to put a number yet 
until I have had a chance to work with the shipyard.
    Senator Kaine. The other thing I just wanted to mention, we 
have had a couple hearings about the shipyard infrastructure 
modernization plan. I am the Ranking Member on the Readiness 
Subcommittee. We talked about it in the Readiness hearing we 
had last week.
    But it was interesting that the material conditions of the 
four shipyards were all poor or failing. That just speaks to me 
of kind of long-deferred maintenance and a real catch-up 
obligation we have.
    So if we are going to get to 355, then we have to make 
those capital investments in the shipyards to get them from 
poor or failing to better. Then that will increase our ability 
to do the 355 in a more efficient way.
    I know you responded to Senator Hirono's question that it 
is not like there is a next report regularly scheduled, but I 
think all of the committee is going to be interested, because 
absent that modernization to improve the current status of the 
shipyards, we are not going to be able to hit the 355 number in 
a way that any of us want. So we will continue to dialogue 
about that as you are making the capital investment.
    Secretary Geurts. Yes, sir. Secretary Bayer on the 
installation side and I are working hand-in-hand. So we will 
bring that composite look to you of both the facility and all 
the machines and the work force. All three of those are 
critical components that we have to synchronize and bring up to 
the modern age.
    Senator Kaine. Great. Thank you so much.
    Thanks, Mr. Chair.
    Senator Wicker. Secretary Geurts, do you think the yards 
have a clear concept of what needs to happen at those yards?
    Secretary Geurts. Yes, sir. I mean, again, as Senator 
Hirono said, the yards know where there is opportunity. They 
are motivated to get there. We just need to help resource them 
and then, at the secretariat level, manage that work.
    So we are setting up a governance structure to make sure we 
have the right senior oversight to keep that effort on track. 
It is a collection of a multitude of small things, but if we 
can enable the work force with modern tools, put the 
development programs in there to have a sustainable work force, 
then I think we can see great improvement.
    We are going to need that improvement, if we are going to 
sustain this 355-ship Navy.
    Senator Wicker. There is plenty of capacity there, isn't 
there?
    Secretary Geurts. Yes, sir, but it is aged infrastructure. 
It is not the most modern tools. And we are growing the work 
force. It is a relatively young work force, to some degree. So 
we have to make sure we have the training pipelines.
    Again, back to the question, my biggest fear is boom or 
bust budget cycles, that really rings out--you cannot have a 
growth plan when you were starting and stopping all the time.
    Senator Wicker. You cannot say that often enough.
    Secretary Geurts. Yes, sir.
    Senator Wicker. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman. I would say, I 
agree, certainly, with Senator Hirono and with Secretary 
Geurts. At least the Portsmouth Naval Shipyard is very clear on 
what they need. Their question is whether Congress and the Navy 
is as clear on what they need. So I think saying it often is 
very important.
    I want to follow up on the work force issue that Senator 
Kaine raised, because as we add capacity, how is the Navy going 
to ensure that the work force is there to address what 
shipyards need? What we are seeing at least at the Portsmouth 
Naval Shipyard that Senator King and I are both interested in, 
where we have a very low unemployment rate in New Hampshire, 
one of the lowest in the country, finding the skilled STEM 
workers to fill those shipyard jobs is challenging. So how do 
you ensure that we have the workers that we need?
    Secretary Geurts. Yes, ma'am. I think there is a whole 
multitude of ways to get there. One of them is having some 
certainty, or at least some confidence, that we have a long-
term plan and we are going to execute to it, so that the work 
force does not feel like they are going to come, but they are 
not sure if the job is going to be there 6 months from now.
    So I think that is the single biggest one. And then, again, 
do we have a world-class facility that attracts world-class 
talent that we value, and we train and retain that world-class 
talent? So I think that is a challenge for us all to execute to 
get there. Otherwise, we are going to struggle with retention 
rates, with productivity, and with all the pieces that will not 
allow us to maintain the readiness.
    Senator Shaheen. I had the opportunity last week to visit 
something called the SeaPerch Challenge. Are you familiar with 
that? That is a wonderful underwater robotics competition. The 
Portsmouth Naval Shipyard sponsored it with the University of 
New Hampshire and a lot of volunteers.
    It was very impressive to watch the middle school and high 
school teams that were there manipulating the robots through a 
very challenging course underwater. I was interested to hear 
that, 2 years ago, the team that won was a team that got 
special dispensation to be able to join the competition. They 
were fourth-graders, and they beat not only the middle school 
but Phillips Exeter, which, as you know, is a prestigious 
private school, which came in third.
    So the talent is there among young people. We need to think 
about how we capture that, so that we get those kids excited to 
fill into those jobs as they are looking at what their futures 
might be.
    So I would encourage the Navy to continue to support those 
kinds of activities. I think they are really important.
    Secretary Geurts. Yes, ma'am. Absolutely. There are so many 
tremendous jobs available to help defense out. We need to 
continue to do a great job to connect the population to those 
activities, and then leverage those ideas when we find them, 
have an acquisition system that can capture them.
    Senator Shaheen. Last year, Acting Secretary of the Navy 
Stackley testified to the importance of small businesses for 
the Department of the Navy. One of the things he talked about 
was not only their importance in providing innovation and being 
able to bring up, as he said, a very friendly cost structure, 
but he also pointed out that they have challenges working with 
the bureaucracy of our military.
    So can you talk about what more we can do to try to 
encourage small businesses and help them get into doing work 
for the Navy and for the military in general?
    Secretary Geurts. Yes, ma'am. When I left SOCOM, I think we 
had over a third of our work that went directly to small 
business, so I am a huge fan of the agility and the robustness 
they bring.
    We have not talked much about supply base when we talk 
shipbuilders. The supply base is really the enabler for us, not 
just the shipyard, and most of that is driven by small 
business.
    Last week, I did a Facebook Live event with small business 
to try to communicate that the Navy is open for business with 
small business. We have assigned our deputy program managers 
for all our programs as a small business advocate to drive 
small business thinking even into larger programs. So it is 
certainly a focus area for me.
    I think the work to go is creating mechanisms where it is 
easy, if they have ideas, to get them into the Navy. And the 
bureaucratic friction to get them on contract and whatnot, we 
have to reduce all that, because the really capable ones are 
not going to stand for waiting. Their business will not survive 
if they have to wait 2 years to get on contract.
    Senator Shaheen. Absolutely. Most of them cannot afford it.
    The fact is, I visited a small business last week also that 
was doing work. One of the things that they complained about 
was virtually every agency they deal with has a different form 
that they have to fill out, and why can't we at least in the 
Navy, or across DOD in certain areas, have one form that, once 
they fill out and qualify, then they qualify for everything?
    Secretary Geurts. Yes, ma'am. So as those come up, feel 
free to have them engage myself and the Navy small business. I 
need to know where those friction points are, and then we will 
tackle those friction points.
    Senator Shaheen. We will certainly get that to you. Thank 
you.
    Vice Admiral Merz. Ma'am, I would just add that the 
discussion we had with Senator Cotton on that submarine 
modernization program, that was a small business initiative. It 
continues to be a small business melting pot, to get those 
capabilities.
    Senator Shaheen. Great. Thank you.
    Senator Wicker. Thank you, Senator Shaheen.
    I am guessing that third-place entry by Phillips Exeter was 
not too shabby in and of itself.
    We are going to take a second round.
    Secretary Geurts, the Navy recently released a notice 
stating that the amphibious replacement ship requirement will 
be fulfilled by a San Antonio class Flight II with LPD-30 as 
the lead ship. Congress authorized and appropriated the Flight 
II lead ship in the fiscal year 2018 spending bill.
    Moving forward, Flight II will help remedy the shortfall of 
amphibious ships while leveraging a hot production line and 
supplier base.
    First, what is the Navy's acquisition strategy for the LPD 
Flight II program? And then, as you know, we use multiyear 
procurement authorities to achieve significant savings and 
predictability for the industrial base and programs, such as 
the Virginia class submarines and DDG-51 destroyers.
    With the design and requirements set, what is the most 
affordable way to contract for the next several LPD Flight II 
ships? Would it be helpful to procure long lead time material 
in a block buy in fiscal year 2019? And if so, do you believe 
the statutory requirements for a multiyear procurement contract 
could be met for LPD Flight II ships that would be procured 
beginning in fiscal year 2020?
    Secretary Geurts. Thanks, sir. So thank you very much 
Flight II ship in fiscal year 2018. That will be kind of the 
lead ship for that Flight II. But again, it is a derivative 
design, so that will be a high-confidence acquisition.
    Our current strategy is award that 2018 ship as quickly as 
we can to ensure we support General Walsh and the Marine Corps. 
Then I think we will look closely. It would appear to me that 
the serial production opportunities for the continuous 
production of that LPD-17 would be ripe for either a multiyear 
or a block buy. Currently, our next buy is in 2020. We did not 
request any money in 2019. At the time, the 2018 ship was 
coming in.
    If you were to add some economic order quantity or long-
lead funding in 2019, that could accelerate delivery of those. 
If that is not available, we could do a block buy or in 
multiyear in fiscal year 2020. Putting some money in 2019 would 
help schedule a little bit, but we can execute in either 
manner.
    Senator Wicker. Very good.
    General Walsh, how important are training ranges for 
testing and integrating unmanned platforms? We included a 
provision in the fiscal year 2018 authorization act that 
requires the Navy to examine its current test and training 
range infrastructure. Can you give me an update on this issue?
    Lieutenant General Walsh. What I will say is that so much 
of what we are doing on the surface, in the air, and under the 
surface, so much is moving toward the unmanned. I mean, that 
area, as everybody knows, is just a booming industry, but 
certainly from a warfighting capacity. So our ranges are one of 
those things, too.
    I think one of the challenges we run into is manned 
capabilities, it is one thing on our ranges, but when we have 
to transition from, say, a base to a range with an unmanned 
capability, it is a different problem that we have not really 
had much in the past.
    So I think it is something that we are looking at in our 
ranges, but it is something we are going to have to tackle, 
because so much of our warfighting area is moving toward the 
unmanned area.
    Senator Wicker. Okay. Take a moment to discuss ship-to-
shore connectors, General Walsh. There is a budget request for 
five. How do they fit into the Marine Corps concepts of 
amphibious operations?
    Lieutenant General Walsh. We appreciate the support we are 
getting on the ship-to-shore connector program, because our 
LCACs are getting so old. But the first LCAC 100 just this 
year, just recently in the last month or so, really just got 
flying, as we call them. They are very much like aircraft in a 
lot of ways, even though they go on the water. But it is 
critical to get the landing force from those ships to shore.
    Getting the critical capability to be able to get these new 
craft that can carry more weight and go longer distances is so 
important to our concept of operations, to be able to go ship 
to the objective. These are going to allow us to do that and 
rapidly grow the capability to meet the requirements we need in 
these new contested environments to go longer and faster.
    Senator Wicker. Thank you.
    Senator Hirono?
    Senator Hirono. Thank you.
    I am very intrigued by what you just said, General Walsh, 
that so much of our training is now in the unmanned capability 
area. So what does that do in terms of the number of people 
that you need to be in your service? What kind of impact does 
going toward an unmanned capability have on the Marine Corps, 
as well as on the Navy?
    Lieutenant General Walsh. One of the things we are looking 
at, working with Secretary Geurts' team, we learn a lot through 
our experimentation process. We do something with the 
Department of Navy called advanced naval technology 
experiments.
    Last year, we did one that was on ship-to-shore maneuvers, 
so it was looking at the area of how we get to shore 
differently. I think the thing that amazed us was, when we did 
this project, we had probably more than 100 industry 
technologies that were demonstrated at this weeklong event that 
we did at Camp Pendleton going from ship-to-shore. The amazing 
thing was probably the first 15 minutes of that evolution was 
all unmanned. It just shocked us with how technology is 
allowing us to operate completely differently.
    We just completed one 2 weeks ago where we did it in an 
urban environment. It was not at sea, but it was urban. I think 
if you are a Marine from Vietnam or World War II and you went 
into watching what the Marines were doing, you would have just 
been lost at what was going on with the amount of unmanned 
ground systems, vehicles that were in the air, and Marines now 
leveraging unmanned subsurface capabilities that we were 
learning from the submarine community to be able to allow us to 
do sensing, surveillance, and some weapons in cases, to be able 
to conduct unmanned operations.
    Senator Hirono. So what does that do to the need for 
training facilities? For example, on the Big Island, I think 
the Marines use it, we have Pohakuloa, and for the Army as 
well. What does that do, in terms of the kind of training 
facilities we need and what takes place at these facilities?
    Lieutenant General Walsh. I think, in a lot of ways, we are 
a little bit behind in trying to figure that out, because what 
we are running into is a lot of the restrictions or orders that 
we have are looking at how we would do it for manned systems. 
So in a lot of ways, when we try to integrate into with the 
unmanned systems, it is like you cannot do it because there is 
a rule or a reason why you cannot. It is a lot of the things 
you see today and why we are unable to deal with unmanned air 
systems that would be operating over our bases. How do you deal 
with that and try to protect our bases in the same way?
    So I think it is an area we are working through. It is a 
challenge now. It works well in, as I was saying earlier, our 
restricted training areas. But where you have to go from a base 
to a training area is where it is more of a problem.
    Vice Admiral Merz. Ma'am, I would add, from the Navy side, 
getting back to Secretary Geurts' initial acquisition strategy 
discussions about having many tools, that is one of the things 
we ran into head on. We only manned system acquisition 
requirements for unmanned systems. So we have done a lot of 
work to relax some of those, taking advantage of the fact that 
there is no danger to a human there, no direct danger.
    The training ranges, in general, they need some work. Those 
fell on the category of hard decisions over the last 10 years. 
We are being very deliberate about recovering those. We have 
done some structural things in the resourcing world. We have a 
centralized resource sponsor to cover all our unmanned 
vehicles. We are centralizing our program elements.
    So this is very much becoming mainstreamed. One of the 
reasons is to get your larger question of manning, maintaining. 
They do not come without cost. You think unmanned, no people. 
Less people, but still people. And they still need to have a 
total ownership cost-like approach to how we man and field 
those.
    Senator Hirono. And they need different skillsets.
    I am aware that we need to move our Marines out of Futenma, 
and that as they go through Guam, we need training facilities 
for them.
    General Walsh, you know that we are, as far as I know, 
still negotiating to get a training area on CNMI, Confederated 
Northern Mariana Islands. So I am probably going to want to 
follow up with you as to how that is going, in light of maybe 
you are going to change the kind of configuration or the kind 
of training that you intend to do there, because it is not as 
though the CNMI Government is welcoming that kind of live-fire 
training facility with open arms either.
    Lieutenant General Walsh. What I can add to that, Senator, 
is the Pacific Commander out there has looked at that training 
range that the Marine Corps is responsible. He is the executive 
agent for looking at that for the Joint Force, ensuring that it 
is meeting all the Joint Force needs. We stood up a working 
group now across the services to try to decide what that 
training range needs to be able to meet all the services' 
needs.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Hirono.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    Admiral Merz, to go back to the question I telegraphed, 
describe, please, the thinking that went into the re-missioning 
of the Zumwalt, where you see its functionality, where it is 
headed.
    Vice Admiral Merz. Yes, sir. So the Zumwalt is a very 
progressive ship virtually in every element of its capability. 
So what we found was the advanced gun system has become a 
particularly hard challenge to get through, not so much the gun 
but the projectile.
    Senator King. The projectiles were too expensive. Wasn't 
that part of the problem?
    Vice Admiral Merz. Too expensive, and they were not meeting 
the range. So even at the high cost, we still were not really 
getting what we had asked for. So what we have elected to do is 
to separate the gun effort from the ship effort, because we 
really got to the point where now we are holding back the ship. 
That ship is very capable with or without the gun. The gun, of 
course, would make it more capable.
    So what we have elected to do is to proceed ahead with the 
ship delivered to the fleet as a strike platform. It does have 
80 vertical launch cells. They are the larger variety cells, so 
that opens up opportunities for advanced development on our 
weapons side also.
    Her combat system is very good, and her inherent ship 
capability. I can certainly brief you on a more classified 
level.
    Senator King. And it is stealth capabilities are important.
    Vice Admiral Merz. Yes, sir, very, very important.
    So we think the ship is very well built and ready to join 
the fleet. We are very excited to get her, and we will continue 
to develop the rounds for the gun in parallel.
    Senator King. We may have to go into a different setting. 
What about directed energy, based upon the enormous power that 
that platform generates?
    Vice Admiral Merz. Yes, sir. We are very committed to 
directed energy. We have a family of lasers that we have moved 
into the accelerated acquisition arena. They are categorized by 
the power of the lasers. We are looking to field a handful of 
these over the next year, both our low- and medium-powered 
lasers, as we continued to develop----
    Senator King. Is this a possible option for the Zumwalt?
    Vice Admiral Merz. It is a possible option for all ships. 
So whether or not that would eventually replace the ship, right 
now, we have not given up on the projectile for the advanced 
gun system.
    Senator King. But you are not going to wait for it, I think 
is what you are saying.
    Vice Admiral Merz. No, sir. The ship is going out. Whether 
or not the directed energy is an ultimate replacement for that, 
time will tell on how we deal with the projectile. But it is a 
candidate option for all ships.
    Senator King. Mr. Geurts, you are talking about cruiser 
replacement. Is that also going to be an existing hull form? 
Are you looking in that direction?
    Secretary Geurts. Sir, I think as the CNO has described, 
and I will pass over to Admiral Merz because it is in his lane, 
we are going to look at those requirements closely. We are 
going to look at what the requirements are, and then how that 
matches up with the existing hull forms or new hull forms.
    But I would say, certainly, our experience as we are 
working through frigate----
    Senator King. That is what I was going to ask, if there are 
lessons learned there.
    Secretary Geurts. Yes. So seeing the speed, de-risking the 
program, delivering with high confidence, having the existing 
hull form provides a lot of benefits in those areas.
    So we will look at how the requirements process comes 
together, what comes out of Admiral Merz's shop, and then we 
will marry that with what that looks like in terms of available 
platforms. That is a process we have planned for the future.
    Bill, if you want to add?
    Vice Admiral Merz. Yes, sir. Really quickly, we are 
immersed in this future service combatant requirements review. 
It is going from large to small, manned and unmanned, to 
optionally unmanned. It is going to be a very comprehensive 
plan on how we transition out of the cruiser, for one, but, 
ultimately, the DDG, and what would follow the frigate.
    The shipbuilding plan lays out very steady shipbuilding 
profiles. That is just to secure the commitment for these types 
of ships over time. They just secure the capability in those 
years. This plan will fill in those capabilities and when we 
need to do a phased shift to those.
    Senator King. You are talking about life extension on the 
DDGs. That could be an upgrade of capabilities, could it not?
    Vice Admiral Merz. Yes, sir. It certainly could be.
    Senator King. This is a bit of an off-the-wall question, 
but I spent yesterday morning with Joint Force in Key West on 
drug interdiction.
    The startling numbers are these. For every 100 drug 
shipments they know about, they have the capacity to interdict 
25. In other words, 25 percent of what we know about through 
our intelligence is being interdicted. The rest is getting 
through. This is a gigantic detriment to our country.
    The short question is, got any spare ships?
    [Laughter.]
    Senator King. Are there mothballed frigates? Are there 
other ships? Because this is national defense. People are dying 
because we are not interdicting these ships. If these were 
terrorists coming in, I daresay we would figure out a way to 
stop them. And yet, people are dying because of these illicit 
drugs.
    Is there any possible conversation that could go on between 
the Coast Guard and the Navy, in terms of assets, training, 
those kinds of things?
    Vice Admiral Merz. Yes, sir. These conversations are 
ongoing and endless. Rolling back to Senator Cotton's question 
about the combatant commander demands, everybody is stressed, 
so it becomes a priority sourcing on what we have.
    I will tell you that we are in the middle of what we call a 
requirements evaluation team look at intertheater missions. 
That is one of them that we are evaluating. This involves 
Expeditionary SURTASS, Expeditionary Medical, SOF support, the 
lift, and drug interdiction.
    So all these requirements we are putting on the table to 
see if there is something out there for a future small surface 
combatant that we can potentially start filling some of these 
holes.
    Senator King. I would urge you to think creatively, because 
we are fielding a lot of capability, for example, in the 
Western Pacific because of someone who may attack us, and yet, 
we are not adequately responding to someone who is attacking 
us.
    Thank you very much, gentlemen.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you very much, Senator King.
    Secretary Geurts, in February, I introduced a bill with 
Chairman McCain called the Surface Warfare Enhancement Act. 
This legislation expands the principal duties of your position 
to include sustainment and maintenance of ships, aircraft, and 
other weapons systems. The intent is to make a single Senate-
confirmed civilian official responsible for sustainment, which 
has historically accounted for approximately 70 percent of the 
total lifecycle cost of a weapons system.
    What is your view of such a change?
    Secretary Geurts. Sir, I think there is an absolute link 
between the acquisition and the sustainment piece of things. As 
we build the 355-ship fleet, we are going to have to really 
work hard on the sustainment because that is, again, 70 percent 
of the cost.
    So if that is the view of Congress to put that all under 
the RDA hat, I think there is opportunity to leverage that all 
under one hat. Even short of that, I would tell you----
    Senator Wicker. Is it a good idea?
    [Laughter.]
    Senator Wicker. Or do you want to take issue with Senator 
McCain and----
    Secretary Geurts. I do not want to take any issue with 
Senator McCain.
    I think it is good to look at it holistically. I guess what 
I was going to say is, we are doing that already, Admiral Merz 
and I.
    I think in the next version of the shipbuilding plan, we 
are going to try to look at the sustainment piece, not just the 
new build of that. So we are doing that. If that gets codified 
in law, that just makes it clearer.
    But I am committed to spending as much energy trying to get 
our arms around the sustainment, whether it is the shipbuilding 
yards or contracting strategies or our programmatic approaches 
to sustainment as I am on the front end of programs.
    Senator Wicker. Thank you very much.
    Senator King, I might point out that we had exactly 
precisely the same testimony in the Commerce Committee today 
about drug interdiction and the fact that so much of what we 
know is out there is simply unenforceable, because we do not 
have the assets. So I appreciate you mentioning that.
    If there is nothing further, we thank the witnesses very, 
very much for their testimony.
    We will leave the record open for the customary 3 days for 
questions for the record, and we ask our witnesses to get their 
answers back to us as quickly as possible.
    Senator Wicker. If there is nothing else, this hearing is 
adjourned. Thank you.
    [Whereupon, at 3:50 p.m., the Subcommittee adjourned.]
    
                           [all]
</pre></body></html>
